                                   SIGTARP: Quarterly Report to Congress | April 21, 2009
                                                                                                                       CT
                                                                                                                  INSPE OR GE
                                                                                                           AL                        N
                                                                                                         CI




                                                                                                                                     ER
                                                                                                    E
                                                                                                   SP




                                                                                                                                        A L
                                                                                                  TRO




                                                                                                                                          M
                                                                                                                                          RA
                                                                                                   UB
                                                                                                        LE




                                                                                                                                     OG
                                                                                                             D
                                                                                                                 ASS                 PR
                                                                                                                       E T R ELIEF




       SIGTARP
       SIG-QR-09-02
                                   Q2
                                  2009
                                                                                            SIGTARP                                            Office of the Special Inspector General
                                                                                                                                               for the Troubled Asset Relief Program
                                                                                            Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement



       202.622.1419                                                                                                                                              Quarterly Report to Congress
       Hotline: 877.SIG.2009                                                                                                                                                   April 21, 2009
       SIGTARP@do.treas.gov
       www.SIGTARP.gov

cover_tan_shadow3April10.indd 1                                                                                                                                                      4/14/2009 11:38:39 AM
CONTENTS


Executive Summary                                                         1
  Tremendous Expansion in the Scope, Scale, and Complexity of the TARP    3
  Oversight Activities of SIGTARP                                         4
  SIGTARP’s Recommendations on the Operations of TARP                     6
  Report Organization                                                     8

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR
  THE TROUBLED ASSET RELIEF PROGRAM                                        9
  SIGTARP’s Creation and Statutory Authority                              11
  SIGTARP’s Mission and Core Values                                       12
  SIGTARP’s Oversight Activities Since the Initial Report                 13
  SIGTARP’s Organizational Structure                                      24
  Progress in Building SIGTARP’s Organization                             27

Section 2
TARP OVERVIEW                                                             31
  Financial Overview of TARP                                              33
  Capital Investment Programs                                             43
  TARP Tutorial: Capital Structure                                        58
  Institution-Specific Assistance                                         65
  The Automotive Industry Financing Program                               78
  TARP Tutorial: Securitization                                           92
  Term Asset-Backed Securities Loan Facility                              95
  Public-Private Investment Program                                      105
  Unlocking Credit for Small Businesses                                  111
  Making Home Affordable Program                                         113
  Executive Compensation                                                 120

Section 3
TARP OPERATIONS AND ADMINISTRATION                                       127
Section 4
LOOKING FORWARD: SIGTARP’S RECOMMENDATIONS
  TO TREASURY                                                       135
  Recommendations for Existing Programs                             137
  Recommendations for Newly Announced Programs                      145

  Endnotes                                                          161

APPENDICES
A. Glossary                                                         169
B. Acronyms                                                         176
C. Reporting Requirements                                           177
D. Principal/Income Transactions Report                             195
E. Cross-Reference of Report to the Inspector General Act of 1978   202
F. Public Announcement of Audits                                    203
G. Key Oversight Reports and Testimonies                            205
H. Warrants                                                         212
I. Correspondence with Treasury Regarding TALF                      223
J. Response to SIGTARP Recommendations                              228
K. Organizational Chart                                             244
L. Use of Funds Request Letter                                      245

Please visit www.sigtarp.gov for further reference material.
 INVESTIGATIONS
EXECUTIVE SUMMARY
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   3




The Troubled Asset Relief Program (“TARP”) now includes 12 separate, but often inter-
related, programs involving Government and private funds of up to almost $3 trillion
— roughly the equivalent of last year’s entire Federal budget. From programs involv-
ing large capital infusions into hundreds of banks and other financial institutions, to
a mortgage modification program designed to modify millions of mortgages, to public-
private partnerships purchasing “toxic” assets from banks using tremendous leverage
provided by Government loans or guarantees, TARP has evolved into a program of
unprecedented scope, scale, and complexity. Before the American people and their
representatives in Congress can meaningfully evaluate the effectiveness of this historic
program, that scope and scale must be placed into proper context, and the complexity
must be made understandable. That is what this report attempts to do.
    In this report, the Office of the Special Inspector General for the Troubled
Asset Relief Program (“SIGTARP”) endeavors to (i) explain the various TARP
programs and how the Department of the Treasury (“Treasury”) has used those
programs through March 31, 2009, (ii) describe what SIGTARP has done since its
Initial Report to Congress, dated February 6, 2009 (the “Initial Report”), to oversee
this historic program with respect to both audits and investigations, and (iii) set
forth a series of recommendations for the operation of TARP.


TREMENDOUS EXPANSION IN THE SCOPE,
SCALE, AND COMPLEXITY OF TARP
TARP, as originally envisioned in the fall of 2008, would have involved the purchase,
management, and sale of up to $700 billion of “toxic” assets, primarily troubled mort-
gages and mortgage-backed securities (“MBS”). That framework was soon abandoned,
however, and the program’s scope, size, and complexity have dramatically increased. As
of the writing of this report, TARP funds are being used, or have been announced to be
used, in connection with 12 separate programs that, as set forth in Table 1.1, involve
a total (including TARP funds, Federal Reserve loans, Federal Deposit Insurance
Corporation (“FDIC”) guarantees, and private money) that could reach nearly $3
trillion.
    Treasury has announced, as of March 31, 2009, the parameters of how
$590.4 billion of the $700 billion in TARP funding authorized by the Emergency
Economic Stabilization Act of 2008 (“EESA”) would be spent through the 12
programs. Of the $590.4 billion that Treasury has committed, $328.6 billion has
actually been spent as of March 31, 2009. This report provides an update on those
TARP programs that had been announced as of SIGTARP’s Initial Report, as well
as descriptions of programs that have subsequently been announced.
4                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




    TABLE 1.1

    TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF MARCH 31, 2009 ($ BILLIONS)
                                                                                                                                               Total Projected   Projected TARP
    Program                                                                Brief Description or Participant                                           Funding           Funding
                                                                           Investments in 532 banks to date; 8 institutions total
    Capital Purchase Program (“CPP”)                                                                                                                   $218.0           $218.0
                                                                           $125 billion
    Automotive Industry Financing Program (“AIFP”)                         GM, Chrysler, GMAC, Chrysler Financial                                       $25.0            $25.0
    Auto Supplier Support Program (“ASSP”)                                 Government-backed protection for auto parts suppliers                         $5.0              $5.0
    Unlocking Credit for Small Businesses (“UCSB”)                         Purchase of securities backed by SBA loans                                   $15.0            $15.0
    Systemically Significant Failing Institutions (“SSFI”)                 AIG Investment                                                               $70.0            $70.0
    Targeted Investment Program (“TIP”)                                    Citigroup, Bank of America Investments                                       $40.0            $40.0
    Asset Guarantee Program (“AGP”)                                        Citigroup, Bank of America, Ring-Fence Asset Guarantee                      $419.0            $12.5
                                                        FRBNY non-recourse loans for purchase of asset-backed
    Term Asset-Backed Securities Loan Facility (“TALF”)                                                                                              $1,000.0            $80.0
                                                        securities
    Making Home Affordable (“MHA”) Program                                 Modification of mortgage loans                                               $75.0            $50.0
                                                                           Disposition of legacy assets; Legacy Loans Program,
    Public-Private Investment Program (“PPIP”)                                                                                               $500.0 – $1,000.0           $75.0
                                                                           Legacy Securities Program (expansion of TALF)
                                                                           Capital to qualified financial institutions; includes stress
    Capital Assistance Program (“CAP”)                                                                                                                    TBD              TBD
                                                                           test
    New Programs, or Funds Remaining for Existing                          Potential additional funding related to CAP; AIFP; Auto
                                                                                                                                                       $109.5           $109.5
    Programs                                                               Warranty Commitment Program; other
    Total                                                                                                                                 $2,476.5 – $2,976.5           $700.0

    Note: See Table 2.1 in Section 2 for notes and sources related to the information contained in this table.




                                                                           OVERSIGHT ACTIVITIES OF SIGTARP
                                                                           Since the Initial Report, SIGTARP has been actively engaged in fulfilling its vital inves-
                                                                           tigative and audit functions as well as in building its staff and organization.
                                                                               On the investigations side, SIGTARP’s Hotline (877-SIG-2009 or accessible
                                                                           at www.SIGTARP.gov) is staffed, operational, and providing an interface with the
                                                                           American public to facilitate the reporting of concerns, allegations, information,
                                                                           and evidence of violations of criminal and civil laws in connection with TARP. As of
                                                                           the drafting of this report, the SIGTARP Hotline has received and analyzed nearly
                                                                           200 tips, running the gamut from expressions of concern over the economy to
                                                                           serious allegations of fraud. Both from the Hotline and from other leads, SIGTARP
                                                                           has initiated, to date, almost 20 preliminary and full criminal investigations.
                                                                           Although the details of those investigations generally will not be discussed unless
                                                                           and until public action is taken, the cases vary widely in subject matter and include
                                                                           large corporate and securities fraud matters affecting TARP investments, tax mat-
                                                                           ters, insider trading, public corruption, and mortgage-modification fraud.
                                                                               SIGTARP has been proactive in dealing with potential fraud in TARP. For
                                                                           example, to get out in front of any efforts to profit criminally from the Term
                                                                           Asset-Backed Securities Loan Facility (“TALF”), which, as announced, involves
                                                                           up to $1 trillion of lending by the Federal Reserve backed by up to $80 billion in
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   5




TARP funds, SIGTARP has organized and leads a multi-agency task force to deter,
detect, and investigate any instances of fraud or abuse in the program. In addi-
tion to SIGTARP, the TALF Task Force consists of the Office of the Inspector
General of the Board of Governors of the Federal Reserve Board, the Federal
Bureau of Investigation, Treasury’s Financial Crimes Enforcement Network, U.S.
Immigration and Customs Enforcement, the Internal Revenue Service Criminal
Investigation division, the Securities and Exchange Commission, and the U.S.
Postal Inspection Service. Representatives from each member organization partici-
pate in regular briefings about TALF, collectively identify areas of fraud vulnerabil-
ity, engage in the training of agents and analysts with respect to the complex issues
surrounding the program, and will serve as points of contact for leads relating to
TALF and any resulting cases that are generated. The TALF Task Force represents
a historic law enforcement effort with an ambitious goal: to redefine the policing of
complex Federal Government programs by proactively arranging a coordinated law
enforcement response before fraud occurs.
     On the audit side, SIGTARP has initiated and is in the process of conducting
six audits:

• Use of Funds: SIGTARP’s first audit examines the use of TARP funds by TARP
  recipients, and is based upon a survey that SIGTARP sent to 364 TARP recipi-
  ents that had received funds as of January 31, 2009.
• Executive Compensation Compliance: SIGTARP’s second audit, also based
  on SIGTARP’s survey, examines how TARP recipients are implementing controls
  with respect to applicable executive compensation restrictions.
• Bank of America: The third audit examines the review and approval processes
  associated with TARP assistance to Bank of America under three different
  TARP programs and examines Treasury’s decision making related to additional
  TARP assistance provided in connection with Bank of America’s acquisition
  of Merrill Lynch. Since its commencement, the audit’s scope has expanded to
  examine broadly Treasury’s decision making regarding the first nine institutions
  to be considered for funding under TARP.
• External Influences: The fourth audit examines whether, or to what extent, ex-
  ternal parties may have sought to influence decision making by Treasury or bank
  regulators in considering and deciding on applications for funding from individ-
  ual banks seeking TARP funds. This audit seeks to determine what procedures
  are in place to avoid undue outside influence on the process, whether there are
  any indications of any undue influence, and what actions might be needed to
  strengthen existing processes to avoid such undue influences in the future.
• AIG Bonuses: The next audit examines Federal oversight of executive compen-
  sation requirements, with a particular focus on recent payouts of large bonus
  payments to American International Group, Inc. (“AIG”) employees. SIGTARP
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             has undertaken an audit to determine: (i) the extent to which the recent bonus
                                             payments were made in accordance with conditions imposed in return for TARP
                                             assistance, and (ii) Treasury’s monitoring of AIG’s executive compensation
                                             agreements and whether it was aware of the full range of executive compensa-
                                             tion, bonus, and retention payments throughout AIG’s corporate structure.
                                           • AIG Counterparty Payments: AIG, which has received the largest amount of
                                             financial assistance from the Government during the current financial crisis,
                                             reportedly made counterparty payments to other financial institutions, including
                                             foreign institutions and other TARP recipients, at 100% of face value. SIGTARP
                                             will examine the basis for the counterparty payments and seek to determine
                                             whether any efforts were made to negotiate a reduction in those payments.


                                           SIGTARP’S RECOMMENDATIONS ON THE
                                           OPERATION OF TARP
                                           One of SIGTARP’s oversight responsibilities is to provide recommendations to Treasury
                                           so that TARP programs can be designed or modified to facilitate effective oversight
                                           and transparency and to prevent fraud, waste, and abuse. In Section 4 of this report,
                                           SIGTARP details instances in which Treasury has addressed recommendations made in
                                           and since the Initial Report, and makes a series of new recommendations, including:

                                           • Use of Funds: SIGTARP continues to recommend that Treasury require all
                                             TARP recipients to report on their actual use of TARP funds. This recom-
                                             mendation is particularly important with respect to the potential application of
                                             the Capital Purchase Program (“CPP”) to large insurance companies that may
                                             have purchased banks eligible for CPP in order to access TARP funds, and to
                                             Treasury’s recent announcement of an additional $30 billion investment in AIG.
                                             Simply put, the American people have a right to know how their tax dollars are
                                             being used. This recommendation applies not only to capital investment and
                                             lending programs involving banks and other financial institutions, but also to
                                             programs in which TARP funds are used to purchase troubled assets, including
                                             transactions in the Public-Private Investment Program (“PPIP”) and surrenders
                                             of collateral in TALF.
                                           • Expansion of TALF: The announced expansion of TALF to permit the posting
                                             of MBS as collateral poses significant fraud risks, particularly with respect to
                                             legacy residential MBS (“RMBS”). SIGTARP has made a series of recommenda-
                                             tions to mitigate these risks, including, among others, that Treasury should re-
                                             quire a security-by-security screening for legacy RMBS; that any RMBS should
                                             be rejected as collateral if the loans backing particular RMBS do not meet
                                             certain baseline underwriting criteria or are in categories that have been proven
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   7




  to be riddled with fraud, including certain undocumented subprime residen-
  tial mortgages (i.e., “liar loans”); and that Treasury should require significantly
  higher haircuts for all MBS, with particularly high haircuts for legacy RMBS.
• PPIP Fraud Vulnerabilities: Aspects of PPIP make it inherently vulnerable to
  fraud, waste, and abuse, including significant issues relating to conflicts of inter-
  est facing fund managers, collusion between participants, and vulnerabilities to
  money laundering. SIGTARP has made a series of recommendations to address
  these concerns, including, among others, that Treasury should (i) impose strict
  conflict-of-interest rules upon Public-Private Investment Fund (“PPIF”) fund
  managers, (ii) mandate transparency with respect to the participation and man-
  agement of PPIFs, including disclosure of the beneficial owners of the private
  equity stakes in the PPIFs and of all transactions undertaken in them, and (iii)
  that all PPIF fund managers have stringent investor-screening procedures, in-
  cluding comprehensive “Know Your Customer” requirements at least as rigorous
  as that of a commercial bank or retail brokerage operation.
• Interaction Between PPIP and TALF: In announcing the details of PPIP,
  Treasury has indicated that PPIFs under the Legacy Securities Program could,
  in turn, use the leveraged PPIF funds (two-thirds of which will likely be taxpayer
  money) to purchase legacy MBS through TALF, greatly increasing taxpayer
  exposure to losses with no corresponding increase of potential profits. Such an
  expansion could cause great harm to one of the fundamental taxpayer protec-
  tions in the original design of TALF by significantly diluting the private party’s
  personal stake, the “skin in the game,” and therefore reduce their incentive to
  conduct appropriate due diligence. Treasury should not allow Legacy Securities
  PPIFs to invest in TALF unless significant mitigating measures are included
  to address the dilution of this incentive, which could include prohibiting the
  use of leverage for PPIFs investing through TALF or proportionately increasing
  haircuts for PPIFs that do so.
• Mortgage Modification Program: To prevent fraud in the mortgage modifica-
  tion program, SIGTARP has recommended that Treasury build certain fraud
  protections into the mechanics of the program, including requiring third-party
  verification of residence and income, conducting a closing-like procedure in
  which identities of participants are confirmed, and delaying modification incen-
  tive payments to servicers. SIGTARP has also recommended that Treasury
  proactively educate homeowners about the nature of the program, publicize that
  no fee is necessary to participate in the program, and collect and maintain a
  database of the names and identifying information for each participant in each
  mortgage modification transaction.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           REPORT ORGANIZATION
                                           The report is organized as follows:

                                           • Section 1 describes the activities of SIGTARP.
                                           • Section 2 describes how Treasury has spent TARP money thus far and con-
                                             tains an explanation or update of each program, both implemented and recently
                                             announced.
                                           • Section 3 describes the operations and administration of the Office of Financial
                                             Stability (“OFS”), the office within Treasury that manages TARP.
                                           • Section 4 lays out SIGTARP’s recommendations to Treasury with respect to the
                                             operation of TARP.
                                           • The report also includes numerous appendices containing, among other things,
                                             figures and tables detailing all TARP investments through March 31, 2009.

                                               The goal is to make this report a ready reference on what TARP is and how it
                                           has been used to date. In the interest of making this report as understandable as
                                           possible, and thereby furthering general transparency of the program itself, certain
                                           technical terms are highlighted in the text and defined in the adjacent margin.
                                           In addition, portions of Section 2 are devoted to tutorials explaining the financial
                                           terms and concepts necessary to obtain a basic understanding of TARP operations.
            THE OFFICE OF THE SPECIAL
SECTION 1
               INVESTIGATIONS
            INSPECTOR GENERAL FOR THE
            TROUBLED ASSET RELIEF PROGRAM
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009           11




SIGTARP’S CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief
Program (“TARP”). SIGTARP is required to report quarterly to Congress describ-
ing SIGTARP’s activities and providing certain information about TARP over that
                                                                                               Emergency Economic Stabilization Act of
preceding quarter. EESA gives SIGTARP the authorities listed in Section 6 of the               2008 (“EESA”): A law enacted in response
Inspector General Act of 1978, including the power to obtain documents and other               to the global financial crisis. This act
information from Federal agencies and to subpoena reports, documents, and other                created TARP and authorized Treasury
information from persons or entities outside of Government.                                    to spend up to $700 billion to purchase
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate               troubled assets.
on December 8, 2008, and sworn into office on December 15, 2008.
    On March 25, 2009, Congress unanimously passed the Special Inspector                       Special Inspector General for the Troubled
General for the Troubled Asset Relief Program Act of 2009 (the “SIGTARP Act” or                Asset Relief Program Act of 2009: The
the “Act”), which amends EESA as follows:                                                      measure amends EESA and expands the
                                                                                               authority of the TARP Special Inspector
                                                                                               General to conduct, supervise, and
• provides SIGTARP the authority, with limited exceptions, to conduct, supervise,
                                                                                               coordinate audits and investigations
  and coordinate audits and investigations into any actions taken under EESA
                                                                                               regarding any action taken pursuant to
• makes clear that SIGTARP can undertake law enforcement functions without
                                                                                               EESA.
  first obtaining Attorney General approval
• gives SIGTARP the responsibility to coordinate and cooperate with other in-
  spectors general on oversight of TARP-related activities
• clarifies that SIGTARP’s quarterly reports are due 30 days after the end of a fis-
  cal quarter
• provides SIGTARP with the ability to hire up to 25 Federal retirees, without off-
  set of their pension, and, for six months, the authority to hire Federal employees
  under 5 U.S.C. § 3161, which gives employees a right to return to their original
  agencies once SIGTARP no longer exists
• requires the Treasury Secretary to take steps to address deficiencies identified by
  SIGTARP or certify to Congress that no action is necessary or appropriate
• mandates that SIGTARP shall provide a report to Congress, by September 1,
  2009, on how TARP recipients have used TARP funds
• releases SIGTARP’s $50 million allocation for immediate use

    SIGTARP believes that the Act makes clear that it has the authorities it needs to
fulfill its mission and will significantly improve its ability to attract and hire experi-
enced Government auditors and investigators. As of April 17, 2009, the Act had not
yet been signed into law.
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            SIGTARP’S MISSION AND CORE VALUES
                                            SIGTARP’s mission is to advance economic stability through transparency, coordi-
                                            nated oversight, and robust enforcement, thereby being a voice for, and protecting
                                            the interests of, those who fund TARP — i.e., the American taxpayers. SIGTARP
                                            does so by promoting transparency in TARP, through effective oversight of TARP in
                                            coordination with other relevant oversight bodies, and by robust criminal and civil
                                            enforcement against those, whether inside or outside of Government, who waste,
                                            steal, or abuse TARP funds.

                                            Transparency
                                            Promoting transparency in the management and operation of TARP is one of
                                            SIGTARP’s primary roles. Through EESA, the American taxpayer has been asked
                                            to fund — through programs now involving up to approximately $3 trillion — an
                                            unprecedented effort to stabilize the financial system and promote economic re-
                                            covery. In this context, the public has a right to know how the U.S. Department of
                                            the Treasury (“Treasury”) decides to invest that money, how it manages the assets it
                                            obtains, and how TARP recipients use these funds. Transparency is a powerful tool
                                            to ensure accountability and that all those managing and receiving TARP funds will
                                            act appropriately, consistent with the law, and in the best interests of the country.

                                            Coordinated Oversight
                                            SIGTARP plays a vital role in promoting economy and efficiency in the manage-
                                            ment of TARP and views its oversight role both prospectively (by advising TARP
                                            managers on issues relating to internal controls and fraud prevention, for example)
                                            and retrospectively (by assessing the effectiveness of TARP activities over time and
                                            suggesting improvements). SIGTARP’s oversight role also reaches the recipients
                                            of TARP funds; in that context, SIGTARP complements Treasury’s compliance
                                            function to ensure that recipients are satisfying their obligations under the various
                                            TARP initiatives. SIGTARP plays a significant coordinating role — formalized in
                                            the SIGTARP Act — among the TARP oversight bodies both to ensure maximum
                                            oversight coverage and to avoid redundant and unduly burdensome requests on
                                            Treasury personnel who run the program.

                                            Robust Enforcement
                                            SIGTARP’s third primary role is to prevent, detect, and investigate cases of fraud,
                                            waste, and abuse of TARP funds and programs. Through its own audit and inves-
                                            tigative resources and through partnership with other relevant law enforcement
                                            agencies, SIGTARP is committed to robust criminal and civil enforcement against
                                            those, whether inside or outside of Government, who waste, steal, or abuse TARP
                                            funds.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   13




SIGTARP’S OVERSIGHT ACTIVITIES SINCE THE
INITIAL REPORT
In light of the size and complexity of TARP and the speed with which TARP has
been implemented, it has been imperative that SIGTARP conduct a full range of
oversight activities even while it builds its staff and capabilities. Since SIGTARP’s
Initial Report to Congress, dated February 6, 2009 (the “Initial Report”), SIGTARP
has continued to conduct its oversight tasks in multiple parallel tracks, from
making recommendations relating to preventing fraud and abuse prospectively, to
coordinating closely with other oversight bodies in both the audit and investigative
arenas, to auditing aspects of TARP both inside and outside of Government, all the
while trying to promote transparency in TARP programs to the American
people and Congress.


Maintaining Lines of Communication with TARP Managers
SIGTARP has attempted to establish and maintain regular lines of communications
with the personnel primarily responsible for running TARP, including those work-
ing within Treasury’s Office of Financial Stability (“OFS”) and Office of General
Counsel (“OGC”) and within other agencies who manage TARP-related programs
or activities, such as the bank regulators, the Federal Reserve Board, and the
Federal Reserve Bank of New York (“FRBNY”):

• SIGTARP personnel generally receive briefings concerning each new TARP
  initiative and new developments in implemented programs when necessary.
• The Special Inspector General and Chief of Staff meet weekly with the head of
  OFS and OFS’s Chief Compliance Officer to discuss ongoing issues and new
  developments.
• Staff members communicate regularly with OFS’s Chief Compliance Officer,
  who serves as OFS’s day-to-day liaison with SIGTARP.
• SIGTARP also meets regularly with Treasury’s lawyers within OGC to discuss
  any legal issues relating to TARP.
• Upon request, personnel from OFS’s outside vendors have made themselves
  available to SIGTARP personnel.
• SIGTARP has established regular communication with officials from the
  Federal Reserve System (staff from the Federal Reserve Board of Governors and
  FRBNY) in connection with the Federal Reserve TARP-related programs.

    Generally, Treasury and the other agencies have been cooperative in making
their personnel available to SIGTARP and have responded to SIGTARP’s requests
for documents and information.
14             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         In connection with this open communication between SIGTARP and TARP
                                                      managers, SIGTARP has endeavored, to the extent it has had an opportunity, to ex-
                                                      amine the planned framework for TARP initiatives before their terms are finalized
                                                      and to make recommendations designed to advance oversight and internal controls
                                                      and prevent waste, fraud, and abuse within the programs. Since the Initial Report,
                                                      SIGTARP has made such recommendations with regard to TALF and the Mortgage
                                                      Modification Program, among others.

                                                      TALF
                                                      The Term Asset-Backed Securities Loan Facility (“TALF”) is a Federal Reserve-led
                                                      program in which FRBNY makes loans that are designed to be fully secured by
     Asset-Backed Securities (“ABS”): A trad-
                                                      collateral — asset-backed securities (“ABS”). The loans have terms of up to three
     able security backed by a pool of loans,
     leases, or any other cash-flow-producing
                                                      years and are non-recourse; that is, if the borrower defaults on the loan, the Federal
     assets. For a more detailed discussion of        Reserve will have no recourse against the borrower beyond the collateral for the
     the securitization process, see the “TARP        loan. Surrendered collateral will be purchased by a special purpose vehicle that
     Tutorial: Securitization” discussion in          will be funded in part by TARP funds. As TALF is currently structured, FRBNY
     Section 2 of this report.                        will loan up to $200 billion (supported by credit protection of up to $20 billion
                                                      in TARP funds in the event of default), secured by ABS that are backed by credit
     Financial Stability Plan (“FSP”): A Depart-      card loans, auto financing, student loans, auto floorplan loans, business equipment
     ment of Treasury plan to stabilize and           loans, mortgage servicing advances, and Small Business Administration (“SBA”)
     repair the financial system, and support         loans. A potential expansion of TALF has been announced as part of Treasury’s
     the flow of credit necessary for economic        Financial Stability Plan (“FSP”), with respect to both the inclusion of additional
     recovery.
                                                      asset classes, such as newly issued and legacy commercial mortgage-backed securi-
                                                      ties (“MBS”) and non-agency residential MBS, and to increase lending to up to $1
     Mortgage-Backed Securities (“MBS”):
                                                      trillion, supported by up to $80 billion of TARP funds in the event of default. For a
     A set of similar mortgages bundled
     together by a financial institution and sold
                                                      more detailed description of the changes to TALF, see the TALF portion of Section
     as one security — a type of ABS.                 2: “TARP Implementation.”
                                                           The Initial Report contained a series of SIGTARP recommendations with
                                                      regard to the design of TALF. Since the Initial Report, SIGTARP has remained in
                                                      regular contact with Treasury and FRBNY with regard to oversight and fraud pre-
                                                      vention in TALF and has sought greater transparency, explicit oversight access, and
                                                      assurances regarding underwriting standards on the loans underlying the securities,
                                                      among other things. SIGTARP’s past and new recommendations regarding TALF
                                                      are discussed in greater detail in Section 4 of this report. Although not all of these
                                                      recommendations have been adopted, the design of the program, in SIGTARP’s
                                                      view, has significantly improved from an oversight perspective due to SIGTARP’s
                                                      suggestions and FRBNY’s willingness to engage on these issues.

                                                      Mortgage Modification Program
                                                      As discussed in Section 2 in detail, Treasury’s FSP includes a program entitled the
                                                      Home Affordable Modification Program (“HAMP”) through which TARP funds
                                                      will be made available to mortgage loan servicers to encourage them to modify
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   15




certain existing mortgages in an effort to reduce the rate of foreclosures. SIGTARP
had a series of briefings with OFS with respect to this program, and, after consul-
tation with mortgage fraud experts at the Federal Bureau of Investigation (“FBI”),
SIGTARP made a series of fraud prevention-oriented suggestions for the design of
the program. As discussed in Section 4 of this report, some of those suggestions
were adopted, including a fraud warning sheet and requiring a signed certification
with respect to certain representations under criminal penalty.

Coordination with Other EESA Oversight Bodies
EESA, as amended, is explicit in mandating that SIGTARP coordinate audits and
investigations into TARP with the other primary oversight bodies: the Financial
Stability Oversight Board (“FSOB”), the Congressional Oversight Panel (“COP”),
and the Government Accountability Office (“GAO”). Numerous other agencies,
both in the Inspector General (“IG”) community and among criminal and civil law
enforcement agencies, potentially have responsibilities that touch on TARP as well.
SIGTARP takes seriously its mandate to coordinate these overlapping oversight re-
sponsibilities, both to ensure maximum coverage and to avoid duplicative requests
of TARP managers. SIGTARP and its partners have continued to have significant
success on this front since the Initial Report. These coordination efforts include:

• bi-weekly conference calls with staff from FSOB
• regular meetings with staff from COP
• frequent interactions with GAO to coordinate ongoing and planned work to
  avoid any unnecessary duplication of efforts and to better facilitate their indi-
  vidual responsibilities

TARP-IG Council
Due to the scope of the various programs under TARP, numerous Federal agen-
cies have some role in administering or overseeing TARP programs. To further
facilitate SIGTARP’s coordination role, the Special Inspector General founded and
chairs the TARP Inspector General Council (“TARP-IG Council”), made up of
the Comptroller General and those IGs whose oversight functions are most likely
to touch on TARP issues. The Council meets monthly to discuss developments in
TARP and to coordinate overlapping audit and investigative issues. Since the Initial
Report, the Council was expanded to include the Inspector General for the SBA in
light of SBA involvement in a new TARP initiative. The TARP-IG Council currently
consists of:

• The Special Inspector General
• Inspector General of the Department of the Treasury
• Inspector General of the Federal Reserve Board
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •   Inspector General of the Federal Deposit Insurance Corporation
                                            •   Inspector General of the Securities and Exchange Commission
                                            •   Inspector General of the Federal Housing Finance Agency
                                            •   Inspector General of the Department of Housing and Urban Development
                                            •   Treasury Inspector General for Tax Administration
                                            •   Inspector General for the Small Business Administration
                                            •   Comptroller General of the United States (head of the GAO) or his designee

                                            Coordination with Law Enforcement Agencies
                                            SIGTARP’s coordination role extends not only to audits and oversight but also to
                                            investigations; it is the only one of the four primary oversight bodies with crimi-
                                            nal law enforcement authority. As a result, SIGTARP has been active in forging
                                            partnerships with criminal and civil law enforcement agencies. These relationships
                                            are designed to benefit both investigations originated by other agencies, when
                                            SIGTARP expertise can be brought to bear, and SIGTARP’s own investigations,
                                            which can be improved by tapping into additional resources. In this regard:

                                            • SIGTARP has continued to develop close working relationships with the FBI,
                                              with the Internal Revenue Service Criminal Investigation division (“IRS-CI”),
                                              and with the Securities and Exchange Commission (“SEC”), both with each
                                              agency’s headquarters and various field offices.
                                            • The Special Inspector General and Chief of Staff recently met with the new
                                              Chairman of the SEC, and SIGTARP looks forward to a close partnership with
                                              a reinvigorated SEC.
                                            • SIGTARP has continued to develop relationships with the Department of
                                              Justice (“DOJ”), both at Main Justice and with United States Attorney’s Offices
                                              across the country, to discuss criminal and civil enforcement.
                                            • The Special Inspector General and Chief of Staff recently met with the Attorney
                                              General and Deputy Attorney General, and SIGTARP is confident that DOJ
                                              stands ready to prosecute aggressively TARP-related crimes.
                                            • SIGTARP continues to coordinate with State Attorneys General.
                                            • SIGTARP personnel have given training presentations to DOJ prosecutors and
                                              to SEC enforcement attorneys.
                                            • SIGTARP representatives have joined the Mortgage, Banking and Securities,
                                              and Commodities Working Groups sponsored by DOJ — bodies in which key
                                              information regarding these law enforcement disciplines is shared.

                                            Assistant Inspector General for Investigations TARP Working
                                            Group
                                            The Assistant Inspector General for Investigations (“AIGI”) TARP Working Group
                                            was established by SIGTARP’s Deputy Special Inspector General for Investigations.
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   17




Its objective is to provide an active forum for heads of investigative divisions within
the IG community and other law enforcement agencies, whose agency mission is
in some way affiliated with TARP, to coordinate and share relevant programmatic
and investigative information at the national level. AIGIs from various entities
work cooperatively within the Working Group to establish the most efficient law
enforcement information sharing protocols; share lessons learned on investigative
techniques and operations; and determine training requirements for special agents,
attorney investigators, and analysts regarding structures and processes affiliated
with existing and new TARP-related initiatives.

TALF Task Force
In a proactive initiative to get out in front of any efforts to profit criminally from the
up to $1 trillion TALF program, SIGTARP has organized and leads a multi-agency
task force to deter, detect, and investigate any instances of fraud or abuse in TALF.
In addition to SIGTARP, the TALF Task Force comprises the Federal Reserve
Board IG, FBI, Treasury’s Financial Crimes Enforcement Network (“FinCEN”),
U.S. Immigration and Customs Enforcement (“ICE”), IRS-CI, SEC, and the U.S.
Postal Inspection Service (“USPIS”). Representatives from each agency participate
in regular briefings about TALF, collectively identify areas of fraud vulnerability,
engage in the training of agents and analysts with respect to the complex issues
surrounding the program, and will serve as points of contact within each agency for
leads relating to TALF and any resulting cases that are generated.
    TALF is an important program that, both because of its complexity and its
eventual size (up to $1 trillion), is an enormous challenge to law enforcement. This
Task Force, consisting of both civil and criminal law enforcement agencies, with
both investigative and analytical resources, demonstrates that the agencies involved
are meeting that challenge proactively and before the bulk of the money has gone
out the door. The members of the TALF Task Force will combine their shared
expertise in securities fraud investigations and maximize their resources to deter po-
tential criminals, to identify and stop fraud schemes before they can fully develop,
and to bring to justice those who seek to commit fraud through TALF. Although
TALF participants who play by the rules have nothing to fear from this Task Force,
Federal law enforcement is ready now to detect, investigate, and bring to justice
any who would try to steal from this important program.
    The TALF Task Force represents a historic law enforcement effort with an
ambitious goal: to redefine the policing of complex Federal Government programs
by proactively arranging a coordinated law enforcement response before the fraud
occurs.
    The TALF Task Force has already received its first substantive briefing on the
mechanics of TALF from FRBNY representatives and has further training sessions
scheduled.
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Coordination with FinCEN and NY HIFCA
                                            On March 13, 2009, SIGTARP entered into an agreement with FinCEN to aug-
                                            ment SIGTARP’s data and personnel resources. On March 18, 2009, SIGTARP
                                            entered into a similar agreement with the New York High Intensity Financial Crime
                                            Area (“NY HIFCA”). The FinCEN agreement provides SIGTARP with direct
                                            electronic access to Bank Secrecy Act (31 U.S.C. § 5311 et seq.) information,
                                            including currency transaction reports filed by financial institutions and casinos,
                                            currency and monetary instrument reports, foreign bank reports, and suspicious
                                            activity reports filed by depository institutions and participants in the securities and
                                            futures industries. This electronic access will assist SIGTARP to develop leads for
                                            cases, follow up on leads, and identify investigative targets. The agreement with
                                            NY HIFCA complements the FinCEN agreement by providing SIGTARP with two
                                            experienced financial analysts who will use FinCEN and other available data re-
                                            sources to identify indicators of fraud associated with TARP recipients and provide
                                            analytical support with respect to SIGTARP’s ongoing investigations.

                                            SIGTARP Hotline and Investigations
                                            SIGTARP’s Hotline is staffed, operational, and providing an interface with the
                                            American public to facilitate the reporting of concerns, allegations, information,
                                            and evidence of violations of criminal and civil laws in connection with TARP.
                                            Reporting may include allegations of fraud, waste, abuse, and reprisals for bringing
                                            to light TARP-related concerns.
                                                As of the drafting of this report, the SIGTARP Hotline has received and ana-
                                            lyzed nearly 200 tips. These contacts run the gamut from expressions of concern
                                            over the economy to serious allegations of fraud involving TARP. The SIGTARP
                                            Hotline is capable of receiving information anonymously, and identity confidential-
                                            ity can and will be provided to the fullest extent possible. The American public can
                                            provide information by telephone, mail, fax, or online. SIGTARP has established
                                            a Hotline connection on its website at www.SIGTARP.gov. SIGTARP honors all
                                            whistleblower protections.
                                                Both from the Hotline and from other sources of leads, SIGTARP has initiated
                                            nearly 20 preliminary and full criminal investigations to date. Although the details
                                            of those investigations will generally not be discussed unless public action is taken,
                                            the cases vary widely in subject matter and include large corporate and securities
                                            fraud matters affecting TARP investments, tax matters, insider trading, public cor-
                                            ruption, and mortgage-modification fraud.

                                            SIGTARP Audits
                                            Since SIGTARP’s Initial Report, the Audit Division has continued to focus on
                                            recruiting staff while launching an initial set of audits and planning future work. At
                                            the same time, the Audit Division has been able to launch a survey of 364 TARP
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   19




recipients to obtain answers to recurring questions regarding use of TARP funding
and actions taken to comply with executive compensation requirements associated
with the funding. Efforts are now underway to analyze the results of those surveys
which will help facilitate two ongoing audits in areas covered by the surveys and
provide a potential base of knowledge from which to examine progress of TARP
in the future. Meanwhile, SIGTARP is continuing its efforts to coordinate work
with other audit agencies engaged in oversight of TARP and its numerous program
areas.

Survey of TARP Recipients
Beginning on February 5, 2009, SIGTARP sent letters to 364 TARP recipients —
institutions that had received TARP funds as of the end of January 2009 —
requesting that they provide information concerning their use of TARP funding
and their compliance with executive compensation requirements. Most of the
recipients were financial institutions receiving assistance under the TARP Capital
Purchase Program (“CPP”). A copy of the letter is in Appendix M and is posted
on the SIGTARP website at www.SIGTARP.gov. Recipients were asked to provide
their responses within 30 days of the date of the request and to include copies of
pertinent documentation to support their responses.
    As indicated in Table 1.2, the firms surveyed varied in the amount of funding
received, with the majority of funding going to a small number of large institutions.
Twenty-six firms had received approximately 93% of the funding through January
30, 2009.1
    As of March 23, 2009, SIGTARP had received responses from all 364 TARP
recipients — a remarkable 100% response rate. SIGTARP’s initial look at some
of the responses indicates that those responding to the request provided a broad
range of answers to the two sets of questions. For example, some identified detailed

TABLE 1.2

 NUMBER OF TARP RECIPIENTS SURVEYED BY FUNDING RECEIVED

                                                     Number of                  Funding Received                   Percentage of
 Funding Category                                       Firms                         ($ Billions)                      Funding
 $10 billion or more                                                8                            $219.3                         73.4%
 $1 billion to $9.9 billion                                       18                                 58.3                       19.5%
 $100 million to $999.9 million                                   54                                 14.6                         4.9%
 Less than $100 million                                         284                                   6.6                         2.2%
 TOTAL                                                         364                              $298.8                          100%

 Note: The total funding includes $190.5 billion under the Capital Purchase Program, $40 billion under the Targeted Investment Pro-
 gram, $40 billion under the Systemically Significant Failing Institutions Program, $23.3 billion under the Automotive Industry Financing
 Program, and $5 billion under the Asset Guarantee Program.

 Source: SIGTARP analysis of Treasury data.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            and specific use of the funds, whereas others provided more general responses.
                                            Respondents also provided varying degrees of documentation to augment and sup-
                                            port their narrative responses, with some noting that additional documentation had
                                            been segregated at their office and was available for review as needed.
                                               Although time will be required to assess fully the responses received, SIGTARP
                                            can report that, based on a preliminary review of responses received:

                                            • Use of Funds: Respondents provided diverse answers on how TARP funds have
                                              been used; some common responses described use of TARP funds to: strength-
                                              en the bank’s capital base to provide a foundation for lending activities; retire
                                              debt; purchase MBS; increase credit lines; and make loans.
                                            • TARP Impact on Lending: Some respondents spoke to new lending activities
                                              in relationship to actual TARP funds received, whereas others spoke of leverag-
                                              ing the funds to achieve greater lending than that related to the face value of
                                              TARP funds received. Some, however, noted that, although they were commit-
                                              ted to making prudent commercial and consumer loans, growth of new loans
                                              had slowed as a result of the economy. Others noted that TARP funds permitted
                                              them to preserve an adequate level of capital so that they were able to maintain,
                                              or at least not severely reduce, their lending levels.
                                            • Segregation of Funds: Some respondents indicated that the TARP equity
                                              investment was separately recorded as a discrete component of the bank’s
                                              capital, but the actual funds associated with the investment were not physically
                                              segregated from other cash funds; others cited efforts to segregate physically the
                                              funds or to manage them separately.
                                            • Executive Compensation Compliance: Responses regarding compliance with
                                              executive compensation restrictions varied from simple statements of obvious
                                              compliance based on the size of their banks and compensation, to detailed
                                              answers regarding extensive efforts to assess compensation practices relative to
                                              restrictions associated with their funding agreements, including having retained
                                              expert consultants to help with the assessments — the latter not necessarily
                                              related to the amount of funding received or the size of the bank.
                                            • Executive Compensation Regulation Uncertainty: Some responses related
                                              to executive compensation expressed frustration with changing guidance and
                                              legislation related to executive compensation requirements, as well as the lack
                                              of regulations concerning these changes, which has limited their ability to give
                                              a complete answer at this time; nonetheless, others noted actions they were tak-
                                              ing at this time based on known requirements, recognizing that final guidelines
                                              have not yet been issued.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009            21




    Given the diversity of the responses and the fact they were asked for and pro-
vided in narrative form, it will require some time to (i) analyze the data fully, (ii)
identify areas where follow-up contact with respondents is needed, and (iii) identify
the degree of commonality of responses in selected areas that may be aggregated
for reporting purposes.
    To further assess and complete its analysis of the responses during a period
when it is still in the process of staffing its Audit Division, SIGTARP has awarded
a contract to Concentrance Consulting Group, a Section 8(a) women-owned small
business, to help analyze the survey data. The contract with Concentrance calls
for it to complete analysis of the survey responses within two months, including
identification of potential areas for follow-up work by SIGTARP with respondents.
From this analysis and any needed follow-up work, SIGTARP expects to issue a
preliminary report in June 2009 summarizing the audit responses. Two additional
reports — one on use of funds and the other on executive compensation issues —
are targeted for completion by summer 2009.

Audits Underway and Planned
As noted in the Initial Report, SIGTARP’s Audit Division will conduct primarily
performance audits related to TARP, using generally accepted Government auditing
standards. SIGTARP audits emphasize:

• ensuring transparency in TARP to the fullest reasonable extent so as to foster
  accountability in use of funds and program results
• testing compliance with the policies, procedures, regulations, terms, and condi-
  tions that are imposed on TARP recipients
• coordinating actively with other relevant audit and oversight entities to maximize
  audit coverage while minimizing overlap and duplication of efforts

   With these objectives in mind, SIGTARP has initiated the following six audits:
                                                                                           Targeted Investment Program (“TIP”): A
1. Use of Funds: SIGTARP’s first audit examines the use of TARP funds by TARP              direct-investment program through which
   recipients, as set forth in the previous discussion about SIGTARP’s survey of           Treasury can invest in institutions whose
   TARP recipients.                                                                        failure would threaten similar institutions
2. Executive Compensation Compliance: SIGTARP’s second audit, also based                   and the economy in general.
   on SIGTARP’s survey of TARP recipients, and initiated at the request of Senator
   E. Benjamin Nelson, examines how TARP recipients are implementing controls              Asset Guarantee Program (“AGP”): An
   with respect to applicable executive compensation restrictions.                         insurance-like program which allows Trea-
3. Bank of America: The third audit examines the review and approval processes             sury to assume a loss position on certain
   associated with TARP assistance to Bank of America under three different pro-           troubled assets held by the qualifying
                                                                                           financial institution.
   grams, including the Capital Purchase Program, Targeted Investment Program,
   and the announced Asset Guarantee Program’s loss protection on a pool of
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               troubled assets. The audit also examines Treasury’s decision making related to
                                               additional TARP assistance in connection with Bank of America’s acquisition of
                                               Merrill Lynch. Since its commencement, the scope of this audit has expanded
                                               to examine broadly Treasury’s decision making regarding the first nine institu-
                                               tions to be considered for TARP funding in October 2008.
                                            4. External Influences: Concerns have arisen whether, or to what extent, external
                                               parties may have sought to influence decision making by Treasury or bank regu-
                                               lators in considering and deciding on applications for funding from individual
                                               banks. Importantly, the Treasury Secretary announced that Treasury would be
                                               implementing new guidelines to prevent such external influences. Accordingly,
                                               this audit seeks to determine what processes and procedures are in place to
                                               guide consideration of such applications so as to avoid undue outside influence
                                               on the process, whether there are any indications of any undue influence, and
                                               what actions might be needed to strengthen existing processes.
                                            5. Executive Compensation Oversight (AIG Bonuses): The next audit, initi-
                                               ated in connection with a request by Senator Charles E. Grassley, examines
                                               Federal oversight of executive compensation requirements, focusing specifically
                                               on recent payouts of large bonus payments to American International Group,
                                               Inc. (“AIG”) employees. These payments have raised questions regarding AIG’s
                                               compliance with executive compensation requirements imposed as a condition
                                               of financial assistance under TARP and the extent of coordination between
                                               Treasury and the Federal Reserve. Accordingly, SIGTARP has undertaken an
                                               audit to determine: (i) the extent to which the recent bonus payments were
                                               made in accordance with conditions imposed in return for TARP assistance, and
                                               (ii) the extent of Treasury’s monitoring of AIG’s executive compensation agree-
                                               ments and to what extent it was aware of the full range of executive compensa-
                                               tion, bonus, and retention payments throughout AIG’s corporate structure. For
                                               a detailed description of Government assistance to AIG, see the “Institution-
                                               Specific” discussion in Section 2: “TARP Overview” of this report.
                                            6. AIG Counterparty Payments: At the request of Congressman Elijah E.
                                               Cummings and 26 other Members of Congress, SIGTARP has initiated a review
                                               of AIG’s payments to counterparties to its various transactions. AIG, which has
                                               received the largest amount of financial assistance from the Government during
                                               the current financial crisis, reportedly made these counterparty payments to
                                               other financial institutions, including some foreign institutions and others that
                                               received financial assistance under TARP. Further, according to the request
                                               made to SIGTARP, the counterparty claims were paid at 100% of face value. As
                                               a result, SIGTARP will examine the basis for the counterparty payments and
                                               seek to determine whether any efforts were made to negotiate any reduction in
                                               those payments.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   23




   As SIGTARP’s Audit Division staffing capacity increases, it expects to un-
dertake additional reviews in the area of Treasury oversight of TARP, executive
compensation, and use of TARP funds. In addition, as Treasury implements new
programs, such as TALF and home mortgage assistance, SIGTARP’s Audit Division
anticipates undertaking audits in these areas in coordination with other audit
organizations.

Communications with Congress
One of SIGTARP’s primary functions is to make sure that Members of Congress,
as the creators of SIGTARP, are kept informed of developments in TARP and
SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
and SIGTARP personnel meet regularly with and brief Members of Congress and
Congressional staff. More formally, since the Initial Report, the Special Inspector
General has testified six times before various Congressional Committees.

• Senate Committee on Banking, Housing and Urban Affairs: On February 5,
  2009, Special Inspector General Barofsky testified before the Senate Committee
  on Banking, Housing and Urban Affairs, during a hearing entitled, “Pulling
  Back the TARP: Oversight of the Financial Rescue Program.” The purpose of
  this oversight hearing was to explore how TARP can be made more effective
  in the areas of: protecting home values, college funds, retirement accounts,
  and life savings; preserving homeownership and promoting jobs and economic
  growth; maximizing the returns to the taxpayers for their investment; and en-
  hancing some measure of public accountability.
• Senate Judiciary Committee: On February 11, 2009, Special Inspector
  General Barofsky testified before the Senate Judiciary Committee, during a
  hearing entitled, “The Need for Increased Fraud Enforcement in the Wake of
  the Economic Downturn.” The purpose of the hearing was, among other things,
  to examine the issue of fraud in TARP.
• House Committee on Financial Services: On February 24, 2009, Special
  Inspector General Barofsky testified before the House Committee on Financial
  Services, Subcommittee on Oversight and Investigations, during a hearing en-
  titled, “A Review of TARP Oversight, Accountability and Transparency for U.S.
  Taxpayers.” The purpose of this hearing was to ensure that the TARP oversight
  organizations created/assigned by EESA (i.e., GAO, SIGTARP, and COP) un-
  derstand their respective roles, cooperate with each other, and avoid repetitive
  efforts and inefficiencies. The hearing also examined how S.383 (the SIGTARP
  Act), which primarily deals with SIGTARP and had already been approved by
  the Senate, will improve TARP oversight.
• House Committee on Oversight and Government Reform: On March 11,
  2009, Special Inspector General Barofsky testified before the House Committee
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              on Oversight and Government Reform, Subcommittee on Domestic Policy, dur-
                                              ing a hearing entitled, “TARP Oversight: Assessing Treasury’s Efforts to Prevent
                                              Waste and Abuse of Taxpayer Funds.” The purpose of this hearing was to assess
                                              Treasury’s oversight of the use of funds by financial institutions that received
                                              funds under TARP. Specifically, the hearing evaluated Treasury’s data collection
                                              procedures for monitoring the use of TARP funds and examined Treasury’s abil-
                                              ity to detect and prevent waste and misuse of TARP monies.
                                            • House Committee on Ways and Means: On March 19, 2009, Special
                                              Inspector General Barofsky testified before the House Committee on Ways and
                                              Means, Subcommittee on Oversight, during a hearing entitled, “Hearing on the
                                              Troubled Asset Relief Program: Oversight of Federal Borrowing and the Use of
                                              Federal Monies.” The purpose of the hearing was to review the role of Federal
                                              borrowing in TARP, its impact on the national debt, and Treasury’s efforts to
                                              protect public funds. In the latter regard, the hearing explored Federal tax com-
                                              pliance issues.
                                            • Senate Committee on Finance: On March 31, 2009, Special Inspector
                                              General Barofsky testified before the Senate Committee on Finance during a
                                              hearing entitled, “TARP Oversight: A Six Month Update.” The purpose of the
                                              hearing was to survey the various TARP and TARP-related programs, and to
                                              examine SIGTARP’s oversight of these programs.

                                                Copies of the Special Inspector General’s written testimony, the hearing tran-
                                            scripts, and a variety of other materials associated with the previously listed hear-
                                            ings are posted at www.SIGTARP.gov/reports.


                                            SIGTARP’S ORGANIZATIONAL STRUCTURE
                                            In addition to the executive staff, SIGTARP pursues its mission through four divi-
                                            sions: audit, investigations, operations, and the Division of the Chief Counsel.

                                            Chief of Staff
                                            SIGTARP’s mission is supported by the Chief of Staff, Kevin R. Puvalowski, who is
                                            the Special Inspector General’s senior advisor. The Chief of Staff and the Deputy
                                            Chief of Staff, Cathy Alix, oversee and coordinate the activities of the other divi-
                                            sions and manage cross-divisional projects as necessary.

                                            Audit Division
                                            The Audit Division, led by Barry Holman, the Deputy Special Inspector General for
                                            Audit, is tasked with designing and conducting programmatic audits with respect to
                                            Treasury’s operation of TARP and the recipients’ compliance with their obligations
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   25




under relevant law and contract. The division is designed to provide SIGTARP with
maximum flexibility in the size, timing, and scope of audits so that, without sacrific-
ing the rigor of the methodology, audit results, whenever possible, can be generated
rapidly both for general transparency’s sake and so that the resulting data can be
used to improve the operations of the fast-evolving TARP.
    A particular focus of the Audit Division is to ensure that appropriate compli-
ance and control mechanisms are in place and are complied with, both by Treasury
in its management of TARP and by the recipients of TARP funds. Where controls
or compliance are found to be lacking, or where particular aspects or policies are
found ineffective at reaching TARP’s goals, the Audit Division will assist the Special
Inspector General in fashioning recommendations to resolve such issues.

Investigations Division
SIGTARP’s Investigations Division is led by Christopher R. Sharpley, the Deputy
Special Inspector General for Investigations. Made up of special agents, investiga-
tors, analysts, and attorney advisors, the Investigations Division supervises and
conducts criminal and civil investigations into those, whether inside or outside of
Government, who waste, steal, or abuse TARP funds. The model for the division
is to build teams of experienced financial and corporate fraud investigators that
include not only special agents but also forensic analysts and, critically, attorney
advisors, within the division itself, so that SIGTARP can have a broad array of
expertise and perspectives in developing even the most sophisticated investigations.
Scott Rebein, the Special Agent-in-Charge, will supervise the Federal agents, and
Richard Rosenfeld, the Chief Investigative Counsel, will supervise the attorney
advisors.
    The Investigations Division will, of course, pursue any wrongdoers within
Government, but it will also focus on the recipients of TARP funds — i.e., the insti-
tutions that receive TARP investments and the vendors hired to administer TARP
activities. Those who make intentional misrepresentations in the TARP application
process or in their financial reporting to Treasury may be in violation of several
criminal statutes, including securities fraud, wire fraud, mail fraud, and false state-
ments. SIGTARP intends to investigate these potential crimes vigorously.
    In the interests of maximizing criminal and civil enforcement, the Investigations
Division coordinates closely with other law enforcement agencies to form law
enforcement partnerships, including task force relationships across the Federal
Government, to leverage SIGTARP’s expertise and unique position with respect to
TARP.
    The Investigations Division will take the lead in responding to referrals made
to SIGTARP’s Hotline through telephone, email, website, and in-person com-
plaints, abiding by all applicable whistleblower protections. When a full audit
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            or investigation is not possible or advisable due to time or other constraints, the
                                            Investigations Division will work closely with the Audit Division to conduct inspec-
                                            tion and evaluation projects and may issue public Special Reports.

                                            Operations Division
                                            The Deputy Special Inspector General for Operations, Dr. Eileen Ennis, leads
                                            SIGTARP’s Operations Division. The Operations staff is built around a core
                                            group of experienced professionals with cross-functional backgrounds in human
                                            resources, information technology, budget and finance, acquisitions, and facilities
                                            and logistics, as well as experience in program and project management. These
                                            seasoned veterans include employees detailed or transferred from other
                                            departments and agencies as well as former Treasury Department employees.
                                                The Operations Division’s strategy is to build SIGTARP’s support infrastruc-
                                            ture and staff rapidly while maintaining flexibility in an environment in which
                                            SIGTARP’s oversight responsibilities can change substantially with each new
                                            program. Operations takes the lead on building and managing SIGTARP’s physi-
                                            cal facilities, technical infrastructure, budget and finance functions, procurement
                                            activity, and human resources activities. Operations strives to provide SIGTARP
                                            with the ability to expand or shift emphasis swiftly — in size, location, and scope of
                                            expertise — while ensuring that internal controls are in place and supported with
                                            sound policies.

                                            Division of the Chief Counsel
                                            The Chief Counsel, Bryan Saddler, serves as SIGTARP’s chief legal advisor and su-
                                            pervises legal work conducted within SIGTARP. The Chief Counsel plays a crucial
                                            role in ensuring that SIGTARP is in compliance with the complex framework of
                                            laws and regulations applicable to audit and law enforcement entities. He also pro-
                                            vides the Special Inspector General advice on contractual and legislative language
                                            central to TARP, which directly impacts SIGTARP’s oversight of, and recommenda-
                                            tions for, those programs.
                                                In addition to fulfilling these legal roles, the Chief Counsel also manages
                                            several other important SIGTARP functions, including communications and press
                                            issues, legislative affairs, and Freedom of Information Act inquiries. Supporting
                                            him, the Communications Director, Kristine Belisle, assists the Special Inspector
                                            General with media relations and inquiries, and the Director of Legislative Affairs,
                                            Lori Hayman, assists the Special Inspector General with Congressional relations
                                            and inquiries.
                                                Since the Initial Report, SIGTARP’s organizational structure has been modi-
                                            fied to create the Division of Chief Counsel, and to move the communications and
                                            legislative affairs functions into that division. The SIGTARP organizational chart,
                                            as of March 31, 2009, is included in Appendix K.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   27




PROGRESS IN BUILDING SIGTARP’S ORGANIZATION
From the day that the Special Inspector General was confirmed by the Senate,
SIGTARP has worked to build its organization through various complementary
strategies, including hiring experienced senior executives who can play multiple
roles during the early stages of the organization, leveraging the resources of other
agencies, and, where appropriate and cost-effective, obtaining services through
SIGTARP’s authority to contract. Since the Initial Report, SIGTARP has made
substantial progress in building its operation.

Hiring
Since the Initial Report, SIGTARP has succeeded in substantially completing its
hiring of senior staff.
    As noted previously, Dr. Eileen Ennis has taken over as Deputy Special
Inspector General for Operations. Dr. Ennis comes to SIGTARP with more
than 21 years of Federal service, most recently with the U.S. Department of
Transportation (“USDOT”) where she was the Associate Administrator for
Administration and Chief Information Officer at USDOT’s Research and
Innovative Technology Administration. Dr. Ennis was asked to serve temporarily as
the acting Director of USDOT’s Volpe National Transportation Research Center in
Cambridge, Massachusetts. After Volpe, Dr. Ennis was invited to provide leader-
ship in USDOT’s departmental Office of the Chief Information Officer (“CIO”)
and led two organizations acting as Associate CIO for IT Enterprise Projects and as
Associate CIO for IT Policy Oversight. Prior to joining USDOT, Dr. Ennis was at
the Commodity Futures Trading Commission from 2000 to 2007. There, she was a
Deputy Director for the Office of Information and Technology Services. Dr. Ennis
holds a Doctorate in Information Systems from Nova Southeastern University
in Ft. Lauderdale, Florida, and a Master’s Degree in Information and Resources
Management from Webster University.
    Each of the divisions has begun the process of filling out their ranks. As
of March 31, 2009, SIGTARP had approximately 35 personnel, including de-
tailees from other agencies, with several new hires to begin over the coming
weeks. SIGTARP’s employees hail from many Federal agencies, including DOJ,
the FBI, the Department of Defense Air Force Office of Special Investigations,
GAO, USDOT, the Department of Energy Office of the Inspector General, the
Internal Revenue Service, the Office of the Special Inspector General for Iraq
Reconstruction, the Department of Housing and Urban Development Office of the
Inspector General, SEC, and the U.S. Secret Service. Hiring is actively ongoing,
building to SIGTARP’s current goal of approximately 150 full-time employees.
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Contracting
                                            EESA gives SIGTARP the express authority to contract for goods and services.
                                            Whenever it can do so cost effectively, and without damaging its mission or inde-
                                            pendence, SIGTARP will use the services of other Governmental agencies and out-
                                            side vendors to develop rapidly its operational capacity. As discussed in the Initial
                                            Report, SIGTARP entered into contracts with the following agencies and outside
                                            service providers:

                                            • Treasury’s Bureau of Public Debt for certain back-office human resources and
                                              personnel services and for financial reporting services
                                            • The Treasury Inspector General for Tax Administration for the detailing of per-
                                              sonnel and for certain technical assistance
                                            • Deloitte Financial Advisory Services LLP for program management services in
                                              connection with the production of SIGTARP’s Quarterly Reports to Congress

                                                Since the Initial Report, SIGTARP has entered into several additional contracts:

                                            • Concentrance Consulting Group for assistance with SIGTARP’s analysis of a
                                              survey sent to 364 TARP recipients seeking information about the recipients’
                                              use of TARP funds and executive compensation policies
                                            • NY HIFCA initiative (under the auspices of the New York High Intensity Drug
                                              Trafficking Area program of the Office of National Drug Control Policy) for
                                              forensic analysts
                                            • FinCEN for multi-source financial intelligence expertise and data access

                                               A full listing of all of SIGTARP’s current contracts, and copies of its contracts
                                            with non-governmental entities, is available at www.SIGTARP.gov.

                                            SIGTARP’s Physical and Technical Infrastructure
                                            SIGTARP is moving forward in its development of a physical and technical infra-
                                            structure, now occupying several different office spaces within the main Treasury
                                            building. SIGTARP is in the process of leasing office space at 1801 L Street, NW,
                                            in Washington, D.C., the same office building in which the Treasury officials
                                            managing TARP are located. It is anticipated that SIGTARP will be able to move
                                            into that space by the end of 2009. In the meantime, SIGTARP is working with
                                            Treasury and the General Services Administration to locate and let temporary
                                            quarters.
                                                SIGTARP operates a website, www.SIGTARP.gov, on which it posts all of its re-
                                            ports, testimony, audits, investigations (once such investigations are made public),
                                            contracts, and more. The website also prominently features SIGTARP’s Hotline,
                                            which also can be accessed by phone (877-SIG-2009 or 877-744-2009). The
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   29




SIGTARP Hotline is operating to handle referrals from the general public or from
whistleblowers concerning allegations of fraud, waste, or abuse with respect to
TARP. SIGTARP is, of course, committed to abiding by all applicable whistleblower
protections.

Developing SIGTARP’s Internal Systems, Policies, and
Procedures
Since the Initial Report, SIGTARP has moved rapidly to begin developing and
implementing management and information systems, as well as the policies and
procedures necessary to run a complex Federal agency. Among other things,
SIGTARP has begun to put into place the following:

• policies and procedures concerning the roles and authorities of SIGTARP ex-
  ecutives and divisions, standards of conduct and discipline, travel by SIGTARP
  employees, and subpoena authorities
• systems relating to human resources, time and attendance reporting, expendi-
  ture tracking, and recordkeeping
• a budget framework to plan and manage SIGTARP’s initial funding authoriza-
  tion and short-term and long-term budget strategies to address the initial start-
  up as well as the potential expansion of TARP and related financial recovery
  programs
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT
  CH ION        TARP OVERVIEW
       A P2T E R 3
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009         33




This section provides details of activities that the U.S. Department of Treasury           For more information on the previ-
(“Treasury”) has conducted under the Troubled Asset Relief Program (“TARP”),               ously implemented programs, refer
including the following:                                                                   to SIGTARP’s Initial Report to
                                                                                           Congress dated February 6, 2009,
                                                                                           Section 3: “TARP Implementation
•   a financial overview of TARP initiatives, implemented and announced
                                                                                           and Administration.”
•   a detailed update on previously described programs
•   a program-by-program description of newly announced programs
•   the status of executive compensation restrictions for TARP recipients


FINANCIAL OVERVIEW OF TARP
As of March 31, 2009, Treasury had announced the parameters of how $590.4
billion2 of the $700 billion authorized by the Emergency Economic Stabilization               Troubled Assets: Includes mortgages,
Act of 2008 (“EESA”) would be spent.3 Of the $590.4 billion4 that Treasury has                mortgage-related instruments, and any
committed, $328.6 billion5 has been spent. The $328.6 billion already expended                other financial instrument whose
has provided support for U.S. financial institutions and companies through the                purchase Treasury determines is
six previously implemented programs that purchase or guarantee troubled assets.6              needed to stabilize the financial
TARP expenditures as of March 31, 2009, account for about 47% of the $700                     markets.
billion available for TARP implementation.
     Subsequent to SIGTARP’s Initial Report to Congress (“Initial Report”) dated
February 6, 2009, and in reaction to the continued deterioration of the credit
markets, Treasury announced the creation of the Financial Stability Plan (“FSP”).
Treasury explained that the FSP was designed “to protect taxpayers and ensure
that every dollar is directed toward lending and economic revitalization” and that
it would “institute a new era of accountability, transparency, and conditions on the
financial institutions receiving funds.”7 According to Treasury, the FSP will address
a number of concerns:

•   high home foreclosure rates
•   a shortage of consumer credit
•   a shortage of small-business credit
•   ongoing efforts to stabilize financial institutions

    Treasury plans to support U.S. financial institutions, companies, and
individual borrowers through a combination of 12 separate TARP programs
implemented or announced thus far. A number of the newly announced initiatives
are interrelated with existing programs. Complete details on these new programs
are not yet available, but summaries of their announced descriptions, along with
updates on the previously implemented programs, are provided in the following
section.
34             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      • Capital Purchase Program (“CPP”). Treasury intends for CPP to provide
                                                        funds to “encourage U.S. financial institutions to build capital to increase the
                                                        flow of financing to U.S. businesses and consumers and to support the U.S.
                                                        economy.”8 As of March 31, 2009, Treasury investments in institutions through
                                                        CPP accounted for approximately $198.8 billion in TARP purchases,9 out of
                                                        a projected funding total of $218 billion under the program.10 Of the $198.8
                                                        billion expended, $0.4 billion has been repaid to the Government by CPP
                                                        participants. See the “Capital Purchase Program” discussion in this section for
                                                        more detailed information. Subsequent to SIGTARP’s Initial Report, Citigroup
                                                        announced an offering to exchange up to $25 billion of Treasury’s preferred
                                                        shares, obtained through CPP, for common stock.11 See the “Institution-Specific
                                                        Assistance” portion of this section for a detailed discussion of Citibank’s ex-
                                                        change offering.
                                                      • Capital Assistance Program (“CAP”). The mechanics of CAP are similar to
                                                        those of CPP, and both programs involve injecting capital into the financial
                                                        system. Under CAP, financial institutions with more than $100 billion in assets
                                                        will have to participate in a “stress test” to determine if they have enough of
                                                        a capital buffer to continue lending in worse-than-expected economic condi-
                                                        tions.12 Institutions that are found to need additional capital will have up to
                                                        six months to raise private capital, after which they will be required to accept
                                                        Treasury assistance under CAP. In addition to the 19 financial institutions par-
                                                        ticipating in the stress test, all qualifying financial institutions may apply to CAP
                                                        for additional capital without the stress-test requirement. CAP includes a provi-
     Tangible Common Equity (“TCE”): A                  sion whereby preferred shares issued under CPP and the Targeted Investment
     measure of a bank’s capital adequacy; the          Program may be exchanged for convertible preferred shares that provide the
     amount of money that would be left over            issuing institution the option to convert preferred shares to common stock,
     if a bank were dissolved and all creditors         and thus increase the institution’s tangible common equity (“TCE”). Treasury
     and higher levels of stock were paid off.          expects that most applicants will convert existing TARP preferred shares for
                                                        CAP convertible preferred shares without seeking additional capital.13 However,
     Systemically Significant: A financial              those receiving additional capital will do so in exchange for convertible preferred
     institution whose failure would impose
                                                        shares under CAP.
     significant losses on creditors and coun-
                                                      • Systemically Significant Failing Institutions (“SSFI”) Program. Under the
     terparties, call into question the financial
                                                        stated terms of the SSFI program, Treasury invests in systemically significant
     strength of other similarly situated finan-
     cial institutions, disrupt financial markets,
                                                        institutions to prevent their failure and the market disruption that would fol-
     raise borrowing costs for households and           low.14 As of March 31, 2009, Treasury’s projected investment through this pro-
     businesses, and reduce household wealth.           gram accounts for $70 billion in investments in and credit provided to American
                                                        International Group, Inc. (“AIG”). As reported in SIGTARP’s Initial Report, $40
     Non-Cumulative Preferred Shares: Shares            billion was used to purchase preferred stock from AIG.15 Subsequently, Treasury
     where unpaid dividends do not accrue               announced the allocation of an additional $30 billion to the SSFI program for a
     when a company does not make a                     new equity capital facility that AIG can draw on as needed. In return, Treasury
     dividend payment.                                  will receive non-cumulative preferred shares.16 See the “Institution-Specific
                                                        Assistance” part of this section for a detailed discussion of the AIG transactions.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009         35




• Targeted Investment Program (“TIP”). The stated objective of TIP is to make
  targeted investments in financial institutions where a loss of confidence would           Senior Preferred Stock: Shares that give
  “result in significant market disruptions that threaten the financial strength            the stockholder priority dividend and
  of similarly situated financial institutions and thus impair broader financial            liquidation claims over junior preferred
  markets and pose a threat to the overall economy.”17 As reported in SIGTARP’s             and common stockholders.
  Initial Report, Treasury purchased $20 billion of senior preferred stock and
  received warrants of common stock from each of Citigroup and Bank of                      Illiquid: Assets that cannot be quickly
  America, for a total expenditure of $40 billion in TARP funds.18 As of                    converted to cash.
  March 31, 2009, Treasury had made no further funding under this program.
• Asset Guarantee Program (“AGP”). Through AGP, Treasury’s stated goal is
  to use insurance-like protections to help stabilize at-risk financial institutions.
  AGP provides certain loss protections on a select pool of mortgage-related or
  similar assets held by participants whose portfolios of distressed or illiquid assets
  pose a risk to market confidence.19 As discussed in SIGTARP’s Initial Report,
  Treasury, the Federal Deposit Insurance Corporation (“FDIC”), and the Federal
  Reserve agreed to provide certain loss protections with respect to $301 billion in
  troubled assets held by Citigroup.20 A similar arrangement with Bank of
  America was announced on January 16, 2009, but had not yet closed as of
  March 31, 2009. Treasury’s projected TARP investment through this program
  accounted for $12.5 billion as of March 31, 2009 — $5 billion in protec-
  tion for Citigroup21 and $7.5 billion for Bank of America.22 See the discussion
  of “Institution-Specific Assistance” in this section for more information on
  Citigroup’s transactions.
• Automotive Industry Financing Program (“AIFP”). The stated objective of
  AIFP is to “prevent a significant disruption of the American automotive
  industry, which would pose a systemic risk to financial market stability and have
  a negative effect on the economy of the United States.”23 Under this program,
  Treasury made emergency loans to General Motors Corporation (“GM”),
  Chrysler Holding LLC (“Chrysler”), and Chrysler Financial Services Americas
  LLC (“Chrysler Financial”). In addition to these investments, Treasury pur-
  chased senior preferred stock from GMAC LLC (“GMAC”). As of March 31,
  2009, Treasury has expended $24.8 billion in AIFP investments,24 out of an
  initial projected funding total of $25 billion.25 Subsequent to the Initial Report,
  the manufacturers (GM and Chrysler) submitted restructuring plans to Treasury
  on February 17, 2009, as required.26 Upon submission, the President’s Designee
  on the Auto Industry determined that these restructuring plans did not meet the
  threshold for long-term viability. However, on March 30, 2009, both GM and
  Chrysler were granted extensions to complete the restructuring plans in order
  to comply with the requirements set forth under AIFP. As a modification to the
  existing loans, GM will receive up to $5 billion and Chrysler up to $500 million
  in additional working capital during the extension period.27 See the discussion
36            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       of “Automotive Industry Financing Program” later in this section for a detailed
                                                       discussion of the GM and Chrysler restructuring plans. In addition to the initial
                                                       $25 billion committed in AIFP, Treasury has recently announced two new sub-
                                                       programs to assist the automobile industry.
                                                       • Auto Supplier Support Program (“ASSP”). As an expansion of AIFP, the
                                                           stated purpose of ASSP is to provide up to $5 billion of Government-backed
                                                           financing to break the adverse credit cycle affecting the auto suppliers and
                                                           the manufacturers by “providing suppliers with the confidence they need to
                                                           continue shipping their parts and the support they need to help access loans
                                                           to pay their employees and continue their operations.”28 See the discussion
                                                           of “Auto Supplier Support Program” for more information.
                                                       • Auto Warranty Commitment Program. As another complementary pro-
                                                           gram to AIFP, the Auto Warranty Commitment Program was devised by the
                                                           Administration with the stated intent to bolster consumer confidence in au-
                                                           tomobile warranties on GM- and Chrysler-built vehicles. In order to reassure
                                                           consumers that their auto warranties will be honored during this period of
                                                           restructuring, the Administration will provide Government-backed financ-
                                                           ing. Treasury preliminarily discussed potential funding for the Auto Warranty
                                                           Commitment Program for up to an estimated $1.1 billion.29 See the discus-
                                                           sion of “Auto Warranty Commitment Program” for more information.
                                                     • Term Asset-Backed Securities Loan Facility (“TALF”). TALF was originally
                                                       intended to increase the credit available for consumer and small-business loans
     Credit Protection: Security against losses        through a Federal Reserve loan program backed by TARP funds. TALF pro-
     on an investment. For TALF purposes,              vides non-recourse loans to investors secured by certain types of asset-backed
     TARP funding is used as credit protection         securities. TALF was originally announced as a $200 billion Federal Reserve
     on the Federal Reserve loans (i.e., losses        loan program under which Treasury provides $20 billion in credit protection to
     on the loans are absorbed by TARP funds           the Federal Reserve.30 Treasury and the Federal Reserve have announced plans
     up to the commitment amount).                     to expand TALF to cover additional asset classes, including legacy mortgage-
                                                       backed securities, which could bring the total facility funding up to $1 trillion,31
     Legacy Loans: Underperforming real
                                                       for which Treasury will provide up to $80 billion in TARP funds to absorb
     estate-related loans held by a bank that
                                                       losses.32 An overview of TALF, later in this section, provides more information
     it wishes to sell, but recent market
     disruptions have made difficult to price.
                                                       on these activities.
                                                     • Public-Private Investment Program (“PPIP”). On March 23, 2009, Treasury
     Legacy Securities: Troubled real estate-          announced a coordinated effort with FDIC in an attempt to improve the health
     related securities (residential mortgage-         of financial institutions holding real estate-related assets in order to increase
     backed securities (“RMBS”), commercial            the flow of credit throughout the economy. Within two subprograms, PPIP will
     mortgage-backed securities (“CMBS”),              involve investments in multiple Public-Private Investment Funds (“PPIFs”) to
     and asset-backed securities (“ABS”))              purchase real estate-related loans (“legacy loans”) and real estate-related securi-
     lingering on institutions’ balance sheets         ties (“legacy securities”) from financial institutions. The program, involving up
     due to an inability to determine value.           to $1 trillion in total, will utilize up to $75 billion of TARP funds.33
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                               37




• Unlocking Credit for Small Businesses (“UCSB”). On March 16, 2009,
                                                                                            Secondary Market: Created when banks
  Treasury announced that it will begin purchasing up to $15 billion in securities
                                                                                            sell a portion of their loans to a dealer
  backed by Small Business Administration (“SBA”) loans. As demand has dimin-
                                                                                            who then pools the loans together and
  ished in the secondary market for these securities due to adverse credit condi-
                                                                                            sells portions of the loan pools as securi-
  tions, there has been a reduction in the volume of new small-business loans               ties to investors. The secondary market
  written by banks. In connection with this program, the Treasury Secretary also            serves as a source of cash for banks,
  called for the largest 21 banks that have received TARP funds to begin reporting          providing them money to make new
  monthly the amount of their small-business lending.34                                     loans.
• Making Home Affordable (“MHA”) Program. On March 4, 2009, Treasury
  announced its MHA program, which might expend up to $50 billion of TARP
  funds.35 MHA is a foreclosure mitigation plan intended to “help bring relief to
                                                                                             FIGURE 2.1
  responsible homeowners struggling to make their mortgage payments, while
  preventing neighborhoods and communities from suffering the negative spill-                 TARP PROJECTED FUNDING,
                                                                                              BY PROGRAM
  over effects of foreclosure, such as lower housing prices, increased crime, and             $ Billions, % of $700 Billion
  higher taxes.”36 Treasury, along with other Federal agencies, “will undertake a
  comprehensive multiple-part strategy,” which will provide for (i) a $75 billion                  New Programs, or
                                                                                                    Remaining Funds            2% AGP $12.5
  loan modification program for homeowners in default on their payments or                               for Existing
                                                                                                   Programs $109.5                 AIFP $25.0
  facing imminent default; (ii) a streamlined refinancing process for homeowners
                                                                                                                                4%
  whose loans are serviced by Fannie Mae or Freddie Mac; and (iii) approximately               UCSB                  16%
                                                                                               $15.0 2%
  $200 billion to support Fannie Mae and Freddie Mac.37 The funds for this effort         ASSP $5.0 1%
  will be provided from both TARP- and non-TARP-related sources.                             PPIP $75.0 11%
                                                                                                                                          31% CPP $218.0


   The following figures and tables provide a status summary of the implemented                               7%
                                                                                              MHA $50.0
                                                                                                                   6%              10%
and announced TARP and TARP-related initiatives:                                                                            11%
                                                                                                      TIP $40.0
                                                                                                                                      SSFI $70.0
                                                                                                                            TALF $80.0
• total funds subject to SIGTARP oversight (Table 2.1)
• projected TARP funding for all implemented and announced programs under
                                                                                                 Implemented Programs
  TARP (Figure 2.1)                                                                              Announced Programs
• expenditure levels by program as of March 31, 2009 (Table 2.2)                                 Remaining Funds

• cumulative expenditures over time for implemented programs (Figure 2.2)
                                                                                              Note: Numbers affected by rounding. As of 3/31/2009, funding for
• expenditures by program snapshot as of March 31, 2009 (Figure 2.3)                          Capital Assistance Program (“CAP”) to be determined. Treasury
                                                                                              preliminarily discussed potential funding for the Auto Warranty
• summary of terms of TARP agreements (Table 2.3 and Table 2.4)                               Commitment Program for up to $1.25 billion.
• summary of dividend and interest payments received by program (Table 2.5)                   Sources: See final endnote.



  For a reporting of all purchases, obligations, expenditures, and revenues of
TARP, see Appendix C: “Reporting Requirements.”
38               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.1

      TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT,
      AS OF MARCH 31, 2009 ($ BILLIONS)
                                                                                                                                                    Total Projected                     Projected TARP
      Program                                                      Brief Description or Participant                                                     Funding ($)                         Funding ($)
      Capital Purchase Program (“CPP”)                             Investments in 532 banks to date; 8                                                         $218.0                               $218.0
                                                                   institutions total $125 billion
      Automotive Industry Financing Program                        GM, Chrysler, GMAC, Chrysler Financial                                                        $25.0                                $25.0
      (“AIFP”)
      Auto Supplier Support Program (“ASSP”)                       Government-backed protection for auto parts                                                     $5.0                                $5.0
                                                                   suppliers
      Unlocking Credit for Small Businesses                        Purchase of securities backed by SBA loans                                                    $15.0a                               $15.0
      (“UCSB”)
      Systemically Significant Failing Institutions                AIG Investment                                                                                $70.0                                $70.0b
      (“SSFI”)
      Targeted Investment Program (“TIP”)                          Citigroup, Bank of America Investments                                                        $40.0                                $40.0
      Asset Guarantee Program (“AGP”)                              Citigroup, Bank of America, Ring Fence Asset                                                $419.0c                                $12.5d
                                                                   Guarantee
      Term Asset-Backed Securities Loan Facility                   FRBNY non-recourse loans for purchase of                                                 $1,000.0                                  $80.0
      (“TALF”)                                                     asset-backed securities
      Making Home Affordable (“MHA”) Program                       Modification of mortgage loans                                                                $75.0e                               $50.0
      Public-Private Investment Program (“PPIP”)                   Disposition of legacy assets; Legacy Loans                                  $500.0 – $1,000.0                                      $75.0
                                                                   Program, Legacy Securities Program
                                                                   (expansion of TALF)
      Capital Assistance Program (“CAP”)                           Capital to qualified financial institutions;                                                    TBD                                  TBD
                                                                   includes stress test
      New Programs, or Funds Remaining for                         Potential additional funding related to CAP; AIFP;                                          $109.5                               $109.5f
      Existing Programs                                            Auto Warranty Commitment Program; other
      Total                                                                                                                               $2,476.5 – $2,976.5                                      $700.0

      Note: Numbers affected by rounding.
      a Treasury announced that it would purchase up to $15 billion in securities under the Unlocking Credit for Small Businesses program.
      b A new equity capital facility will be created by Treasury allowing AIG to draw down up to $30 billion as needed.
      c Bank of America’s pool of assets has not been finalized.
      d Bank of America’s $7.5 billion of projected TARP funds is preliminary based on the 1/15/2009 Treasury announcement and pending the finalized agreement.
      e
        $75 billion is for mortgage modification.
      f Treasury preliminarily discussed potential funding for the Auto Warranty Commitment Program for up to $1.25 billion.


      Sources: CPP, TALF, and PPIP: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; AIFP: Treasury, Fifth Tranche Report to Congress, 3/6/2009, p. 2 states
      that Treasury will fund an additional $4 billion on 3/17/2009; ASSP: Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, www.treas.gov, accessed
      3/19/2009; UCSB: Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009; SSFI: Treasury, “U.S. Treasury and Federal Reserve
      Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov, accessed 3/4/2009; TIP: Treasury, Transactions Report, 4/2/2009; AGP: Treasury, “Treasury, Federal Reserve, and
      FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009; Treasury, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009,
      www.treas.gov, accessed 3/30/2009; TALF: Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, www.treas.gov, accessed 3/17/2009; MHA: Treasury, “Making Home Affordable: Updated Detailed
      Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009; GAO, “Report to Congressional Committees: Troubled Asset Relief Program — March 2009 Status of Efforts to Address Transpar-
      ency and Accountability Issues,” 3/26/2009; PPIP: Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 3/23/2009; Treasury, SIGTARP briefing, 4/14/2009.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                              39




TABLE 2.2

 EXPENDITURE LEVELS BY PROGRAM, AS OF MARCH 31, 2009                                                       ($ BILLIONS)

                                                                                             Amount                             Percent (%)             Section Reference
Authorized Under EESA                                                                                           $700.0
Released Immediately                                                                    $250.0                                       35.7%
Released Under Presidential Certificate of Need                                         $100.0                                       14.3%
Released Under Presidential Certificate of Need &                                       $350.0                                       50.0%
Resolution to Disapprove Failed
TOTAL RELEASED                                                                                                 $700.0             100.0%
Less: Expenditures by Treasury Under TARPa
Capital Purchase Program (“CPP”):
      Bank of America Corporationb                                    $25.0                                                           3.6%
      Citigroup, Inc.                                                 $25.0                                                           3.6%
      JP Morgan Chase & Co.                                           $25.0                                                           3.6%
      Wells Fargo and Company                                         $25.0                                                           3.6%              “Capital Investment Programs”
      The Goldman Sachs Group Inc.                                    $10.0                                                           1.4%
      Morgan Stanley                                                  $10.0                                                           1.4%
      Other Qualifying Financial Institutionsc                        $78.8                                                          11.3%
CPP TOTAL                                                                               $198.8                                      28.4%
Systemically Significant Failing Institutions
Program (“SSFI”):                                                                                                                      5.7%             “Institution-Specific Assistance”
      American International Group, Inc. (“AIG”)                      $40.0
SSFI TOTAL                                                                              $40.0                                         5.7%
Targeted Investment Program (“TIP”):
      Bank of America Corporation                                     $20.0                                                            2.9%             “Institution-Specific Assistance”
      Citigroup, Inc.                                                 $20.0                                                            2.9%
TIP TOTAL                                                                               $40.0                                         5.7%
Asset Guarantee Program (“AGP”):
      Citigroup, Inc.d                                                  $5.0                                                           0.7%             “Institution-Specific Assistance”

AGP TOTAL                                                                                 $5.0                                        0.7%
Automotive Industry Financing Program (“AIFP”):
     General Motors Corporation (“GM”)          $14.3                                                                                  2.0%
     General Motors Acceptance Corporation LLC                                                                                                          “Automotive Industry Financing
       (“GMAC”)                                  $5.0                                                                                  0.7%             Program”
     Chrysler Holding LLC                        $4.0                                                                                  0.6%
     Chrysler Financial Services Americas LLCe   $1.5                                                                                  0.2%
AIFP TOTAL                                                                              $24.8                                         3.5%
Term Asset-Backed Securities Loan Facility (“TALF”):                                                                                                    “Term Asset-Backed Securities Loan
     TALF LLC                                        $20.0                                                                             2.9%             Facility”
TALF TOTAL                                                                              $20.0                                         2.9%
SUBTOTAL – TARP EXPENDITURES                                                                                   $328.6                47.0%
TARP REPAYMENTSf                                                                                                   $(0.4)            (0.1)%
BALANCE REMAINING OF TOTAL FUNDS                                                                               $371.8               53.1%
MADE AVAILABLE AS OF MARCH 31, 2009

Note: Numbers affected by rounding.
a From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).
b Bank of America’s share is equal to two CPP investments totaling $25 billion, which is the sum $15 billion received on 10/28/2008 and $10 billion received on 1/9/2009.
c Other Qualifying Financial Institutions (“QFIs”) include all QFIs that have received less than $10 billion through CPP.
d Treasury committed $5 billion to Citigroup under AGP; however, this funding is conditional based on losses realized and may potentially never be expended.
e Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. This $1.5 billion has not been fully expended because the loan will be funded incrementally at $100 million per
  week. As of 3/31/2009, $1,175 million out of the $1.5 billion has been funded.
f As of 3/31/2009, CPP repayments total $353.0 million and AIFP loan principal payments (Chrysler Financial) total $3.5 million.


Sources: EESA, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act of 2008,” 1/15/2009, www.
thomas.loc.gov, accessed 1/25/2009; Treasury, Transactions Report, 4/2/2009; Treasury, responses to SIGTARP data call, 4/6/2009 and 4/8/2009.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                   FIGURE 2.2
                                   EXPENDITURES, BY PROGRAM, CUMULATIVE
                                   $ Billions


                                   350
                                                                                                                                                               $5.0 AGP
                                                                                                                                                                   b
                                   300                                                                                                                        $24.8 AIFP
                                                                                                                                                              $20.0 TALF
                                   250                                                                                                                        $40.0 TIP

                                                                                                                                                              $40.0 SSFI
                                   200

                                   150

                                   100                                                                                                                             a
                                                                                                                                                              $198.8 CPP

                                    50

                                     0
                                      10/28                      11/25                  12/31                      1/30                      2/27      3/31
                                                                 2008                                                             2009
                                                AGP
                                                AIFP
                                                TALF
                                                TIP
                                                SSFI
                                                CPP


                                   Note: Numbers affected by rounding.
                                   a As of 3/31/2009, $353.0 million of CPP funding has been repaid.
                                   b As of 3/31/2009, $3.5 million of principal payments related to AIFP loans (Chrysler Financial) has been repaid.


                                   Sources: Treasury, Transactions Report, 4/2/2009; Treasury response to SIGTARP data call, 4/8/2009.


                                                  FIGURE 2.3

                                                  EXPENDITURES BY PROGRAM,
                                                  SNAPSHOT
                                                  $ Billions, % of $328.6 Billion



                                                                  2% AGP $5.0
                                                                            b
                                                              AIFP $24.8
                                                        TALF $20.0
                                                                                8%
                                                                       6%

                                                  TIP $40.0 12%                                                 a
                                                                                                  60% CPP $198.8


                                                   SSFI $40.0       12%




                                                   Note: Numbers affected by rounding.
                                                   a As of 3/31/2009, $353.0 million of CPP funding has been repaid.
                                                   b As of 3/31/2009, $3.5 million of principal payments related to AIFP
                                                     loans (Chrysler Financial) has been repaid.

                                                   Source: Treasury, Transactions Report, 4/2/2009.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                                  41




TABLE 2.3

EQUITY AGREEMENTS
TARP                               “Date of              Cost                 Description of                      Investment                                                    Term of
Program            Company         Agreement”            Assigned             Investment                          Information                           Dividends               Agreement
CPP – Public       280 QFIs        10/14/2008a           $195.6 billionb Senior Preferred Equity                  1-3% of Risk Weighted                 5% for first 5          Perpetual
                                   and later                                                                      Assets, not to exceed                 years,
                                                                                                                  $25 billion for each QFI              9% thereafter
                                                                              Common Stock                        15% of Senior Preferred               —                       Up to 10 years
                                                                              Purchase Warrants                   amount
CPP – Private 252 QFIs             11/17/2008c               $3.2 billionb Preferred Equity                       1-3% of Risk Weighted                 5% for first 5          Perpetual
                                   and later                                                                      Assets, not to exceed                 years,
                                                                                                                  $25 billion for each QFI              9% thereafter
                                                                              Preferred Stock Purchase 5% of Preferred amount                           9%                      Up to 10 years
                                                                              Warrants that are exercised
                                                                              immediately
SSFI                AIG            11/25/2008                 $40 billion Perpetual Senior Preferred $40 billion aggregate                              10%                     Perpetual
                                                                          Equity                     liquidation preference
                                                                              Common Stock                        2% of issued and                      —                       Up to 10 years
                                                                              Purchase Warrants                   outstanding Common
                                                                                                                  Stock on investment date;
                                                                                                                  $2.50 strike price
TIP                Citigroup       12/31/2008                 $20 billion Senior Preferred Equity                 $20 billion                           8%                      Perpetual
                                                                              Warrants                            10% of total Preferred                —                       Up to 10 years
                                                                                                                  Stock issued; $10.61
                                                                                                                  strike price
TIP                Bank of         1/16/2009d                 $20 billion Senior Preferred Equity                 $20 billion                           8%                      Perpetual
                   America
                                                                              Warrants                            10% of total Preferred                —                       Up to 10 years
                                                                                                                  Stock issued; $13.30
                                                                                                                  strike price
AIFP               GMAC LLC        12/29/2008                   $5 billion Senior Preferred                       $5 billion                            8%                      Perpetual
                                                                           Membership Interests
                                                                              Preferred Stock Purchase            5% of Preferred amount                9%                      Up to 10 years
                                                                              Warrants that are
                                                                              exercised immediately

Notes:
a Announcement date of CPP Public Term Sheet.
b As of 3/31/2009, $353.0 million of CPP funding has been repaid ($338.0 million Public, $15.0 million Private).
c Announcement date of CPP Private Term Sheet.
d Date from Treasury’s Transactions Report, dated 1/27/2009. The Security Purchase Agreement has a date of 1/15/2009.


Sources: Treasury, Transactions Report, 4/2/2009; Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury,
“TARP Capital Purchase Program Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase
Agreement dated as of November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock
and Warrant, Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program,
Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008.
42               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.4

     DEBT AGREEMENTS
     TARP                                Date of               Cost                 Description of                  Investment                                Interest/                 Term of
     Program             Company         Agreement             Assigned             Investment                      Information                               Dividends                 Agreement
     AIFP                General     12/31/2008                       $13.4         Debt Obligation with    Loan is funded incrementally;  LIBOR + 3%                                   12/29/2011
                         Motors                                       billion       Warrants and Additional $4 billion funded on
                         Corporation                                                Note                    12/29/2008, $5.4 billion
                                                                                                            funded on 1/21/2009,
                                                                                                            $4 billion funded on 2/17/2009
     AIFP                General         1/16/2009             $884 million         Debt Obligation                 To purchase Class B                       LIBOR + 3%                1/16/2012
                         Motors                                                                                     membership interest of
                                                                                                                    GMAC LLC
     AIFP                Chrysler    1/2/2009a                     $4 billion       Debt Obligation with            Loan up to $4 billion, available          3% or 8% (if the  1/2/2012
                         Holding LLC                                                Additional Note                 on the closing date; Additional           company is in
                                                                                                                    note of $267 million (6.67% of            default of its
                                                                                                                    the maximum loan amount)                  terms under the
                                                                                                                                                              agreement) plus
                                                                                                                                                              the greater of a)
                                                                                                                                                              three-month LIBOR
                                                                                                                                                              or b) LIBOR floor
                                                                                                                                                              (2.00%)
     AIFP                Chrysler        1/16/2009              $1.5 billionb       Debt Obligation with            Loan is funded incrementally              LIBOR + 1% for            1/16/2014
                         Financial                                                  Additional Note                 at $100 million per week;                 first year
                                                                                                                    Additional note is $75 million            LIBOR + 1.5% for
                                                                                                                    (5% of total loan size), which            remaining
                                                                                                                    vests 20% on closing and 20%
                                                                                                                    on each anniversary of closing

     Notes:
     a Date from Treasury’s Transactions Report, dated 1/27/2009. The Security Purchase Agreement has a date of 12/31/2008.
     b As of 3/31/2009, $3.5 million of principal payments related to AIFP loans has been repaid.


     Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
     12/31/2008; Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan
     and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler,
     Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,”
     1/16/2009; Treasury, response to SIGTARP draft, 1/30/2009.


                                                                        TABLE 2.5

                                                                         DIVIDEND AND INTEREST PAYMENTS,
                                                                         BY PROGRAM ($ MILLIONS)
                                                                         Program                                            Amount
                                                                         CPP                                              $2,517.9
                                                                         SSFI                                                        –
                                                                         TIP                                                  $328.9
                                                                         AGP                                                   $26.9
                                                                         AIFP                                                 $250.6
                                                                         TOTAL                                           $3,124.3

                                                                        Note: Numbers affected by rounding. Data as of 3/31/2009.
                                                                        Source: Treasury, response to SIGTARP data call, 4/8/2009.
                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                               43




                                                                                                  For more information regarding the
CAPITAL INVESTMENT PROGRAMS                                                                       CPP application process, refer to
Treasury has created two TARP initiatives aimed at facilitating the investment                    SIGTARP’s Initial Report, Section
of capital in financial institutions. According to Treasury, the Capital Purchase                 3: “TARP Implementation and
                                                                                                  Administration.”
Program (“CPP”), announced in October 2008, was created to stabilize the finan-
cial system by providing capital to institutions of all sizes. Treasury announced the             FIGURE 2.4

establishment of the Capital Assistance Program (“CAP”) in February 2009, with                    CPP EXPENDITURES, BY PARTICIPANT,
                                                                                                  CUMULATIVE
the intent to ensure that banks have a sufficient capital cushion to withstand larger-            $ Billions, % of $198.8 Billion
than-expected losses in the future. A comparison of the terms of each program can
be found in Table 2.15 in the “CAP Terms” discussion in this section.
                                                                                                              Other
                                                                                                       Institutions                     Bank of America
                                                                                                             $78.8                      $25.0
Capital Purchase Program
                                                                                                                   40%           12.5%
Under CPP, as of March 31, 2009, Treasury anticipated that $218 billion38 of                                                                 JPMorgan
                                                                                                                                             Chase
TARP funds will eventually be invested in Qualifying Financial Institutions                                                            12.5% $25.0
(“QFIs”), which include private and public U.S.-controlled banks, savings asso-
ciations, bank holding companies, and certain savings and loan holding compa-                                                          12.5% Wells Fargo
                                                                                                                                                   $25.0
nies.39 Treasury originally announced that CPP would be a $250 billion program,
                                                                                                                      5%
but, on March 30, 2009, stated that it now forecasts only expending $218 billion.                                          5% 12.5%
                                                                                                    Morgan Stanley                   Citigroup
According to Treasury, the intention of CPP is to invest in healthy, viable banks in                        $10.0                    $25.0
order to promote financial stability, maintain confidence in the financial system,                                          Goldman Sachs
                                                                                                                            $10.0
and permit institutions to continue meeting the credit needs of American consum-
ers and businesses.40 For a summary of the distribution of CPP funding by partici-
                                                                                                  Note: Numbers affected by rounding. As of 3/31/2009, $353 million
pant, see Figure 2.4.                                                                             has been redeemed. Bank of America = Bank of America
                                                                                                  Corporation; JPMorgan Chase = JPMorgan Chase & Co.;
    Treasury issued initial guidelines for public applicants for CPP on October 20,               Wells Fargo = Wells Fargo and Company; Citigroup = Citigroup Inc.;
                                                                                                  Goldman Sachs = The Goldman Sachs Group, Inc.
2008.41 Guidelines were released for private applicants on November 17, 2008,42
                                                                                                  Source: Treasury, Transactions Report, 4/2/2009.




Qualifying Financial Institutions (“QFIs”):   Savings and Loan Holding Company                  Private Applicant: Any QFI whose shares
Private and public U.S.-controlled banks,     (“SLHC”): A company (other than a BHC)            are not traded on a national securities
savings associations, bank holding compa-     that controls a savings association.              exchange, excluding S corporations and
nies, and certain savings and loan holding                                                      mutual organizations.
companies.                                    Public Applicant: A QFI whose securities are
                                              traded on a national securities exchange          S Corporation: Any U.S. bank, U.S. savings
Bank Holding Company (“BHC”): A company       and is required to file, under national securi-   association, bank holding company (“BHC”),
that controls a bank. Typically, a company    ties laws, periodic reports with either the       or savings and loan holding company
controls a bank through the ownership of      Securities and Exchange Commission or its         (“SLHC”) organized such that it is exempt
25% or more of its voting securities.         primary Federal banking regulator.                from most Federal income taxes as they
                                                                                                are passed through to the shareholders.
44            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TABLE 2.6

                                                     KEY DATES AND DEADLINES FOR CPP APPLICATION PROCESS,
                                                     BY APPLICANT CATEGORY
                                                     Type                                                   Announced Date                             Application Deadline
                                                     Publicly Held                                          10/20/2008                                 11/14/2008
                                                     Privately Held                                         11/17/2008                                 12/8/2008
                                                     “S” Corporation                                        1/14/2009                                  2/13/2009
                                                     Mutual Organization                                    4/7/2009                                   5/7/2009

                                                     Note: Private QFIs are those that are non-public QFIs, excluding S corporations and mutual organizations. Data as of 4/7/2009.

                                                     Sources: Publicly Held: Treasury, “Application Guidelines for TARP Capital Purchase Program,” no date, www.treas.gov, accessed
                                                     1/22/2009; Privately Held: Treasury, “Process Related FAQs for Private Bank Capital Purchase Program,” no date, www.treas.gov,
                                                     accessed 1/22/2009; “S” Corporation: Treasury, “S Corporation FAQs,” no date, www.treas.gov, accessed 1/22/2009; Mutual
                                                     Organization: Treasury, “Process Related FAQs for the Capital Purchase Program, Mutual Holding Company FAQs,” 4/7/2009, www.
                                                     financialstability.gov, accessed 4/7/2009.




     Mutual Organization: A corporation that         for “S” corporations on January 14, 2009,43 and on April 7, 2009, guidelines were
     is owned by depositors which distributes        released for mutual organizations.44 Key dates for each type of institution that may
     income in proportion to the amount
                                                     apply for CPP funding are outlined in Table 2.6.
     of business that members do with the
     company.
                                                     Program Updates
                                                     The CPP process remains largely the same since SIGTARP’s Initial Report, with
                                                     the exception being the modifications contained in the American Recovery and
                                                     Reinvestment Act of 2009 (“ARRA”), which imposed more stringent executive
                                                     compensation requirements and changed the terms under which a TARP recipient
                                                     could pay back Treasury investments. The new repayment terms provide greater
                                                     flexibility by removing time restrictions and no longer requiring the bank to demon-
                                                     strate that it has received private equity investment in proportion to the funds that
                                                     it seeks to repay. Under ARRA, EESA’s executive compensation provisions were
                                                     amended to detail the number of employees subject to more stringent guidelines
                                                     based on level of funding. The amendments also require TARP recipients to create
                                                     a Board Compensation Committee, submit a certification of compliance, and re-
                                                     quire the Treasury Secretary to review prior compensation payments.45 For more in-
                                                     formation on the amended executive compensation restrictions, see the “Executive
                                                     Compensation” discussion in this section.
                                                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009          45




FIGURE 2.5

TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




   $10 Billion or More
   $1 Billion to $10 Billion
   $100 Million to $1 Billion
   $10 Million to $100 Million
   Less than $10 Million
   $0

Note: Banks in Montana and Vermont had not received any funds as of 3/31/2009.

Source: Treasury, “Local Impact of the Capital Purchase Program,” 3/31/2009, www.financialstability.gov, accessed
3/31/2009.




Status of CPP Funds                                                                                                            Preferred Stock: A form of ownership in a
As of March 31, 2009, Treasury had purchased $198.8 billion in preferred stock                                                 company that generally entitles the owner
from 532 different QFIs in 48 states, the District of Columbia, and Puerto Rico.46                                             of the shares (an investor) to collect
Closings for CPP purchases generally occur each week on Friday, and information                                                dividend payments. Preferred shares are
about the transaction is made publicly available by the following Tuesday. For the                                             senior to common stock, but junior to
geographical distribution of all the QFIs that have received funding see Figure 2.5.                                           debt.
For a full listing of CPP recipients, see Appendix C: “Reporting Requirements.”
46               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                         Although the eight largest investments accounted for $134.2 billion of the pro-
     Market Capitalization: The value of a
                                                                     gram, CPP has also had many more modest investments: 206 of the 532 recipients
     corporation determined by multiplying
     the current market price of one share of                        received less than $10 million each. Table 2.7 shows the distribution of recipients
     the corporation by the number of total                          based on their market capitalization, and Table 2.9 shows the 10 largest firms that
     outstanding shares. This is an important                        received funds. Table 2.8 and Table 2.10 show the distribution of the investments
     metric because it is often used to deter-                       by size. A full listing of all public recipients’ market capitalization can be found in
     mine the aggregate value of a company.                          Appendix C: “Reporting Requirements.”
                                                                         On February 6, 2009, the Congressional Oversight Panel (“COP”) released a re-
                                                                     port in which it discussed a valuation analysis conducted with respect to Treasury’s
                                                                     investments. The report concluded that “Treasury paid substantially more for
                                                                     the assets it purchased under TARP than their then-current market value.” The


TABLE 2.7                                                            TABLE 2.9

PUBLIC CPP RECIPIENTS BY                                              TOP 10 PUBLIC CPP RECIPIENTS BY MARKET CAPITALIZATION ($ BILLIONS)
MARKET CAPITALIZATION                                                Company                                                      Market Capitalization                       CPP Funding Received
$20 Billion or More                                       7          JPMorgan Chase & Co.                                                                 $99.9                              $25.0
$1 Billion to $20 Billion                               29           Wells Fargo & Company                                                                $60.4                              $25.0
$100 Million to $1 Billion                              82           The Goldman Sachs Group, Inc.                                                        $49.0                              $10.0
Less than $100 Million                                 154           Bank of America Corporation                                                          $43.7                              $25.0

Note: Data accessed 4/1/2009 10:20am.                                Bank of New York Mellon Corporation                                                  $32.5                               $3.0

Sources: Treasury, Transactions Report, 3/31/2009; Capital
                                                                     U.S. Bancorp                                                                         $25.7                               $6.6
IQ, Inc., a Division of Standard & Poor’s. 
                                                                     Morgan Stanley                                                                       $24.6                              $10.0
                                                                     American Express Company                                                             $15.8                               $3.4
                                                                     Citigroup, Inc.                                                                      $13.9                              $25.0
                                                                     Northern Trust Corporation                                                           $13.4                               $1.6

                                                                     Note: Data accessed 4/1/2009 10:20am. Numbers affected by rounding.

                                                                     Sources: Treasury, Transactions Report, 3/30/2009; Capital IQ, Inc., a Division of Standard & Poor’s. 


TABLE 2.8                                                            TABLE 2.10

CPP INVESTMENT SIZE                                                   CPP INVESTMENT SUMMARY
$10 Billion or More                                             6    Largest Capital Investment                          $25 Billion
$1 Billion to $10 Billion                                       18   Smallest Capital Investment                         $301,000
$100 Million to $1 Billion                                      56   Average Capital Investment                     $372.2 Million
Less than $100 Million                                     452       Median Capital Investment                          $15 Million
TOTAL                                                     532
                                                                     Note: Data as of 3/31/2009. Bank of America Corporation
Note: Data as of 3/31/2009. Bank of America Corporation              and SunTrust Banks, Inc., each received funds in two separate
and SunTrust Banks, Inc., each received funds in two separate        transactions.
transactions.                                                        Source: Treasury, Transactions Report, 3/31/2009.

Source: Treasury, Transactions Report, 3/31/2009.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                                   47




report estimated that for every $100 spent on the eight largest CPP transactions of
2008, Treasury received assets worth approximately $78.47 In addition to the COP
analysis, on April 4, 2009, the Congressional Budget Office (“CBO”) issued a new
estimate of $356 billion as the “ultimate cost to taxpayers” for assistance to finan-                                                           Warrant: The right, but not the obligation,
cial institutions under TARP. In other words, CBO projects that Treasury will only                                                              to purchase shares of common stock at a
recover $344 billion, or approximately 49%, of the $700 billion of TARP funds.48                                                                fixed price.

Warrants Received by Treasury                                                                                                                   Common Stock: A security that provides
As discussed in the Initial Report, Treasury receives warrants of common stock                                                                  voting rights in a corporation and pays
from publicly traded CPP participants.49 Appendix H: “Warrants” includes a full                                                                 a dividend after preferred stockholders
listing and status of all warrants from publicly traded CPP participants. As of                                                                 have been paid.
March 31, 2009, no warrants of common stock in public companies had been
exercised. Table 2.11 outlines Treasury’s warrant positions from its 10 largest CPP
                                                                                                                                                For more information regarding
investments.
                                                                                                                                                the mechanics of warrants, refer to
                                                                                                                                                SIGTARP’s Initial Report, Section 2:
                                                                                                                                                “TARP Overview.”
TABLE 2.11

LARGEST POSITIONS IN WARRANTS HELD BY TREASURY AS OF MARCH 31, 2009
                                                                                                                                                                  Amount “In     Percent
                                                               Stock Price                                  Strike Price                                       the Money” or Change in
                                                                     as of              Number of             as Stated            Stock Price          In or     “Out of the Stock Price
                                        Transaction            Transaction               Warrants                 in the                 as of          Out of  Money” as of Since Initial
Participant                             Date                         Date                Received           Agreements             3/31/2009            Money?   3/31/2009        Report
Bank of America Corporation 10/28/2008                                $23.02           48,717,116                   $30.79                  $6.82       OUT                      (23.97)                9.3%
Bank of America Corporation 1/9/2009                                  $12.99           73,075,674                   $30.79                  $6.82       OUT                      (23.97)                9.3%
Citigroup Inc.                          10/28/2008                    $13.41         210,084,034                    $17.85                  $2.53       OUT                      (15.32)             -27.1%
JPMorgan Chase & Co.                    10/28/2008                    $37.60           88,401,697                   $42.42                $26.58        OUT                      (15.84)                9.5%
Wells Fargo & Company                   10/28/2008                    $34.46         110,261,688                    $34.01                $14.24        OUT                      (19.77)             -10.3%
Morgan Stanley                          10/28/2008                    $15.20           65,245,759                   $22.99                $22.77        OUT                        (0.22)             21.7%
The Goldman Sachs Group,
                                        10/28/2008                    $93.57           12,205,045                 $122.90               $106.02         OUT                      (16.88)              41.5%
Inc.
The PNC Financial Services
                                        12/31/2008                    $49.00           16,885,192                   $67.33                $29.29        OUT                      (38.04)               -3.2%
Group Inc.
U.S. Bancorp                            11/14/2008                    $26.30           32,679,102                   $30.29                $14.61        OUT                      (15.68)               -0.2%
SunTrust Banks, Inc.                    11/14/2008                    $33.52           11,891,280                   $44.15                $11.74        OUT                      (32.41)             -21.6%
SunTrust Banks, Inc.                    12/31/2008                    $29.54             6,008,902                  $33.70                $11.74        OUT                      (21.96)             -21.6%
Capital One Financial
                                        11/14/2008                    $31.19           12,657,960                   $42.13                $12.24        OUT                      (29.89)             -36.7%
Corporation

Note: Bank of America Corporation and SunTrust Banks, Inc., each received funds in two separate transactions.

Sources: Participants and Transaction Date: Treasury, Transactions Report, 3/31/2009, www.financialstability.gov, accessed 3/31/2009; Market price data: Capital IQ, Inc. (a division of Standard & Poor’s),
www.capitaliq.com, accessed 3/12/2009 at 11:00am EST and 4/2/2009 at 2:00pm EST; Number of warrants and strike price: Treasury, response to SIGTARP data call, 4/1/2009.
48           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    TABLE 2.12

                                                    TOP 10 CUMULATIVE DIVIDENDS PAID BY CPP RECIPIENTS SINCE
                                                    PROGRAM IMPLEMENTATION ($ MILLIONS)
                                                    Company                                                                                   Size of Cumulative Dividends
                                                    JPMorgan Chase and Co.                                                                                                    $427.1
                                                    Citigroup Inc.                                                                                                             371.5
                                                    Wells Fargo and Company                                                                                                    371.5
                                                    Bank of America Corporation                                                                                                272.9
                                                    Goldman Sachs Group Inc.                                                                                                   148.6
                                                    Morgan Stanley                                                                                                             106.9
                                                    US Bancorp                                                                                                                  83.4
                                                    Suntrust Banks, Inc.                                                                                                        72.9
                                                    Bank of New York Mellon Corporation                                                                                         59.2
                                                    The PNC Financial Services Group, Inc.                                                                                      47.4
                                                    TOP 10 TOTAL                                                                                                         $1,961.4

                                                    Note: Numbers affected by rounding. Data as of 3/31/2009. Bank of America Corporation paid an additional $128.9 million
                                                    under TIP. Citigroup, Inc. paid an additional $26.9 million under AGP and $200 million under TIP.

                                                    Sources: Treasury, response to SIGTARP data call, 4/8/2008; Treasury, response to SIGTARP draft, 4/9/2009.




                                                    Dividends Received by Treasury
                                                    As of March 31, 2009, Treasury had received approximately $2.5 billion in divi-
                                                    dends from preferred stock investment through CPP. Most CPP recipients made
                                                    a dividend payment on February 15, 2009; however, eight recipients did not
                                                    declare dividends due to a lack of necessary regulatory and/or shareholder approv-
                                                    als. According to the CPP terms, six missed payments give Treasury the right to
                                                    elect two members to the board of directors.50 For a detailed table of the dividends
                                                    received by Treasury from all programs under TARP, see Appendix C: “Reporting
                                                    Requirements.”
                                                        The top 10 largest dividends paid by CPP recipients since TARP funding began
                                                    are captured in Table 2.12.

     Federal Banking Agency (“FBA”): One of
                                                    Repayment of Funds
     four agencies:
                                                    Pursuant to ARRA, repayment of the capital provided by Treasury is “subject to
     1) Comptroller of the Currency
                                                    consultation with the appropriate Federal banking agency.”51 Any bank wishing
     2) Board of Governors of the Federal
        Reserve System
                                                    to buy back its shares can contact both Treasury and its Federal Banking Agency
     3) Federal Deposit Insurance Corporation       (“FBA”), at which point Treasury will discuss the request with the FBA. If the
     4) Director of the Office of Thrift            FBA confirms that the bank will have sufficient capital after repayment, banks
        Supervision                                 can choose to pay back the entire CPP investment in a lump sum, or they can
                                                    pay it back over time as long as every payment is at least 25% of the original total
                                                    investment (unless the last payment is less by default). Banks that repay the CPP
                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   49




TABLE 2.13

CPP SHARE REPURCHASES ($ MILLIONS)
                                                                                                        Principal Amount
Repurchase                                                                   Original                  Repurchased as of
Date                 Institution                                  Investment Amount                          3/31/2009
3/31/2009            Signature Bank                                                    $120                        $120
3/31/2009            Old National Bancorp                                                100                        100
3/31/2009            IberiaBank Corporation                                               90                         90
3/31/2009            Bank of Marin Bancorp                                                28                         28
3/31/2009            Centra Financial Holdings, Inc.                                      15                         15
                     TOTAL                                                            $353                         $353

Note: Data as of 3/31/2009. Treasury has also received $2.3 million in accrued and unpaid dividends.

Source: Treasury, Transactions Report, 4/2/2009.




investment also have the opportunity to repurchase the warrants received by
Treasury at their fair market value. Under ARRA, if the bank does not repurchase
its warrants, Treasury is required to liquidate the warrants at the current market
price. Additionally, banks are responsible for any unpaid dividends that are owed to
Treasury at the time of their redemption. All principal funds that are repaid can be
used for other TARP initiatives. However, dividends, interest, and profits from the
sale of equity interests must be used to pay down the debt and cannot be reused.52
    As of March 31, 2009, five banks have repurchased their shares from Treasury.
Treasury has received $353 million in principal and an additional $2.3 million in
accrued and unpaid dividends.53 As of March 31, 2009, one of the five institutions
had notified Treasury that it intends to buy back its warrants as well. Treasury has
indicated that it will give the banks 15 days to exercise this right before Treasury
seeks to sell the warrants to a third party.54 For details of the share repurchases
conducted as of March 31, 2009, see Table 2.13.

Treasury’s Snapshots
On January 8, 2009, Treasury launched an effort to begin measuring the lending
activities of CPP recipients to “help taxpayers easily assess the lending and other
activities of banks receiving Government investments.”55 Treasury is performing
both quarterly and monthly data analysis. The quarterly data will illustrate balance
sheet changes for all CPP recipients.56 The first quarterly report will be publicly
available on June 30, 2009.57
50            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Monthly Lending and Intermediation Snapshot
                                                     The stated purpose of the monthly snapshot is to provide both Treasury and the
                                                     public with data regarding the lending activities of the banks that received CPP
                                                     funding. Treasury originally stated that analyzing the largest banks, which represent
                                                     over 80% of the total CPP funds disbursed, would “quickly but effectively provide
     Call Report: Quarterly report of financial      an objective analysis to the public.”58 This survey is intended to report on the po-
     condition commercial banks file with their
                                                     tential impact, but not use, of TARP funds.
     Federal and state regulatory agencies.
                                                        On January 16, 2009, the Interim Assistant Secretary for Financial Stability
                                                     sent letters to the 20 largest CPP recipients in which he explained the snapshot
                                                     process:

                                                               This Monthly Intermediation Snapshot will complement a more thor-
                                                               ough analysis Treasury will conduct quarterly of all CPP recipient
                                                               banks using call report data. The snapshot is designed to be simple
                                                               enough to allow Treasury and TARP senior management to draw
                                                               inferences about intermediation activity generally, but also granular
                                                               enough to provide insight into patterns by broad category and by
                                                               institution.59

                                                        In addition to the snapshots, pursuant to a recommendation made by the
                                                     Government Accountability Office (“GAO”), Treasury recently requested certain
                                                     monthly lending data from all CPP recipients. The first CPP Monthly Lending
                                                     Report is due by April 30, 2009, and is expected to be published in mid-May
                                                     2009.60

                                                     December 2008 Monthly Lending and Intermediation Snapshot
                                                     The initial set of responses to Treasury’s letters was published on February 17,
                                                     2009, and contained data for the time period from October through December
                                                     2008. These responses included data looking back for a three-month period; subse-
                                                     quent reports only include data from the prior month. Treasury made the following
                                                     conclusions from the initial monthly snapshot:

                                                     • Banks continued to originate, refinance, and renew loans despite significant
                                                       headwinds posed by unprecedented financial market crisis and economic turn.61
                                                     • Banks reported a general trend of modestly declining total loan balances due
                                                       to decreasing loan demand and tighter underwriting standards, as well as other
                                                       factors such as charge-offs, or losses written off on loans.62
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   51




• Month-to-month changes were driven by outside factors, including falling
  interest rates, loan demand, and the credit crisis.63 Treasury made the following
  observations about these changes:
  • Lending activity decreased from October to November 2008.
  • Lending activity increased from November to December 2008.
  • Drivers of this phenomenon varied by loan type.

January 2009 Monthly Lending and Intermediation Snapshot
The next set of responses was published on March 16, 2009, and contained data
for the time period between January 1, 2009, and January 31, 2009. Treasury
surveyed the top 21 recipients of Government investments through CPP rather
than the top 20, due to a large investment on January 9, 2009.64 Treasury reviewed
and analyzed data from December 31, 2008, to January 31, 2009, and came to the
following conclusions:

• Consumer lending levels increased as a result of increases in originations of resi-
  dential mortgages and student loans due to attractive interest rates and seasonal
  demand.65
• Commercial lending, industrial lending, and commercial real estate lending
  declined from the prior month due to weak demand for debt.66
• Renewals of existing accounts and new loan commitments in commercial real
  estate lending decreased significantly from the prior month as a result of the
  frozen securitization markets and lack of commercial mortgage-backed securi-
  ties activity.67

Capital Assistance Program
On February 10, 2009, Treasury announced the Capital Assistance Program
(“CAP”) as part of FSP. CAP follows CPP as the vehicle for Treasury to provide
TARP capital to QFIs.68 CAP has three main components:

• a stress test to evaluate major financial institutions’ capital buffers
• access to capital for QFIs
• a Financial Stability Trust to manage the Government’s investments in the
  program

    CAP’s stated goal is to “ensure the continued ability of U.S. financial institu-
tions to lend to creditworthy borrowers in the face of a weaker-than-expected
economic environment and larger-than-expected potential losses.”69
52            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Stress Test
     Risk-Weighted Assets: The amount of               According to Treasury, the stress test assesses whether a QFI has enough capital
     a bank’s total assets after applying an           to continue lending under economic conditions that are worse than expected. The
     appropriate risk factor to each individual        test is required for the 19 financial institutions with more than $100 billion in risk-
     asset.                                            weighted assets. These 19 institutions represent roughly two-thirds of aggregate
                                                       U.S. BHC assets.70 The tests are designed to determine how much additional capi-
     Professional Forecasters: The three               tal each institution may need to remain well capitalized in an economic downturn.
     forecasters used for the purpose of the           Regulators have created two forward-looking economic scenarios. The first scenario
     stress test were the Consensus Fore-
                                                       is a baseline forecast for 2009 and 2010, based on the most recent projections
     casts, the Blue Chip Survey, and the
                                                       available from three professional forecasters prior to the start of the stress tests on
     Survey of Professional Forecasters.
                                                       February 25, 2009.71 Although the baseline is intended to forecast likely economic
                                                       metrics, the unemployment rate in the baseline scenario, 8.4%, has already been
                                                       eclipsed with the April 3, 2009, announcement of 8.5% unemployment.72 The
                                                       second scenario evaluates the institutions under worse economic conditions than
                                                       those provided in the baseline forecast — an “adverse case” scenario. The assump-
                                                       tions for the baseline and adverse case are found in Table 2.14.
                                                           QFIs will be asked to report their estimates of losses and resources to absorb
                                                       them using a standardized template. The FBAs will then evaluate the estimates by
                                                       examining the data and assumptions and request additional material, as necessary.
                                                       The FBAs supervise the process and may revise the estimates that will be used to
                                                       determine the amount of capital needed to establish the appropriate buffer.73
                                                           When the stress tests are completed, by the end of April 2009,74 the institutions
                                                       that are found to need additional capital will have up to six months to raise private
                                                       capital. If an institution raises enough private capital, it is not required to take CAP
                                                       assistance.75 If it is unable to raise a sufficient amount of private capital, then it
                                                       must accept CAP assistance.76




                                                     TABLE 2.14

                                                     ECONOMIC METRICS UNDER BASELINE AND MORE ADVERSE SCENARIOS
                                                                                                                                2009 Scenarios                2010 Scenarios
                                                                                                                                                  More                           More
                                                                                                                                Baseline        Adverse        Baseline        Adverse
                                                     Real GDP (% Change in Annual Average)                                          -2.0%          -3.3%           2.1%            0.5%
                                                     Civilian Unemployment Rate                                                     8.4%           8.9%            8.8%          10.3%
                                                     House Prices (% Change Relative to Q4 of Prior Year)                         -14.0%         -22.0%            -4.0%          -7.0%

                                                     Note: As reported by the source document, baseline forecasts for real GDP and the unemployment rate equal the average of projections
                                                     released by Consensus Forecasts, the Blue Chip Survey, and the Survey of Professional Forecasters in February 2009.

                                                     Source: FDIC, “FAQs – Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed 3/25/2009.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009          53




Access to Capital
The second core component of CAP is “access for qualifying financial institu-
tions to contingent common equity provided by the U.S. Government as a bridge
to private capital in the future.”77 In addition to the 19 targeted institutions, CAP
will make capital widely available to other QFIs by offering to invest in the QFI
in return for shares of mandatory convertible preferred stock. Such securities are
considered a higher quality of capital for banks because they have more character-
istics similar to common equity than the investments made under CPP and TIP,
which can be viewed more like debt. They are riskier investments for the taxpayer,
however, because once the shares are converted to common stock, the Government
will no longer be entitled to receive a set quarterly dividend and will have a junior
right to repayment if the bank were to fail. Existing TARP recipients that decide to
apply for participation in CAP will be able to take advantage of this higher-quality
capital offered under CAP by exchanging their existing CPP and TIP equity for
CAP equity. For more details on the terms of these agreements, see the “CAP
Terms” discussion in this section. For a more detailed description of the financial
terms used in this discussion, refer to “TARP Tutorial: Capital Structure” later in
this section.
    On February 25, 2009, Treasury released the terms for public QFIs to apply
for CAP funding. QFIs must apply to their appropriate FBA by May 25, 2009.
According to Treasury, the process and eligibility determination will be substantially
similar to those under CPP.78 For more information on the CPP process, refer to
SIGTARP’s Initial Report, Section 3: “TARP Implementation and Administration.”
As of March 31, 2009, the process details for CAP applications by private QFIs, S
corporations, and mutual organizations have not yet been released.

Financial Stability Trust
As of March 31, 2009, under CPP and TIP, Treasury invested $238.8 billion for
preferred shares and warrants of common stock.79 Similar investments under CAP
will be managed in a separate entity called the Financial Stability Trust.80 As of
March 31, 2009, there were no additional details available about this entity.              Convertible Preferred: A preferred stock
                                                                                           that is convertible into common stock.
CAP Terms                                                                                  In the context of CAP, the conversion is
Under CAP, Treasury will provide the QFI with additional capital by purchas-               at the option of the QFI until year seven
ing new convertible preferred stock (“convertible preferred”). If the QFI already          when it becomes mandatory.

received funds from either the CPP or TIP, the QFI may choose to use CAP to
                                                                                           Redeem: To buy back a prior obligation.
redeem the previously issued preferred stock. CAP allows the QFI effectively to
                                                                                           In the case of CAP, the QFI can buy back
exchange one type of equity for another by permitting the bank to convert preferred
                                                                                           (redeem) its CPP shares with the funds
shares purchased under CPP to CAP convertible preferred shares.                            received from the CAP investment.
54                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                              As its name suggests, the convertible preferred shares that will be acquired by
                                                                          Treasury can be converted into common stock. The QFI can choose to convert the
                                                                          stock from preferred to common with the approval of its FBA. If the QFI does not
                                                                          choose to convert, the CAP terms require that the conversion automatically take
                                                                          place seven years after the transaction date. Once converted, Treasury will hold
                                                                          common stock in the QFI as if it had been purchased in the public market. Note
                                                                          that, as such, it will carry voting rights in the institution just like other common
                                                                          stock; Treasury’s stake, however, will no longer have the benefit of receiving defined
                                                                          dividends as would preferred stock. Since Treasury could potentially own a signifi-
                                                                          cant percentage of a QFI’s common stock, it has stated that it will publish how it
                                                                          will use these rights prior to closing any transactions.81 Prior to conversion, convert-
                                                                          ible preferred shares subject the QFI to terms similar to those under CPP.
                                                                          Table 2.15 compares the key characteristics of the convertible preferred terms for
                                                                          public QFIs under CAP to the preferred terms for public QFIs under CPP.
                                                                              Upon receipt of the CAP investment, the QFIs agree to comply with Treasury’s
                                                                          rules, regulations, and guidance with regard to executive compensation, transpar-
                                                                          ency, accountability, and monitoring that are published and effective at the time
                                                                          of the closing.82 As of March 31, 2009, Treasury has not published any additional
                                                                          executive compensation guidance for this program. For more information on execu-
                                                                          tive compensation, refer to “Executive Compensation” later in this section.




     TABLE 2.15

     COMPARISON OF EXPECTED TERMS: CAP CONVERTIBLE PREFERRED AND CPP PREFERRED SHARES
                                                 CAP                                                                                           CPP
     Eligibility                                 All QFIs                                                                                      All QFIs
                                                 Between 1% and 2% of Risk-Weighted Assets plus amount necessary
                                                                                                                                               Between 1% and 3% of Risk-Weighted Assets not
     Size                                        to redeem CPP and/or TIP shares, or more as per “exceptional
                                                                                                                                               to exceed $25 billion
                                                 assistance” clause
     Security                                    Convertible Preferred                                                                         Senior Preferred
     Term of Conversion to                       Mandatory at 7 years
                                                                                                                                               N/A
     Common Stock                                At option of QFI before 7 years
                                                 90% of the average closing price for the common stock for the 20
     Conversion Price                                                                                                                          N/A
                                                 trading days period ending on 2/9/2009
                                                                                                                                               5% for the first 5 years
     Dividends Prior to Conversion               9%
                                                                                                                                               9% thereafter
                                                 Voting Rights upon conversion to common (if dividends are not paid
     Voting Rights                                                                                                                             Non-Voting (unless dividends are not paid)
                                                 prior to conversion)

     Notes: Data as of 3/31/2009. The contents of this table have been summarized for readability and highlight differences between the programs rather than provide a comprehensive representation of the
     programs’ terms. As of 3/31/2009, no agreements have been issued under CAP and thus the terms may change.

     Source: Treasury, “Summary of Mandatorily Convertible Preferred Stock (“Convertible Preferred”) Terms Capital Purchase Program Description,” 3/25/2009, www.treas.gov, accessed 3/25/2009.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                                 55




TABLE 2.16


 COMPARISON OF EXPECTED TERMS: CAP WARRANTS AND CPP WARRANTS
                           CAP                                            CPP
Warrant                    20% of Convertible Preferred                   15% of the Senior Preferred amount on the
                           amount on the date of investment               date of the investment
Term                       10 years                                       10 years
Exercisable                Immediately, in whole or in part               Immediately, in whole or in part
Voting                     Treasury will not exercise voting              Treasury will not exercise voting

Note: The contents of this table have been summarized for readability and highlight differences between the programs rather than
provide a comprehensive representation of the programs’ terms. As of 3/31/2009, no agreements have been issued under CAP and
thus the terms may change.

Source: Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.




   In addition, the QFI will be required to provide Treasury with warrants of com-
mon stock. The terms of the warrants under CAP are similar to the warrant terms
under CPP and are summarized in Table 2.16.

The CAP Application Process
In addition to the 19 institutions required to participate in stress testing, CAP,                                                           For more information regarding the
like CPP, is open to applications from all public QFIs. According to Treasury, the                                                           CPP application process, refer to
                                                                                                                                             SIGTARP’s Initial Report, Section
application process, eligibility requirements, and determination criteria are similar
                                                                                                                                             3: “TARP Implementation and
to those under CPP.83 Note that the 19 institutions do not need to wait for the                                                              Administration.”
completion of the stress tests in order to apply for CAP funding.84 The deadline for
public QFIs to submit a CAP application is May 25, 2009. As of March 31, 2009,
application deadlines and term sheets had not been released for private QFIs, S
corporations, or mutual organizations. A timeline of CAP milestones can be found
in Figure 2.6.

FIGURE 2.6

CAPITAL ASSISTANCE PROGRAM TIMELINE


            FEBRUARY 2009                  MARCH 2009                         APRIL 2009                        MAY 2009                          + 6 MONTHS                           + 7 YEARS



      FEBRUARY 10                       FEBRUARY 25                              APRIL END OF MONTH                              MAY 25          6 MONTHS AFTER                     7 YEARS AFTER
Treasury announces                      Treasury releases                         Mandatory stress tests                  Deadline for all             COMPLETION            CAP SETTLEMENT DATE
  Capital Assistance                    the terms for                              for 19 largest QFIs are              public applicants         OF STRESS TESTS              Convertible preferred
   Program (“CAP”).                     public QFIs to apply                    expected to be complete.                 to CAP are due.                  Deadline for                shares held by
                                        for CAP funding.                                                                                     19 largest QFIs that are                   Government
                                                                                                                                                 determined to need              mandatorily convert
                                                                                                                                                 additional capital to           to common shares.
                                                                                                                                                  raise it privately or
                                                                                                                                                accept CAP funding.


Sources: Treasury, “Secretary Geithner Introduces Financial Stability Plan,” 2/10/2009, www.treas.gov, accessed 3/25/2009; Treasury Press Release, “U.S. Treasury Releases Terms of Capital Assistance
Program,” 2/25/2009, www.treas.gov, accessed 3/25/2009; FDIC Press Release, “Agencies to Begin Forward-Looking Economic Assessments,” 2/25/2009, www.fdic.gov, accessed 3/25/2009; Treasury,
“Application Guidelines for Capital Assistance Program,” no date, www.treas.gov, accessed 3/25/2009; FDIC, “FAQs—Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed
3/25/2009; Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Program Considerations
                                            CAP introduces several new considerations relating to Government assistance for
                                            the financial industry. Although final details of the program have not been pub-
                                            lished, the program announcement provided insight into several elements of the
                                            program.
                                                 Equity Quality: As discussed in “TARP Tutorial: Capital Structure” later in this
                                            section, both shares issued under CPP and CAP are considered tier one capital
                                            (“T1”). As such, they are part of a bank’s cushion against future losses and deposi-
                                            tors’ demands. However, the market views CAP’s convertible preferred shares as
                                            also fitting the higher-quality classification of tangible common equity (“TCE”).
                                            TCE is the cushion left over if all creditors and higher levels of stock, like preferred
                                            stock, were paid off. The convertible preferred under CAP was designed to create
                                            a higher quality of capital for the banks than the preferred shares under CPP and
                                            TIP. This provides a better cushion for the banks in the event of further deteriora-
                                            tion of the economy and the banks’ balance sheets.
                                                 Converting Preferred to Common: According to the Treasury-issued term
                                            sheet, CAP participants can convert the convertible preferred to common stock at
                                            any point with the permission of the appropriate FBA. This conversion takes place
                                            not at the market price, but at a 10% discount to the average price for the 20-day
                                            trading period prior to February 9, 2009. Should market prices drop further prior
                                            to the conversion, this price is more advantageous to the QFI.85 On the other hand,
                                            if the institution’s share price increases, the Government will realize a gain. This
                                            concept is demonstrated in Table 2.17 with a select sampling of QFIs chosen for
                                            illustrative purposes.
                                            TABLE 2.17

                                            HYPOTHETICAL CONVERSION PRICE EXAMPLE
                                                                                      2/9/2009 Value                 Conversion                           Unrealized
                                                                                        (Average Price               Price (90%                        Treasury Gain
                                                                                     for the Preceding             of 2/9/2009             3/31/2009           (Loss)
                                            Institution                                         Month)                 Average)           Market Price     Per Share
                                            Bank of America Corp                                       $6.93                  $6.24                    $6.82    $0.58
                                            Citigroup, Inc.                                            $3.85                  $3.46                    $2.53   ($0.93)
                                            JPMorgan Chase & Co.                                     $24.67                 $22.20                    $26.58    $4.38
                                            Wells Fargo & Company                                    $18.64                 $16.78                    $14.24   ($2.54)
                                            Morgan Stanley                                           $19.49                 $17.54                    $22.77    $5.23
                                            The Goldman Sachs Group Inc.                             $79.92                 $71.93                   $106.02   $34.09
                                            The PNC Financial Services
                                                                                                     $34.01                 $30.61                    $29.29   ($1.32)
                                            Group, Inc.
                                            U.S. Bancorp                                             $16.26                 $14.64                    $14.61   ($0.03)
                                            SunTrust Banks, Inc.                                     $15.23                 $13.71                    $11.74   ($1.97)
                                            Capital One Financial
                                                                                                     $19.84                 $17.86                    $12.24   ($5.62)
                                            Corporation

                                            Sources: Treasury, Transactions Report, 3/31/2009; Capital IQ, Inc., A Division of Standard & Poor’s. 
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   57




    When a QFI is faced with the decision to convert, it must weigh the benefit of
not having to pay dividends against the disadvantage of further dilution to its com-
mon shareholders’ stake. This “dilution” occurs when ownership of the company is
spread over more common shares.
    Mandatory Seven-Year Conversion: CAP convertible preferred must be con-
verted to common stock after seven years. Unlike CPP, this gives the institutions
and the markets a clear date by which the terms attached to the preferred shares
expire and when additional common stock will enter the market.
    Investment Size: The CAP terms allow a QFI to issue convertible preferred
shares totaling between 1% and 2% of the QFI’s risk-weighted assets in addition to
Treasury’s investment under the CPP or TIP. Additionally, Treasury will determine,
on a case-by-case basis, if an institution qualifies for “exceptional assistance.” In
these exceptional cases, Treasury may fund the QFI in excess of the stated limits.86
Once the stress tests are completed, Treasury will have a better indication of the
size of the total investment.
    Common Stock Voting Rights: The convertible preferred will generally have
no voting rights prior to its conversion. If the QFI chooses to convert the shares
to common stock, then Treasury will have the standard voting rights associated
with common stock. Prior to closing any transaction, Treasury will publish further
guidance as to how these voting rights will be used, although it has stated that the
shares will be held in the Financial Stability Trust.87 The inclusion of voting rights
is necessary to maintain the market value of the common shares if, and when,
Treasury sells them in the open market.
58   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                               58




                                            TARP TUTORIAL: CAPITAL STRUCTURE
                                            The Bank Balance Sheet and TARP
                                            Since the onset of the current credit contraction, the financial industry has expressed
                                            concern with the weakening of American banks’ balance sheets.88 In December 2008,
                                            Interim Assistant Secretary Neel Kashkari testified before Congress that, “As the markets
                                            rapidly deteriorated in October, it was clear to Secretary Paulson and Chairman Bernanke
                                            that the most timely, effective way to improve credit market conditions was to strengthen
                                            bank balance sheets quickly through direct purchases of equity.”89 This section provides an
                                            illustration of the generally accepted accounting principles regarding the balance sheet.



                                            The Balance Sheet Overview
                                            Put simply, the balance sheet is a statement of a bank’s financial condition at a single point
                                            in time.90 It provides three fundamental pieces of information: how much the company
                                            owns (assets), how much it owes (liabilities), and the amount of the shareholders’ position
                                            (owners’ equity). A financial analyst or regulator will look at the relative levels of certain
                                            sub-components of the balance sheet to make judgments as to the financial health of the
                                            institution. A summary balance sheet for our hypothetical example bank, Sample Bank, is
                                            shown in Table 2.18.
                                                In this example, note that “Assets = Liabilities + Equity” (shareholders’ equity is often
                                            referred to simply as “equity”). By definition, this equation is always true. It is one of the
                                            most important accounting principles and is useful to remember when assessing the ef-
                                            fects of bank activity. For example, if a bank experiences losses, those losses will reduce

                                            TABLE 2.18

                                            SAMPLE BANK – HYPOTHETICAL BALANCE SHEET
                                            Assets                                                   $ Million             % of Assets
                                            Cash                                                        $100                         2%
                                            Securities                                                  1,000                      20%
                                            Loans                                                       3,500                      70%
                                            Other Assets                                                  400                        8%
                                            TOTAL ASSETS                                              $5,000                     100%


                                                                                                                        % of Liabilities
                                            Liabilities & Equity                                     $ Million                & Equity
                                            Deposits                                                  $3,200                       64%
                                            Debt                                                        1,300                      26%
                                            Shareholder’s Equity                                          500                      10%
                                            TOTAL LIABILITIES & EQUITY                                $5,000                     100%
                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009           59




its assets, and equity will have to shrink to keep the equation in balance. At a certain level
of losses, the bank’s equity will be zero or less, and the firm will then be considered insol-
vent and potentially shut down by regulators.91



Assets
The asset side of Sample Bank’s balance sheet shows how it categorizes its income-
producing resources — or how it makes money from the resources it holds. Assets are                    Loan Portfolio: The total amount of
listed by order of liquidity (the easier to convert to cash, the higher on the balance sheet).         dollars the bank has lent to customers
The asset line item labeled “Loans” represents the bank’s loan portfolio. Although not                 and expects to be repaid.
particularly liquid, loan portfolios typically represent the majority of a bank’s assets. Loans
                                                                                                       Securities: A financial instrument that
are typically the highest interest-bearing (and also highest risk) investments banks make.
                                                                                                       represents debt, such as a bond, or
Depending on several characteristics of the loans, such as what they are used for (e.g.,               which represents ownership, such as a
mortgages, corporate, home equity) and where the assets underlying the loan are located                stock certificate. A security can be
(e.g., economic sector, geographical location), a financial analyst can gain a picture of the          assigned value and traded in the
                                                                                                       financial markets.
relative strength or riskiness of a bank’s loan portfolio.
    Securities (e.g., stocks, bonds, ABS, MBS) make up the second largest component
of assets for Sample Bank. Securities are more liquid than loans, and tend to pay a lower
interest rate, especially the safest ones such as Government debt.
    Cash is often the smallest component of assets, since holding cash does not make a
bank any money. The bank needs to keep a certain amount on hand, however, to satisfy
customers’ withdrawals.
    Other assets, such as the bank’s real estate and buildings or intangible assets (such as
goodwill, which attempts to capture such factors as the bank’s brand value or competitive
position), also tend to be a relatively small component of a bank’s total assets.


Liabilities and Shareholders’ Equity
The liabilities and shareholders’ equity portion of Sample Bank’s balance sheet summa-
rizes the claims on the company, by both creditors and shareholders. Like most banks,
the majority of its liabilities are deposits — customers’ savings and checking account
balances. This is often the least expensive form of capital. For example, the interest that
a bank pays to its customer on a checking or savings account is lower than what a bank
charges its loan customers. Deposits are considered liabilities because they represent the
amount of money the bank owes to its depositors. In many ways, a deposit is a loan from
a customer to a bank.
60             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          Debt also reflects a major source of funds. It includes bonds that the bank sells, loans
                                                      it gets from other financial institutions, or loans from the Federal Reserve. Debt tends to
                                                      require a higher interest rate than deposits, and is thus used more as a secondary fund
                                                      source by the bank.
                                                          Shareholders’ equity represents the difference between assets and liabilities, and will
                                                      include such items as initial payments into the bank by the shareholders, and any profits
                                                      retained by the bank, but equity is reduced by the reserves it has set aside against losses.


                                                      Determining If a Bank Is Healthy
                                                      Banking sector regulators (such as FDIC, the Office of the Comptroller of the Currency
                                                      (“OCC”), and the Federal Reserve) use a variety of measures to enforce compliance with
     Regulatory Capital: The net capital
     position of a financial institution as de-       banking regulatory standards. Central to these measures is the notion of capital. The term
     termined by the rules of the applicable          “regulatory capital” is generally used to describe the cushion a bank has against future
     Federal or state banking regulator.              losses. As a starting point, it is helpful to think of the bank’s capital as being roughly equal
                                                      to the shareholders’ equity. If capital is adequate, then theoretically the firm could cover
     Insolvent: A condition where a financial
     institution has liabilities that exceed its
                                                      all liabilities by selling all assets, and still have something left over for its shareholders. If,
     assets. By definition, shareholders’ eq-         however, losses become greater than the bank’s capital, the firm would be insolvent —
     uity in such a situation will be negative.       assets could not cover outstanding liabilities.
                                                          The solvency of the bank, therefore, depends on how it accounts for losses (which
     Tier One Capital (“T1”) = Common
                                                      reduce its assets) and how capital is defined. In practice, there are many different ways of
     Equity + Preferred Equity + Retained
     Earnings – Goodwill.                             defining capital, each describing a different level of cushion against losses.


     Tangible Common Equity (TCE)                     “Tier One Capital” versus “Tangible Common Equity”
      = Common Equity – Intangible Assets.            Two of the most relevant measures of capital adequacy are tier one capital (“T1”) and
                                                      tangible common equity (“TCE”). For many TARP recipients, these two measures are
     Tier One Capital Ratio (“T1 Ratio”)
                                                      significantly divergent in the current market, capturing different aspects of their health or
     = T1 / Risk-Adjusted Assets.
                                                      lack thereof.
                                                          T1, often called “core capital,” is the measure of bank capital traditionally used by
                                                      regulators in the United States. It can be described as a measure of the bank’s ability to
                                                      sustain future losses and still meet depositor’s demands. T1 is a concept coordinated
                                                      internationally through an agreement known as the “Basel II Accord.”92 Federal regula-
                                                      tors look at T1 to calculate the tier one capital ratio (“T1 Ratio”), which determines what
                                                      percentage of a bank’s total assets is categorized as T1 — the higher the percentage, the
                                                      better it is for the bank. Under traditional Federal regulations, a bank with a T1 Ratio of 4%
                                                      or greater is considered adequately capitalized.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009         61




    TCE is a more conservative measure of capital adequacy. Only capital that is “real” and
possesses the last claim on the assets of a company can be counted as TCE. It can be
                                                                                                         Tangible Common Equity Ratio (“TCE
thought of as the amount that would be left over if the bank were dissolved and all credi-               Ratio”) = TCE / Risk-Adjusted Assets.
tors and higher levels of stock, such as preferred stock, were paid off. TCE is the highest
“quality” of capital in the sense of providing a buffer against loss by claimants on the bank.
TCE is used in calculating the tangible common equity ratio (“TCE Ratio”) which determines
what percentage of a bank’s total assets is categorized as TCE — the higher the percent-
age, the better it is for the bank. Preferred stock is an example of capital that is counted in
T1, but not in TCE.



Why the Selection of Capital Measure Matters
Through TARP, Treasury makes capital investments in banks. The type of security it re-
ceives in return for these capital investments depends on the type of bank capital it wishes
to support. The difference between alternative definitions of capital is important.
    Under CPP, TARP purchased preferred stock, which is included in tier one capital.
Going forward, however, under CAP, investments would involve convertible preferred
stock. TARP will purchase “convertible” preferred stock, which is effectively common
stock, a measure more targeted to TCE.
    The stress tests for bank holding companies appear to be targeting more than simply
the traditional tier one capital. According to FDIC, regulators will be examining “the com-
position, level and quality of capital; the ability of the institution to raise additional common
stock and other forms of capital in the market; and other risks that are not fully captured in
regulatory capital calculations.”93
    In this context, it is clear that the Citigroup exchange offer, which can convert up to $25
billion in Treasury’s preferred stock to common stock, had the primary effect of increasing
Citigroup’s TCE ratio. See the “Institution-Specific Assistance” portion of Section 2 for a de-
tailed description of the Citigroup exchange offer. A comparison of Citigroup’s T1 Ratio and
TCE Ratio, before and after the exchange, demonstrates this difference. See Table 2.19.

TABLE 2.19

CAPITAL ADEQUACY COMPARISON — EFFECT OF
CITIGROUP EXCHANGE OFFER
(as of 12/31/08)                               No Exchange            If Exchange
Tier One Capital (T1) Ratio                             11.9 %                 11.9%
Tangible Common Equity (TCE) Ratio                        3.0 %                8.1 %

Source: Citigroup Inc., Form 8K, 3/10/2009, www.sec.gov, accessed 4/10/2009.
62           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        As Treasury officials have recognized, the massive infusion of preferred shares as a
                                                    result of its CPP investments have altered analysts’ views of tier one capital. Analysts have
                                                    begun to view Treasury’s preferred shares investment more as debt than traditional tier
                                                    one capital, causing investors and analysts to discount tier one capital as a measure and
                                                    look more closely at TCE as a measure of a bank’s health.



                                                    When a Bank Gets Into Trouble
                                                    The balance sheet problems affecting many banks during the current credit crisis
                                                    stemmed from losses from two of their primary types of assets. First, many banks saw
     Derivative Instruments: Investments            the value of their loan portfolios (mortgages, home equity, or other loans) decline as some
     that are valued by reference to the            of their loan customers defaulted on their debts. Second, many banks owned MBS or
     values of other investments. Examples          derivative instruments that ultimately took their value from mortgages, which also dropped
     include options and credit default
                                                    in value as homeowners began defaulting on their mortgage payments.
     swaps.
                                                        When a bank forecloses on a property, it must be able to re-sell the property to
                                                    recover as much as possible of the loan value. Given the nationwide decline in real estate
                                                    values, many banks faced losing not only the stream of income they had enjoyed from the
                                                    loans as the homeowner made payments on the mortgage, but also faced being forced to
                                                    accept losses officially on the difference in the value of the loan and the value they would
                                                    get in re-selling the property in a depressed market. Similarly, the market for the mort-
                                                    gage-related securities had also declined and many of the securities the banks held could
                                                    no longer be sold in the open market for more than a fraction of what they had paid.
                                                        These developments affected the banks’ balance sheets in various ways. First, the
                                                    decline of the value of the banks’ loan portfolios meant a decline in the value of their as-
                                                    sets. As losses occurred, they were subtracted from equity, which resulted in a decline in
                                                    the banks’ tier one capital.
                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009          63




     Assuming that the example bank, Sample Bank, suffered similar losses, Table 2.20
demonstrates the deterioration of its balance sheet in three places: the Securities line on
the Assets side, the Loans line on the Assets side, and the Shareholders’ Equity line on the
Liabilities & Equity side. The shareholders’ equity goes down by the amount of the total
losses because of the fundamental equation (shareholders’ equity = assets – liabilities). In
other words, the balance sheet must “balance” by matching any reduction in assets with a
reduction in shareholders’ equity. The loss in Sample Bank’s Securities category repre-
sents the decline of the MBS market and the decrease in the value of the bank’s securities
holdings. Further, if Sample Bank had a large number of subprime mortgages in its loan
portfolio, and a portion of those borrowers had defaulted, it would have to write down the
value of its Loan line. Supposing that the value of securities (the MBS) held by Sample                                      Write Down: The act of recognizing the
Bank declined by 20%, and the value of its loan portfolio (mortgages) declined by 15%, we                                    loss on an asset as permanent on a
                                                                                                                             bank’s balance sheet.
can observe that Sample Bank now has negative shareholders’ equity, or is insolvent.
     This sudden swing in shareholders’ equity from +10% to –5% affects the key regula-
tory ratios — both T1 and TCE are now negative. Sample Bank must take some action to
avoid being shut down by the regulators or forced into bankruptcy by its creditors.


TABLE 2.20

SAMPLE BANK — DETERIORATING BALANCE SHEET

                                                             Before                               After

Assets                                            $ Million            % of Assets         $ Million      % of Assets
Cash                                                   $100                           2%      $100                 2%
Securities                                            1,000                       20%           800               19%
Loans                                                 3,500                       70%         3,000               70%
Other Assets                                             400                          8%        400                9%
TOTAL ASSETS                                        $5,000                      100%        $4,300              100%


                                                                                % of                               % of
                                                                       Liabilities &                      Liabilities &
Liabilities & Equity                              $ Million                  Equity        $ Million            Equity
Deposits                                             $3,200                       64%       $3,200                74%
Debt                                                  1,300                       26%         1,300               30%
Shareholder’s Equity                                     500                      10%          -200                -5%
TOTAL LIABILITIES & EQUITY                          $5,000                      100%        $4,300              100%

Note: Numbers affected by rounding. Values in red reflect changes in balance sheet.
64        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Fixing the Problems
     For more information on CPP                 For the bank, taking action to improve its weakening balance sheet boils down to raising
     eligibility criteria and process, refer     more capital. For example, it has to sell enough preferred or common stock (thereby
     to SIGTARP’s Initial Report,
                                                 increasing the asset of cash with what it receives from investors for the sale of stock, and
     Section 3: “TARP Implementation
     and Administration.”                        therefore enjoy a corresponding increase in its shareholders’ equity) to bring its capital
                                                 ratios above the minimum requirements. By mid-2008, it became very hard for banks to
                                                 sell bank stock, as prospective investors were concerned that not all of a bank’s losses
                                                 had yet been recognized.
                                                     There are other, less effective things a troubled bank can do. For example, the bank
                                                 can reduce its assets (especially its risky ones) to improve the capital ratio. This is called
                                                 “shrinking the balance sheet” which has some side effects for the bank, such as reduc-
                                                 ing the potential for profits. The problem with shrinking the balance sheet is an obvious
                                                 one for policy makers; it reduces new lending because new loans require capital. As new
                                                 loans decline, jobs and consumer activity may be adversely affected. A third option is for
                                                 the bank to seek a merger with a stronger bank. This is an option only if the losses on the
                                                 losing bank can be quantified and accounted for in the purchase price.
                                                     During this crisis, Treasury, through CPP, became the critical outside investor for some
                                                 banks. It provided the funds needed to increase their capital.94 This action increased tier
                                                 one capital for the participating banks by increasing cash and shareholders’ equity, thereby
                                                 helping them to meet or improve their cushion over the risk-adjusted capital ratio.
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                                    65




INSTITUTION-SPECIFIC ASSISTANCE
As of March 31, 2009, the institution-specific programs accounted for $122.5 bil-              For more information on the terms and
lion of total TARP funding, having increased $30 billion since SIGTARP’s Initial               conditions of the programs associated
Report.95 This section provides updates to institution-specific assistance previously          with institution-specific assistance,
                                                                                               refer to SIGTARP’s Initial Report,
reported in SIGTARP’s Initial Report, including modifications to existing agree-
                                                                                               Section 3: “TARP Implementation and
ments and any additional funding guidance. The institution-specific programs in                Administration.”
SIGTARP’s Initial Report included the Systemically Significant Failing Institutions
(“SSFI”), Targeted Investment Program (“TIP”), Asset Guarantee Program
(“AGP”), and the automotive programs; the automotive programs have since been
expanded and are given their own discussion, “Automotive Industry Financing
                                                                                             FIGURE 2.7
Program” later in this section. TARP institution-specific assistance is focused on
three institutions: American International Group, Inc. (“AIG”), Citigroup Inc., and          INSTITUTION-SPECIFIC COMMITMENTS
                                                                                             AND PROJECTIONS, BY PARTICIPANT,
Bank of America Corp.                                                                        CUMULATIVE
    Figure 2.7 provides the status of TARP institution-specific assistance by institu-       $ Billions, % of $122.5 Billion
tion and program as of March 31, 2009.
                                                                                                                          Citigroup
                                                                                                                          $5.0
American International Group, Inc.                                                                                       4%
                                                                                                                                          Citigroup
As of March 31, 2009, $70 billion in TARP funding has been allocated to AIG                                                    16.5% $20.0
through the SSFI program. The initial $40 billion of TARP funds was used to
                                                                                               AIG                                            Bank of
purchase preferred stock in AIG,96 and the remaining $30 billion has been com-               $70.0      57%                       16.5% America
mitted to create an equity capital facility for AIG in exchange for additional                                                                $20.0

preferred shares.97 Treasury and the Federal Reserve announced a restructuring                                                   6%
of the Government’s assistance to AIG on March 2, 2009. According to Treasury,                   SSFI                                 Bank of
                                                                                                 AGP                                  America
the stated intention of the restructuring is to stabilize AIG and to enhance the                 TIP                                  $7.5
company’s capital and liquidity to facilitate the orderly divestiture of certain of the      Note: Numbers affected by rounding. For purposes of this report,
                                                                                             amounts in the Transactions Report are considered committed, and
company’s assets.98                                                                          as of 3/31/2009, total $85.0 billion. AIG—SSFI includes an
                                                                                             additional projection of $30.0 billion announced by Treasury and
    According to Treasury, the restructuring plan offers a multi-part approach,              Federal Reserve on 3/2/2009. Bank of America—AGP is Treasury’s
                                                                                             projected guarantee of $7.5 billion announced by Treasury, FDIC, and
which identifies and separates AIG’s non-core businesses and provides protection             Federal Reserve on 1/16/2009.
for taxpayers in connection with this commitment of resources. The stated goal of            Sources: Treasury, Transactions Report, 3/31/2009. Treasury,
                                                                                             “U.S. Treasury and Federal Reserve Board Announce Participation
Treasury and the Federal Reserve under the plan is to create an economically viable          in AIG Restructuring Plan,” 3/2/2009, www.treas.gov, accessed
                                                                                             3/4/2009. FDIC, “FDIC Press Release,” 1/16/2009,
company for the repayment of taxpayer money as soon as possible,99 largely from              www.fdic.gov, accessed 1/23/2009.
the sale of AIG’s non-core businesses.100



  Equity Capital Facility: An agreement   Liquidity: The ability to convert an
  between two parties under which one     asset to cash quickly — characterized
  may require the other to make an        by a high level of trading activity.
  equity investment.
                                          Divestiture: Disposition or sale of an
  Capital: Money invested in a company.   asset by a company.
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The restructuring plan involves the following three key steps:101

                                            • Preferred Equity Exchange: Treasury will exchange the $40 billion of pre-
                                              ferred shares that it originally received under the SSFI program for new pre-
                                              ferred shares. These new preferred shares will have revised terms that will more
                                              closely resemble those of common equity; these new shares will not receive
                                              dividend payments unless declared by AIG’s board of directors. However, as
                                              mentioned in the following “AIG Preferred Equity Exchange” discussion, re-
                                              peated failure to pay dividends could result in a change in AIG’s governance.102
                                              The written agreement for the preferred equity exchange had not been finalized
                                              as of March 31, 2009.
                                            • Equity Capital Commitment: Treasury will create a new equity capital facility
                                              in which AIG will be allowed to receive up to $30 billion in return for preferred
                                              shares.103 The written agreement had not been finalized as of March 31, 2009.
                                            • Federal Reserve Revolving Credit Facility: The Federal Reserve will make
                                              several modifications to the Revolving Credit Facility established in September
                                              2008. The Revolving Credit Facility will be reduced by up to approximately
                                              $26 billion in exchange for preferred interests in two special purpose vehicles
                                              (“SPVs”) created to hold all of the outstanding common stock of two life
                                              insurance holding company subsidiaries of AIG. In addition, the total amount
                                              available under the Revolving Credit Facility will be reduced from $60 billion
                                              to $25 billion. The interest rate payable under the Revolving Credit Facility will
                                              be modified by removing the existing floor (3.5%) on the three-month London
                                              Interbank Offered Rate (“LIBOR”).104 As agreed to on September 22, 2008, an
                                              additional issuance of preferred stock representing a 77.9% equity interest in
                                              AIG was finalized on March 4, 2009. “As a result of the Transaction, a change
                                              in control of AIG has occurred”105 as the 77.9% equity interest in preferred
                                              shares has been placed in an independent trust account for the sole benefit of
                                              the U.S. Government.106

                                            AIG Preferred Equity Exchange
                                            Under the proposed terms of the AIG Preferred Equity Exchange, the original pre-
                                            ferred shares issued to Treasury on November 25, 2008, will be exchanged for new
                                            preferred shares. The conversion amount will be equal to the amount paid for the
                                            original preferred shares, plus any dividends unpaid to Treasury that have accrued
                                            since the November 25, 2008, agreement. The original preferred shares paid a 10%
                                            annual dividend (paid quarterly) to Treasury.107 As of March 31, 2009, approxi-
                                            mately $733 million in dividends have accrued and gone unpaid to Treasury.108 The
                                            new preferred shares will have features more like common stock; Treasury will only
                                            receive dividends from AIG if and when the AIG board of directors, or a duly autho-
                                            rized committee, declares them.109 In other words, under the original agreement,
                                            AIG was required to pay $4 billion a year to Treasury in dividends; under the new
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009         67




agreement, AIG will have no obligation to pay any dividends — but if it declares
any dividends, it must pay the Government first. Corporate control provisions were
preserved in the new agreement. Should dividends (under the new agreement) not
be paid for four dividend periods (need not be consecutive), Treasury will have the
right to elect the greater of:110

• two directors
• number of directors (rounded up) equal to 20% of the total number of directors
  (currently there are 11 directors)

    Once four consecutive dividend payments have been made, the Treasury-
selected directors shall resign.111 As of March 31, 2009, the terms of this proposed
transaction have not been finalized. For more information on the original terms
of AIG’s SSFI agreement, refer to SIGTARP’s Initial Report, Section 3: “TARP
Implementation and Administration.”

AIG Equity Capital Commitment
In addition to the preferred equity exchange, Treasury has announced that it will              For more information on the
invest more equity into AIG. Treasury’s stated intent is to provide AIG with ready             mechanics of warrants, refer to
                                                                                               SIGTARP’s Initial Report, Section 2:
access to capital in order to stabilize its business and/or lower its leverage. It will do
                                                                                               “TARP Overview.”
this through a new equity facility with a five-year duration. Under the terms of the
equity facility, AIG will be able to sell to Treasury additional preferred shares for up
to $30 billion, as needed, upon the date of each drawdown. According to the term
sheet, at the start date of the facility, Treasury will receive a warrant to purchase
shares equal to 1% of AIG’s issued and outstanding common stock. The warrant
                                                                                               Leverage: The ratio of a company’s debt
will have an initial strike price of $2.50, adjusted for future common share issu-
                                                                                               to its equity.
ances.112 The price of AIG’s common stock was $1.00 as of March 31, 2009.113
    Under the announced terms of the agreement, if AIG files for Chapter 11
                                                                                               Strike Price: The stated price per share
Bankruptcy, it may not receive additional funds through the equity facility.114 As of          for which underlying stock may be
March 31, 2009, the terms of this announced agreement had not been finalized.                  purchased by the option holder upon
                                                                                               exercise of the option contract.
AIG Executive Compensation
On March 15, 2009, AIG paid out $165 million in retention bonuses to employ-
ees under one plan in its Financial Products Division. According to the Treasury
Secretary, “this is the very division most culpable for the rapid deterioration of
AIG.”115 Treasury stated its recognition that AIG believed the employee bonus
contracts, negotiated in April 2008, to be binding. Treasury stated that its lawyers
concluded that it would be “legally difficult to prevent these contractually-mandat-
ed payments.”116
    Under the new capital restructuring plan, AIG must comply with stricter guide-
lines on executive compensation, including those yet to be finalized, and continue
to comply with restrictions on expenses and lobbying included in the original SSFI
68           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    agreement dated November 25, 2008.117 The modified executive compensation
                                                    guidelines include the most recent amendment to Section 111 of EESA that is
                                                    contained in Section 7001 of ARRA.118 Under ARRA, executive compensation pro-
                                                    visions were amended to detail the number of employees that the more stringent
                                                    guidelines apply to based on the institution’s level of TARP funding, but do not ap-
                                                    ply to any employment contracts entered into prior to February 11, 2009; therefore,
                                                    they do not apply to the AIG bonuses for its Financial Products Division.119 As of
                                                    March 31, 2009, the Treasury Secretary is reportedly working with the Department
                                                    of Justice to determine “what avenues are available by which the U.S. Government
                                                    can recoup the $165 million in bonuses paid to AIG Financial Products Division
                                                    employees.”120
                                                        ARRA legislation requires the Treasury Secretary to publish regulations that
                                                    implement the executive compensation requirements within Section 7001 of
                                                    ARRA.121 As of March 31, 2009, Treasury had not yet released regulations imple-
                                                    menting Section 7001. For more information on the amended executive compen-
                                                    sation restrictions and SIGTARP’s announced audit on executive compensation
                                                    oversight, refer to “Executive Compensation” later in this section.

                                                    Citigroup Inc.
                                                    Treasury funding to Citigroup has been pursuant to the following three pro-
     For more information on the terms and          grams: the Capital Purchase Program (“CPP”), the Targeted Investment Program
     conditions of the programs associated          (“TIP”), and the Asset Guarantee Program (“AGP”). Since SIGTARP’s Initial
     with Citigroup Inc., refer to SIGTARP’s        Report, Treasury has made no further funding to Citigroup. According to Treasury,
     Initial Report, Section 3: “TARP
                                                    Citigroup is still considered a systemically significant institution, and the AGP
     Implementation and Administration.”
                                                    agreements — which protect Citigroup against future losses on an asset pool of
                                                    $301 billion — are “part of a broader effort to support Citigroup as the company
                                                    executes its restructuring plans.”122 The funding received by Citigroup, as of
                                                    March 31, 2009, includes:123

                                                    • Capital Purchase Program: $25 billion on October 28, 2008
                                                    • Targeted Investment Program: $20 billion on December 31, 2008
                                                    • Asset Guarantee Program: $5 billion loss protection on January 15, 2009

                                                    Citigroup Use of Funds Report
                                                    Under its TIP agreement, based on SIGTARP’s recommendation, Citigroup has a
                                                    number of requirements including the submission of a quarterly report to Treasury
                                                    outlining the following information:124

                                                    • how it has used TARP funds
                                                    • the implementation of internal controls for its use of TARP funds
                                                    • Citigroup’s compliance or non-compliance with restrictions on use of its TARP
                                                      funds
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                                 69




    Citigroup must submit this quarterly report, entitled “TARP Progress Report”           FIGURE 2.8
until it has accounted for all of its TARP funds.
                                                                                           CITIGROUP USE AND INTENDED USE
    On February 3, 2009, Citigroup released its “TARP Progress Report for Fourth           OF FUNDS
Quarter 2008.” This report describes the actions and results of Citigroup’s Special        $ Billions, % of $36.5 Billion

TARP Committee (the “Committee”), made up of senior Citigroup executives for
the purpose of reviewing and approving the use of TARP capital. According to the
                                                                                                        Fannie/Freddie
report, the Committee has authorized initiatives to deploy $36.5 billion of TARP                                  MBS
                                                                                                                $10.0                           U.S. Prime
funds across various areas in order to expand credit.125 This represents approxi-                                                               Residential
mately 81% of the $45 billion in cash that Citigroup received under TARP as of                                     27%
                                                                                                                                                Mortgages
                                                                                                                                     21%        $7.5
March 31, 2009.
    According to the report, Citigroup plans to increase lines of credit in areas such       Corporate
                                                                                           Loan Activity
                                                                                                                                                   Family/
as residential mortgages, business and personal loans, student loans, credit card                 $1.5 4%
                                                                                                                                                   Individual
lending, and corporate loan activity.126 Details provided by Citigroup on the distri-                                                   22%        Mortgage
                                                                                                Credit Card     16%                                Loans
butions of the $36.5 billion authorized by the Committee are shown in Figure 2.8.                  Lending                                         $8.2
                                                                                                       $5.8
                                                                                                Student Loans                            Business Loans
Status of Citigroup Funds                                                                                $1.0 3%                    3% $1.0
As of March 31, 2009, Citigroup has been allocated $45 billion in TARP funding
                                                                                                   Personal Loans
including $25 billion in connection with CPP and $20 billion in connection with                              $1.5 4%

TIP.127 Treasury also allocated $5 billion of TARP funds to the AGP “ring-fencing”
of approximately $301 billion of Citigroup assets, but this amount has not yet been            Purchases
disbursed.128 A more detailed discussion on ring-fencing occurs later in this section.         Loans

Although Treasury has not allocated additional funds to Citigroup since SIGTARP’s
Initial Report, Treasury’s investments are expected to be modified. Potential              Note: Numbers affected by rounding. MBS = mortgage-backed
                                                                                           securities.
modifications include an exchange of a portion of Citigroup’s preferred shares held
                                                                                           Source: Citigroup Inc., “What Citi is Doing to Expand the Flow of
by Treasury as part of CPP funding, and an increased seniority of TIP and AGP              Credit, Support Homeowners and Help the U.S. Economy, TARP
                                                                                           Progress Report for Fourth Quarter 2008,” 2/3/2009,
preferred shares.129                                                                       www.citigroup.com, accessed 2/24/2009.



Citigroup’s Exchange Offering
On February 27, 2009, Citigroup requested that Treasury participate in an offer to
exchange preferred shares for common equity in an effort to strengthen its capital
structure and, in particular, its tangible common equity.130 For more details about
a bank’s capital structure, see the “TARP Tutorial: Capital Structure” earlier in this       Ring-fencing: Segregating assets from the
section. Citigroup offered the exchange to both its private and public preferred             rest of a financial institution, often so that
shareholders. Citigroup would exchange up to $27.5 billion of its non-Treasury               the assets’ problems can be addressed in
held preferred securities to common equity. Treasury announced it would match up             isolation.
to $25 billion of non-Treasury preferred securities by exchanging its own preferred
stock acquired under CPP, equaling a maximum total conversion, subject to share-             Exchange: In reference to Citigroup
holder approval, of $52.5 billion.131                                                        agreement, taking one type of stock
    On March 19, 2009, Citigroup announced that it had entered into agreements               (i.e., preferred) and converting it at a
with a portion of its non-Treasury holders of preferred stock. The agreements,               specific rate to another type of stock
so far, provide for the exchange of a total of $12.5 billion in preferred stock that         (i.e., common).

was originally issued in January 2008. As of March 31, 2009, Citigroup is in the
70             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      TABLE 2.21

                                                      PROPOSED CITIGROUP EXCHANGE OF TREASURY’S CPP INVESTMENT
     Trust Preferred Security: A security that                                                                                                   Common Shares at
                                                      Details                                 Preferred Sharesa                           Announced Exchange Rateb
     has both equity and debt characteristics.
     Trust Preferred Security is created by                                                                                                                7,692,307,692
                                                      # of shares                                         25 million
                                                                                                                                                       ($25 billion / $3.25)
     establishing a trust and issuing debt to
                                                      $ per share                                            $1,000                                                   $3.25
     the new trust. A company would create
                                                      Total Value                                        $25 billion                                              $25 billion
     a trust preferred security to realize tax
                                                      Dividends                                 $1.25 billion/year                            Only if declared by Citigroup’s
     benefits, since the trust is tax deductible.
                                                                                                    (5% annually)                                         Board of Directors
                                                      Note: Numbers are affected by rounding. Agreements and terms have not been finalized.

                                                      Sources:
                                                      a
                                                        Citigroup Inc., “Securities Purchase Agreement,” 10/28/2008.
                                                      bCitigroup Inc., 8-K, 3/2/2009.




                                                      process of finalizing definitive documentation of this transaction.132 The effect of
                                                      the announced transaction would not increase the total dollar amount of Treasury’s
                                                      investment in Citigroup;133 however, it would convert up to $25 billion of Treasury’s
                                                      preferred shares to common equity. If all $25 billion of Treasury shares were ex-
                                                      changed, it would increase the percentage of Treasury ownership to “approximately
                                                      36% of Citigroup’s outstanding common stock.”134 The exchange would also elimi-
                                                      nate the 5% dividend on those shares converted by Treasury, which would equal up
                                                      to $1.25 billion per year.
                                                          The $20 billion and $4 billion in preferred shares received under the TIP and
                                                      AGP agreements, respectively, would be converted into a trust preferred security
                                                      that has greater seniority than Treasury’s original preferred shares. Treasury will still
                                                      be entitled to receive dividends on these shares under the original agreements at
                                                      8% annually.135
                                                          Table 2.21 details an example of Treasury’s exchange of Citigroup shares.

                                                      Asset Guarantee Program for Citigroup
                                                      Under the Asset Guarantee Program, Treasury, FDIC, and the Federal Reserve
                                                      provided certain loss protections with respect to $301 billion of troubled assets
                                                      held by Citigroup.136 In return for the guarantees provided by Treasury and FDIC,
                                                      the U.S. Government collected $7 billion in premiums in the form of preferred
                                                      stock plus warrants of common stock; $4 billion of the preferred shares and all the
                                                      warrants were received by Treasury.137 For more information on the contractual
                                                      terms of the preferred shares, refer to SIGTARP’s Initial Report, Section 3: “TARP
                                                      Implementation and Administration.” The AGP agreement calls for segregating or
                                                      “ring-fencing” of the asset pool and lays out which assets will be covered, the loss
                                                      considerations, and management of the asset pool.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009             71




Citigroup Ring-Fencing
In banking, “ring-fencing” refers to the separation of certain assets within a finan-
                                                                                             Bad Bank: An entity (the “bad bank”)
cial institution. This separation does not physically remove the assets from the
                                                                                             that is legally separated from the bank
institution’s balance sheet. Instead, the specific assets are identified and tracked for     that created it (the “good bank”) and
special controls on management, accounting, and measures to contain any losses               into which are placed problem loans (or
on those assets.                                                                             other troubled assets). Usually created by
    Ring-fences are often confused with the concept of a “bad bank,” whereby a               banks to clean up their balance sheets.
bank accumulates its problem loans (or other troubled assets) into a separate entity
(the bad bank). In the bad-bank process, the problem assets are taken off the books          Covered Asset: An asset owned by
of the original bank, which is what distinguishes a bad bank from a ring-fence.              Citigroup or any of its subsidiaries that is
Having placed its problems into a separate company, management of the original               included in the ring-fence.
bank will now find it much easier to raise new capital from potential investors. This
is because investors will have comfort that they are protected from unexpected               Non-Recourse Loan: A secured loan
                                                                                             whereby the borrower is relieved of the
future losses on the hard-to-value assets now held by the bad bank.
                                                                                             obligation to repay the loan upon the sur-
    The AGP agreement with Citigroup creates a ring-fence around $301 billion
                                                                                             render of the collateral.
of Citigroup’s assets (“covered assets”). These assets are not physically removed
from Citigroup’s balance sheet, and therefore do not constitute a “bad bank.” The            Equity Security: Any stock or similar
Federal Reserve notes that Citigroup assets “will remain on the books of the insti-          security that represents ownership (or
tution but will be appropriately ‘ring-fenced.’”138 The covered assets are retained          the right to purchase ownership) in an
throughout the bank’s operating units and are identified for tracking purposes.139           organization or asset.
    Although the covered assets are not removed from Citigroup’s balance sheet, in-
vestor exposure to future losses on the troubled assets is limited because Treasury,
FDIC, and the Federal Reserve have agreed to provide certain loss protections after
the first $39.5 billion in losses. Citigroup will then absorb 10% of all additional
losses on the pool of assets, and Treasury and FDIC will absorb 90% of further loss-
es up to $5 billion and $10 billion, respectively. At that point, should any further
losses be incurred, the Federal Reserve will provide non-recourse loans collateral-
ized by these assets with the same 90%/10% loss-sharing provision.140

Covered Assets Criteria
Only certain assets on Citigroup’s books are eligible for inclusion in the ring-fence.
The criteria to determine covered assets are as follows:141

• The asset must have been issued or originated prior to March 14, 2008, as
  mandated by EESA.
• Equity securities, and securities whose value is derived by reference to equity
  securities, are excluded.
• Foreign assets, subject to limited allowances per the Master Agreement, are
  excluded (i.e., only U.S. entities and securities are eligible).
• Assets guaranteed by any Governmental authority (outside of the Master
  Agreement) are excluded.
72            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          The first announcement regarding the loss protections, dated November 23,
     Schedule A: Listing of the covered
                                                     2008, sized the asset pool at a total of $306 billion.142 After excluding assets not
     assets.
                                                     permitted under EESA, the final agreed-upon portfolio was reduced to $301
                                                     billion.143
     Baseline Value: The value of each covered
     asset on November 21, 2008. For mark-
                                                          From the Master Agreement date of January 15, 2009, Citigroup has 90 days to
     to-market assets, it is the fair market         prepare and deliver a finalized listing of covered assets (“Schedule A”) to all relevant
     value, and for accrual assets, it is the        U.S. Government parties. The Master Agreement includes a preliminary Schedule
     unpaid principal balance.                       A, which is a summary of the $301 billion ring-fenced assets. The finalized
                                                     Schedule A will detail the value for asset categories, reclassifications or corrections
     Market Value: The price at which an asset       to original baseline values, and adjustments for market values. The Schedule A
     can be sold to a willing buyer by a willing     may be updated from time to time as Citigroup and the U.S. Government mutually
     seller, in a reasonable amount of time.         agree.144 The U.S. Government parties (Treasury, FDIC, and the Federal Reserve)
                                                     have 120 days after the receipt of the finalized Schedule A to object to covered as-
     Mark-to-Market Assets: An asset being           sets that do not meet the covered asset criteria, are improperly categorized, or are
     assigned a value based upon the market
                                                     improperly baseline valued.145
     value as of a specific date.
                                                          The pool of covered assets is divided into two groups for valuation purposes:
                                                     mark-to-market assets and accrual assets. The mark-to-market assets are valued
     Accrual Assets: In the context of the AGP
     agreements, accrual assets are those
                                                     at their current market value; those assets totaled $24.63 billion as of November
     that are held on the bank’s books at ac-        21, 2008.146 Accrual assets are valued based on the unpaid principal of each asset,
     crued value (i.e., earned but not neces-        and, together, accounted for $264.96 billion of the covered assets as of November
     sarily received), as opposed to “mark-to-       21, 2008.147 Blackrock Inc., a financial management company, has been retained
     market” value.                                  by the Federal Reserve to conduct the valuation and pricing of assets.148 Figure 2.9
                                                     shows the breakdown of the types of covered assets included in mark-to-market
                                                     asset and accrual asset categories.

                                                      FIGURE 2.9

                                                      CITIGROUP’S RING-FENCED ASSETS
                                                      $ Billions

                                                                                                                               $43.07

                                                                                                                               $26.44
                                                      Mark-to-Market                                                           $18.96
                                                              Assets
                                                             $24.63      8%
                                                                                                    88%      Accrual Assets                    $264.96
                                                       Other Held to     4%                                  $264.96
                                                      Maturity Assets                                                         $176.49
                                                              $11.21




                                                                                                                              Commercial Real Estate
                                                                                                                              Other Consumer Loans
                                                                                                                              Auto Loans
                                                      Note: Numbers affected by rounding.                                     Mortgages

                                                      Source: Citigroup Inc., Master Agreement, “Schedule A,” 1/15/2009.
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009            73




Management/Administration of the Covered Assets
                                                                                                     Senior Oversight Committee (“SOC”):
Citigroup is responsible for establishing a senior oversight committee (“SOC”),
                                                                                                     Consists of Citigroup’s Chief Financial Of-
consisting of senior members of Citigroup’s management who are acceptable to
                                                                                                     ficer, Chief Risk Officer, General Counsel,
U.S. Government parties. SOC responsibilities include, but are not limited to:149                    Controller, Chief Accounting Officer, and
                                                                                                     the Treasurer.
• reviewing and approving the overall business and governance strategy for the
  covered assets
• reviewing a plan for communication with key stakeholders (i.e., board of direc-
  tors, shareholders, and the U.S. Government) prepared by the Executive Team
• reviewing strategic responses developed by the Executive Team or the business
  units
• monitoring compliance

    Additionally, Citigroup has appointed a “Covered Asset CEO,” a Citigroup
employee. The appointment was subject to approval by the SOC and U.S.
Government parties. The Covered Asset CEO is responsible for management and
oversight of the covered assets. The Covered Asset CEO reports to the SOC and
will be the primary point of contact for the U.S. Government parties.150 The SOC
is responsible for establishing any bonus or incentive components for the Covered
Asset CEO. In turn, the Covered Asset CEO is responsible for setting bonus and
incentives for the other members of the Executive Team and appropriate portfolio
managers. All compensation packages are subject to review and approval by the
SOC and the U.S. Government parties.151 The governance structure for the cov-
ered assets is detailed in Figure 2.10.

 FIGURE 2.10

 COVERED ASSET GOVERNANCE STRUCTURE


                                                     CITIGROUP
                                         SENIOR OVERSIGHT COMMITTEE (”SOC”)

                                                        Covered Asset CEO
                                                           Rick Stuckey


                                                              Executive
                                                                Team




      COO/CFO/                     Risk
                                                          Oversight and                 Project
       Project                  Management                                  Finance
                                                             Control                  Management
     Management



 Source: Treasury, response to SIGTARP data call, 4/4/2009.
74            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         The Covered Asset CEO is supported by the Executive Team, comprising rep-
                                                     resentatives of Citigroup business units, finance, risk, and legal functions. These
                                                     representatives are to commit substantial time to the management oversight of the
                                                     covered assets. Each Executive Team representative will manage the covered assets
                                                     (including monitoring of the performance of the covered assets, modifying process-
                                                     es and procedures as needed, and ensuring compliance by the portfolio
                                                     managers) from their relevant business unit. Incentives and compensation guide-
                                                     lines, based on the performance of the covered assets, are to be established and
                                                     overseen by the SOC and Covered Asset CEO, with U.S. Government parties’
                                                     review and approval.152
                                                         According to the Master Agreement, the management, administration, and
                                                     oversight of the covered assets will remain in control of Citigroup. However, the
                                                     U.S. Government can assume certain management responsibilities over the assets
                                                     once certain levels of losses are suffered. Specifically, at any time when losses in
                                                     excess of $19 billion are reached, the U.S. Government parties reserve the right to
                                                     take actions which include, but are not limited to:153

                                                     • imposing increased reporting, communication, or audit requirements
                                                     • appointing one or more representatives of the U.S. Government parties as vot-
                                                       ing members of the SOC
                                                     • reviewing/revising compensation guidelines

                                                        At any time that net losses incurred are in excess of $27 billion, the U.S.
     Net Loss: Net loss occurs when total
                                                     Government parties have the right to change the asset manager for all or part of the
     expenses exceed total revenues.
                                                     covered assets. It may also change the fundamental business objective of Citigroup
     Realized Losses: Loss realized by an            and require Citigroup to provide a business plan reflecting changes in management
     investor on a security after it has been        and business strategy with respect to the covered assets acceptable to the U.S.
     finally sold and the costs associated with      Government parties.154
     the security exceed the benefits of the
     holding.                                        Determining Covered Losses
                                                     At the end of each calendar quarter, Citigroup will calculate its actual losses on the
     Impaired: Decrease of value in an asset         covered assets. The schedule in Figure 2.11 is used to determine if a loss claim is
     due to long-term credit deterioration or        to be paid, and by which agency.155
     temporary market disruption.                        Only realized losses are covered under AGP, not “mark-to-market” fluctuations
                                                     in value. That is, there has to have been some event that caused an actual loss to
                                                     be incurred. For example, if Citigroup sells an asset at a loss, the loss portion is
                                                     eligible for coverage. In addition, if an actuary, appraiser, or other valuation expert
                                                     determines that an asset’s value has been impaired in such a way that it results in a
                                                     write-down of the value on Citigroup’s books, the drop in value will be eligible for
                                                     a claim.156 Variations in asset value that are not realized in these fashions will not
                                                     create losses.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   75




     The definition of “loss” is a net loss concept. Net loss is calculated by account-
ing for the effects of both gains and losses from across a ring-fence entity, add-
ing provisions for fees and costs of workouts, and any other permanent valuation
changes. The net loss is calculated on a quarterly basis. For example, if asset A is
sold for a loss of $6, but asset B is sold for a $4 profit, the net loss on these two
assets is $2.
     Over time, the potential liability of Treasury, FDIC, and the Federal Reserve
may decline as Citigroup experiences excess gains and recoveries on covered assets,
and as covered assets progress to maturity. A reduction in coverage could also occur
if losses are deemed to be due to the failure of Citigroup to manage and service
the covered assets in compliance with the terms of the “Governance and Asset
Management Guidelines” set forth in the Master Agreement.157
     Citigroup is generally prohibited from exchanging assets from its own portfolio
in and out of the covered assets pool, but may do so under strict rules regarding
equivalent valuation and trading.158 As an example, two assets that have similar
collateral and similar market values may be swapped with the approval of U.S
Government parties.
     According to Treasury, estimated losses on the ring-fence portfolio through
                                                                                                                                         For more information on the
December 31, 2008, were approximately $900 million. Information on losses in-
                                                                                                                                         guarantees and loss protections
curred after December 31, 2008, has not yet been received.159                                                                            to Citigroup, refer to SIGTARP’s
                                                                                                                                         Initial Report, Section 3: “TARP
                                                                                                                                         Implementation and Administration.”




FIGURE 2.11

U.S. GOVERNMENT GUARANTEES AND LOSS PROTECTIONS TO CITIGROUP
$ BILLIONS



                                                                                                                    Non-recourse
                             Loss 1                         Loss 2                       Loss 3                             Loan            Total
                    0                     $39.5                         $45.1                         $56.2                                 $301
Citigroup                      $39.5                           $0.6                          $1.1                              $24.5       $65.7
Treasury                            —                          $5.0                             —                                 —          $5.0
FDIC                                —                              —                       $10.0                                  —        $10.0
Federal Reserve                     —                              —                            —                             $220.4      $220.4
                               $39.5                           $5.6                        $11.1                              $244.8      $301.0

Note: Numbers affected by rounding. According to the Federal Reserve, Citigroup’s loss position is “exclusive of reserves.”

Sources: Citigroup Master Agreement, 1/15/2009; Federal Reserve, response to SIGTARP draft, 1/29/2009.
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Bank of America Corporation
                                            Since SIGTARP’s Initial Report, Treasury has made no further funding to Bank
                                            of America beyond that of its CPP, TIP, and proposed AGP agreements. Bank of
                                            America has received $25 billion in CPP funding (which includes the $10 billion
                                            received with the acquisition of Merrill Lynch).160 It has also received $20 billion
                                            in TIP funding and is projected to receive another $7.5 billion in loss protection
                                            from Treasury through AGP.161 According to Treasury, the previously approved Asset
                                            Guarantee Program agreement with Bank of America is currently in the process of
                                            being finalized and will contain ring-fencing parameters similar to those detailed in
                                            the Citigroup Agreement.
                                                The funding received by Bank of America as of March 31, 2009, includes:162

                                            • Capital Purchase Program: $15 billion on October 28, 2008
                                            • Capital Purchase Program: $10 billion on January 9, 2009
                                            • Targeted Investment Program: $20 billion on January 16, 2009

                                              Additionally, Treasury announced Bank of America’s participation in the Asset
                                            Guarantee Program:163

                                            • Asset Guarantee Program: $7.5 billion loss protection announced on
                                              January 16, 2009

                                            Asset Guarantee Program for Bank of America
                                            On January 16, 2009, Treasury, in partnership with FDIC and the Federal Reserve,
                                            indicated the U.S. Government’s intention to provide certain loss protection for
                                            approximately $118 billion in troubled assets held by Bank of America.164 In return
                                            for the guarantees provided by Treasury and FDIC, the U.S. Government will
                                            collect $4 billion in premiums in the form of preferred shares of stock and war-
                                            rants. Bank of America will also be required to implement a mortgage modifica-
                                            tion program acceptable to the U.S. Government.165 As of March 31, 2009, the
                                            AGP transaction had not closed, and the description herein is based solely on the
                                            intended terms announced by the parties. For more information on the contractual
                                            terms of the preferred shares, refer to SIGTARP’s Initial Report, Section 3: “TARP
                                            Implementation and Administration.”
                                                Figure 2.12 shows the announced loss protections provided by the U.S.
                                            Government in return for the premiums paid. The preliminary terms of the AGP
                                            agreement call for ring-fencing of the asset pool. It also describes which assets will
                                            be covered and the loss considerations for those assets.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009           77




Description of Covered Assets
                                                                                                                                       Derivative Asset: An asset whose stated
According to Bank of America’s Annual Report released on February 27, 2009,
                                                                                                                                       value or cash flow is determined by refer-
the asset pool of $118 billion is projected to include approximately $81 billion of
                                                                                                                                       ence to the value or cash flow of another
derivative assets and $37 billion of other financial assets. Assets expected to be                                                     asset (the “underlying asset”).
covered may generally include pre-market disruption assets (i.e., originated prior to
September 30, 2007) and the majority are assets added to Bank of America’s books
as a result of the acquisition of Merrill Lynch. Types of assets expected in the asset
pool may include:166

•   leveraged and commercial real estate loans
•   collateralized debt obligations (“CDOs”)
•   financial guarantor counterparty exposure
•   trading counterparty exposure
•   investment securities

    Although an agreement with Bank of America has not been reached, it is
expected that assets excluded will be generally similar to those excluded in the
Citigroup agreement, other than certain foreign assets that would have not been
allowable under the Citigroup agreement, but may be permitted for Bank of
                                                                                                                                       For more information on the
America.167 As of March 31, 2009, the AGP agreement with Bank of America had                                                           guarantees and loss protections to
not been finalized.                                                                                                                    Bank of America, refer to SIGTARP’s
                                                                                                                                       Initial Report, Section 3: “TARP
                                                                                                                                       Implementation and Administration.”

FIGURE 2.12

ANNOUNCED U.S. GOVERNMENT GUARANTEES AND LOSS PROTECTIONS
TO BANK OF AMERICA
$ BILLIONS


                                                                                    Non-recourse
                            Loss 1                        Loss 2                            Loan                    Total
                   0                    $10.0                         $21.1                                     $118.0
Bank of America               $10.0                           $1.1                               $9.7              $20.8
Treasury                           —                          $7.5                                   —               $7.5
FDIC                               —                          $2.5                                   —               $2.5
Federal Reserve                    —                             —                              $87.2              $87.2
                             $10.0                         $11.1                               $96.9             $118.0

Note: Numbers affected by rounding. The details in this graphic are based on preliminary terms announced by Treasury, the
Federal Reserve, and FDIC on 1/16/2009.

Sources: FDIC, “FDIC Press Release,” 1/16/2009, www.fdic.gov, accessed 1/23/2009; Bank of America AGP Agreement,
“Summary of Terms, Eligible Asset Guarantee,” 1/15/2009.
78                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                                     78




                                                                      THE AUTOMOTIVE INDUSTRY FINANCING
                                                                      PROGRAM
                                                                      The assistance provided by Treasury to the U.S. automotive industry comes under
                                                                      the Automotive Industry Financing Program (“AIFP”); the stated objective of AIFP
                                                                      is to prevent a significant disruption of the American automotive industry that
                                                                      could pose a systemic risk to financial market stability and have a negative effect on
                                                                      the economy of the United States.168 The program requires participating institu-
                                                                      tions (General Motors Corporation (“GM”); Chrysler Holding LLC (“Chrysler”);
     Restructuring Plan: As defined in Trea-                          GMAC LLC (“GMAC”); and Chrysler Financial Services Americas LLC (“Chrysler
     sury’s agreement with GM and Chrysler, a                         Financial”)) to implement restructuring plans that will achieve long-term viability,
     plan to achieve and sustain the long-term                        and to adhere to executive compensation standards and other measures designed
     viability, international competitiveness,                        to protect the taxpayers’ interests, including limits on the institution’s expenditures
     and energy efficiency of the company and                         and other corporate governance requirements.
     its subsidiaries.
                                                                          On December 19, 2008, Treasury created AIFP, and, on December 29, 2008,
                                                                      signed an agreement to provide assistance to GMAC, followed shortly by an agree-
                                                                      ment with GM signed on December 31, 2008. The agreement for assistance to
                                                                      Chrysler was signed on January 2, 2009, and to Chrysler Financial on January 16,
FIGURE 2.13                                                           2009. TARP funding provided to each institution is illustrated in Figure 2.13. In
                                                                      order to receive assistance, the manufacturers were required to submit restructur-
AIFP EXPENDITURES BY PARTICIPANT,
CUMULATIVE                                                            ing plans by February 17, 2009.
$ Billions,% of $24.8 Billion

      Chrysler Financial $1.5
                                                                      Recent Developments
                                                                      Since the publication of SIGTARP’s Initial Report, there have been several im-
                               6%
                                                                      portant developments relevant to TARP assistance to the automotive sector. As of
Chrysler $4.0        16%                                              March 31, 2009, key developments include:


                                                 58% GM $14.3         • Release of Restructuring Plans and Viability Determination. On
 GMAC $5.0         20%
                                                                        February 17, 2009, both GM and Chrysler released their restructuring plans as
                                                                        required in their respective assistance agreements with Treasury. Treasury deter-
                                                                        mined that the manufacturers had not met the threshold to assure their long-
                                                                        term viability. Treasury granted Chrysler a 30-day extension, until May 1, 2009,
Note: Numbers affected by rounding. As of 3/31/2009. On
3/17/2009, Chrysler Financial made its first principal repayment in
                                                                        and GM a 60-day extension, until June 1, 2009, to resubmit their restructuring
the amount of $3.5 million.
                                                                        plans.
Sources: Treasury, Transactions Report, 4/2/2009; Treasury,
response to SIGTARP data call, 4/9/2009.
                                                                      • Creation of Presidential Task Force on the Auto Industry. On
                                                                        February 20, 2009, President Obama formed a committee, headed by the
                                                                        Treasury Secretary and the National Economic Council Director, to review is-
                                                                        sues related to the auto industry and provide recommendations.169
79                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009             79




     • Initiation of Auto Supplier Support Program. On March 19, 2009, Treasury
       announced a program to support auto industry suppliers with up to $5 billion
       worth of receivables financing. As stated by Treasury, the objective of the pro-
       gram is to address concerns about the auto manufacturers’ ability to make pay-
       ment on parts they buy from their suppliers by providing Government-backed
       financing to suppliers.
     • Launch of Auto Warranty Commitment Program. On March 30, 2009, the
       Administration announced the creation of a warranty commitment program
       that guarantees consumer warranty obligations on GM and Chrysler vehicles
       purchased during the restructuring period. Treasury preliminarily discussed
       potential funding for the Auto Warranty Commitment Program of up to an
       estimated $1.25 billion.170

     Presidential Task Force on the Auto Industry
     Since SIGTARP’s Initial Report, the Administration created a Presidential Task
     Force on the Auto Industry (“Task Force”), which comprises the heads of sev-
     eral Federal departments and agencies. The Task Force, officially introduced
     on February 20, 2009, is headed by the Treasury Secretary and the National
     Economic Council Director and is responsible for, among other things, coordinat-
     ing the Administration’s response to the restructuring plans submitted by GM and
     Chrysler.171 The President named Ron Bloom as Senior Advisor on Auto Issues
     at Treasury and Steven Rattner as Counselor to the Treasury Secretary to lead
     Treasury’s efforts with regard to the automotive sector bailout.172 The two will         President’s Designee: One or more officers
     act as day-to-day co-leaders of the Task Force. In addition, on March 30, 2009,          from the Executive Branch designated by
     Edward Montgomery was appointed the Director of Recovery for Auto Workers and            the President. For the purposes of AIFP, the
                                                                                              President’s Designee is the Treasury
     Communities and will work to facilitate economic recovery efforts in areas affected
                                                                                              Secretary.
     by changes in the auto industry.173 As of March 31, 2009, the Treasury Secretary
     was serving as the official President’s Designee until a permanent appointment
     could be made. The Task Force structure is outlined in Figure 2.14.
         The Task Force held its initial meeting on February 20, 2009, to review the
     restructuring plans of GM and Chrysler. The participants also reportedly discussed
     financial and operational restructuring, improving competitiveness of wage and
     benefit structures, and progress toward creating clean, competitive cars. The mem-
     bers were tasked with performing additional analysis and forming initial recommen-
     dations in their areas of expertise for presentation at the next meeting. The Task
     Force members also have reviewed the auto manufacturers’ progress reports and
     issued a report on the viability of both GM and Chrysler on March 30, 2009.
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                                                                   80




                                            FIGURE 2.14

                                            PRESIDENTIAL TASK FORCE ON THE AUTO INDUSTRY


                                                                                    Timothy Geithner                Larry Summers
                                                    LEADERS                        Treasury Secretary              Director, National
                                                                                                                   Economic Council



                                                                                     Steven Rattner                   Ron Bloom
                                             DAY-TO-DAY LEADERS                     Counselor to the               Senior Advisor on
                                                                                   Treasury Secretary                Auto Issues



                                                                                             Diana Farrell     Deputy Director,
                                                                                                               National Economic
                                                                                                               Council
                                                                                           Gene Sperling       Counselor to the
                                                                                                               Treasury Secretary                         MEMBERS
                                                                                          Jared Bernstein      Chief Economist to
                                                                                                               Vice President Biden               Secretary of Treasury
                                                                                  Edward Montgomery*           Senior Advisor,                    National Economic Council
                                                                                                               Department of Labor                  Director
                                                                                                                                                  Secretary of Transportation
                                                                                          Lisa Heinzerling     Senior Climate Policy
                                                                                                               Counsel to the EPA                 Secretary of Commerce
                                                                                                               Administrator                      Secretary of Labor
                                                                                        Austan Goolsbee        Staff Director and Chief           Secretary of Energy
                                             OFFICIAL DESIGNEES                                                Economist of the                   Chair of the President’s
                                                                                                               Economic Recovery                    Council of Economic
                                                                                                               Advisory Board                       Advisers
                                                                                                Dan Utech      Senior Advisor to the              Director of the Office of
                                                                                                               Secretary of Energy                  Management and Budget
                                                                                           Heather Zichal      Deputy Director, White             Environmental Protection
                                                                                                               House Office of Energy               Agency Administrator
                                                                                                               and Climate Change                 Director of the White House
                                                                                             Joan DeBoer       Chief of Staff,                      Office of Energy and
                                                                                                               Department of                        Climate Change
                                                                                                               Transportation
                                                                                                Rick Wade      Senior Advisor,
                                                                                                               Department of
                                                                                                               Commerce



                                            Note: *Edward Montgomery is also serving as the Director of Recovery for Auto Workers and Communities.
                                            Sources: White House Press Release, “Geithner, Summers Convene Official Designees to Presidental Task Force on the Auto Industry,”
                                            2/20/2009, www.whitehouse.gov, accessed 4/13/2009; White House Press Release, “Obama Administration New Path to Viability for
                                            GM & Chrysler,” 3/30/2009, www.whitehouse.gov, accessed 3/30/2009.
81                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   81




     TABLE 2.22

     REPORTING REQUIREMENTS FOR AUTO MAKERS: STATUS
     Report Type                                                             Due or Start Date                   Frequency*
     Restructuring Plan                                                      2/17/2009                           Once
     Restructuring Plan Progress Report                                      3/31/2009**                         Once
     Cash Forecast Status Report                                             1/12/2009                           Weekly
     Liquidity Status Report                                                 1/12/2009                           Bi-weekly
     Expense Policy Certificate                                              After closing date                  Monthly
     Executive Compensation Compliance Certificate                           After closing date                  Quarterly
     Financial Statements                                                    As Reported                         As Reported

     Note:
     * Both GM and Chrysler submitted each report, statement, and certificate at the required frequency.
     ** Initial due date. On March 30, 2009, the date was extended 60 days for GM and 30 days for Chrysler.

     Sources: GM Agreement, “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and The
     United States Department of Treasury as Lender Dated as of December 31, 2008.” Chrysler Agreement, “Loan And Security Agreement
     By and Between The Borrower Listed on Appendix A As Borrower and The United States Department of Treasury as Lender Dated as of
     December 31, 2008;” White House Press Release, “Obama Administration New Path to Viability for GM & Chrysler,” 3/30/2009,
     www.whitehouse.gov, accessed 3/30/09; Treasury, response to SIGTARP data calls, 4/1/2009 and 4/8/2009.




     Reporting Requirements
     The manufacturers’ assistance agreements (virtually identical for both GM and
     Chrysler) contain a number of strict reporting requirements, ranging from develop-
     ing viable restructuring plans to the ongoing reporting of key indicators such as li-
     quidity and compliance with executive compensation limitations. Table 2.22 shows
     a summary of the reporting requirements, as well as the status of the auto makers’
     compliance. Both GM and Chrysler were given extensions from the original
     March 31, 2009, restructuring plan progress report due date.

     General Motors Corporation
     The key developments relating to Treasury assistance to GM since the issuance of
     SIGTARP’s Initial Report include the following:
                                                                                                                                        For more information on the terms
                                                                                                                                        and conditions of both the GM
     • release of restructuring plan and viability determination
                                                                                                                                        and Chrysler agreements, refer to
     • issuance of the 2008 10-K report                                                                                                 SIGTARP’s Initial Report, Section
                                                                                                                                        3: “TARP Implementation and
     Restructuring Plan and Viability Determination                                                                                     Administration.”
     The GM restructuring plan, issued on February 17, 2009, attempts to address
     the key requirements set forth in the Loan and Security Agreement (“LSA”) of
     December 31, 2008. On March 30, 2009, the Treasury Secretary, as the President’s
     Designee, determined that GM had not met the requirements of its LSA, because
     its restructuring plan failed to demonstrate that GM was on the path to long-term
     viability. The Treasury Secretary characterized GM’s timeframe and industry
     growth rate assumptions as overly optimistic. He also noted that GM had failed to
     meet the following conditions of its LSA: reach an agreement on its labor modi-
     fications, receive the necessary approvals of the Voluntary Employees Beneficiary
82             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Association’s (“VEBA’s”) modifications, and execute a required bond exchange
                                                      offer.174
                                                          The Treasury Secretary acknowledged that, although GM has made significant
                                                      progress on meeting its goals, more progress needs to be made in order for GM to
                                                      become a viable long-term enterprise. GM was given 60 days to submit a revised
                                                      plan to demonstrate progress for its long-term viability. If it fails to do so, GM’s loan
                                                      from the Government will become due 30 days thereafter, which will likely force
                                                      GM into bankruptcy.175 GM will submit a report on the progress of its restructuring
                                                      on June 1, 2009. Table 2.23 provides an overview of the program details contained
                                                      in the February 17, 2009, “General Motors Corporation 2009-2014 Restructuring
                                                      Plan.”

                                                      Additional Funding
                                                      As part of the February 17, 2009 restructuring plan, GM requested additional
                                                      funds through a combination of secured term debt, a revolving line of credit, and
                                                      preferred equity. For the baseline scenario, GM asked for up to $22.5 billion —
                                                      consisting of an $18 billion investment, plus $4.5 billion in required incremental
                                                      funding.176 GM also ran a downside scenario in which GM would require an addi-
                                                      tional $7.5 billion of funding in the form of a secured revolver facility. This addi-
                                                      tional funding would bring GM’s total Government assistance up to $30 billion.177
                                                      Based on the revised submission date granted to GM, additional funding, estimated
                                                      to be up to $5 billion, will be provided to GM during the 60-day extension.178

                                                      Auditors’ Opinion
                                                      Exhibit 23.a of GM’s annual report on Securities and Exchange Commission
                                                      (“SEC”) Form 10-K filed on March 5, 2009, contains a declaration from the
                                                      company’s independent auditors that expresses “the existence of substantial doubt
                                                      about the Corporation’s ability to continue as a going concern.”179 The auditor
     Going Concern: Term used by auditors
     to refer to a company that is able to            provided a detailed statement regarding GM’s recurring losses from operations, its
     continue its operations into the foresee-        stockholders’ deficit, and its inability to generate sufficient cash to meet its obliga-
     able future.                                     tions and sustain its operations. The statement reflects the auditors’ concern that
                                                      GM may not be able to overcome its losses and generate enough cash to stay in
                                                      business.
                                                                                                      QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                    83




TABLE 2.23

KEY ASPECTS OF GM RESTRUCTURING PLAN
Loan Agreement
Requirement                            February 17, 2009 Plan Details
Competitive Product Mix and            • Reducing the number of brands, nameplates, and retail outlets to focus on “fewer, better” entries with more competitive
Cost Structure                           dealer economics
                                       • Focused on core brands of Chevrolet, Cadillac, Buick, and GMC, with Pontiac playing niche role
                                       • A 25% reduction in number of nameplates by 2012
                                       • Increased focus on cars and crossovers (81% of nameplates by 2014, up from low of 52% in 2004)
                                       • Consolidating dealerships into fewer locations (25% reduction over 4 years)
                                       • Increase use of global architectures (centralized planning, design, engineering, etc.) to develop 50% of GM’s U.S.
                                         passenger cars by 2012, and approximately 90% by 2014
                                       • Improvements in manufacturing productivity since 2000 show GM competitive with Toyota for North American vehicle
                                         assembly
                                       • Lowered cost per vehicle by 26% from 2004 to 2008
                                       • Suspended JOBS program, which provided full income and benefit protection in lieu of layoff for indefinite period
                                       • Implemented voluntary incentivized attrition program for hourly workforce
                                       • Reached tentative agreement on modifying labor agreement with United Auto Workers (UAW), awaiting ratification by union
                                       • Plans in place to report competitiveness progress to U.S. Secretary of Labor to certify competitiveness relative to foreign
                                         manufacturers operation in United States
Compliance with Federal                • In 2008, offered 20 models with greater than 30 MPG (highway), up from 8 in 2004; plans for 23 by 2012 and 33 by
Fuel Economy and Emission                2014
Requirements                           • Increased number of alternative fuel models from 6% of sales in 2004 to 17% in 2008; plan calls for increase to 61% in
                                         2012 and 65% in 2014
                                       • Increased number of hybrid and plug-in models from 2 in 2004 to 6 in 2008; plan calls for 14 in 2012 and 26 in 2014
                                       • Stated intention to comply with 2007 Energy Independence and Security Act, which sets mileage targets for 2020
                                       • Plan targets an average fuel efficiency of 33.7 MPG for cars and 23.8 MPG for trucks by 2012, and 38.6 MPG for cars
                                         and 26.8 MPG for trucks by 2014
Domestic Manufacturer of               • Increased investment in electric vehicles and lithium-ion battery development (1,000 engineers and technicians), including
“Advanced Technology”                    planned construction of new manufacturing facility for battery packs
Vehicles                               • Submitted two proposals for advanced technology vehicle development to U.S. Department of Energy totaling $8.4
                                         billion, with a third submitted on March 31, 2009
Rationalization of Costs,              • Accelerated efforts at labor cost reductions
Capitalization, and Capacity           • Specifics relating to salaried cost competitiveness, restructuring VEBA obligations (VEBA is a tax-free health
                                         reimbursement arrangement where GM makes contributions into a trust account for employees and their families to use
                                         for eligible out-of-pocket healthcare costs and premiums)
                                       • Negotiating plan with UAW to convert VEBA and retiree “pay as you go” healthcare obligations (present value of $20
                                         billion) into plan whereby GM funds 50% of the obligations, and meets the other half of obligations by paying common
                                         stock into the VEBA trust
                                       • Plan anticipates, if negotiations with UAW and regulatory review are successful, to complete conversion in May 2009
                                       • Negotiating bond exchange where 2/3 or more of the unsecured bondholders would receive equity instead
                                       • Plan contains letter of understanding, with anticipated bond exchange scheduled for late March
Financial Viability and Federal        • Significant short-term negative cash flow for North American and global manufacturing (anticipated negative operating
Loan Repayment                           cash flow of $14 billion in 2009)
                                       • Despite reduced sales expectations, plan anticipates positive operating cash flow by 2010 for North American
                                         operations, reaching approximately $7 billion by 2013-2014
                                       • Globally, anticipate positive operating cash flow by 2012
                                       • Baseline NPV analysis (assuming reduction of VEBA and conversion of 2/3 debt to equity), shows positive $5 billion – $14
                                         billion; downside analysis is negative NPV; upside analysis is positive $30 billion – $41 billion
                                       • Plan calls for total TARP funding to reach $22.5 billion by 2011, and repayment to begin in 2012
                                       • Estimates for repayment of TARP funds average approximately $3 billion per year beginning 2012 with final repayment in
                                         2017

Source: General Motors, “General Motors Corporation Restructuring Plan 2009–2014,” 2/17/2009.
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            GMAC LLC
                                            The Federal Reserve approved an application for GMAC to reorganize as a bank
                                            holding company in December 2008. As part of this reorganization, the Federal
                                            Reserve required GMAC to increase capital by raising $7 billion of new equity.
                                            TARP funded $5 billion of this requirement through a purchase of senior preferred
                                            equity (“the stock purchase agreement”),180 and GMAC conducted a rights of-
                                            fering for the remaining capital requirement. As part of this rights offering, GM
                                            and Cerberus Capital Management (GMAC’s majority shareholder) entered into
                                            agreements to purchase new common equity.181 Treasury loaned GM $884 mil-
                                            lion through TARP to participate in the GMAC rights offering, which closed on
                                            January 16, 2009. Under the terms of its loan agreement, Treasury has the right
                                            to exchange its loan for the shares purchased by GM in the rights offering.182 As of
                                            GMAC’s 8-K report issued on March 25, 2009, Treasury has not yet exercised that
                                            right.
                                                As a condition of the Federal Reserve’s approval of the bank holding company
                                            status, neither GM nor Cerberus was allowed to maintain a controlling interest in
                                            GMAC. GM was to reduce its holding to less than 10% and transfer that interest to
                                            an independent trust, to be approved by the Federal Reserve and Treasury.
                                                GMAC was also required to make changes to its board of directors no later than
                                            March 24, 2009. The new board should include seven members: the GMAC CEO,
                                            one representative from FIM Holdings, LLC (a subsidiary of Cerberus), two direc-
                                            tors appointed by a trust to be formed by Treasury, and three independent directors
                                            selected by the other directors. In addition, GM and FIM Holdings, LLC are each
                                            entitled to one non-voting observer on the board. In GMAC’s 8-K filed on March
                                            25, 2009, it states that several board members resigned or were removed on March
                                            24, 2009, and lists the names of the new appointments: Stephen Feinberg (FIM
                                            Manager), Alvaro G. de Molina (the CEO), and Robert Hull and Samuel Ramsey
                                            (the CEO Appointments).

                                            Key Reporting Requirements Performance
                                            Under the stock purchase agreement, GMAC must comply with restrictions on
                                            stock repurchase, dividends, executive compensation, and expense policy require-
                                            ments similar to those required for GM.183

                                            Chrysler Holding LLC
                                            Since SIGTARP’s Initial Report, Chrysler released its restructuring plan on
                                            February 17, 2009, which was also found to be deficient.

                                            Restructuring Plan and Viability Determination
                                            Chrysler issued the “Restructuring Plan for Long-Term Viability” on
                                            February 17, 2009. On March 30, 2009, the Treasury Secretary, acting as the
                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                  85




President’s Designee, determined that Chrysler was not on target to meet the
conditions laid out in the LSA dated December 31, 2008, based on its February
17, 2009, restructuring plan. He also determined that Chrysler would not be able
to operate as a stand-alone entity in the long term and therefore must formalize a
partnership with Fiat SpA (“Fiat”) or another external entity to ensure its long-term
viability. In addition to producing a non-viable restructuring plan, Chrysler was not
able to obtain approval of the required labor modifications, did not receive the nec-
essary approvals of its VEBA modifications, and had not commenced the required


TABLE 2.24


KEY ASPECTS OF CHRYSLER RESTRUCTURING PLAN
Loan Agreement
Requirement                              February 17, 2009 Plan Details
Competitive Product Mix and              • Signed term sheet agreeing to work toward a 50% reduction in Chrysler’s VEBA Cash Payment Liability (conditioned on
Cost Structure                             satisfactory debt restructuring)
                                         • Shareholders (Cerberus and Daimler) will (i) relinquish their equity, and (ii) convert 100% of their 2nd lien debt for equity
                                           (conditioned on a viable plan and overall restructuring)
                                         • Signed tentative agreement with the UAW with respect to competitive level compensation, work-rules and severance
                                           provisions with U.S. transplants
                                         • Continue to work with UAW on funding the 2009 healthcare payments out of the existing VEBA, and to modify the terms
                                           of the settlement agreement to include the pension pass-through revision and future payment streams
Compliance with Federal                  • For the 2009 model year, 73% of Chrysler’s products offer improved fuel economy compared with 2008 models
Fuel Economy and Emission                • An all-new family of fuel-efficient V-6 engines will join Chrysler’s lineup in 2010
Requirements                             • Over the past decade, built more than 1.5 million Flexible Fuel Vehicles capable of running on renewable, American-made
                                           ethanol fuel — (E85) — are committed to making 50% of Chrysler’s new light-duty vehicles capable of using alternative
                                           fuels in 2012
                                         • In the proposed alliance with Fiat, would gain access to Fiat Group vehicle platforms that would complement current
                                           product portfolio and would accelerate the company’s plans for the introduction of more environmentally friendly vehicles
                                         • Plans to launch additional small, fuel-efficient vehicles as well as a breakthrough family of all-electric and range-extended
                                           electric vehicles
                                         • Will have more than 66 ENVI advanced propulsion electric-drive vehicles in fleet service this year
                                         • First Chrysler electric-drive vehicle will be available for retail customers in 2010, with additional models in production by
                                           2013
Rationalization of Cost,                 •   Reduced fixed cost by $3.8 billion (27%)
Capitalization and Capacity              •   Reduced unit capacity by 1.3 million (35%)
                                         •   Reduced headcount by 35,000 (41%)
                                         •   Completed asset sales of $1.0 billion
                                         •   Nameplate reduction by 7
                                         •   Eliminated retiree life insurance
                                         •   Suspended salary merits and bonuses
                                         •   Suspended 401(k) match
                                         •   Suspended tuition assistance program
                                         •   Fully compliant with all Government executive compensation requirements
Financial Viability and Federal • A commitment from the UAW to restructure the VEBA
Loan Repayment                  • Wage and benefit reductions and work-rule modifications that are competitive with the U.S. transplant levels
                                • Severance benefit reductions, incl. elimination of “Jobs Bank”
                                • Cerberus and Daimler have agreed to convert their 2nd lien debt
                                • Has no public bonds, and has requested its three creditor groups to participate in reducing its debt and debt service by
                                  $5 billion

Source: Chrysler Restructuring Plan for Long-Term Viability, 2/17/2009.
86   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            debt exchange offer.184 Table 2.24 summarizes Chrysler’s restructuring plan submis-
                                            sion that was determined to be non-viable by Treasury.
                                                On May 1, 2009, Chrysler is required to produce an update on its efforts to
                                            implement the restructuring plan, which, as a condition to receiving continued
                                            Government support, must include a formal partnership with Fiat or another com-
                                            pany.185 Chrysler will be provided with approximately $500 million in TARP funds
                                            while it attempts to complete its restructuring plan.186

                                            Chrysler Financial Services LLC
                                            As discussed in SIGTARP’s Initial Report, Treasury announced on January
                                            16, 2009, a loan under AIFP of up to $1.5 billion to Chrysler LB Receivables
                                            Trust (“Chrysler Trust”), a special purpose entity created by Chrysler Financial,
                                            to finance the extension of new consumer auto loans. Under the agreement,
                                            Chrysler Financial must comply with the executive compensation and corporate
                                            governance requirements of Section 111(b) of EESA, as well as enhanced restric-
                                            tions on executive compensation including the need to reduce its bonus pool for
                                            Senior Executive Officers and Senior Employees by 40%.187 Per the agreement
                                            with Treasury, Chrysler Financial has specific requirements related to the loan.
                                            In particular, interest, principal, and other proceeds from the repayment of the
                                            loan financed with TARP funds must be deposited into a collection account.
                                            Disbursements from Treasury to Chrysler Financial under this loan are shown in


                                            TABLE 2.25


                                            FUNDS DISBURSED TO CHRYSLER FINANCIAL                                      ($ MILLIONS)

                                            Date of Funding                                                     Amount of Funding
                                            1/16/2009                                                                              $100
                                            1/22/2009                                                                               100
                                            1/29/2009                                                                               100
                                            2/5/2009                                                                                100
                                            2/19/2009                                                                                 –
                                            2/26/2009                                                                                 –
                                            3/5/2009                                                                                250
                                            3/12/2009                                                                               250
                                            3/19/2009                                                                               150
                                            3/26/2009                                                                               125
                                            TOTAL                                                                             $1,175

                                            Notes: Amount of funding is based on Bank of New York Mellon’s Cash Activity Report.

                                            Source: Treasury, response to SIGTARP data call, 4/6/2009.
87                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   87




     Table 2.25. Chrysler Financial made its first loan payment to the Government on
     March 17, 2009, repaying $3.5 million of its principal balance along with interest
     payments of approximately $932,000.188
         According to Treasury officials, Chrysler Financial sought additional funding
     from TARP beyond the initial $1.5 billion. In response, on April 7, 2009, Treasury
     asked Chrysler Financial to obtain waivers from the top 25 Chrysler Financial exec-
     utives that would have waived legal claims against Treasury and Chrysler Financial
     resulting from the recent changes in executive compensation requirements for
     TARP recipients. Chrysler Financial’s management, however, informed Treasury
     that it was unable to obtain waivers from all 25 executives, therefore the request for
     additional funding was denied.189

     Auto Supplier Support Program
     On March 19, 2009, Treasury announced a new program aimed at supporting
     the suppliers to the U.S. auto manufacturing industry. The Auto Supplier Support
     Program (“ASSP”) is a renewable one-year program that will provide up to $5 bil-
     lion in financing that is intended to benefit both suppliers and auto manufacturers.
     The program provides Government-backed protection to the suppliers against any
     failure by the manufacturers to make payments on goods that they receive from
     their suppliers, even if the manufacturers file for bankruptcy.190

     Program Objectives
     As of March 31, 2009, TARP has provided $24.8 billion of support to GM,
     Chrysler, GMAC, and Chrysler Financial. The auto suppliers, however, are con-
     fronted by their own challenges in the face of potentially bankrupt clients. First,
     the auto suppliers are concerned with whether they will continue to have custom-
     ers (the auto manufacturers) to purchase their parts. These auto suppliers have de-
     veloped symbiotic, long-term relationships with the auto manufacturers, frequently
     developing specialized parts for their use. Secondly, the auto suppliers are uncer-
     tain about whether they will receive payments for auto parts that are delivered to
     the auto manufacturers. On March 19, 2009, the Treasury Secretary stated:

              The Supplier Support Program will help stabilize a critical com-
              ponent of the American auto industry during the difficult period
              of restructuring that lies ahead. The program will provide supply
              companies with much needed access to liquidity to assist them
              in meeting payrolls and covering their expenses, while giving the
              domestic auto companies reliable access to the parts they need.191

        Treasury stated that it intends to provide Government-backed financing to break
     the adverse credit cycle affecting the suppliers and the manufacturers by “giving
88            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     suppliers the confidence they need to continue shipping parts, pay their employees
                                                     and continue their operations.” The program goals are as follows:192

                                                     • enable access to the program for auto companies and suppliers (upon approval)
                                                       for a fee based on qualifying terms
                                                     • provide suppliers with Government-backed protection that money owed to
                                                       them for products they ship will be paid no matter what happens to the auto
                                                       manufacturer
     Receivables: Receivables are amounts of         • permit suppliers to sell their receivables into the program at a modest discount,
     money owed to a company. They include             which provides access to funding to pay their workers and support ongoing
     claims to cash or other assets that arise         operations
     from the sale of goods or services, or
     other provisions.                               Background
                                                     The ASSP aims to address three areas of concern:193

                                                     • Tightening Receivables: Because of uncertainties about the manufactur-
                                                       ers’ abilities to honor their obligations, suppliers are tightening receivables
                                                       conditions, or the timing of when the manufacturers must pay for their parts.
                                                       Normally, suppliers allow manufacturers 45 to 60 days to pay for the parts that
                                                       they deliver. However, currently suppliers are shortening the time that they are
                                                       giving the manufacturers to pay for the parts, at times requiring cash on delivery,
                                                       or even advance payment. The suppliers are shortening these time periods
                                                       because they are concerned that they will not be paid should the manufacturer
                                                       declare bankruptcy.
                                                     • Manufacturer Disruptions: More stringent payment terms complicate the
                                                       manufacturers’ attempts to implement their restructuring programs, because
                                                       they would need significantly more cash on hand to make these payments
                                                       so quickly. It also complicates their ability to produce automobiles on a nor-
                                                       mal schedule, which, through a self-reinforcing cycle, further endangers the
                                                       suppliers.
                                                     • Tightening Credit for Suppliers: Banks are less willing to extend credit based
                                                       on the suppliers’ receivables, because the banks are not certain that suppliers
                                                       will be able to collect the funds in the event that the auto manufacturers are
                                                       unable to pay.

                                                     Implementation
                                                     All domestic auto manufacturers have been invited to participate in the program,
                                                     and, as of March 31, 2009, GM and Chrysler have accepted.194 The auto manu-
                                                     facturer, not Treasury, selects which receivables from which suppliers it wishes to
                                                     include in ASSP. According to Treasury officials, once approved into the program,
                                                     the supplier will pay a fee that is deducted from the purchase price to participate.195
89                                                                                      QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   89




     Only receivables that are made with normal commercial terms are eligible for
     participation. Further, only receivables relating to products or services shipped after
     March 19, 2009, are eligible.196 The program will not cover the entire industry;
     only certain receivables from certain suppliers, as selected by the manufacturer,
     will be included in the program.197 The ASSP gives SIGTARP, GAO, and Treasury
     the same inspection rights and access to personnel and information for the sup-
     pliers as they currently have for the auto manufacturers. Treasury will also receive
     periodic certifications from the suppliers to ensure compliance with the program’s
     requirements.198

     Special Purpose Vehicle
     The key operating component of the ASSP will be a special purpose vehicle (“SPV”)
     that will be administered by Citigroup.199 The participating auto manufacturer will
     provide an up-front cash commitment to the SPV (to be 5% of the total value of its
     program). TARP will then provide a loan to the SPV for the agreed-upon amount.200
         The SPVs will be structured in a way that, in the event of a bankruptcy filing by
     the participating auto manufacturer, the SPV will be able to continue financing re-
     ceivables while the company continues to operate under bankruptcy protection.201

     Operations
     Once included in the program, the suppliers will have the option either to allow a
     receivable covered by the program to run its normal payment term (45 to 60 days)
     or sell it to the SPV immediately at an additional discount. According to Treasury
     officials, the supplier’s choice has the following ramifications:

     • If they choose the former option, and the auto manufacturer pays the receivable
       on its due date, the supplier receives that payment less a 2% discount and has
       essentially paid a fee to insure against default. If the manufacturer fails to pay
       the receivable, the TARP-funded SPV will fund the payment to the supplier.
     • If the supplier chooses to sell the receivable before the payment is due, the
       TARP-funded SPV will buy the receivable at a 3% discount from the supplier,
       and then will seek payment from the auto manufacturer for the full amount
       originally due to the supplier.202

         In either case, if the auto manufacturer fails to make the payment, the SPV
     (and, as direct result, the American taxpayer) will suffer a loss to the extent that ac-
     cumulated fees from earlier transactions and the auto manufacturer’s 5% contribu-
     tion are not sufficient to make up the shortfall.203
         For example, an auto manufacturer anticipates that it will purchase $1,000
     worth of auto parts from a supplier this year, so it pays the SPV $50 (e.g., 5% of
     $1,000) to participate in the program with the supplier. Thereafter, every time the
90             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                         90




                                                      auto company buys $100 worth of auto parts, it owes the supplier $100, giving
                                                      the supplier a $100 receivable. The supplier can then place the receivable into the
                                                      program. The supplier then has two possible ways to proceed based on its business
                                                      needs:

                                                      • Sell at a Discount: Sell the receivable to the SPV, immediately, at a 3% dis-
                                                        count, $97 in this case. Although the supplier receives less than $100 for the
                                                        goods sold, it has cash in hand for its operations. The SPV will then attempt to
                                                        collect payment from the auto manufacturer.204
                                                      • Collect on Due Date: Collect the receivable when it is due at a 2% discount,
                                                        $98 in this case. The SPV will then attempt to collect the full amount from the
                                                        auto manufacturer.205

                                                          Traditionally, the private sector has offered similar receivables financing services
                                                      to suppliers in a variety of industries. However, due to the perceived riskiness of the
                                                      U.S. auto industry, and the general tightness of credit, the interest rates for these
                                                      loans have become too high for suppliers to afford. Treasury’s stated objective of
                                                      ASSP is to provide a temporary option to the affected industry and to transition
                                                      back to the private sector as soon as practical.206

                                                      Executive Compensation
                                                      Although the auto manufacturers that participate in ASSP are bound by the EESA
                                                      executive compensation limits, Treasury is not requiring the suppliers, even though
                                                      they are obvious beneficiaries of the program, to be bound by the same restrictions.

                                                      Auto Warranty Commitment Program
                                                      On March 30, 2009, Treasury announced a new program designed to give consum-
                                                      ers purchasing new GM and Chrysler automobiles the confidence that their war-
                                                      ranties will be honored.207 Treasury preliminarily discussed potential funding for the
                                                      Auto Warranty Commitment Program of up to an estimated $1.1 billion.208

     Restructuring Period: As it relates to the       Program Objectives
     Auto Warranty Commitment Program,                As noted previously, the Administration is working with both GM and Chrysler to
     the restructuring period began on                develop new restructuring plans that comply with the requirements set out under
     March 30, 2009, the announcement                 AIFP. On March 30, 2009, both GM and Chrysler were granted 60- and 30-day
     date of the Program, and ends the date           extensions, respectively, for submitting revised restructuring plans to Treasury.209
     that restructuring is complete.                  The Auto Warranty Commitment Program will help provide certainty to GM and
                                                      Chrysler consumers that if they purchase a new car during the restructuring
                                                      period,210 their warranties will be valid, even if the manufacturer goes bankrupt.211
91                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009          91




     Background
     The warranty program will cover all warranties on new vehicles purchased from
     GM and Chrysler from the date of the announcement, March 30, 2009. Their
     participation in the program is subject to the same executive compensation and
     corporate governance provisions that were established for AIFP. Specifically, the
     program will involve the following activities:212

     • creation of a separate legal entity that is jointly funded by cash from the manu-
       facturer and a loan from Treasury to pay for warranty expenses on new vehicles
       sold during the restructuring period
     • appointment of a program administrator who will either arrange for the war-              Warranty: A service contract or agree-
                                                                                                ment for a specific duration that is a
       ranty liabilities to be assumed by a third party or use the cash to pay for covered
                                                                                                guarantee of the integrity of a product
       warranty services in the event that an auto manufacturer fails
                                                                                                and details the manufacturer’s respon-
                                                                                                sibility for the repair or replacement of
     Implementation                                                                             defective parts.
     Consumers who buy a new GM or Chrysler car during the covered periods are
     eligible for the Auto Warranty Commitment Program. Participation in the program            Special Purpose Company: Term used
     is automatic; the consumer does not need to do anything to receive the program’s           interchangeably with special purpose
     benefits.                                                                                  vehicle (“SPV”).
         Auto manufacturers normally establish an accounting reserve, or funding allow-
     ance, for each new vehicle sold to cover expected warranty costs for each vehicle.
     According to Treasury, future warranty payments will be estimated from historical
     costs by vehicle type. The warranty program will be funded for 125% of projected
     future costs — 15% by auto manufacturers and 110% by Treasury; this cash will
     be placed into a “special purpose company” for paying warranty claims. The special
     purpose company will be able to continue paying warranty claims even if the auto
     manufacturer discontinues operations. In the event that the auto manufacturer
     discontinues operations, the program administrator and Treasury will attempt to
     transfer the warranty obligations to another entity, such as an insurance company,
     another auto manufacturer, or parts supplier that could fulfill the consumers’ war-
     ranty claims. If the obligation cannot be transferred, the administrator will use the
     cash to pay covered warranty claims.213
92           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                               92




                                                    TARP TUTORIAL: SECURITIZATION

                                                    Basics of Securitization
     Securitization: A process whereby a            Securitization is a process whereby a financial institution buys pools of cash-flow-producing
     financial institution assembles pools of       assets (such as loans) and then sells interests in the monthly payments by the borrowers
     cash-flow-producing assets (such as
                                                    as securities to investors.
     loans) and then sells an interest in the
     cash flows as securities to investors.             Securitized assets, which include consumer and business loans, have played a promi-
                                                    nent role in the current credit crisis. The weakness in the securitized asset market can
     Subprime Borrowers: Refers to bor-             substantially be traced back to the individual subprime borrowers whose loans had been
     rowers who do not qualify for prime
                                                    securitized. As the subprime borrowers began to miss their monthly loan payments, the
     interest rates because they exhibit one
     or more of the following characteris-
                                                    value of the securities backed by the borrowers’ loans began to lose value. Throughout
     tics: weakened credit histories typically      2008, investors were losing confidence in these securities and therefore stopped buying
     characterized by payment delinquen-            them. Banks, unable to sell their loans to securities issuers, did not have the money to
     cies, previous charge-offs, judgments,         continue making new loans.
     or bankruptcies; low credit scores; high
                                                        In response to these circumstances, Treasury and the Federal Reserve introduced
     debt-burden ratios; or high loan-to-value
     ratios.                                        TALF and other programs designed to alleviate the impact of problems in the securities
                                                    market. A short overview of the subject will help place some of these programs in context.
     Securities Issuer: A separate legal                Conceptually, all securitizations share the same simple timeline:
     entity that buys cash-flow-producing
                                                        1.   Borrowers take out loans with a lender or bank.
     assets such as loans, pools them
     together, and sells portions of the                2.   The bank sells a collection of the loans to a specialized entity (the “issuer” or
     pools of loans as securities.                           “securities issuer”).
                                                        3.   The issuer sells “securities” to investors.


                                                        The actual transactions can become extremely complex, but the essential steps in
                                                    Figure 2.15 will always be present.
                                                        The process has the potential to be beneficial to all parties. First, the borrowers may
                                                    receive lower interest rates as a result of the greater supply of funds available for lending.




                                                    FIGURE 2.15

                                                    SIMPLIFIED SECURITIZATION PROCESS


                                                                         STEP                     STEP                      STEP
                                                                          1                        2                         3
                                                        INDIVIDUAL                                          SECURITIES
                                                       BORROWERS                     BANK                     ISSUER                 INVESTORS
93                                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                               93




     Second, the bank can sell a large number of loans for cash, which allows it to make more                     FIGURE 2.17

     loans. Third, the investors can put their money in a small number of relatively diversified                  PRIVATE-LABEL MORTGAGE-BACKED
     and potentially liquid (i.e., easy to sell) investments (securities), rather than investing in               SECURITIES NET ISSUANCE IN THE
                                                                                                                  UNITED STATES
     individual loans.                                                                                            $ Billions

         Securitization has become important because it has been replacing the traditional
     way that banks held loans, i.e., on their books and for the long term. This change has                       $600

     been especially significant for residential and commercial mortgages, which have been
                                                                                                                  $400
     packaged into mortgage-backed securities (“MBS”), and for consumer and small-business
                                                                                                                  $200
     loans which have been packaged into asset-backed securities (“ABS”). This method of
     funding had been growing until 2008, when troubles in the securitization market led to a                         0
                                                                                                                           2004        2005        2006        2007        2008
     precipitous decline. Treasury has estimated that, prior to 2008, securitization represented                      0

     40% of all lending in the United States, with traditional financial institutions such as banks
                                                                                                                  -$200
     making up the remaining 60%. Figure 2.17 illustrates how significantly securitization has
     declined as a result of the current crisis. This decline in lending contributed to the crisis                -$400

     that prompted Treasury’s creation of TARP.
                                                                                                                     MBS
                                                                                                                     CMBS
     Major Securitization Participants
     An example of a mortgage securitization (see Figure 2.16) will help illustrate the process.                  Note: Data as of 3/12/2009.
         The Borrower. The borrower is the homeowner. The process of creating a mortgage                          Source: Federal Reserve, “Flow of Funds Account of the United
                                                                                                                  States,” 3/12/2009, www.federalreserve.gov, accessed
     starts with a prospective homebuyer who selects a house to purchase and then applies for                     3/31/2009.

     a loan.
         The Bank. The bank is the lender. The homeowner works with a lender who prepares
     and approves the mortgage application. Lenders are typically banks, savings and loan
     institutions, or mortgage bankers.
         If the application is approved, funds are loaned to the homeowner for the purchase of
     the home; at this point, a mortgage is created. The lender or “loan originator” may then



     FIGURE 2.16

     SECURITIZATION PARTICIPANTS AND ROLES


          BORROWER                      BANK                      ISSUER                    INVESTORS
     t(FUTMPBOGSPNCBOL     t.BLFTMPBOT               t#VZTMPBOT                 t#VZJOUFSFTUJOMPBOT
     t#VZTIPVTF              t4FMMTMPBOT               t4FMMTJOUFSFTUJOMPBOT   t3FDFJWFUIFNPOUIMZ
     t.BLFTNPOUIMZ          t6TFTQSPDFFETGSPN         UPJOWFTUPST                 QBZNFOUTNBEFCZUIF
       QBZNFOUTUPCBOL        TBMFUPJTTVFSUPNBLF   t$PMMFDUTNPOUIMZMPBO       PSJHJOBMCPSSPXFST
       XIJDIBSFQBTTFEUP      OFXMPBOT                   QBZNFOUTBOEQBTTFT
       JTTVFSUIFOJOWFTUPST                                 UIFNPOUPJOWFTUPST
94   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                              94




                                            sell the newly created mortgage to the issuer. Banks do this in part to “free up” capital, to
                                            get more cash and make more loans.
                                                The Issuer. The issuer is the party that buys loans made by banks and creates a se-
                                            curity backed by the pool of loans. The issuers buy the loans from sellers and place them
                                            into a company they have created to own a specific collection of loans — such an entity is
                                            known as a special purpose vehicle (“SPV”) or mortgage trust.
                                                The SPV is a company in its own right. It has its own special collection of assets and
                                            its own corporate structure.
                                                Because the securities that the issuer creates are collateralized, or “backed” by the
                                            mortgages that make them up, they are called mortgage-backed securities, or MBS.
                                            These MBS are like bonds; they pay an interest rate to the investors who buy them. The
                                            money to pay the interest comes from the monthly payments made by each one of the
                                            homeowners who make their monthly mortgage payments on their loans.
                                                The issuer might sell more than one class of MBS from the same pool of loans. It may,
                                            for example, sell the first dollars received from the underlying mortgages to a “class A”
                                            security, and the remaining payments to a “class B” security. These various “classes” of
                                            securities are sometimes called “tranches.”
                                                The Investor. The investors in MBS are almost exclusively institutions: pension funds,
                                            insurance companies, mutual funds, and corporations. They buy the MBS from the issuer
                                            and can hold the MBS and receive the regular interest payments, or can sell it to others on
                                            the open market.


                                            Supporting Securitization Participants
                                                The Loan Servicer. The SPV typically hires a specialty firm to service the loans it
                                            buys. These firms collect the monthly payments from the borrowers, follow up on delin-
                                            quencies, and, when payments are significantly late, arrange foreclosures or negotiate
                                            loan modifications.214
                                                The Rating Agency. The SPV hires a rating agency to perform an analysis of the
                                            pool of loans that have been collected together and assign a rating. Rating agencies
                                            consider factors such as the credit scores of the borrowers, the underwriting standards
                                            used, and the anticipated cash flow.215 The rating reflects the rating agency’s opinion as
                                            to the likelihood that the borrowers will continue to make the necessary payments on
                                            their mortgages. During the current economic crisis, rating agencies often proved to be
                                            overly optimistic with respect to the repayment rates of MBS, in particular MBS backed by
                                            residential mortgages.
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009          95




TERM ASSET-BACKED SECURITIES LOAN FACILITY
In November 2008, the Federal Reserve and Treasury announced the Term Asset-
Backed Securities Loan Facility (“TALF”), a new facility under which, as initially
announced, the Federal Reserve Bank of New York (“FRBNY”) would issue up to
$200 billion in loans designed to make credit available to consumers and small
businesses. As part of the original TALF, Treasury committed to provide up to $20
billion to absorb losses on those loans using TARP funds.216 Subsequent to the
initial TALF announcement, Treasury and the Federal Reserve have announced the
intended expansion of TALF, bringing the total facility funding up to $1 trillion, of
which Treasury anticipates it will fund up to $80 billion.217
     In recent years, funds for consumer and small-business loans have frequently              For more details on the securitiza-
                                                                                               tion process and the typical lend-
come from the sale of ABS. In the ABS market, pools of loans are gathered to-
                                                                                               ing process prior to the market
gether and then securitized. Rating agencies rate the riskiness of the pooled loans.
                                                                                               breakdown, refer to “TARP Tutorial:
Investors, in turn, base their interest rate requirements, or the amount of interest           Securitization” earlier in this section.
the security will pay to the investor, to a large degree, on the ratings of the security.
The ABS market made up almost 25% of the overall funding for consumer and
small-business loans prior to the credit market disruptions of 2008.218
     In 2008, with investors increasingly reluctant to buy AAA-rated ABS, the
Federal Reserve proposed TALF as a means of reopening channels of funding
for assets that have traditionally been securitized, and, thus, indirectly supplying
funds to the end user — the consumer and business borrowers. According to the
Federal Reserve, TALF’s effect on the market began even before its first transac-
tion: “Recently, consumer loan growth has also reportedly been buoyed by banks’
decisions to build inventory in anticipation of issuance into the Term Asset-Backed
Securities Loan Facility (TALF).”219

The ABS Market Faces Breakdown
In 2008, as borrowers began defaulting on their loans and the ABS supported by
those loans depreciated in value, investors stopped buying ABS. Traditional inves-
tors exited the market, non-traditional investors were unable to obtain funding,
and investors in general were concerned about a deep recession.220 According to
Treasury, “the [market] shock was compounded by the fact that loan underwriting
standards used by some originators had become far too lax and by the proliferation
of structured credit products, some of which were ill-understood by some market
participants.”221
    Lenders that relied on the ABS securitization of their consumer and small-busi-
ness loans were then unable to make as many loans, because their funding source
for such loans — the cash they received from the sale of existing loans — was no
longer available. With traditional ABS investors absent from the market, FRBNY
and Treasury developed TALF to provide low-cost, non-recourse financing for the
purchase of certain types of ABS in an attempt to induce investors to purchase
AAA-rated ABS.
96             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      TALF Mechanics
     Floorplan: Revolving lines of credit used
                                                      As of March 31, 2009, TALF could fund up to $200 billion in FRBNY loans, and it
     to finance inventories of items including,
     but not limited to, vehicles; agricultural,      has been announced that TALF’s funding capacity could increase up to $1 trillion.
     construction, or manufacturing equip-            TALF is divided organizationally into two parts:
     ment; manufactured housing; large appli-
     ances; and electronic equipment.                 • lending program: originates loans to eligible borrowers
                                                      • asset disposition facility: an SPV used by FRBNY if borrowers choose to stop
     Servicing Advance Receivables: Receiv-             paying interest on their loans and surrender their collateral
     ables related to residential mortgage loan
     securitizations that grant the servicer              FRBNY will manage both the lending program and the asset disposition facility.
     first priority in any insurance or liquidation   The funding for the lending program will come from FRBNY. The funding for the
     proceeds from a loan, and, if those pro-
                                                      asset disposition SPV will first come from interest payments made by borrowers
     ceeds are insufficient, grants the servicer
                                                      from the lending program, and then from Treasury’s use of TARP funds to purchase
     a first priority to general collections of the
                                                      subordinated debt from the SPV.222 As of March 31, 2009, TARP participation in
     related securitization.
                                                      TALF had committed $20 billion, but it has been announced that this commit-
     Haircut: Difference in the value of the col-     ment could increase to up to $80 billion as TALF expands. The funding provided
     lateral and the value of the loan (the loan      by TARP to the SPV is available to purchase surrendered assets from FRBNY and
     value is less than the collateral value).        offset losses associated with disposing of the surrendered assets.

     Primary Dealers: Banks and securities            Lending Program
     broker-dealers that trade in U.S. Govern-        In its current form, FRBNY’s TALF lending program makes three-year, non-
     ment securities with the Federal Reserve         recourse loans to eligible borrowers. The TALF loans are secured by the posting of
     Bank of New York for the purpose of car-         collateral in the form of ABS, which may be backed by student, auto, credit card,
     rying out open market operations. The 16         equipment, auto floorplan, small-business loans, or mortgage servicing advance
     current primary dealers are listed below.
                                                      receivables. Both the interest rates and the haircuts on TALF loans are based on
                                                      the type and riskiness of the ABS securing the TALF loan. Since the loan is non-
     Primary Dealer List:
                                                      recourse, FRBNY cannot hold the TALF borrower liable for any losses beyond the
     BNP Paribas Securities Corp.
                                                      surrender of any assets pledged as collateral — in this case, the ABS securities.
     Banc of America Securities LLC
     Barclays Capital Inc.
     Cantor Fitzgerald & Co.                          Eligible Borrowers and Eligible Collateral
     Citigroup Global Markets Inc.                    TALF’s lending program makes secured loans to qualifying borrowers.223 TALF
     Credit Suisse Securities (USA) LLC               participants must use a primary dealer to access TALF and to deliver the
     Daiwa Securities America Inc.                    collateral to the custodian bank (The Bank of New York Mellon (“BNYM”)).
     Deutsche Bank Securities Inc.                    The type and characteristics of eligible collateral for TALF is detailed in Table 2.26.
     Dresdner Kleinwort Securities LLC
     Goldman, Sachs & Co.
     Greenwich Capital Markets, Inc.
     HSBC Securities (USA) Inc.
     J. P. Morgan Securities Inc.
     Mizuho Securities USA Inc.
     Morgan Stanley & Co. Incorporated
     UBS Securities LLC
                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                   97




     Collateral must meet eligibility criteria such as:224
                                                                                                                                        Collateral: An asset pledged by a bor-
• The collateral is in the form of U.S. dollar-denominated cash (not synthetic)                                                         rower to a lender until a loan is repaid. In
  ABS.                                                                                                                                  the case of TALF loans, the collateral is
• The ABS must have a short-term and long-term credit rating of the highest                                                             asset-backed securities.
  investment-grade rating category (e.g., AAA) from two or more major, nationally
  recognized statistical rating organizations (“NRSROs”). In addition, the ABS                                                          Custodian Bank: The bank that holds the
                                                                                                                                        collateral and manages the accounts for
  cannot have a long-term credit rating less than the highest rating by a major
                                                                                                                                        FRBNY.
  NRSRO. Major NRSROs for purposes of TALF are Fitch Ratings, Moody’s
  Investors Service, and Standard & Poor’s.
                                                                                                                                        Synthetic ABS: A security that derives its
• Substantially all of the loans underlying the ABS were originated in the United
                                                                                                                                        value and cash flow from sources other
  States.                                                                                                                               than from a physical set of reference
• The loans supporting the ABS were initially limited to auto, student, and credit                                                      assets.
  card loans, or small-business loans guaranteed by the U.S. Small Business
  Administration (“SBA”). As of March 31, 2009, permissible underlying loans
  also include equipment loans, floorplan loans, or receivables related to residen-
  tial mortgage servicing advances (servicing advance receivables).
• ABS backed by credit card loans and dealer floorplan must be issued to refi-
  nance existing credit card and dealer floorplan ABS maturing in 2009, and must
  be issued in amounts no greater than the amount of the maturing security.225
• Collateral cannot be backed by loans originated or securitized by the TALF bor-
  rower or an affiliate of the borrower. In other words, the TALF borrower cannot


TABLE 2.26

TALF-ELIGIBLE ASSET-BACKED SECURITIES
Sector                            Subsector                                                                   Loan Characteristics             Expected Life ABS Issuance Date
                                  Retail loans and leases related to cars, light trucks,                      Originated on or after           <5 years         January 1, 2009
                                  motorcycles, and other recreational vehicles                                October 1, 2007
Auto Loans
                                                                                                              Originated on or after           <5 years         January 1, 2009
                                  Commercial, Government and rental fleet leases
                                                                                                              October 1, 2007
                                                                                                              Originated on or after                            January 1, 2009
Student Loans                     Federally guaranteed (including consolidated) and private
                                                                                                              May 1, 2007
Credit Card Receivables           Consumer or corporate                                                       Maturing in 2009                 <5 years         January 1, 2009
                                                                                                              Originated on or after           <5 years         January 1, 2009
Equipment Loans                   Retail loans and leases
                                                                                                              October 1, 2007
Floorplan loans                   Revolving lines of credit to finance dealer investors                       Maturing in 2009                 <5 years         January 1, 2009
Small-Business Loans              Fully guaranteed SBA 7(a) and 504 loans, debentures, and                    Originated on or after                            January 1, 2008
                                  pools                                                                       January 1, 2008
Servicing Advance                 Principal and interest, tax and insurance, and corporate                    Originated on or after           <5 years         January 1, 2009
Receivables                       advances made by Fannie Mae- or Freddie Mac-approved                        January 1, 2007
                                  residential mortgage servicers under pooling and service
                                  agreements

Source: FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
98           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        also be, or be affiliated with, either the institution that is selling the ABS or the
                                                        original lender.

                                                    Loan Terms by Asset Class
                                                    TALF loans are collateralized by ABS, as previously described, and are non-re-
                                                    course to the borrower with terms of up to three years. The eligibility of the TALF
                                                    borrower and the TALF collateral is determined through the application process.
                                                    Once the collateral is deemed to be eligible, a haircut will be assigned to the col-
                                                    lateral. Haircuts represent the amount of money put up by the borrower, or the bor-
                                                    rower’s “skin in the game,” and are required for all TALF loans in varying amounts.
     Skin in the game: Equity stake in an           Under TALF, FRBNY will lend each borrower the amount of the purchase price of
     investment; down payment; the amount           the pledged ABS minus the haircut, subject to certain limitations. The risk for any
     an investor can lose.                          borrower is limited to the haircut amount; the Government is responsible for all
                                                    losses beyond that original down payment. The initial haircuts, as a percentage of
                                                    collateral value, are shown in Table 2.27.
                                                        Some of the underlying assets may have an average life beyond the defined
                                                    terms. If the average life of Government-guaranteed ABS (SBA loans) is greater
                                                    than five years, haircuts will increase by one percentage point for every two years of
                                                    average additional life. For all other ABS with average lives beyond five years, hair-
                                                    cuts will increase by one percentage point for each additional year of average life.




                                                    TABLE 2.27


                                                    TALF HAIRCUT PERCENTAGES
                                                                                                                               ABS Expected Life (years)
                                                    Sector                Subsector                            0-1     >1-2       >2-3        >3-4       >4-5       >5-6         >6-7
                                                    Auto                  Prime retail lease                 10%        11%        12%        13%         14%          NA         NA
                                                    Auto                  Prime retail loan                    6%         7%        8%          9%        10%          NA         NA
                                                    Auto                  Sub-prime retail loan                9%       10%        11%        12%         13%          NA         NA
                                                    Auto                  RV/Motorcycle                        7%         8%        9%        10%         11%          NA         NA
                                                    Floorplan             Auto                               12%        13%        14%        15%         16%          NA         NA
                                                    Credit Card           Prime                                5%         5%        6%          7%         8%          NA         NA
                                                    Credit Card           Subprime                             6%         7%        8%          9%        10%          NA         NA
                                                    Student Loan          Private                              8%         9%       10%        11%         12%        13%         14%
                                                    Student Loan          Government Guaranteed                5%         5%        5%          5%         5%         6%          6%
                                                    Small Business        SBA Loans                            5%         5%        5%          5%         5%         6%          6%

                                                    Source: FRBNY, “Term Asset-Backed Securities Loan Facility (Operations for 3/17/2009),” http://www.newyorkfed.org/markets/
                                                    TALF_operations_090317.html, accessed 3/27/2009.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009             99




Interest Rates
                                                                                                                                      Spread: The difference between two
Interest rates are based on the loan asset class, and most are quoted at a spread
                                                                                                                                      interest rates.
over the London Interbank Offered Rate (“LIBOR”) (a generally accepted interest
rate standard). Interest payments on the TALF loans are payable monthly. TALF                                                         London Interbank Offered Rate (“LIBOR”):
loan interest rates may be fixed or floating, as determined by the collateral, and are                                                The interest rate that large banks in
generally below market rate. If the cash flow supporting the collateral has a fixed                                                   London charge each other for dollar-
interest rate, then the TALF loan will have a fixed interest rate; and if the cash flow                                               denominated funds.
supporting the collateral has a floating interest rate, then the TALF loan inter-
est rate will also float. Table 2.28 illustrates the interest rates for the March 2009                                                Basis Points (bps): One one-hundredth
loans.                                                                                                                                of a percentage point. (For example, the
                                                                                                                                      difference between interest rates of 5.5%
                                                                                                                                      and 5.0% is 50 basis points.)
Asset Disposition Facility
FRBNY created TALF LLC, the SPV for the asset disposition facility, to “purchase
                                                                                                                                      Federal Funds [Target] Rate: The interest
and manage any [surrendered] assets received by the New York Fed in connection
                                                                                                                                      rate that financial institutions charge each
with any TALF loans.”226 TALF LLC will purchase these assets at a “price equal to
                                                                                                                                      other for overnight loans of their mon-
the outstanding TALF loan amount plus accrued but unpaid interest.”227 Both the                                                       etary reserves. A rise in the Federal funds
Federal Reserve and TARP will fund the purchase of the surrendered assets in the                                                      rate (compared with other short-term
form of a senior and subordinated loan, respectively.                                                                                 interest rates) suggests a tightening of
    When FRBNY created TALF LLC, TARP loaned TALF LLC $100 million to                                                                 monetary policy, whereas a fall suggests
provide initial funding, of which $15.75 million was allocated to cover administra-                                                   an easing. The Federal Funds Target Rate
tive costs.228 TARP will continue to fund TALF LLC, as needed, until the full TARP                                                    is an interest rate goal set periodically by
commitment has been invested. If more funds are required, then FRBNY would                                                            the Federal Open Market Committee.
make a non-recourse loan to the SPV.229


TABLE 2.28

TALF INTEREST RATES
Sector                  Subsector                             Fixed                                    Floating
Auto                                                          3-year LIBOR + 100 bps       1-month LIBOR +
                                                              (2.733% for the March loans) 100 bps
Credit Card                                                   3-year LIBOR + 100 bps       1-month LIBOR +
                                                              (2.733% for the March loans) 100 bps
Student Loan            Private                               NA                                       1-month LIBOR +
                                                                                                       100 bps
Student Loan            Government guaranteed                 NA                                       1-month LIBOR +
                                                                                                       50 bps
Small Business          SBA loans 7(a)                        NA                                       Fed Funds Target + 75
                                                                                                       bps
Small Business          SBA loans 504                         3-year LIBOR + 50 bps        NA
                                                              (2.233% for the March loans)
Source: FRBNY, “Term Asset-Backed Securities Loan Facility (Operations for 3/17/2009),” http://www.newyorkfed.org/markets/
TALF_operations_090317.html, accessed 3/27/2009.

Please refer to the “Unlocking Credit for Small Businesses” discussion in this report for more information on SBA loans.
100          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        A portion of the interest rate paid by each borrower for a TALF loan will ac-
                                                    cumulate in the asset disposition facility and absorb losses on surrendered collat-
                                                    eral.230 Once losses become greater than the accumulated interest, TARP will then
                                                    provide the additional funding for the SPV until the purchase of surrendered col-
                                                    lateral exceeds the amount of committed funds by TARP — currently $20 billion
                                                    but anticipated to be up to $80 billion. FRBNY will provide any additional funding
                                                    once the TARP commitment is expended. The funding for the SPV will be in the
  Subscription Date: Loan request date. For         form of loans to the SPV, with TARP receiving interest at one-month LIBOR plus
  TALF loans, requests include: ABS col-            3% and the Federal Reserve receiving one-month LIBOR plus 1%.231
  lateral expected to pledge, loan amount,              Treasury’s maximum liability is for losses equal to the total amount commit-
  and interest rate format (fixed or floating).     ted to the SPV. Any residual returns (e.g., proceeds from the sale of the assets or
                                                    interest earned on the loans) would be shared between FRBNY and Treasury, with
  CUSIPs: Unique identifying number as-
                                                    Treasury receiving 90% and FRBNY receiving 10%.232
  signed to all registered securities (similar
  to a social security number).
                                                    TALF Process Example
                                                    To start the process of ultimately obtaining a loan under TALF, an eligible borrower
  Offering Documents/Prospectus: Docu-
  ments which disclose and describe a se-           contacts a primary dealer about receiving a TALF loan. Prior to the subscription
  curities offering to the public and private       date of the TALF loan, the eligible borrower submits to the primary dealer its loan
  investors, containing information required        package, which includes the loan request amount, interest rate format (based on
  under Federal and state securities laws as        collateral), CUSIPs of the ABS, and the prospectus or offering documents. On
  applicable.                                       the subscription date of the loan, the primary dealer submits to BNYM (custodian
                                                    bank) and FRBNY the loan package of the borrower and the total loan amount
  Settlement Date: The closing date for             from all of the individual borrowers serviced by that primary dealer. BNYM then
  the sale of an investment, similar to the         reviews the loan packages.233
  closing date for a home purchase. On the              Prior to the settlement date, BNYM will return to each primary dealer a list
  settlement date (three days after trade
                                                    containing the borrower’s approved loan amount, ABS expected to be delivered,
  in the case of U.S. equities), funds and
                                                    administration fee, and haircut amount. On the settlement date, the primary dealer
  securities trade hands and any necessary
                                                    submits to BNYM the ABS, the administration fee, and the haircut amount, and
  legal documents are signed.
                                                    BNYM credits the primary dealer’s account (for further delivery to the borrower)
                                                    the loan amount.234
                                                        In making the required monthly payments, any principal and interest that the
                                                    ABS generates (e.g., the amount of principal and interest to which the security
                                                    entitles the holder) is received by BNYM and applied to the TALF loan. Given the
                                                    low interest rate charged by FRBNY, at least initially, the interest earned on the
  MONTHLY INTEREST EXAMPLE                          ABS will likely be greater than the interest charged by FRBNY on the TALF loan.
  If the TALF borrower owes 3% interest to FRBNY    Accordingly, as long as the ABS maintains its value, the borrower will likely not
  ($2.25 monthly) on a $900 TALF loan, and the      need to make any cash payment each month, but will actually receive a monthly
  TALF borrower receives 6% interest
                                                    interest payment from BNYM (representing the interest paid on the ABS minus
  ($5 monthly) on $1,000 of the ABS
                                                    the smaller TALF interest rate). If there is not enough interest received from the
  collateral, then BNYM sends the difference of
  $2.75 ($5 – $2.25) to the TALF borrower.          ABS to cover the TALF loan payments, BNYM requests the balance from the TALF
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                                101




borrower. As long as the TALF borrower makes the regular monthly interest pay-             FIGURE 2.18
ments, the collateral will be returned when the loan is repaid in full.235                 TALF PROCESS FLOW
    If the borrower decides to walk away from the loan, it must submit a Collateral
Surrender and Acceptance Notice which signs over the rights to the collateral                                                       TALF BORROWER
to FRBNY. Since the loan is non-recourse, there is no further action against the
borrower, who can keep the total amount borrowed. If the borrower does not
submit the Collateral Surrender and Acceptance Notice, it may be required to                                                             Make TALF
                                                                                               Surrender                    NO
repay the entire TALF loan.236 Should the borrower surrender the loan, the Federal           ABS collateral to                          loan interest
                                                                                                 FRBNY                                    payments
Reserve will sell the surrendered collateral to the Asset Disposition SPV.237 When
the SPV buys the collateral, it pays the outstanding loan amount plus any unpaid                                                                 YES
interest. For a detailed explanation of non-recourse loans and their application to
TALF, refer to SIGTARP’s Initial Report, Section 3: “TARP Implementation and                                                              Interest to
Administration.”                                                                                                                            FRBNY

    For further detail on the TALF process, see Figure 2.18.

                                                                                                                FEDERAL RESERVE
Fraud Prevention Provisions
SIGTARP identified a number of risks associated with TALF in its Initial Report.
Refer to Section 4 of this report for information on SIGTARP’s recommendations.               If no receipt                                Interest received
                                                                                                of interest         Cash purchase          Cash   purchase
                                                                                                                                               from  TALF
Acting on some of SIGTARP’s recommendations, the Federal Reserve has an-                     payment, sell             of ABS                   of ABS a
                                                                                                                                               borrowers
                                                                                               ABS to SPV
nounced several fraud-prevention provisions for TALF.
    The fraud deterrent and compliance framework announced by FRBNY in-
                                                                                                                     TALF LLC (SPV)
cludes: “a borrower acceptance standard, an assurance program related to borrower
eligibility requirements, on-site inspection rights related to the borrower’s obliga-
                                                                                               Receive portion of
tions under the MLSA [Master Loan and Security Agreement] in respect to its                    the proceeds from                        Up to $20 billion
                                                                                                the management                              or TARP
borrowings under the TALF and the right to reject a borrower for any reason.”238 To              and sale of ABS                         commitment
further assist in the borrower screening, “primary dealers are required to apply their
internal customer identification program and due diligence procedures to each bor-
                                                                                                                            TARP
rower.”239 “Instances may arise where a borrower will not be eligible on subscription
day because the borrower has been previously identified as ‘high-risk’ and, there-                  Cash Flow                    Decision Flow
fore, subjected to a more in-depth review by FRBNY compliance.”240                         Note:
                                                                                           a
    Additionally, an ABS issuer must provide a certification that the ABS are TALF           A portion of the interest rate paid by each TALF borrower will
                                                                                             accumulate in the SPV.
eligible, that an independent accounting firm has certified that the ABS are TALF
                                                                                           Sources: Diagram based on Term Asset-Backed Securities Loan
eligible, and the issuer has not made any material misstatements to an NRSRO               Facility: Terms and Conditions from FRBNY, 3/19/2009,
                                                                                           www.newyorkfed.org accessed 3/27/2009; FRBNY, response to
to obtain a particular credit rating.241 This certification provides that the loans are    SIGTARP draft report, 4/9/2009.

made in good faith and in compliance with the standards set forth in the terms and
conditions of TALF. Table 2.29 provides the framework set forth for fraud deter-
rence and compliance.
102               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.29

      TALF FRAUD PREVENTION AND COMPLIANCE FRAMEWORK
                                                Issuer/Sponsor certifies that:
                                            •   The terms and conditions have been reviewed.
                                            •   The ABS have the highest investment-grade rating category from two or more rating agencies; cannot have a rating
                                                below the highest rating available from any NRSRO; the ratings depend on no third-party credit enhancement; and they
                                                are not on review or watch from downgrade.
                                            •   The securities are cleared through the Depository Trust Company (DTC).
                                            •   Substantially all of the underlying borrowers are U.S.-domiciled.
                                            •   The underlying assets are of a permitted type (auto, student, credit card, equipment, floorplan, or receivables), and
                                                contain no exposures that are themselves cash or synthetic ABS.
      Issuer/                               •   All underlying loans were made after their respective eligibility dates.
      Sponsor                               •   The accounting firm it uses for FRBNY work on the securities may call the TALF compliance hotline, regardless of client
                                                confidentiality rules.
                                            •   It understands that the securities may not be submitted to TALF by anyone affiliated with originators of the underlying
                                                loans.
                                            •   It will issue a press release if any statements regarding basic eligibility criteria change or become false.
                                            •   The information provided to the rating agencies was true.
                                            •   It will cover any losses of the FRBNY and TALF LLC that resulted from relying on the information provided by the issuer/
                                                sponsor (i.e., provide “indemnification”).
                                            •   Should the collateral be proven to be ineligible, the issuer/sponsor agrees to allow Treasury officials, SIGTARP, and
                                                GAO to have access to personnel, data, documents, etc. relevant to the breach.
                                                Auditor Attestation Form confirms the issuer/sponsor’s eligibility claims:
                                            •   Substantially all of the originations of the loans in ABS were made to U.S.-domiciled people or entities.
      Auditor
                                            •   Underlying ABS credit exposure types are eligible and do not include exposures that are cash or synthetic ABS.
                                            •   Substantially all of the underlying ABS Loan Characteristics (origination date, maturity date, etc.) meet the criteria.
                                                Primary Dealer represents and warrants that:
                                            •   It has the power and authority to enter into the agreements.
                                            •   It is in good standing under the laws of its jurisdiction.
                                            •   The agreement is legally binding.
                                            •   It has made no untrue statement in any document, certificate, or statement related to the Agreement, or omitted any
                                                material act. (With respect to the offering materials, this applies only to the Primary Dealer that acted as underwriter.)
                                            •   It has provided each borrower with a copy of the lending agreement, and that the borrower has authorized the Primary
      Primary Dealer                            Dealer to act on its behalf.
                                            •   It is subject to the certain rules, including that it maintains and is in compliance with an anti-money-laundering program
                                                under the USA Patriot Act, that it is Federally regulated, that it has implemented a customer identity program enabling it
                                                to know the identity of its customers, and that it will annually so certify.
                                            •   Its customer agreements are in full force.
                                            •   All written material delivered to the Lender, Administrator, or Custodian is accurate and complete.
                                            •   The borrower is eligible.
                                            •   The collateral is eligible.
                                            •   FRBNY has limited on-site inspection rights of borrower personnel, data, documents, etc. relevant to the certifications
                                                above.
                                            •   FRBNY can reject a loan application for any reason.
                                            •   FRBNY may review all loan files held by the custodian related to all of the TALF loans. If the collateral is found to be
      FRBNY                                     ineligible, FRBNY has the right of indemnity against the issuer/sponsor in the event damages are suffered in relation to
                                                the collateral and further remedy is available if there is evidence of fraudulent activity. If the borrower is ever found to
                                                be ineligible, the non-recourse feature of the TALF loan becomes inapplicable and the borrower must repay the entire
                                                loan amount.
                                            •   FRBNY has established a telephone and Internet hotline to report fraudulent conduct or activity related to TALF.

      Sources: Issuer/Sponsor: FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009; FRBNY, “Certification as to TALF
      Eligibility,” 3/24/2009, www.newyorkfed.org, accessed 3/27/2009. Auditor: FRBNY, “Form of Auditor Attestation,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009. Primary Dealer: FRBNY, “Term
      Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009; FRBNY, “Master Loan and Security Agreement,” 3/27/2009, www.newyorkfed.
      org, accessed 3/27/2009. FRBNY: FRBNY, “Master Loan and Security Agreement,” 3/27/2009, www.newyorkfed.org, accessed 3/27/2009; FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently
      Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009                               103




                                                                                           TABLE 2.30
Status of Funds
As of March 31, 2009, FRBNY lent $4.7 billion backed by auto and credit card               TALF LOANS            ($ MILLIONS)
                                                                                                                                     Interest Rates
ABS collateral. Since the program’s commencement, there has been one group of
                                                                                           Sector                      Amount          Fixed       Floating
TALF loans issued. For a breakdown of the loans by ABS sector, see Table 2.30.
                                                                                           Auto                       $1,902.4       2.733%        1.523%
   As of March 31, 2009, TARP loaned TALF LLC $100 million to provide initial              Credit Card                 2,804.5       2.733%        1.523%
funding, of which $15.75 million was allocated to cover administrative costs.              Student Loan                       –

As of the drafting of this report, no TALF-related assets had been surrendered.            Small Business                     –

Table 2.31 illustrates the total TARP commitment and total funds disbursed.                Total                     $4,706.9

                                                                                           Source: Numbers affected by rounding. Data as of 3/31/2009.
                                                                                           FRBNY, “Term Asset-Backed Securities Loan Facility (Operations
Executive Compensation                                                                     for 3/17/2009),” http://www.newyorkfed.org/markets/
                                                                                           TALF_operations_090317.html, accessed 3/27/2009.
As of March 31, 2009, no executive compensation restrictions were placed on
any of the participants in TALF, including the issuer/sponsor or the borrower.
Originally, it was contemplated that the ABS issuers/sponsors and FRBNY would              TABLE 2.31
be required to be bound by EESA executive compensation restrictions. After the
ARRA changes to EESA, however, Treasury removed the restrictions on TALF                   TARP LOANS TO TALF LLC
issuers/sponsors, because “such a policy would not enhance the effectiveness of            Total Committed                                     $20 billion

the TALF in restoring consumer credit markets.”242 SIGTARP requested from OFS              Total Disbursed                                 $100 million

and Treasury’s General Counsel a legal explanation for these changes; the letter           Interest Received                                                –
                                                                                           Source: Numbers affected by rounding. Data as of 3/31/2009.
from SIGTARP and the responses from OFS and the Treasury General Counsel are               Treasury, GAO, and SIGTARP, briefing on TALF, 3/13/2009.
contained in Appendix I.

Going Forward
Treasury and the Federal Reserve have announced expansions in TALF. Additional
types of collateral have been made eligible for the April 2009 TALF loans.
Moreover, in conjunction with the introduction of the Public-Private Investment
Program (“PPIP”), a white paper issued by Treasury stated that TALF loans “will            Collateralized Debt Obligation: A security
be made available to investors to fund purchases of legacy securitization assets,”         that entitles the purchaser to some por-
which are expected to include legacy RMBS.243 Treasury also has announced that             tion of the cash flows from a portfolio of
it is exploring the possibility of extending TALF to AAA-rated tranches of new             assets, which may include bonds, loans,
securitizations in the form of CMBS, RMBS, and structures backed by corporate              mortgage-backed securities, or other
debt. To accommodate these additions, TALF may increase its commitments up to              CDOs.
$1 trillion, with TARP participation increasing up to $80 billion.244 Treasury and
the Federal Reserve also expect to add collateralized debt obligations to the list of
eligible collateral.245
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             April 2009 TALF Loans
                                             FRBNY has released the terms for the April 14, 2009, TALF loans. Eligible collat-
                                             eral has been expanded to include ABS collateral backed by equipment loans, non-
                                             auto floorplan loans, leases of vehicle fleets, and receivables related to residential
                                             mortgage servicing advances (servicing advance receivables). Table 2.32 and Table
                                             2.33 illustrate the additional interest rates and haircuts for the April loans.

                                             Legacy Assets in Public-Private Investment Program
                                             Treasury, the Federal Reserve, and FDIC have announced the creation of PPIP
                                             to facilitate the purchase of certain real estate-related legacy assets. The “Public-
                                             Private Investment Program” discussion immediately following describes how the
                                             elements of PPIP provide leverage to private investors. As part of PPIP, Treasury
                                             has announced that certain PPIP investment funds will be eligible to participate
                                             in TALF, magnifying the leverage already provided to private capital. As further
                                             discussed in Section 4 of this report, SIGTARP has recommended that PPIP funds
                                             should not be permitted to participate in TALF without significant additional
                                             protections.


                                             TABLE 2.32

                                             ADDITIONAL TALF INTEREST RATES
                                             Sector            Subsector         Fixed                       Floating
                                             Equipment                           3-year LIBOR + 100 1-month LIBOR + 100
                                                                                 bps                bps
                                             Floorplan                           3-year LIBOR + 100 1-month LIBOR + 100
                                                                                 bps                bps
                                             Servicing         Residential       3-year LIBOR + 100 1-month LIBOR + 100
                                             Advances          Mortgages         bps                bps
                                             Source: Data as of 3/31/2009. FRBNY, “Term Asset-Backed Securities Loan Facility (Operations
                                             for 4/7/2009),” http://www.newyorkfed.org/markets/talf_operations.html, accessed 3/27/2009.



                                             TABLE 2.33

                                             ADDITIONAL TALF APRIL LOAN HAIRCUT PERCENTAGES
                                                                                                ABS Expected Life (years)
                                             Sector           Subsector                        0-1      >1-2      >2-3 >3-4 >4-5
                                             Auto             Commercial and                    9%       10%       11%      12%      13%
                                                              Government Fleets
                                             Auto             Rental Fleets                    12%       13%       14%      15%      16%
                                             Equipment        Loans and Leases                  5%        6%        7%        8%       9%
                                             Floorplan        Non-auto                         11%       12%       13%      14%      15%
                                             Servicing        Residential                      12%       13%       14%      15%      16%
                                             Advances         Mortgages
                                             Source: Data as of 3/31/2009. FRBNY, “Term Asset-Backed Securities Loan Facility (Operations for
                                             4/7/2009),” http://www.newyorkfed.org/markets/talf_operations.html, accessed 3/31/2009.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009             105




PUBLIC-PRIVATE INVESTMENT PROGRAM
On March 23, 2009, Treasury announced a coordinated effort with the Federal
Reserve and FDIC that, it has stated, will improve the health of financial institu-
tions holding real estate-related assets in an attempt to increase the flow of credit
throughout the U.S. economy.246 The Public-Private Investment Program (“PPIP”)
will make investments in multiple Public-Private Investment Funds (“PPIFs”) to             Legacy Assets: Also known as troubled
purchase legacy loans and legacy securities (collectively “legacy assets”) from finan-     assets, legacy assets are real estate-
cial institutions.                                                                         related loans and securities (legacy loans
                                                                                           and legacy securities) that remain on
Public-Private Investment Program Details                                                  banks’ balance sheets and that have lost
Under the terms of PPIP, Government funds will be invested in varying proportions          value, but are difficult to price due to the
                                                                                           recent market disruption.
with private investors to purchase legacy assets. Plans for PPIP call for the use of
$75 billion of TARP funds in two new legacy asset subprograms and expansion of
TALF.247 Using significant leverage, either from, or backed by, the Government,
PPIP will involve from $500 billion to $1 trillion of capital for the purchase of
legacy loans and legacy securities in the Legacy Loans and Legacy Securities
programs:248

• Legacy Loans Program (“Loans Program”) — PPIFs in the Loans Program
  will purchase real estate-related loans using TARP funds and private investment
  capital combined with FDIC-guaranteed debt.
• Legacy Securities Program (“Securities Program”) — PPIFs in the Securities
  Program will purchase real estate-related securities (i.e., MBS) using TARP
  funds and private investment capital combined with TARP-issued debt.
• Expansion of TALF — TALF will be expanded to accept legacy securitized as-
  sets, which are expected to include legacy MBS.

    Both the Loans Program and the Securities Program have equity and debt
financing elements. It is currently contemplated that TARP will be used to fund
Treasury’s equity position under PPIP.
106            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       FIGURE 2.19
                                                       PPIP OVERVIEW


                                                                                              16#-*$13*7"5&*/7&45.&/5130(3".

                                                                      tCJMMJPOPG5"31GVOETCJMMJPOUP-FHBDZ"TTFUT1SPHSBNTBOECJMMJPOUP5"-'
                                                                      t'JOBODJOHGSPN5SFBTVSZBOEHVBSBOUFFTCZ'%*$XJMMDSFBUFCJMMJPOUPUSJMMJPOJO
                                                                        QVSDIBTJOHQPXFS
                                                                      t'FEFSBM3FTFSWFMFWFSBHFPGVQUPUSJMMJPOJOUIFFYQBOEFE5"-'QSPHSBN




                                                               LEGACY LOANS                               -&("$:4&$63*5*&4                                 EXPANSION OF
                                                               PROGRAM (PPIF)                               PROGRAM (PPIF)                                      5"-'
                                                        Investment                                    Investment                                    Investment
                                                        t1SJWBUF$BQJUBM                             t1SJWBUF$BQJUBM                             t1SJWBUF$BQJUBM
                                                        t5SFBTVSZ$BQJUBM	EPMMBSGPS               t5SFBTVSZ$BQJUBM	EPMMBSGPS
                                                          EPMMBSNBUDI
                                 EPMMBSNBUDI
                               Financing
                                                                                                                                                    t/POSFDPVSTFEFCUPGGFSFECZ
                                                        Financing                                     Financing                                       UIF'FEFSBM3FTFSWF
                                                        t%FCUHVBSBOUFFQSPWJEFECZ                 t/POSFDPVSTFEFCUPGGFSFECZ               t-FWFSBHFMFWFMTOPUZFU
                                                          '%*$	VQUPUPMFWFSBHF                  5SFBTVSZGPSPG                      BOOPVODFE
                                                          QSPWJEFEUISPVHIEFCU
                        JOWFTUNFOU


                                                      Source: Based on Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
                                                      Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.




                                                          Figure 2.19 describes the anticipated funding components of PPIP.

                                                          PPIP is designed to allow market participants to set the price for legacy assets
                                                      rather than having the Government or an independent third party determine value.
                                                      According to Treasury, this mechanism will help establish the highest market value
                                                      for the assets.249

                                                      Legacy Loans Program
                                                      Treasury has stated that it intends for the Legacy Loans Program to provide
                                                      financial institutions of all sizes a mechanism for the disposition of hard-to-value
      Special Purpose Vehicle (“SPV”): An entity      legacy loans through the formation of multiple special purpose vehicles (“SPVs”) or
      whose operations are limited to the acqui-      PPIFs. Under the terms of the Loans Program, FDIC will oversee the formation,
      sition and financing of specific assets.        funding, and operation of the PPIFs, which in turn will invest in legacy loans in an
                                                      auction process.250
                                                          Each PPIF will consist of equity made up of private investment capital
                                                      matched, dollar-for-dollar, with TARP funds and will have access to financing guar-
                                                      anteed by FDIC. FDIC will determine the financing level of the targeted legacy
                                                      loan pool based on its analysis and with the assistance of a third-party valuation
                                                      firm. Given the quality of the pool of legacy loans, FDIC will determine how much
                                                      of the loan purchase price it is willing to guarantee. According to the Treasury
                                                      fact sheet, it is contemplated that financing will not exceed a 6-to-1 debt-to-equity
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009              107




ratio.251 Although FDIC will have an idea of value for the pool of legacy loans,
according to Treasury officials, FDIC will conduct an auction to determine the
ultimate price for the loan pools.252
    The Legacy Loans Program includes a prohibition against private investor
participation in the auction process when the sellers of the loans at auction are
affiliates of the private investor, or where the seller of the loans at auction repre-
sents 10% or more of the aggregate private capital in the PPIF.253 In other words,
the bank selling the loan can invest up to 10% in the fund that is buying the loans
that it is selling. The PPIFs must agree to fraud, waste, and abuse protections and
provide access to SIGTARP.254

How the Legacy Loans Program Works255
1. Eligible banks, in conjunction with their primary banking regulators, identify a
   pool of legacy loans they wish to sell and submit a request to FDIC.
2. FDIC engages a private, third-party firm to analyze and value the loans. Based
   on this review, FDIC decides how much leverage (in the form of FDIC-
   guaranteed loans) it is willing to give to the pre-qualified private investors bid-
   ding on the asset. This amount may not exceed a 6-to-1 debt-to-equity ratio. In
   effect, FDIC will guarantee up to $6 for every $1 that the PPIF invests.
3. FDIC conducts an auction, soliciting bids from the PPIFs.
4. Private investors must be pre-qualified and submit a refundable cash deposit of
   5% of the bid value to FDIC in order to participate.256
5. The seller bank is then presented with the highest bid. If the seller accepts the         Guarantee: A commitment from a third-
   highest bid, the bidder is granted access to PPIF funding for purchase of the             party lending institution ensuring that
   legacy loans.                                                                             liabilities of a borrower will be met. If the
6. The PPIF debt is fully guaranteed by FDIC and collateralized by the purchased             borrower fails to make payments, the
                                                                                             guarantor will step in and make the pay-
   loans and the buildings and/or land on which the purchased loans were taken.
                                                                                             ment on the borrower’s behalf. Under the
7. The remaining capital is invested in the PPIF by private investors and Treasury
                                                                                             Legacy Loans Program, the FDIC guaran-
   in equal parts. Therefore, of the $1 invested in the previous example, the private
                                                                                             tee effectively commits the Government
   investor would invest $0.50 and Treasury, using TARP funds, would invest the
                                                                                             to make up any shortfalls if the PPIF no
   remaining $0.50. In addition, Treasury receives warrants from the PPIF (the               longer makes payments on the money
   SPV created to make the purchase) for its investment.                                     that it borrows to buy the legacy loans.
8. Any profits or losses will be passed on to the private investor and Government in
   proportion to their investment, i.e., 50%/50%.
9. The guarantee by FDIC is such that the private investor need not pay back the
   loan. If there are significant losses, the private investor can walk away from
   the transaction and lose no more than its initial $0.50 investment, using the
   example noted earlier.
108               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.20
                                                         Legacy Loans Program Example
      LEGACY LOAN                                        Bank A, in conjunction with FDIC, determines that it would like to sell loans with
      $100 Face Value                                    a face value of approximately $100. After analyzing the pool of loans, FDIC deter-
                                                         mines that the appropriate funding structure of a PPIF for such an investment is a
                                                         6-to-1 debt-to-equity structure. FDIC auctions the legacy loans and a private inves-
          $40.0
                                                         tor makes a $60 winning bid. The private investor who submitted the winning bid is
                                                         offered PPIF financing. The PPIF subsequently can obtain a loan for $51 that will
                                                         be 100% guaranteed by FDIC. The remaining $9 of the purchase price is invested
       $4.5     $4.5
                                                         in the PPIF in equal parts by the private investor and Treasury — $4.50 each. The
                                                         seller, Bank A, receives the full price of $60 and the PPIF will be required to make
          $51.0                $60 Winning Bid
                                                         the interest payments on the $51 loan. Under this scenario, Treasury contributes
                                                         $4.50 and, in return, receives warrants in the PPIF and half of the future profits
                                                         and losses generated by the PPIF. If the investment fails entirely, Treasury loses
                                                         $4.50, the private investor loses $4.50, and FDIC loses $51. Figure 2.20 illustrates
                                                         the example legacy loan transaction funding structure by participant.
         Debt Financing (guaranteed by FDIC)
         Equity Financing
         $4.50 from Treasury
         $4.50 from Private Investors                    Legacy Securities Program
         Bank Write Down
                                                         The Securities Program provides a mechanism for the disposition of legacy securi-
                                                         ties; the program targets securitized interests in mortgages (securities collateralized
      Note: Numbers affected by rounding.                or “backed” by real estate or residential or commercial properties), rather than
      Source: Diagram based on an understanding
      of Treasury, “Fact Sheet: Public-Private
                                                         the mortgages themselves. The securitized interests include residential mortgage-
      Investment Program,” 3/23/2009,
      www.treas.gov, accessed 3/23/2009.
                                                         backed securities (“RMBS”) and commercial mortgage-backed securities (“CMBS”)
                                                         that are held by a diverse group of financial institutions.
                                                             The Securities Program contemplates two approaches for stimulating private
                                                         capital investments in legacy securities: through the creation of PPIFs managed by
      For more details on Securitization, refer          private fund managers and an expansion of the Federal Reserve’s TALF Program.
      to “TARP Tutorial: Securitization” earlier
      in this section.                                   PPIF Managers
                                                         Under the Securities Program, Treasury will appoint up to five fund managers from
                                                         a pool of applicants to manage the PPIFs. According to Treasury officials, after
                                                         the initial pre-qualification of fund managers, Treasury will consider opening the
                                                         program to smaller fund managers. Qualified managers must meet the following
                                                         criteria, “which will be viewed on a holistic basis, and it is anticipated that failure to
                                                         meet any one criteria will not necessarily disqualify a proposal:”257

                                                         •   capacity to raise $500 million of private capital
                                                         •   experience investing in legacy securities
                                                         •   management of $10 billion in legacy securities
                                                         •   ability to manage in a manner consistent with Treasury’s investment objective
                                                         •   headquartered in the United States
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   109




    As in the Legacy Loans Program, PPIFs can only purchase from sellers that are
not affiliates of the fund manager, and are also prohibited from purchasing from
any private investor who represents 10% or more of the aggregate private capital
raised.258 The PPIFs must agree to fraud, waste, and abuse protections and provide
access to the Special Inspector General.259

How the Legacy Securities Program Works260
1. Fund managers apply to Treasury with a proposed funding structure for the
   creation of a PPIF.
   • The proposal details the appropriate levels of debt and equity financing
      necessary for the purchase of legacy securities, as well as other structured
      considerations outlined in the application.
2. Fund managers appointed by Treasury are granted time to raise capital from
   private investors for the purchase of legacy securities.
3. Treasury matches the capital raised by the fund manager dollar-for-dollar.
   • Treasury receives warrants in the PPIF for its contribution in addition to a
      share of any profits.
4. Fund managers can borrow additional money from Treasury of up to:
   • 50 – 100% of total equity investments, depending on “restrictions on asset-
      level leverage, withdrawal rights, disposition priorities, cash-flow priorities,
      and other factors Treasury deems relevant.”261 The total PPIF fund could
      thus consist of $1 of Treasury investment, $1 of private investment, and up
      to $2 of non-recourse Treasury loans. Because the loan is non-recourse, the
      total amount of exposure of the private investor is $1, while Treasury could
      lose as much as $3. Furthermore, the fund manager, which will receive
      fees from both the private investor and Treasury, is not required to have any
      investment in the fund, and therefore has no risk of loss for its investment
      decisions.
   • Under the current structure, the fund manager can leverage the fund
      through TALF loans, but, in that case, Treasury financing for the PPIF
      would be limited to 50% of the total equity.
5. The fund manager purchases legacy securities and has full discretion over
   investment decisions, including the price at which the securities will be pur-
   chased, and provides Treasury monthly reports on the PPIF’s activities.
6. The withdrawal rights of the private investors in the PPIF are yet to be deter-
   mined, but for any PPIF receiving Treasury financing, no private investor can
   withdraw (or have the voluntary right of withdrawal of) funds until the third
   anniversary of the first investment made in the PPIF. The stated strategy is to
   hold the securities for the long term, but not more than 10 years.262 It has not
   been announced how Treasury will enforce this goal, or whether it will permit
   members of the funds to sell or transfer their interests.
110           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more information on TALF back-             Expansion of TALF for Legacy Securities
      ground and mechanics, refer to “TALF”          The Securities Program also expands the terms of the previously announced TALF.
      earlier in this section.
                                                     Acceptable collateral under TALF, as originally implemented, included newly
                                                     issued ABS backed by auto, student, credit card, and small-business loans. The
                                                     Securities Program would expand TALF so that TALF loans could be secured by
                                                     legacy MBS that were originally rated AAA, although it will not be required that
                                                     they have that rating at the time of purchase through the TALF program. Haircuts
                                                     and interest rates applicable to these loans will be determined at a later date.263

                                                     Executive Compensation
                                                     Treasury has not indicated to what extent the EESA executive compensation
                                                     restrictions will apply to the participants in the legacy loan, legacy security, or
                                                     expanded TALF programs. According to Treasury, “the applicability of the execu-
                                                     tive compensation regulations, which have not yet been published, will be fact-
                                                     dependent. Until Fund Managers make proposals under the TALF program, it is
                                                     not known whether they will seek to be co-owners of the PPIFs. If they do, they
                                                     would not be passive investors and could be subject to the executive compensation
                                                     restrictions.”264
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009        111




UNLOCKING CREDIT FOR SMALL BUSINESSES
On March 16, 2009, Treasury announced that it would purchase up to $15 billion in
securities backed by pools of Small Business Administration (“SBA”) loans in order                7(a) Program: SBA loan program guar-
to encourage banks to extend more credit to small businesses.265 These securities will            anteeing a percentage of loans for small
be backed by loans participating in two SBA programs: the 7(a) Program and the 504                businesses that cannot otherwise obtain
Community Development Loan Program. Banks often sell a portion of these loans in                  conventional loans at reasonable terms.
a secondary market to pool assemblers (issuers).266 This secondary market serves as a
source of cash for banks, providing them money to make new loans.267 Frozen condi-                504 Community Development Loan
tions in the secondary market have caused a reduction in the volume of new loans                  Program: SBA loan program combin-
written by banks. According to Treasury, the Unlocking Credit for Small Businesses                ing Government-guaranteed loans with
(“UCSB”) program was designed to provide banks the liquidity necessary to start writ-             private-sector mortgage loans to provide
ing new small-business loans again.268                                                            loans of up to $10 million for community
                                                                                                  development.
    In addition to stimulating the secondary markets for SBA loans, Treasury has
announced increased tracking of small-business-related lending. On March 16,
                                                                                                  Pool Assembler (issuer): A separate legal
2009, the Treasury Secretary called for the 21 largest banks receiving TARP funding
                                                                                                  entity that buys cash-flow-producing as-
to report the monthly amount of their small-business lending. This reporting would                sets such as loans, pools them together,
begin with participants’ April 2009 submissions and include data on average small-                and sells portions of the pools of loans
business loans outstanding and monthly originations to small businesses. In order to              as securities.
make timely data available, the Treasury Secretary called for every U.S. bank to report
their total small-business lending on a quarterly basis instead of once per year. This
reporting would be facilitated by bank regulators. The Treasury Secretary “empha-
sized that all lenders (including those not participating in the FSP) should take a
special responsibility for providing the credit that small businesses need to operate,
expand and add jobs.”269

SBA 7(a) Program Securities
The SBA 7(a) Program assists small businesses that cannot otherwise obtain conven-
tional loans at reasonable terms.270 If a small business meets specific SBA eligibility
requirements, it can borrow from a lender approved by SBA, and SBA will guarantee
a portion of that loan.271 Treasury announced that SBA, using non-TARP funds, will
temporarily raise its guarantee on 7(a) loans up to 90% from current levels of 75%
to 85%, and will also temporarily eliminate SBA loan fees.272 Loan fees can reach up
to 3.75% for the largest loans.273 Treasury announced in its March 16, 2009, press
release that, by the end of March 2009, it would begin using TARP funds to pur-
chase securities backed by Government-guaranteed portions of these 7(a) Program
loans (“7(a) Program Securities”) that were securitized on or after July 1, 2008.274 The
origination date of the underlying loans is not a factor for eligibility.275 As of March
31, 2009, however, Treasury had not announced the execution of any of these pur-
chases or published any more detailed terms. For a description of the securitization
process, refer to “TARP Tutorial: Securitization” earlier in this section. Further details
on these programs will be provided in SIGTARP’s next report.
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             SBA 504 Program Securities
                                             According to Treasury, SBA’s 504 Community Development Loan Program is aimed
                                             at economic development in communities through long-term loans of up to $10 mil-
                                             lion, with approximately 50% of the financing guaranteed by SBA and the remainder
                                             provided through private-sector mortgage loans.276 Like 7(a) loans, these private-
                                             sector mortgage loans (the portion of 504 Program loans not guaranteed by SBA)
                                             were often pooled as securities (“504 Program Securities”) and sold in a secondary
                                             market.277 However, according to Treasury, in the last year, this secondary market has
                                             frozen.278 Under the American Recovery and Reinvestment Act of 2009 (“ARRA”),
                                             SBA will begin to guarantee a portion of these 504 Program Securities.279 Treasury
                                             stated that it will begin to use TARP funds to purchase these newly guaranteed 504
                                             Program Securities, once SBA implements the new ARRA guidelines.280
                                                 Treasury also expects to begin purchasing some non-guaranteed 504 Program
                                             Securities beginning in May 2009.281
                                                 As with 7(a) Program Securities, 504 Program Securities must have been securi-
                                             tized on or after July 1, 2008, with no restriction for the origination date of the under-
                                             lying loans.282 The 504 Program Securities that are not guaranteed by SBA must also
                                             meet certain eligibility criteria. However, as of March 31, 2009, these criteria were
                                             not yet announced.283

                                             Administration
                                             Treasury has hired EARNEST Partners, LLC, an independent investment manager,
                                             to assist in executing the program to purchase 7(a) Program Securities and 504
                                             Program Securities. The Bank of New York Mellon will serve as Treasury’s custodian
                                             for these securities. Treasury has stated that it and its investment manager will ana-
                                             lyze current and historical prices of comparable securities to determine reasonable
                                             prices aimed at providing liquidity to increase small-business lending while protecting
                                             the taxpayers’ interest.284

                                             Executive Compensation and Warrants
                                             Treasury reported that executive compensation provisions under EESA will apply
                                             to pool assemblers (issuers) who sell 7(a) Program Securities to Treasury; however,
                                             they may apply differently for each pool assembler, based on the obligations in-
                                             curred by the pool assemblers. As consideration for the purchase of 7(a) Program
                                             Securities, Treasury will also receive warrants from pool assemblers, consistent with
                                             EESA. Although warrant terms were still under consideration as of March 31, 2009,
                                             Treasury expects that they will be in the form of rights to purchase common stock for
                                             public companies or the rights to purchase common stock, preferred stock, or senior
                                             debt obligations for private companies. Treasury has also indicated that executive
                                             compensation and warrant requirements under EESA may also apply to entities sell-
                                             ing 504 Program Securities to Treasury. The full application of these provisions was
                                             still under consideration as of March 31, 2009.285
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009          113




MAKING HOME AFFORDABLE PROGRAM
On March 4, 2009, the Administration announced a new program, Making Home
Affordable (“MHA”), which is intended to assist homeowners who are facing fore-
closure or having difficulty making their monthly mortgage payments. As of
March 31, 2009, MHA funding has not been expended and the program details
are largely limited to those contained in the proposed term sheet made public on
March 4, 2009. MHA has three major initiatives, one of which involves TARP
funds:

• Loan modification program: The Home Affordable Modification Program
  (“HAMP”) is designed to lower monthly payments of borrowers facing foreclo-                Private-Label Mortgage: Loans that are
                                                                                             not issued or guaranteed by Fannie
  sure, and will be funded by $50 billion from TARP and an additional $25 billion
                                                                                             Mae, Freddie Mac, Ginnie Mae, or
  from the Housing and Economic Recovery Act (“HERA”).286 Under HAMP, the
                                                                                             another Federal agency.
  $50 billion from TARP will be used for modification of private-label mortgages
  and the $25 billion from HERA will be used for modification of Fannie Mae and
  Freddie Mac mortgages.
• Loan refinancing program: The Home Affordable Refinancing Program
  (“HARP”) intends to help borrowers refinance their mortgages at lower interest
  rates and will be limited to homeowners with mortgages owned or guaranteed by
  Fannie Mae or Freddie Mac.
• Actions to lower mortgage interest rates by supporting Fannie Mae and
  Freddie Mac: This initiative includes investments intended to lower mortgage
  interest costs for borrowers by increased liquidity at Fannie Mae and Freddie
  Mac through a $100 billion increase in planned Treasury purchases of both
  Fannie Mae and Freddie Mac preferred stock. Additionally, Treasury will allow
  Fannie Mae and Freddie Mac each to hold another $50 billion in mortgage
  securities on their portfolios, with a corresponding increase in debt outstanding.

Homeownership and Foreclosure Avoidance in EESA
Prior to the formation of the MHA program, Congress directed Treasury to pursue
foreclosure mitigation policies “to the extent the Secretary acquires mortgages,
mortgage backed securities and other assets secured by residential real estate.”287
Specifically, EESA made Treasury responsible for the following actions if it decided
to acquire such assets:288

• implement a plan that seeks to maximize assistance for homeowners
• encourage servicers to take advantage of the Federal Housing Administration’s
  (“FHA”) HOPE for Homeowners Plan
• use loan guarantees and credit enhancements to facilitate loan modification
• coordinate with FDIC, the Federal Reserve, Federal Housing Finance Agency
  (“FHFA”), and FHA
• consent to reasonable loan modifications
114   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Although Treasury has not yet acquired the assets that would trigger these
                                                     obligations, Treasury contends that the newly introduced MHA program addresses
                                                     most of these requirements. For a list of how the MHA program addresses the
                                                     EESA provisions for Treasury, see Table 2.34.

                                                     Home Affordable Modification Program
                                                     MHA offers the prospect of a loan modification to borrowers who are at “imminent
                                                     risk of default on their mortgage and can be expected to enter into foreclosure
                                                     proceedings.” The loan modifications offered in HAMP will be funded by up to $50
                                                     billion of TARP funds for modification of private-label mortgages, and an additional
                                                     $25 billion from HERA for modification of Fannie Mae and Freddie Mac
                                                     mortgages. The Administration believes HAMP may “reach three to four million
                                                     homeowners.”289 As of March 31, 2009, detailed program guidelines have not yet
                                                     been released; however, servicers have been given basic instructions so that modifi-
                                                     cation negotiations with homeowners can begin immediately.
                                                          The Administration envisions a “shared partnership” between the Government
                                                     and private lenders to reduce a borrower’s monthly payments to an “affordable”
                                                     level — defined as 31% of a borrower’s monthly income. The private-sector lender

                              TABLE 2.34

                              TREASURY RESPONSES TO EESA
                                                                                      Section
                              EESA Provisions                                         of EESA    References to Treasury Involvement
                                                                                                 According to the “Making Home Affordable: Updated De-
                                                                                                 tailed Program Description,” MHA provides homeowners
                              Develop a homeowner assistance plan                     109(a)
                                                                                                 the ability to refinance or modify their existing mortgage
                                                                                                 depending on eligibility.
                                                                                                 According to the “Making Home Affordable: Updated
                              Encourage servicers to utilize                                     Detailed Program Description,” MHA will provide similar
                                                                                      109(a)
                              FHA HOPE for Homeowners                                            incentives to servicers for modifications under the HOPE
                                                                                                 for Homeowners program.
                                                                                                 TARP requires loan modification support of certain par-
                              Use loan guarantees to facilitate modifica-                        ticipants. For example, Exhibit F of the Asset Guarantee
                                                                                      109(a)
                              tions                                                              Program (“AGP”) requires that Citigroup adopt a loan
                                                                                                 modification program.a
                              Coordinate with other agencies                                     According to the “Making Home Affordable: Updated
                                                                                                 Detailed Program Description,” Treasury is responsible
                                                                                      109(b)
                                                                                                 for oversight and audit of loan modifications under the
                                                                                                 terms of MHA.
                              Consent to reasonable loan modification                            According to the “Making Home Affordable: Updated
                              requests                                                109(c)     Detailed Program Description,” MHA defines criteria for
                                                                                                 determining eligibility for loan modification.
                              Note: MHA refers to Making Home Affordable as proposed 3/4/2009.
                              aExhibit   F FDIC Mortgage Loan Modification Program.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   115




will be responsible for all payment reductions necessary to bring a borrower’s
monthly payments down to 38% of the borrower’s gross monthly income. The ad-
ditional reductions required to bring the borrower’s monthly payment down to 31%
of the borrower’s gross monthly income will be shared equally between the private
lender and the Government.290
    To meet its portion of the shared program, Treasury will provide the following
types of support:

• monthly payment reduction payments to servicers
• payments to servicers for principal reductions
• support for extensions of the borrower’s loan term

    Loan modification applications under the program will be accepted until
December 31, 2012.291 Any scheduled subsidy payments on a particular mortgage
will be made for a period of three to five years as defined under MHA.
    To encourage wide adoption of the program, TARP will provide funding for in-
centive payments. These incentives will be targeted toward the three main partici-
pants in the loan workout process: the homeowners who stay current on their loans
after a modification, the loan servicers who establish successful modifications, and
the investors who own loans.

How the HAMP Loan Modification Subsidies Are To Be Determined
The MHA process puts borrowers facing default through a series of tests to see if
the loan qualifies for Government assistance and, if so, for how much.292 If a test is
failed at any stage, the loan servicer has the right either to attempt a loan modifica-
tion, without Government incentives, or to proceed with foreclosure and eviction if
the borrower defaults. The first step in the modification process addresses
homeowner eligibility. If the homeowner is deemed eligible for modification, the
second step determines the appropriate subsidies from the Government.

   Step #1: Is the homeowner eligible for loan modification under HAMP?293
   The servicer must collect documentation that ALL of the following are true:
   1. The mortgage was originated before January 1, 2009.
   2. The borrower is an “owner-occupant” living in a one- to four-unit home as a
      primary residence.
   3. The borrower is not an “investor” living elsewhere.
   4. The home is not vacant or condemned.
   5. The borrower is at risk of “reasonably foreseeable or imminent default.”
   6. The borrower has suffered an adverse event (either income reduction or
      payment increase).
116   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 7. The mortgage has an unpaid principal value of less than $729,750 for one-
                                                    unit homes.
                                                 8. The borrower has limited liquid assets.

                                                 There is no minimum or maximum loan-to-value ratio for eligibility; that is, the
                                             value of the home is not a consideration for eligibility, although it may affect the calcula-
                                             tion of potential subsidies.

                                                 Step #2: What is the Federal subsidy?294
                                                 First, the lender must lower the borrower’s monthly payment to 38% of the bor-
                                             rower’s documented gross monthly income (by lowering the interest rate, extending
                                             the term, reducing the principal, or a combination). Then the U.S. Government
                                             will match dollar-for-dollar with the lender any reductions necessary to get the
                                             monthly payment to 31% of the borrower’s monthly income. For purposes of these
                                             calculations, “monthly payment” is defined as the sum of principal, interest, taxes,
                                             insurance, and association fees (“PITIA”) related to the mortgage. The ratio of
                                             PITIA to gross monthly income is referred to as the Front-End-Debt-To-Income
                                             (“DTI”) test. In conducting the DTI test, the servicer will perform the following
                                             tasks:

                                                  1. certify the borrower’s income
                                                  2. calculate the lender reductions necessary to make monthly loan payments
                                                     38% of monthly income
                                                  3. calculate the lender reductions and U.S. subsidies necessary to make
                                                     monthly loan payments 31% of monthly income

                                                 In addition to a DTI test, the servicer performs a net present value (“NPV”) test.
                                             In this test, the servicer inputs the estimated foreclosure value of the home (that
                                             is the amount of money left over that the servicer believes it could get if the home
                                             is foreclosed upon and sold) into a cash-flow projection to see if subsidizing a loan
                                             modification is less expensive to the servicer than letting the home fall into foreclo-
                                             sure. This includes:

                                                  1. obtain an estimate of the home value and projected losses should a
                                                     foreclosure occur
                                                  2. compare with estimated present value of cash flows under a loan
                                                     modification scenario
                                                  3. calculate the results of the NPV test
                                                  4. confirm that the test supports modification as the lowest cost alternative
                                                     (if yes, begin a 90-day trial period)
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   117




    5. if 90-day trial period of reduced payments is successful (i.e., borrower
       makes payments), begin monthly subsidies

Example of a HAMP Modification
Mr. Smith owns a single-family home which he bought for $200,000. In order to
buy the home, Mr. Smith took out a $160,000 mortgage with a 6.0% interest rate.
Mr. Smith pays $960 monthly on his mortgage. Due to recent budget cuts at his
company, Mr. Smith was moved to part-time work and may be at risk of defaulting
on his mortgage.
    Mr. Smith called his mortgage servicer and asked whether he qualified for
HAMP assistance. After supplying evidence of his income, Mr. Smith and the ser-
vicer determine that his monthly mortgage payment is 43% of his gross monthly in-
come. The servicer calculates that the monthly mortgage payment must be reduced
to $848 (or 38% of Mr. Smith’s monthly income) in order to qualify for additional
Government subsidies under HAMP. To do that, the servicer cuts the interest rate
to 4.89%.
    Pursuant to the terms of HAMP, the lender further reduces the monthly pay-
ment on Mr. Smith’s mortgage to $692, which is 31% of his gross monthly in-
come. To do that, the servicer cuts the interest rate to 3.2%. Assuming Mr. Smith
makes three payments at this new rate during a trial period, Treasury will then pay
the lender $78 monthly for five years (as long as Mr. Smith stays current on his
mortgage) for half the difference between the modified monthly mortgage payment
(38% of monthly income) and the lower modified monthly mortgage payment (31%
of monthly income) ($848 – $692). Mr. Smith will be able to keep this new, lower
mortgage payment for five years.

HAMP Incentive Payments
HAMP creates a series of incentive payments designed to encourage loan
modifications.295

To Loan Servicers296
• “Pay for Success” Up-Front Payments: An up-front payment of $1,000 will be
   made to loan servicers for each eligible modification they successfully imple-
   ment and bring through the 90-day trial period.
• “Pay for Success” Ongoing Payments: Additional payments of $1,000 per year
   will be made for each year that the borrower stays current on their loan modifi-
   cation. This payment will be payable for up to three years.
• Responsible Modification Incentive Payment: A one-time payment of $500
   will be made to a loan servicer who modifies a loan that is still current (less than
   30 days delinquent).
118             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       • Second Lien Release Success Payment: Delinquent loans are frequently ac-
                                                         companied by a second lien debt (such as a second mortgage or a home equity
                                                         line of credit). In order to reduce the overall monthly mortgage payments of the
                                                         borrower, servicers will be encouraged to contact second lien holders and at-
                                                         tempt to negotiate the extinguishment of the second lien. Servicers will receive a
                                                         success payment equal to $250 per second lien extinguished, plus an additional
                                                         amount based on a schedule to be published by Treasury.

                                                       To Mortgage Holders297
      Second Lien Debt: Is subordinate to a            • Responsible Modification Incentive Payment: Mortgage holders will receive
      senior claim on the same collateral.                $1,500 for making loan modifications made while a borrower at risk of immi-
                                                          nent default is still current (less than 30 days delinquent).
      Mortgage Holders: Lender or investor
                                                       • Home Price Decline Payments (up to $10 billion): The Administration,
      (depending on whether the mortgage
                                                          working with FDIC, has announced a cash payment that provides lender com-
      is securitized) who owns the right to
                                                          pensation to offset partially the losses from failed modifications when home
      the borrower’s monthly payments. For
      more information on how a securitiza-               prices decline. The payment is not fixed; rather, it is linked to declines in the
      tion process works, refer to “TARP                  home price index.
      Tutorial: Securitization” earlier in this        • Second Lien Holder Incentives: Treasury will publish a schedule detail-
      section.                                            ing incentive fees that may be paid to junior lien holders who extinguish their
                                                          junior liens. This is intended to reduce the borrower’s overall monthly mortgage
                                                          payments.

                                                       To Homeowners298
                                                       • “Pay for Success” Payment: Payments of up to $1,000 per year, for five years,
                                                          will be made to borrowers who remain current under their loan modification.
                                                          This payment will be applied directly to the reduction of their principal balance.

                                                       Total TARP-funded HAMP Incentives
                                                       In addition to the $78 monthly subsidy for the modification of Mr. Smith’s mort-
                                                       gage payments from the HAMP modification example, TARP is responsible for
                                                       funding a number of the HAMP incentive payments; if a delinquent loan like Mr.
                                                       Smith’s is modified under HAMP, and Mr. Smith makes all of his monthly pay-
                                                       ments for five years, at least $9,000 of incentive payments will be funded by TARP:

                                                       • $1,000 to loan servicers for upfront “Pay for Success” incentive
                                                       • $3,000 ($1,000/year for 3 years) paid to loan servicers for ongoing “Pay for
                                                         Success” incentives
                                                       • $5,000 ($1,000 annually) of principal reductions for borrowers
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   119




   If the loan was current at the time of the modification, TARP would also be
responsible for the following incentive payments:

• $500 Responsible Modification payment to the loan servicer
• $1,500 Responsible Modification payment to the mortgage holder

    In total, TARP would expend $15,680 to modify Mr. Smith’s mortgage —
$9,680 toward paying Mr. Smith’s mortgage and $6,000 in incentives to the
servicers and investors.

Other HAMP Provisions
In addition to the monetary initiatives of HAMP, the Administration announced
other actions to assist with homeowner loan modifications.
    First, it released a set of standardized loan modification guidelines to be used as
an industry standard. These guidelines were developed by an interagency working
group of Federal agencies with housing interests, including Federal banking regula-
tors, FDIC, National Credit Union Administration, FHA, and FHFA.
    Second, all TARP recipients will be required to use these guidelines for loan
modifications.
    Finally, the Administration announced that it will seek statutory changes
to the bankruptcy code to facilitate the goals of its loan modification program.
Specifically, its proposal would permit bankruptcy judges “to reduce the outstand-
ing principal balance of a primary residence loan to current fair market value.”299
Further statutory changes would provide FHA and the Veterans Administration
with the authority to make partial payments of claims on insured mortgages in the
event of bankruptcy or voluntary modification.

HAMP Administration
Treasury has retained Fannie Mae as financial agent to manage the payment
program and Freddie Mac as compliance agent for monitoring of the program
administration. Ongoing reviews will be necessary to ensure continued eligibility,
to manage cash, and to monitor and track changes in status, such as a subsequent
delinquency.

Executive Compensation
Section 7002 of ARRA specifically exempted mortgage modification efforts from
EESA’s executive compensation restrictions. As such, no executive compensation
restrictions will apply to this program.
120               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                             EXECUTIVE COMPENSATION
                                                                             Any financial institution directly participating in TARP and under an ongoing
                                                                             obligation to Treasury, other than in the mortgage modifications programs,
                                                                             must abide by a set of executive compensation provisions set forth under EESA
                                                                             legislation and regulations mandated by Treasury. Since October 14, 2008, shortly
                                                                             after the original requirements were first enacted in Section 111 of EESA, there
                                                                             have been additional regulations, amendments, and notices that will replace
                                                                             previously existing guidelines. On February 17, 2009, Section 111 of EESA was
                                                                             amended by Section 7001 of the American Recovery and Reinvestment Act of
                                                                             2009 (“ARRA”).300 This legislation, which will be implemented by regulations
                                                                             promulgated by Treasury, replaces the executive compensation guidelines in
                                                                             Section 111 of EESA. As agreements are finalized and funding is issued, executive
                                                                             compensation restrictions may also continue to be tailored more specifically for
                                                                             each institution. Figure 2.21 describes the changes in executive compensation
                                                                             restrictions set forth by Congress and Treasury regulation over time. Information
                                                                             regarding each set of restrictions on the timeline is detailed in this section.



      FIGURE 2.21

      EXECUTIVE COMPENSATION RESTRICTIONS TIMELINE


         OCTOBER 2008                                          JANUARY 2009                       FEBRUARY 2009



           OCTOBER 3                                        JANUARY 16                               FEBRUARY 4                                                                         TBD
           EESA                                     NOTICE 2008-PSSFI                                ADMINISTRATION                                                                     FORTHCOMING TREASURY
           EESA is enacted to include          Mandated a more stringent                             ANNOUNCEMENT ON                                                                    REGULATION
           executive compensation                  rule regarding golden                             EXECUTIVE                                                                          Will implement new
           restrictions for any                              parachutes.                             COMPENSATION                                                                       guidance and Section
           institution that was to sell                                                              New guidance on executive                                                          7001 of ARRA when
           troubled assets to the                                                                    compensation separating                                                            released by Treasury.
           Government under TARP.                                                                    companies receiving TARP
                                                                                                     funding into two categories:
                        OCTOBER 14                                                                   Exceptional Assistance and
                        TREASURY REGULATION                                                          Generally Available
                        31 CFR PART 30                                                               Programs.
                        Implemented Section 111
                        of EESA to institutions that                                                                  FEBRUARY 17
                        received financial                                                                            AMERICAN RECOVERY AND
                        assistance from Treasury.                                                                     REINVESTMENT ACT,
                                                                                                                      (”ARRA”) SECTION 7001
                                                                                                                      Section 7001 of ARRA is
                                                                                                                      enacted, amending and
                                                                                                                      replacing Section 111 of
                                                                                                                      EESA and any Treasury-
                                                                                                                      issued guidance prior to
                                                                                                                      this date.


      Sources: EESA, P.L. 110-343, 10/3/2008; Treasury, “Treasury Regulation 31 CFR Part 30,” 10/14/2008; Treasury, “Notice 2008 - PSSFI,” 1/16/2009, www.treas.gov, accessed 1/19/2009; Treasury, “Treasury Announces
      New Restrictions on Executive Compensation,” 2/4/2009, www.treas.gov, accessed 3/20/2009; ARRA, P.L. 111-5, 2/17/2009.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009           121




    On February 5, 2009, SIGTARP announced an audit of controls over execu-
tive compensation. The audit has requested that recipients of TARP funds provide
“specific plans and the status of implementation of those plans, for addressing
executive compensation requirements associated with the funding.”301 Additionally,
after AIG paid out $165 million in bonuses on March 15, 2009, SIGTARP an-
nounced a review of Federal oversight of executive compensation. This includes
the bonus payments made by AIG.302 For more information on these audits, refer to
“SIGTARP Oversight Activities” in Section 1 of this report.

EESA Restrictions
Section 111 of EESA, as originally enacted, required any financial institution that
sells troubled assets to Treasury under TARP to abide by certain executive compen-
sation rules. These rules have been replaced by Section 7001 of ARRA, which will
be implemented by Treasury regulation. All TARP executive compensation restric-
tions have their basis in the initial restrictions set forth by EESA:303

• Excessive Risk: Incentive compensation for Senior Executive Officers (“SEOs”)
  must not encourage unnecessary and excessive risks that threaten the value of             Senior Executive Officers (“SEOs”) (as
  the financial institution.                                                                defined in original Section 111 of EESA):
• Clawback: Mandatory clawback of any bonus or incentive compensation paid                  The top five highly paid executives.
  to an SEO will be enforced if based on statements of earnings, gains, or other
  criteria that are later proven to be materially inaccurate.                               Clawback: Recovery by the company of
• Golden Parachute: Certain severance payments (golden parachute payments)                  bonuses or incentive compensation paid
  to SEOs are prohibited when Treasury purchases troubled assets directly from              to a senior executive.
  the firm.
                                                                                            Golden Parachute (as defined in original
• Tax Deductibility: Executive compensation in excess of $500,000 or more for
                                                                                            Section 111 of EESA): Compensation to
  each SEO may not be deducted by the TARP participant for tax purposes.304
                                                                                            (or for the benefit of) a Senior Executive
                                                                                            Officer made upon severance from em-
Treasury Regulation 31 CFR Part 30                                                          ployment that exceeds specified thresh-
On October 14, 2008, Treasury provided guidance on executive compensation                   olds. Under EESA as originally enacted,
through Treasury regulation 31 CFR Part 30. The regulation implemented Section              such compensation is limited to three
111 of EESA on executive compensation restrictions to those institutions that               times the executive’s annual base salary.
received financial assistance from Treasury. This included all institutions participat-
ing in CPP and institutions participating in other TARP programs with language in
their contracts requiring them to do so. In addition, according to the regulation, all
institutions that received financial assistance through TARP must meet Treasury
restrictions for as long as they are participants in the program (i.e., as long as
Treasury holds the shares).305
122            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                      122




                                                      Notice 2008-PSSFI
                                                      On January 16, 2009, Treasury released Notice 2008-PSSFI which mandated a
                                                      more stringent rule for SSFI participants with respect to golden parachute pay-
                                                      ments and a clarified definition of SEO.306 Currently, AIG is the only institution
                                                      subject to this guidance; under the terms of Notice 2008-PSSFI, AIG must comply
                                                      with the following:

                                                      • Golden parachutes: Agree to the restrictions regarding golden parachutes
                                                        established under EESA and the Capital Purchase Program Interim Final Rule
                                                        (31 CFR Part 30) where senior partners, defined as employees who participate
                                                        in the company’s “senior partners plan,” are prohibited from receiving golden
                                                        parachute payments beyond three times their base salary amount. In addition,
                                                        under Notice 2008-PSSFI, the definition of golden parachutes is expanded
                                                        to prohibit the payment of all severance payments to the company’s top five
                                                        SEOs, which include its Principal Executive Officer (“PEO”), Principal Finance
                                                        Officer (“PFO”), and its next three highly compensated executives, according to
                                                        the guidance.307

                                                          Citigroup and Bank of America are following similar guidance on golden
                                                      parachutes according to their Securities Purchase Agreements under the Targeted
                                                      Investment Program. According to new agreements between AIG and the
  For more information on the                         Government, AIG will be following the executive compensation restrictions detailed
  executive compensation restrictions for             in ARRA’s Section 7001 when it is implemented by Treasury.308
  AIG, Citigroup, and Bank of America,
  refer to SIGTARP’s Initial Report,
  Section 3: “TARP Implementation and                 Administration Announcement on Executive Compensation
  Administration.”                                    On February 4, 2009, the Administration announced new guidance on executive
                                                      compensation restrictions. According to Treasury, these new restrictions would sup-
                                                      port the need to monitor and hold accountable institutions receiving Government
                                                      funding. The announcement contemplated requiring TARP recipients to complete,
                                                      annually, a certification of compliance with executive compensation guidelines. It
      Exceptional Assistance: Increased               also noted that there would be differences in restrictions for institutions receiving
      assistance to an institution that needs         “exceptional assistance” (i.e., AIG, Citigroup, and Bank of America), and those
      more than allowed under a generally
                                                      involved in generally available programs (i.e., CPP and CAP) within TARP.309
      available program (i.e., CPP and CAP).
                                                          The Administration’s announcement contemplated that companies receiving
                                                      exceptional assistance from the Federal Government would have to comply with
      Generally Available Programs: Programs
      having the same terms for all recipients,
                                                      the following restrictions:310
      with limits on the amount each institution
      may receive and specified returns for           • Compensation Cap: The cap limits senior executives from receiving more than
      taxpayers (i.e., CPP or CAP).                     $500,000 in total compensation (excludes restricted stock).
                                                      • Restricted Stock: Any pay over $500,000 must be in restricted stock that can-
                                                        not be sold or transferred while the company is still receiving TARP assistance.
123                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009     123




      • Say on Pay: Executive compensation and strategy must be fully disclosed and
        subject to a “Say on Pay” shareholder vote.                                            Say on Pay: Provision that executive
      • Clawbacks: Mandatory clawback of any bonus or incentive compensation paid              compensation must be put to a non-
        to an SEO will be enforced if based on statements of earnings, gains, or other         binding vote by shareholders.
        criteria that are later proven to be materially inaccurate.
      • Golden Parachutes: Any form of severance payment to the top 10 senior
        executives is prohibited, as are golden parachute payments greater than one
        year’s compensation to the next 25 executives.
      • Luxury Expenditures: TARP recipients’ boards of directors must adopt
        company-wide policy on expenditures related to aviation, facility renovations,
        entertainment and parties, and conferences.

          Additionally, prior to the amendment of EESA, pursuant to the Administration’s
      announcement, Treasury contemplated issuing guidance (subject to public
      comment) on executive compensation requirements for institutions receiving
      Government assistance through newly created generally available programs, such
      as the Capital Assistance Program, and were to include the following:311

      • Compensation Cap: Limits senior executives from receiving more than
        $500,000 in total compensation plus restricted stock, unless waived by full pub-
        lic disclosure and a “Say on Pay” shareholder resolution.
      • Clawbacks: Mandatory clawback of any bonus or incentive compensation paid
        to an SEO will be enforced if based on statements of earnings, gains, or other
        criteria that are later proven to be materially inaccurate.
      • Golden Parachutes: Prohibits any severance payment to the top five senior
        executives that is greater than one year’s compensation.
      • Luxury Expenditures: TARP recipients’ boards of directors must adopt
        company-wide policy on expenditures related to aviation, facility renovations,
        entertainment and parties, and conferences.

          Before regulations imposing the Administration’s executive compensation
      restrictions could be issued, however, Section 111 of EESA was amended by
      ARRA.312

      EESA, as Amended
      On February 17, 2009, EESA was amended with the passing of ARRA. Section
      7001 of ARRA outlines the executive compensation guidelines that will replace
      those set forth in Section 111 of EESA. As of March 31, 2009, Treasury regula-
      tions implementing these guidelines had not been released. The amendments to
      EESA are more expansive as to whom the executive compensation restrictions
      apply, as well as include provisions for the creation of a Board Compensation
124            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                                        124




                                                      Committee, certification of compliance, and review of prior payments to execu-
                                                      tives.313 Treasury has indicated that it intends to issue new regulations that imple-
                                                      ment amended Section 111 of EESA, but it has not yet determined which restric-
                                                      tions set forth in the Administration’s February 4, 2009, announcement, if any, will
                                                      be included. As of March 31, 2009, the updated regulations had not been issued.314



                                                      Bonus and Incentive
                                                      There are three requirements in Section 7001 of ARRA by which all TARP re-
                                                      cipients must abide, and a fourth bonus requirement that is applied to a varying
                                                      number of executives depending upon the amount of TARP funding received by
                                                      the institution. All requirements apply over the entire time that any obligation
                                                      arising from TARP assistance is outstanding. The Chief Executive Officer and the
                                                      Chief Financial Officer of each TARP recipient must provide a written certification
                                                      of compliance for the following requirements to either the Securities and Exchange
                                                      Commission (“SEC”) (public companies) or the Treasury Secretary (private compa-
                                                      nies).315 Requirements for TARP recipients are as follows:316

                                                      • Excessive Risk: limits on compensation that are based upon unnecessary and
                                                        excessive risks that threaten the value of the TARP recipient
      Senior Executive Officer (“SEO”) (definition
                                                      • Clawbacks: recovery (clawback) of any bonus, retention award, or incentive
      under ARRA): An individual who is one of
                                                        compensation paid to an SEO and any of the next 20 highest compensated em-
      the top five most highly paid executives of
      a public company, whose compensation              ployees resulting from materially inaccurate earnings, revenues, or gains
      is required to be disclosed pursuant to         • Golden Parachutes: prohibits any severance payment to any SEO or any of the
      the Securities Exchange Act of 1934, and          next five highly compensated employees
      any regulations issued thereunder, and          • Bonus: prohibits the payments or accruing of any bonus, retention award, or
      non-public company counterparts.                  incentive compensation to the applicable employees shown in Table 2.35

      Golden Parachute (definition under ARRA):
      Any payment to a senior executive officer        TABLE 2.35
      for departure from a company for any
                                                        BONUS LIMITS, BY SIZE OF TARP FUNDING
      reason, except for payments for services
                                                        Amount of TARP Funding                                   Applicable Employees
      performed or benefits accrued.
                                                        < $25,000,000                                            most highly compensated employee
                                                        ≥ $25,000,000 < $250,000,000                             5 most highly compensated employees
                                                                                                                 SEOs and at least 10 next highly compensated
                                                        ≥ $250,000,000 < $500,000,000
                                                                                                                 employees
                                                                                                                 SEOs and at least 20 next highly compensated
                                                        ≥ $500,000,000
                                                                                                                 employees


                                                        Note: The Treasury Secretary may determine a higher number based on the public’s best interest.
                                                        Source: ARRA, P.L. 111-5, 2/17/2009.
125                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009         125




           The following bonus payments are allowed under Section 7001 of ARRA:
      (i) any bonus payment required to be paid pursuant to an employment contract
      executed before February 11, 2009, and (ii) payment of long-term restricted stock
      that meets the following criteria:317

      • does not fully vest during the period of any obligation arising from TARP
        assistance                                                                              Vest: To become exercisable. Typically
                                                                                                used in the context of an employee stock
      • has a value of not greater than 1/3 of the total amount of the annual compensa-
                                                                                                ownership or option program.
        tion of the employee receiving stock
      • is subject to other terms and conditions as the Treasury Secretary determines is
        in the public interest

          Further, ARRA requires Treasury to review all bonuses, retention awards, and
      other compensation paid, before February 17, 2009, to SEOs and the next 20 high-
      est compensated employees. This review is intended to determine if the payments
      made were “inconsistent with the purposes of this section or the TARP or were
      otherwise contrary to the public interest.” Should the Treasury Secretary find the
      payments were inappropriate, he is required to seek to negotiate for reimbursement
      to the Federal Government.318

      Board Compensation Committee
      Under ARRA, each TARP recipient must establish a Board Compensation
      Committee. Board members must be independent directors, and the board will
      convene for the purpose of reviewing employee compensation plans. The commit-
      tee is required to meet at least semiannually to review the compensation plans pro-
      posed and assess any risk that these compensation plans may create for the TARP
      recipient. The exception to this requirement is made for TARP recipients that are
      not registered under the Securities Exchange Act of 1934 and have received $25
      million or less in TARP assistance. These institutions may have their board of direc-
      tors carry out the duties of the Board Compensation Committee.319

      “Say on Pay”
      Section 7001 of ARRA includes a provision for a non-binding vote by sharehold-
      ers on executive compensation, otherwise known as “Say on Pay.” This provision
      requires TARP recipients to permit an annual non-binding vote by shareholders on
      executive compensation. The shareholder vote shall be non-binding on the board
      of directors and will not override any board decisions. The executive compensation
      voted on by the shareholders must be disclosed in the annual report.320
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Luxury Expenditures
                                             Section 7001 of ARRA also addresses corporate luxury expenses; the legislation
                                             states that the board of directors of any institution receiving TARP funds must have
                                             a company-wide policy which includes excessive expenditures on entertainment
                                             or events, office and facility renovations, aviation or other transportation services,
                                             and other activities or events that are not reasonable expenditures for the following
                                             activities:321

                                             • staff development
                                             • reasonable performance incentives
                                             • other activities conducted in the normal course of business operations

                                               The Treasury Secretary must promulgate regulations to implement these amend-
                                             ments to EESA. As of March 31, 2009, the Treasury Secretary has not done so.
SECT ION 3
             TARP OPERATIONS AND
             ADMINISTRATION
128   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   129




TARP OPERATIONS AND ADMINISTRATION
Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
has authorized the Treasury Secretary to take such actions as necessary to build
the operational and administrative infrastructure to support TARP activities. EESA
authorized the establishment of an Office of Financial Stability (“OFS”) within the
Department of Treasury (“Treasury”) to be responsible for the administration of the
Troubled Asset Relief Program (“TARP”).322 Treasury has the authority to establish
program vehicles, issue regulations, directly hire or appoint employees, enter into
contracts, and designate financial institutions as financial agents of the Federal
Government.323 In addition to using permanent and interim staff, OFS relies on
contractors and financial agents in legal, investment consulting, accounting, and
other key service areas.324

TARP Administrative and Program Expenditures
Treasury stated that it had incurred $13.3 million in TARP-related administrative
expenditures through March 31, 2009.325 Table 3.1 summarizes these expenditures,


TABLE 3.1

TARP ADMINISTRATIVE EXPENDITURES AND OBLIGATIONS
                                                    Obligations for Period   Expenditures for Period
Budget Object Class Title                             Ending 3/31/2009           Ending 3/31/2009


PERSONNEL SERVICES
Personnel Compensation & Services                             $3,830,093                 $2,902,514
TOTAL PERSONNEL SERVICES                                      $3,830,093                $2,902,514


NON-PERSONNEL SERVICES
Travel & Transportation of Persons                               $28,714                    $19,831
Transportation of Things                                                 -                         -
Rents, Communications, Utilities & Misc.
Charges                                                          598,902                    534,152
Printing & Reproduction                                               395                       395
Other Services                                                25,186,838                  9,567,209
Supplies & Materials                                             209,446                     87,790
Equipment                                                          89,887                    89,887
Land & Structures                                                103,878                     97,522
TOTAL NON-PERSONNEL SERVICES                                 $26,218,059               $10,396,785


GRAND TOTAL                                                  $30,048,152               $13,299,298

Note: Numbers affected by rounding.

Source: Treasury, response to SIGTARP data call, 4/8/2009.
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             as well as additional obligations through March 31, 2009. The majority of these
                                             costs are allocated to Personnel Services and Non-Personnel Other Services.
                                                 Table 3.2 indicates the allocation of administrative obligations for Non-
                                             Personnel Other Services for the period ending March 31, 2009.326 Additionally,
                                             Treasury has released details of programmatic expenditures. These expenditures
                                             include costs to hire financial agents and legal firms associated with TARP opera-
                                             tions. Table 3.3 shows the allocation of these programmatic costs as of March 31,
                                             2009.
                                                 TARP operations are projected to cost approximately $175 million for fis-
                                             cal year 2009.327 These costs are not reflected in determining any gains or losses
                                             on the TARP-related transactions and are not included in the $700 billion limit
                                             on asset purchases. Therefore, these expenditures will add to the Federal budget
                                             deficit regardless of whether the TARP transactions result in a gain or a loss for the
                                             Government.328

                                             Current Contractors and Financial Agents
                                             As of March 31, 2009, Treasury had retained 36 outside contractors, including
                                             one asset manager to provide a range of services to assist in administering TARP.

                                             TABLE 3.2

                                             TARP ADMINISTRATIVE OBLIGATIONS – OTHER SERVICES
                                                                                                          Obligations as of
                                             Vendor Name                                                       3/31/2009
                                             Alcohol and Tobacco Tax and Trade Bureau                             $67,489
                                             Congressional Oversight Panel                                      4,000,000
                                             CSC Systems and Solutions, LLC                                         62,645
                                             Cushman and Wakefield of VA, Inc.                                       8,750
                                             Ernst & Young, LLP                                                 1,968,012
                                             Federal Tech SVC Nat IT Program                                         8,096
                                             FI Consulting                                                               –-
                                             Government Accountability Office                                   9,000,000
                                             Lindholm & Associates, Inc.                                          212,717
                                             Pat Taylor & Associates, Inc.                                        230,978
                                             PricewaterhouseCoopers, LLP                                        6,914,303
                                             Misc Oblig for Treasury (DO & BPD-ARC) Services                    2,713,847


                                             GRAND TOTAL                                                     $25,186,838

                                             Note: Numbers affected by rounding.

                                             Source: Treasury, response to SIGTARP data call, 4/8/2009.
                                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   131




        TABLE 3.3

        TARP PROGRAMMATIC EXPENDITURES
        Vendor Name                                                  Expenditures as of 3/31/2009
        The Bank of New York Mellon Corporation                                       $5,666,186
        Cadwalader Wickersham & Taft, LLP                                                412,028
        Ennis Knupp & Associates, Inc.                                                  1,156,298
        Hughes Hubbard & Reed, LLP                                                      1,855,164
        Locke Lord Bissell & Liddell, LLP                                                415,258
        Pension Benefit Guaranty Corporation                                            2,003,000
        Simpson Thacher & Bartlett, LLP                                                 1,376,543
        Sonnenschein Nath & Rosenthal, LLP                                              2,699,151
        Squire Sanders & Dempsey, LLP                                                   1,804,672
        Sonnenschein Nath & Rosenthal, LLP (formerly
                                                                                          97,477
        Thacher Proffitt & Wood)
        The Boston Consulting Group                                                      925,000
        Venable, LLP                                                                     663,578
        Freddie Mac                                                                             -
        Fannie Mae                                                                              -
        EARNEST Partners                                                                        -
        Haynes and Boone, LLP                                                                   -
        McKee Nelson, LLP                                                                       -


        GRAND TOTAL                                                                 $19,074,355

        Note: Numbers affected by rounding.

        Source: Treasury, response to SIGTARP data call, 4/8/2009.



As permitted in EESA, Treasury has used streamlined solicitation procedures and
has structured several agreements and contracts to allow for flexibility in obtaining
the required services expeditiously. Table 3.4 lists outside vendors as of March 31,
2009.329
    As required by EESA, SIGTARP must report the biographical information
for each person or entity hired to manage the troubled assets associated with
TARP.330 On March 16, 2009, OFS announced the hiring of EARNEST Partners
as the asset manager for the Small Business Initiative (Unlocking Credit for Small
Businesses). EARNEST Partners is an employee-owned firm specializing in equity,
fixed income, and alternative asset portfolio management. According to OFS,
the firm has significant experience with issues guaranteed by the Small Business
Administration. See Appendix C: “Reporting Requirements” for a biography on
EARNEST Partners. As of March 31, 2009, OFS has not hired any asset manag-
ers for other TARP initiatives. In the absence of asset managers, Bank of New
132            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                       132




      TABLE 3.4

      OUTSIDE VENDORS
      Date                                   Vendor                                         Purpose                     Type of Transaction*
      10/10/2008                             Simpson, Thacher & Bartlett, LLP               Legal Services              BPA
                                                                                            Investment and Advisory
      10/11/2008                             Ennis Knupp & Associates, Inc.                                             BPA
                                                                                            Services
                                                                                            Custodian and Cash
      10/14/2008                             The Bank of New York Mellon Corporation                                    Financial Agent
                                                                                            Management
      10/16/2008                             PricewaterhouseCoopers, LLP                    Internal Control Services   BPA
      10/18/2008                             Ernst & Young, LLP                             Accounting Services         BPA
      10/23/2008                             GSA – Turner Consulting**                      Archiving Services          IAA
      10/29/2008                             Hughes Hubbard & Reed, LLP                     Legal Services              BPA
      10/29/2008                             Squire Sanders & Dempsey, LLP                  Legal Services              BPA
      10/31/2008                             Lindholm & Associates, Inc.**                  Human Resources Services    Contract
      11/7/2008                              Thacher Proffitt & Wood***                     Legal Services              BPA
      11/14/2008                             Securities and Exchange Commission             Detailees                   IAA
      11/14/2008                             CSC Systems and Solutions, LLC                 IT Services                 Procurement
      12/3/2008                              Trade and Tax Bureau – Treasury                IT Services                 IAA
      12/5/2008                              Department of Housing and Urban Development    Detailees                   IAA
      12/5/2008                              Washington Post                                Vacancy Announcement        Procurement
      12/10/2008                             Thacher Proffitt & Wood***                     Legal Services              BPA
      12/12/2008                             Pension Benefit Guaranty Corporation           Legal Services              IAA
      12/15/2008                             Office of Thrift Supervision                   Detailees                   IAA
      12/24/2008                             Cushman and Wakefield of VA, Inc.              Painting                    Procurement
      1/6/2009                               Office of the Controller of the Currency       Detailees                   IAA
      1/7/2009                               Colonial Parking                               Parking                     Procurement
      1/9/2009                               Internal Revenue Service                       Detailees                   IAA
      1/27/2009                              Cadwalader Wickersham & Taft, LLP              Legal Services              BPA
      1/27/2009                              Whitaker Brothers Bus. Machines                Office Machines             Procurement
      2/2/2009                               Government Accountability Office               Oversight                   IAA
                                                                                            Temporary Employee
      2/9/2009                               Pat Taylor and Associates, Inc.**                                          Contract
                                                                                            Services
      2/12/2009                              Locke Lord Bissell & Lidell, LLP               Legal Services              Contract
      2/18/2009                              Freddie Mac                                    Homeownership Program       Financial Agent
      2/18/2009                              Fannie Mae                                     Homeownership Program       Financial Agent
      2/20/2009                              Congressional Oversight Panel                  Oversight                   IAA
      2/20/2009                              Simpson, Thacher & Bartlett, LLP               Legal Services              Contract
      2/22/2009                              Venable, LLP                                   Legal Services              Contract
                                                                                            Management Consulting
      3/6/2009                               The Boston Consulting Group                                                Contract
                                                                                            Support
      3/16/2009                              EARNEST Partners                               Asset Management Services   Financial Agent
      3/23/2009                              Heery International, Inc.                      Architects                  Procurement
      3/30/2009                              McKee Nelson, LLP                              Legal Services              Contract
      3/30/2009                              Sonnenschein Nath & Rosenthal, LLP             Legal Services              Contract
      3/30/2009                              Cadwalader Wickersham & Taft, LLP              Legal Services              Contract
      3/30/2009                              Haynes and Boone, LLP                          Legal Services              Contract
      3/31/2009                              FI Consulting**                                Modeling and Analysis       BPA

      *IAA = Interagency Agreement. BPA = Blanket Purchase Agreement.
      **Small or Women-, or Minority-Owned Small Business.
      ***Contract responsibilities assumed by Sonnenschein Nath & Rosenthal via novation.

      Source: Treasury, response to SIGTARP data call, 4/8/2009.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   133




York Mellon, as Treasury’s financial administrative agent, has subcontracted with
Gifford Fong to perform initial valuations of CPP transactions.331

Conflicts of Interest
Within the framework of TARP procurement and contracting, actual or potential
conflicts of interest (“COI”) can exist at the organizational level or pertain to an
individual employee. EESA provides the Treasury Secretary the authority to issue
regulations or guidelines necessary to address and manage, or to prohibit, COI that
can arise in connection with the administration and execution of TARP.332
    TARP-related COI may occur due to a variety of situations, such as when
retained entities perform similar work for Treasury and other clients. In these situa-
tions, contracted entities may find that their duty to certain clients may impair their
objectivity when advising Treasury or may affect their judgment about the proper
use of nonpublic information. Conflicts may also arise from the personal inter-
ests of individuals employed by retained entities. Accordingly, Treasury has issued
interim guidelines to address potential COI.333
    These interim COI rules require interested contractors to provide sufficient
information to evaluate the potential for organizational COI and plans to mitigate
them.334 The mitigation plan then becomes a binding term of the contract ar-
rangement. On potential personal COI, the provisions require that managers and
employees of a hired entity disclose any financial holdings or personal and familial
relationships that could impair their objectivity.335
    Financial agents and contractors have identified potential COI, and these
parties have proposed solutions to mitigate the identified conflicts. In response to
recommendations made to Treasury by the Comptroller General,336 Treasury has
taken steps to formalize its oversight and monitoring of potential COI.337
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                LOOKING FORWARD: SIGTARP’S
S ECT I O N 4
                RECOMMENDATIONS TO TREASURY
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   137




One of SIGTARP’s responsibilities is to provide recommendations to the
Department of Treasury (“Treasury”) so that Troubled Asset Relief Program
(“TARP”) programs can be designed or modified to facilitate transparency and
effective oversight and prevent fraud, waste, and abuse. SIGTARP’s Initial Report
to Congress, dated February 6, 2009 (the “Initial Report”), set forth a series of rec-
ommendations, some of which were adopted by Treasury and some of which were
not. Appendix J: “Treasury Response to SIGTARP Recommendations” contains
Treasury’s detailed statement as to what it believes it has done to address those
recommendations, and, for some of the recommendations that it has not imple-
mented, why it has not done so. Set forth below are SIGTARP’s recommendations,
first with respect to implemented TARP programs and then for newly announced
programs.


RECOMMENDATIONS FOR EXISTING PROGRAMS
Oversight Language in TARP Agreements and Requiring
Recipients to Account for Use of TARP Funds
In its Initial Report, SIGTARP recommended that Treasury include language in
each of its new TARP-related agreements to facilitate compliance and oversight.
Although Treasury has not executed any agreements as part of a new program since
the Initial Report, it has indicated that it will include some of the recommended
oversight language in the finalized new agreement with American International
Group, Inc. (“AIG”) and in the Capital Assistance Program (“CAP”) documents.
    Treasury has indicated, however, that it will not adopt SIGTARP’s recommenda-
tion that all TARP recipients be required to do the following:

• account for the use of TARP funds
• set up internal controls to comply with such accounting
• report periodically to Treasury on the results, with appropriate sworn
  certifications

    In light of the fact that the American taxpayer has been asked to fund this
extraordinary effort to stabilize the financial system, it is not unreasonable that the
public be told how those funds have been used by TARP recipients. Treasury is
now conducting regular surveys of the banks’ lending activities; however, with the
exception of Citigroup and Bank of America, Treasury has refused to seek further
details on TARP recipients’ use of funds.
    As a result, in late January, SIGTARP decided to undertake, itself, a use of
funds project by conducting a survey of 364 TARP recipients that had received
funds as of January 31, 2009. Included in that survey was a request for a de-
scription of what the recipients actually did or plan to do with the TARP funds.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Although the results of the survey still need to be analyzed, one thing is clear:
                                             Treasury’s arguments that such an accounting was impractical, impossible, or a
                                             waste of time because of the inherent fungibility of money were unfounded. Banks
                                             generally provided a reasonable level of detail regarding their use of TARP funds,
                                             and, while the response quality was not uniform, some banks were able to provide
                                             detailed, at times even granular, descriptions of how they used taxpayer money.

                                             Continuing Recommendation
                                             SIGTARP continues to recommend that Treasury require all TARP recipients to
                                             report on the actual use of TARP funds in the manner previously suggested. This
                                             recommendation is particularly important with respect to the potential expansion
                                             of the Capital Purchase Program (“CPP”) to include large insurance companies.
                                             The American people have a right to know how their tax dollars are being used, par-
                                             ticularly as billions of dollars are going to institutions for which banking is certainly
                                             not part of the institution’s core business and may be little more than a way to gain
                                             access to the low-cost capital provided under TARP. Similarly, in light of the contro-
                                             versy surrounding AIG’s use of Government assistance, both through the paying of
                                             bonuses and in its dealings with counterparties, failure to impose this requirement
                                             with respect to the injection of yet another $30 billion into AIG would not only
                                             be a failure of oversight, but could call into further question the credibility of the
                                             Government’s efforts with respect to the assistance provided to AIG. This recom-
                                             mendation applies not only to capital investment and lending programs involving
                                             banks and other financial institutions, but also to programs in which TARP funds
                                             are used to purchase troubled assets, including details of each transaction in the
                                             Public-Private Investment Program (“PPIP”) as well as all transactions concerning
                                             the surrender of collateral (including the identity of the surrendering borrowers) in
                                             the Term Asset-Backed Securities Loan Facility (“TALF”).

                                             Asset Management and Valuation Issues
                                             In its Initial Report, SIGTARP noted that “[t]o date, Treasury has not fully devel-
                                             oped significant policies or controls with respect to asset management issues,” and
                                             recommended that “Treasury needs, in the near term, to begin developing a more
                                             complete strategy on what to do with the substantial portfolio that it now manages
                                             on behalf of the American people.”
                                                 As of the drafting of this report, however, no asset manager had been hired to
                                             manage the existing asset portfolio, and no investment strategy has been developed.
                                             Although Treasury did hire EARNEST Partners to manage the securities purchased
                                             under the Unlocking Credit for Small Businesses program, their role is limited to
                                             the program and, as of March 31, 2009, Treasury had not yet purchased securi-
                                             ties under this particular program. Treasury has indicated that, while it has hired
                                             some individuals to develop internal models of valuation and believes that it “has
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   139




developed a robust, defined valuation method for preferred stock and warrants re-
ceived under the Capital Purchase Program,” no such valuation, as of the drafting
of this report, had occurred.338 Even if Treasury intends to hold these assets for the
foreseeable future, its delay in placing a value on these assets (and thus provide the
American people with some indication of the performance of their investments),
among other things, is detrimental to program transparency. Although other bod-
ies have provided some valuation analysis (the Congressional Oversight Panel has
estimated that Treasury overpaid by $68 billion in its acquisitions of assets and the
Congressional Budget Office estimated that taxpayer loss in TARP will ultimately
be as high as $356 billion), SIGTARP believes that Treasury should provide its own
estimates on the value of the preferred shares, warrants of common stock, notes,
and other instruments that it now holds as a result of TARP. Finally, as TARP re-
cipients pay back their TARP funds, Treasury must liquidate the warrants, either by
selling them back to the CPP recipient at a market price or by selling them in the
open market. While Treasury, in discussing these recommendations with SIGTARP,
has indicated that it has recently made asset management more of a priority and
expects to retain asset managers soon, it must act quickly. The failure to have an
asset manager, an investment plan, or an accurate valuation of the securities and
warrants it holds will soon be a significant deficiency in the program if not promptly
addressed.

Continuing Recommendations
As SIGTARP noted in the Initial Report, there are three particular aspects of asset
management that Treasury needs to address:

• Treasury should formalize its going-forward valuation methodology and begin
  providing values of the TARP investments to the public.
• Treasury should develop an overall investment strategy to address the vast port-
  folio of securities that it holds.
• Treasury should decide whether it has any intention of exercising warrants in
  order to hold the common stock. SIGTARP asked Treasury what its intentions
  are on this point in January 2009, and it has not yet indicated its strategy on this
  issue.

Potential Fraud Vulnerabilities Associated with TALF
In SIGTARP’s Initial Report, SIGTARP made a series of recommendations with
respect to the design and implementation of TALF. This section will discuss the
status of the implementation of those recommendations and then describe new and
ongoing recommendations for the design and operation of the program.
140   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 SIGTARP previously recommended in its Initial Report that:

                                             • Treasury should require that certain minimum underwriting standards and/
                                               or other fraud prevention mechanisms are in place with respect to the assets
                                               underlying the asset-backed securities (“ABS”) used for collateral.

                                                 Since the Initial Report, and after additional consultations with SIGTARP,
                                             the Federal Reserve Bank of New York (“FRBNY”) and Treasury have taken some
                                             important steps with respect to adopting fraud prevention mechanisms far beyond
                                             what was initially contemplated for TALF. As set forth in greater detail in the TALF
                                             discussion in Section 2 of this report, FRBNY now requires, among other things,
                                             certifications from the sponsor, third-party attestations from accounting firms
                                             regarding the pledged collateral, and due diligence procedures at the primary dealer
                                             level. The TALF haircut methodology, which imposes different haircut percent-
                                             ages over different asset classes and maturities, has been designed, according to
                                             Treasury and FRBNY, to be risk-sensitive and therefore incentivizes TALF borrow-
                                             ers to conduct due diligence about the quality of the underlying securities. FRBNY
                                             has also imposed some oversight-enabling provisions for itself, including inspec-
                                             tion rights and the ability to see through any special purpose vehicles (“SPVs”)
                                             that borrowers may use to shield themselves from scrutiny. Although Treasury did
                                             not require minimum underwriting standards for the ABS acting as collateral for
                                             the TALF loans, it believes that the steps taken by FRBNY were sufficient, at least
                                             with respect to the originally announced consumer-lending-oriented asset classes.
                                             SIGTARP will continue to monitor this aspect of the program.
                                                 In its Initial Report, SIGTARP also recommended that:

                                             • Treasury should consider requiring that beneficiaries (i.e., the TALF borrow-
                                               ers, the originators/sponsors, and the primary dealers) sign an agreement that
                                               includes oversight-enabling provisions.
                                             • Treasury should establish a compliance protocol with the Federal Reserve before
                                               TALF is put into effect.

                                                 In SIGTARP’s view, Treasury did not receive sufficient oversight-enabling provi-
                                             sions in the agreements, nor has it established a sufficient compliance protocol
                                             with the Federal Reserve. Although Treasury did obtain certain inspection rights for
                                             the disposition SPV that it is funding, it has no oversight or access rights over any
                                             of the borrowers, including the borrowers who default on their loans and surren-
                                             der the ABS collateral to the SPV. Indeed, Treasury does not even have the right
                                             to learn the identity of such borrowers. In other words, under its current agree-
                                             ment, Treasury does not have access to the identity, or any oversight authority over,
                                             the borrowers from whom, in effect, it will be buying surrendered ABS. Although
                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   141




FRBNY officials have assured SIGTARP that it will provide this information in the
context of any audit or investigation that SIGTARP conducts, Treasury and Office
of Financial Stability (“OFS”)-Compliance did not obtain such access, for itself
or for SIGTARP, in its agreements with FRBNY. This failure also calls into ques-
tion SIGTARP’s ability to fulfill its statutorily mandated reporting requirement of
including in its quarterly reports a listing of all institutions from which TARP buys
troubled assets, which arguably would include the identity of the party that surren-
ders TALF collateral. Furthermore, Treasury has only obtained limited access for
itself and SIGTARP with respect to the issuers of the ABS, who only have to grant
access if it is later determined that they pledged ineligible assets to the program.
This, of course, presents a significant chicken-and-egg problem, as Treasury (and
SIGTARP) will be far less likely to detect any eligibility problems if they cannot
inspect and test the assets in the first instance. Finally, as a result of its limited ac-
cess, SIGTARP does not believe that Treasury has adopted SIGTARP’s recommen-
dation of establishing a sufficient compliance protocol concerning TALF.
    In addressing the potential fraud vulnerabilities of TALF in the Initial Report,
SIGTARP further recommended that:

• Treasury should exercise extreme caution and give careful consideration before
  agreeing to the expansion of TALF to include mortgage-backed securities (“MBS”)
  without further review and without considering certain minimum fraud protections.
• Treasury should oppose any expansion of TALF to legacy MBS without signifi-
  cant modifications to the program to ensure a full assessment of risks associated
  with such an expansion.

    Treasury and the Federal Reserve have signaled their intention to expand
TALF to allow the posting of both new and legacy MBS — both commercial MBS
(“CMBS”) and residential MBS (“RMBS”) — as collateral. As the terms of these
expansions have neither been formalized nor given final approval by the Federal
Reserve or Treasury, it remains to be seen if Treasury has exercised “extreme cau-
tion” in expanding TALF to newly issued MBS or whether it will require “signifi-
cant modifications” before permitting legacy MBS to be included as well.
    Accepting legacy MBS as collateral, in particular legacy RMBS, poses sub-
stantial issues from a credit loss and fraud loss perspective that are not readily
addressed by the current TALF design. Credit ratings, cited as one of the primary
credit protections in TALF as currently configured, have been proven to be of
questionable value in the general market for MBS, and for legacy RMBS they have
proven to be unreliable and largely irrelevant to the actual value and performance
of the security. Arguably, the wholesale failure of the credit rating agencies to rate
adequately such securities is at the heart of the securitization market collapse, if
not the primary cause of the current credit crisis. Furthermore, the underwriting
142   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             standards (that is, the diligence the lender does before granting a loan, such as veri-
                                             fying a borrower’s income or reported assets) for RMBS in particular, have proven
                                             to be woefully lax, potentially putting taxpayer money backing TALF in significant
                                             jeopardy. Finally, legacy MBS, particularly RMBS, pose substantial valuation
                                             challenges given how long the MBS market has been frozen, which gives rise to
                                             the same conflict of interest and collusion vulnerabilities discussed in the “Public-
                                             Private Investment Program (“PPIP”)” discussion below.
                                                 As in the Initial Report, SIGTARP continues to recommend that Treasury not
                                             participate in a TALF program expanded to newly issued MBS without exercising
                                             an appropriate measure of caution, and, with respect to legacy assets, without sig-
                                             nificant modifications to the program. On that front, SIGTARP has had initial dis-
                                             cussions with the Federal Reserve to discuss its plans for how the program will be
                                             modified to accommodate the use of MBS as posted collateral. SIGTARP has been
                                             informed by the Federal Reserve that it is considering, but has not yet adopted, the
                                             following modifications with respect to legacy RMBS, at least, in order to address
                                             the credit risks for such securities:

                                             • acceptance of legacy RMBS as collateral based upon an examination of the
                                               composition and performance of the loan portfolio underlying the RMBS, not
                                               rating agency determinations
                                             • a more granular determination of “haircut” percentages for RMBS, including a
                                               close examination of the underwriting standards associated with the loans that
                                               back the RMBS
                                             • significantly higher haircuts relative to the haircuts imposed on asset classes
                                               currently useable as collateral

                                                 As of the drafting of this report, FRBNY had not indicated what additional anti-
                                             fraud measures it will impose when TALF is expanded to MBS. This is of particular
                                             importance because some of the anti-fraud provisions that FRBNY and Treasury
                                             have cited as being significant (e.g., third-party attestation of assets, credit ratings,
                                             etc.) for the original TALF program may not be relevant or useful for the expanded
                                             TALF. SIGTARP encourages the Federal Reserve to continue this process and will
                                             continue working with the Federal Reserve, FRBNY, and Treasury to recommend
                                             protections in the program to avoid as much fraud and abuse as possible.

                                             Recommendations
                                             In light of the previous discussion, SIGTARP thus recommends that:

                                             • Treasury and the Federal Reserve should provide to SIGTARP, for public disclo-
                                               sure in SIGTARP’s quarterly reports, the identity of the borrowers who surren-
                                               der collateral in TALF.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   143




• Treasury should dispense with rating agency determinations and require a
  security-by-security screening for each legacy RMBS. Treasury should refuse to
  participate if the program is not designed so that RMBS, whether new or legacy,
  will be rejected as collateral if the loans backing particular RMBS do not meet
  certain baseline underwriting criteria or are in categories that have been proven
  to be riddled with fraud, including certain undocumented subprime residential
  mortgages (i.e., “liar loans”).
• Treasury should require significantly higher haircuts for all MBS, with particu-
  larly high haircuts for legacy RMBS, or other equally effective mitigation efforts.
• Treasury should require additional anti-fraud and credit protection provisions,
  specific to all MBS, before participating in an expanded TALF, including mini-
  mum underwriting standards and other fraud prevention measures.
• Treasury should design a robust compliance protocol, with complete access
  rights for itself, SIGTARP, and other relevant oversight bodies, to all TALF
  transaction participants.

    Treasury officials, in discussing these recommendations with SIGTARP, stated
that the potential expansion of the TALF program to include legacy MBS remains
in the design phase and will include more stringent standards, including “CUSIP
by CUSIP evaluation of underlying collateral, conducting due diligence with
respect to the underlying collateral and applying appropriate haircuts.”339 They
have also indicated that they will adopt SIGTARP’s recommendation, at least with
respect to newly issued RMBS, by reviewing certain minimum underwriting stan-
dards, including high credit scores and fully documented loans. These officials also
stated they are in the process of hiring a fraud specialist to assist them in develop-
ing risk mitigation efforts for all TARP programs — an action that SIGTARP previ-
ously recommended and which could greatly assist in the design of TARP programs
to account properly for the dangers of fraud.
    Another new development with respect to TALF is that Treasury has an-
nounced, as part of PPIP, that Public-Private Investment Funds (“PPIFs”) oper-
ated under the Legacy Securities Program will be able to use PPIF funds and
Treasury leverage in TALF transactions. That issue, and SIGTARP’s recommen-
dation regarding the danger of such a practice, are discussed in the upcoming
“Recommendations for Newly Announced Programs” portion of this section.

Executive Compensation
It has been more than two months since the American Recovery and Reinvestment
Act imposed new executive compensation requirements on TARP recipients. As of
the drafting of this report, Treasury has not issued regulations imposing these new
requirements or the executive compensation restrictions that the Administration
announced in early February. SIGTARP’s initial review of responses to its survey
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             of 364 TARP recipients demonstrates that the absence of clear guidance on this
                                             important issue has caused uncertainty among TARP recipients who have struggled
                                             to understand and implement the requirements. This lack of clarity in executive
                                             compensation limitations may also impede participation in other TARP programs.

                                             Recommendation
                                             Accordingly, SIGTARP recommends that:

                                             • Treasury should address the confusion and uncertainty on executive compensa-
                                               tion by immediately issuing the required regulations.

                                                 Treasury officials, in discussing this recommendation with SIGTARP, stated
                                             that internal vetting on updated guidance is nearing completion and is expected to
                                             be provided to the Office of Management and Budget for final clearance shortly.
                                             They also indicated that the outcome of this effort is expected to be a “comprehen-
                                             sive rule” with applicability beyond CPP.

                                             Lack of Resources within OFS-Compliance
                                             The Compliance department within OFS has primary responsibility over a vast and
                                             complex array of compliance and risk management functions. This responsibility
                                             includes ensuring that appropriate internal controls are in place over OFS manage-
                                             ment of TARP programs, providing primary oversight of vendors that are providing
                                             services to OFS, and monitoring TARP recipients’ compliance with their contrac-
                                             tual and legal obligations. More than 500 financial institutions are already par-
                                             ticipating in various TARP programs; additional announced programs will expand
                                             OFS-Compliance’s responsibilities to a mortgage modification program involving
                                             millions of mortgages and to public-private partnerships that will involve not only
                                             many new participants but also a whole new set of compliance challenges and
                                             types of risk.
                                                 To carry out all of these responsibilities, now six months into TARP operations,
                                             OFS-Compliance currently has a staff of approximately 10 employees. Although
                                             SIGTARP has plans for a future audit to assess the integration and effectiveness of
                                             OFS’s risk assessment and compliance efforts, SIGTARP makes a preliminary ob-
                                             servation that the current resource commitment for this vitally important function
                                             appears plainly inadequate. OFS has built substantially in the past six months, but
                                             its compliance office has not grown in proportion to its historic task.

                                             Recommendation
                                             Accordingly, SIGTARP recommends as follows:

                                             • Treasury should significantly increase the staffing levels of OFS-Compliance
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   145




   and ensure the timely development and implementation of an integrated risk
   management and compliance program.

    Treasury officials, in discussing this recommendation with SIGTARP, acknowl-
edged that their compliance and risk management efforts have been understaffed
but indicated they were in the process of making job offers to fill immediately five
compliance positions dealing primarily with executive compensation. They also
cited the use of Freddie Mac to facilitate compliance efforts in the area of home
loan modifications and a vendor who is providing general fraud prevention advice.
More broadly, they indicated that decisions are yet to be made concerning the ulti-
mate size of their compliance efforts and the extent to which the functions would
be performed in-house or under contract.
    SIGTARP is encouraged by Treasury’s efforts toward an increased emphasis
on compliance, but believes additional near-term attention needs to be devoted to
implement a comprehensive and integrated risk based compliance program.


RECOMMENDATIONS FOR NEWLY ANNOUNCED
PROGRAMS
Capital Assistance Program
The CAP, as described in Section 2, contemplates additional capital infusions into
financial institutions and/or the conversion of the preferred shares that Treasury
obtained under the CPP into convertible preferred shares. Treasury announced
that it would require CAP applicants to set forth how they intend to use CAP fund-
ing. Notwithstanding this requirement, Treasury adamantly continues to refuse to
adopt SIGTARP’s recommendation that it require CAP recipients (and indeed all
TARP recipients) to report on how they actually used TARP funds. Putting aside
the value of this recommendation in other TARP programs, SIGTARP submits
that it is largely meaningless to require an applicant to report on its intended use of
funds without setting up a mechanism to monitor its actual use of funds.

Recommendations
SIGTARP therefore recommends that:

• Treasury should require CAP participants to (i) establish an internal control to
  monitor their actual use of TARP funds, (ii) provide periodic reporting on their
  actual use of TARP funds, and (iii) certify to OFS-Compliance, under the pen-
  alty of criminal sanction, that the report is accurate; the same criteria of internal
  controls and regular certified reports should be applied to all conditions imposed
  on CAP participants.
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             • Treasury should require CAP participants to acknowledge explicitly the jurisdic-
                                               tion and authority of SIGTARP and other oversight bodies, as appropriate, to
                                               oversee conditions contained in the agreement.

                                             Operation of the Public-Private Investment Program
                                             As discussed more fully in Section 2, PPIP is a program in which Government
                                             funds will be invested side-by-side with private investors to purchase legacy assets,
                                             including the “toxic” mortgages and legacy MBS widely believed to be one of the
                                             root causes of the current financial crisis. As announced, PPIP consists of separate
                                             subprograms.

                                             • Under the Legacy Loans Program, newly formed PPIFs will bid on pools of lega-
                                               cy mortgages and other assets held on participating banks’ balance sheets. The
                                               private equity in the PPIFs will be matched, dollar-for-dollar with TARP funds,
                                               and the PPIF will be able to obtain financing guaranteed by the Federal Deposit
                                               Insurance Corporation (“FDIC”) up to a 6-to-1 debt-to-equity ratio. The pools
                                               of legacy loans will be assembled with the approval of FDIC, and the auction
                                               process will be managed by FDIC. By way of example, a group of pre-qualified
                                               private investors invests $50 million in a PPIF, which is then matched by $50
                                               million in TARP funds. The PPIF obtains financing guaranteed by FDIC of up
                                               to $600 million (a 6-to-1 ratio of the total $100 million of equity) and uses the
                                               combined $700 million to purchase a pool of legacy mortgages. Any profits on
                                               these transactions are shared equally between the private investors and TARP;
                                               the private investors’ total potential loss, however, is limited to their investment,
                                               $50 million, whereas Government interests could lose up to the remaining $650
                                               million.
                                             • Under the Legacy Securities Program, Treasury, through an application process,
                                               will pre-qualify fund managers to manage PPIFs. The fund managers will raise
                                               private capital for equity participation in the PPIF that will be matched, again,
                                               dollar-for-dollar, with TARP funds. The PPIF will then be able to obtain addition-
                                               al financing in TARP funds, depending upon the circumstances, of up to 100%
                                               of the amount of total equity. The fund manager, who earns a fee both from
                                               Treasury and from the private investors, will then use the money to purchase
                                               legacy MBS. For example, a fund manager selected by Treasury raises $500 mil-
                                               lion from private investors as equity in the PPIF. That $500 million is matched by
                                               $500 million in TARP funds, making the total equity in the PPIF $1 billion. The
                                               PPIF can then obtain up to an additional $1 billion loan (100% of the equity)
                                               in TARP funds and use the whole $2 billion to purchase MBS. In this example,
                                               profits again are shared 50%/50% between the private equity investor and TARP.
                                               Losses are also suffered equally, but only up to the private investors’ equity. If the
                                               PPIF failed completely, TARP would thus suffer 75% of the loss.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   147




• Finally, as a further extension of PPIP, TALF will be expanded to permit lending
  based on the posting of legacy MBS as collateral.

Areas of Vulnerability within PPIP
Many aspects of PPIP could make it inherently vulnerable to fraud, waste, and
abuse. First, PPIP deals with assets that have recently been illiquid, making valu-
ation difficult, therefore raising the danger that the Government will overpay for
the assets. Second, many of the participants in these markets, such as hedge funds,
are substantially unregulated and the internal oversight and compliance capability
at those institutions vary widely. Next, the interrelationships between the market
participants can be extremely complex and difficult to anticipate: the same entity
might buy and sell toxic assets for its own benefit and manage portfolios of toxic
assets for others, all while holding or managing equity or debt securities of the
banks and other institutions that have large positions in the same toxic assets.
Finally, the sheer size of the program — up to a trillion dollars for the PPIFs and up
to another trillion dollars for the expansion of TALF — is so large and the leverage
being provided to the private equity participants so beneficial, that the taxpayer risk
is many times that of the private parties, thereby potentially skewing the economic
incentives.
    After receiving initial briefings from Treasury on PPIP and discussing the issue
with law enforcement partners, SIGTARP has identified three of the most signifi-
cant areas of potential vulnerability to fraud and abuse applicable across the pro-
gram. Because SIGTARP has not been provided with many of the specific details of
the mechanics of the various programs, SIGTARP’s observations and recommenda-
tions are necessarily at a high level.

Conflicts of Interest
The first area of vulnerability is that the private parties managing the PPIFs might
have a powerful incentive to make investment decisions that benefit themselves at
the expense of the taxpayer. By their nature and design, including the availability of
significant leverage, the PPIF transactions in these frozen markets will have a signifi-
cant impact on how any particular asset is priced in the market. As a result, the in-
crease in the price of such an asset will greatly benefit anyone who owns or manages
the same asset, including the PPIF manager who is making the investment decisions.
    As an extremely simplified example from the Legacy Securities Program, as-
sume that the fund manager of the PPIF owns 1 million bonds of MBS X in its
own account. MBS X is currently valued on the fund manager’s books at 20% of
its original value, or $20 per bond, for a total of $20 million. The fund manager
does an estimate and believes that, in a fully functioning market, MBS X is actually
worth 30% of face value, or $30 per bond. In the absence of a conflict of interest,
the fund manager, using PPIF funds, might be willing to pay up to $30 per bond
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             in the market. However, the fund manager realizes that it can make more money
                                             for itself if it drives the price even higher. It thus uses the funds it controls in the
                                             PPIF to buy 1 million MBS X bonds from someone else at $40 per bond, or $40
                                             million. This transaction has the potential, in the current illiquid market, of setting
                                             the market price for that MBS X at $40, even though that price is far above what
                                             the MBS is actually worth. As a result, the fund manager could sell the MBS on its
                                             own books and recognize a profit of $20 million. Over time, however, the price of
                                             MBS X declines to its actual value, $30 per bond, and results in a $10 million loss
                                             to the PPIF fund. This loss has no negative impact to the fund manager, however,
                                             because it did not have any of its own money invested in the fund. Indeed, the
                                             fund manager has made money on the PPIF, because it has received fees from
                                             both Treasury and the private investors based only on the total size of the PPIF. In
                                             other words, the conflict results in an enormous profit for the fund manager at the
                                             expense of the taxpayer.
                                                  The same incentives to overpay could exist in the Legacy Loans Program and
                                             in numerous other factual circumstances. The incentives exist, for example, even
                                             if the fund manager does not own MBS X but is merely managing other funds
                                             that hold MBS X, as the manager earns fees based on the value of that fund, a
                                             value that would, in this example, be significantly overstated (temporarily) as it can
                                             increase the value of that fund based on valuing, or “marking” the MBS X at the
                                             inflated “market” price that it set. The conflict can even exist if the manager holds
                                             or manages equity tied to the value of the banks from which the MBS are being
                                             purchased; here, using PPIF funds to overpay for bank assets may increase the
                                             bank’s stock price, thus giving a greater profit to the fund manager.

                                             Collusion
                                             A closely related vulnerability is that PPIF managers might be persuaded, through
                                             kickbacks, quid pro quo transactions, or other collusive arrangements, to manage
                                             the PPIFs not for the benefit of the PPIF (and taxpayers), but rather for the benefit
                                             of themselves and their collusive partners. In both the Legacy Loans Program and
                                             the Legacy Securities Program, the significant Government-financed leverage pres-
                                             ents a great incentive for collusion between the buyer and seller of the asset, or the
                                             buyer and other buyers, whereby, once again, the taxpayer takes a significant loss
                                             while others profit.
                                                  This time, consider an example from the Legacy Loans Program. Imagine
                                             that a bank owns a pool of mortgage loans that both it and the private equity firm
                                             investing in a PPIF values at $600 million. The private equity firm invests $60
                                             million into the PPIF, which is matched by $60 million of TARP funds, and which
                                             is leveraged by a loan of $720 million guaranteed by FDIC (the 6-to-1 debt-to-
                                             equity ratio). The PPIF private equity firm surreptitiously agrees with the bank to
                                             overpay for the pool of loans and causes the PPIF to bid $840 million at auction
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   149




for that pool. After the auction, the bank secretly pays the PPIF private equity
firm a kickback of $120 million, or half the difference between the auction price
($840 million) and the true value ($600 million). Although the PPIF will eventually
perform poorly as a result of the overpayment, the private equity firm’s loss is rela-
tively small. Even if the PPIF was completely wiped out, the most the PPIF private
equity firm could lose is $60 million, which would still give it a guaranteed profit
of at least $60 million as a result of the kickback, a 100% return. Meanwhile, the
bank would have gained an illegal benefit of $120 million, all at the expense of the
taxpayer and FDIC. Of course, in practice, the collusive scheme would be far more
complex and would likely involve a series of affiliates and offsetting transactions,
but the principle would be the same.
    The same collusion could occur in the Legacy Securities Program between
buyer and seller. Similarly, collusion could occur among other buyers. For example,
using the example described above involving MBS X, the fund manager could
convince another PPIF fund manager to overpay for MBS X, yielding the same
profits for the fund manager as if he himself directed the overpayment. In return,
the original fund manager could overpay for a different MBS that is on the other
PPIF fund manager’s books. As a result, both fund managers could potentially reap
significant illegal (and difficult to detect) profits, all at the expense of the taxpayer.

Money Laundering
National and international criminal organizations — from organized crime, to nar-
cotics traffickers, to large-scale fraud operations — are continually looking for op-
portunities to make their illicit proceeds appear to be legitimate, thereby “launder-
ing” those proceeds. It is estimated that the amount of funds laundered each year
is in the hundreds of billions of dollars worldwide. Money-laundering organizations
are highly sophisticated, utilizing the full arsenal of corporate, trust, and offshore
financial structures, and vast sums of illicit proceeds can and do make it into the
U.S. financial system each year.
    Because of the significant leveraging available and the inherent imprimatur of
legitimacy associated with PPIP and TALF, these programs present an ideal oppor-
tunity to money-laundering organizations. If a criminal organization can success-
fully invest $10 million of illicit proceeds into a PPIF, not only does the organiza-
tion enjoy the possibility of profiting through the Government-backed leverage, but
any eventual distributions from the PPIF are successfully laundered because they
appear to be PPIF investment gains rather than drug, prostitution, or illegal gam-
bling proceeds. It would of course be unacceptable if TARP funds, FRBNY loans,
or FDIC guarantees were used to leverage the profits of drug cartels or organized
crime groups. This vulnerability is particularly problematic in light of the contem-
plation of the use of SPVs — legal entities created for the purpose of holding PPIF
assets — which can be, depending upon how they are designed, difficult to look
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             behind to discern the true participants. Although the term sheets for PPIP place
                                             requirements on the individual PPIF managers to conduct some screening of the
                                             individual investors, it is not clear what ability Treasury will have to “look through”
                                             to each of the individual investors to identify them and assure their legitimacy, or
                                             have access to the individual investors’ books and records.

                                             Recommendations
                                             To address these vulnerabilities, SIGTARP makes the following recommendations
                                             with respect to the design and implementation of PPIP.

                                             • Treasury should impose strict conflict-of-interest rules upon PPIF managers
                                               across all programs that specifically address whether and to what extent the
                                               managers can (i) invest PPIF funds in legacy assets that they hold or manage on
                                               behalf of themselves or their clients or (ii) conduct PPIF transactions with enti-
                                               ties in which they have invested on behalf of themselves or others. SIGTARP
                                               recognizes that there is a trade-off between hiring managers with significant
                                               experience in the marketplace (who have the expertise to make them effective
                                               asset managers but who have complex conflict-of-interest issues as a result) and
                                               hiring managers who are not in the market at all (who have less expertise but
                                               also no conflicts); however, Treasury should at least consider whether its fund
                                               manager requirements address the serious conflict issues. It may very well be
                                               that some of the conflicts cannot be mitigated under the current structure of
                                               the programs unless the fund managers have no interests (and have no clients
                                               who have interests) in the kinds of legacy assets that the PPIFs are purchasing.
                                               This may, in turn, significantly limit what entities should be making PPIF invest-
                                               ment decisions.
                                             • Treasury should mandate transparency with respect to the participation and
                                               management of PPIFs. This should include disclosure of the beneficial owners
                                               of all of the private equity stakes in the PPIFs and of all transactions undertaken
                                               in them. In addition to the reporting requirements contained in the PPIP term
                                               sheets, Treasury should obtain and publicly disclose certified reports from all
                                               PPIFs across all programs that include all transactions and the current valuation
                                               of all assets. This transparency is necessary in light of the taxpayers’ reasonable
                                               expectation of knowing how their money is being used, as a way to track and/or
                                               deter the types of conflicts of interest and collusion abuses previously described,
                                               and as a way to deter criminal organizations from trying to use PPIP to laun-
                                               der illicit proceeds. To the extent that PPIF managers are permitted to hold or
                                               engage in transactions in the same securities that they are buying and selling
                                               in the PPIFs, Treasury should require PPIF managers to report to Treasury on
                                               any and all holdings and transactions in the same types of legacy assets on their
                                               own behalf or on behalf of their clients. Such a disclosure would help identify
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   151




  conflicts of interest. Moreover, in addition to the requirement that SIGTARP
  will have access to all of the PPIF’s books and records, as set forth in the term
  sheets, Treasury should impose a requirement that PPIF managers retain all
  books and records pertaining in any way to the PPIF (including all e-mails, in-
  stant messages, and all other documents), and permit SIGTARP and other over-
  sight entities access to the fund manager’s books and records and employees,
  upon request. In this manner, Treasury, SIGTARP, and other oversight bodies
  might be able to detect and address the potential conflicts and any indication of
  collusion. Treasury should also require access to the private investors’ books and
  records, at least to the extent that they relate to the PPIF investment.
• Treasury should require PPIF managers to provide PPIF equity stakehold-
  ers (including TARP) “most-favored nations clauses,” requiring that the fund
  managers treat the PPIFs (and the taxpayers backing the PPIFs) on at least as
  favorable terms as given to all other parties with whom they deal. In that same
  vein, PPIF managers should be required to acknowledge that they owe the PPIF
  investors – both the private investors and TARP – a fiduciary duty with respect
  to the management of the PPIFs. Treasury should also require that each PPIF
  fund manager have a robust ethics policy in place and a compliance apparatus
  to ensure adherence to such code.
• In order to prevent money laundering and the participation of actors prone to
  abusing the system, Treasury should require that all PPIF fund managers have
  stringent investor-screening procedures, including comprehensive “Know Your
  Customer” requirements at least as rigorous as that of a commercial bank or
  retail brokerage operation. Additionally, fund managers should be required to
  provide Treasury with the identities of all of the beneficial owners of the private
  interests in the fund so that Treasury can do appropriate diligence to ensure that
  investors in the funds are legitimate.
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Interactions between PPIP and TALF
                                             In announcing the details of PPIP, Treasury has indicated that PPIFs under the
                                             Legacy Securities Program could, in turn, use the leveraged PPIF funds (two-thirds
                                             of which will likely be taxpayer money) to purchase legacy MBS through TALF,
                                             greatly increasing taxpayer exposure to losses with no corresponding increase of
                                             potential profits. By way of example, a PPIF manager could raise $500 million of
                                             private equity, which would be matched with $500 million of TARP funds, and a
                                             loan of an additional $500 million from TARP funds (according to the term sheet,
                                             loans will only be given up to 50% of the total equity if investments will be made
                                             through TALF rather than 100% otherwise). The PPIF could then take the total
                                             $1.5 billion, bring it to the TALF window, and effectively use that money as the
                                             “haircut” amount in a TALF financing to purchase legacy RMBS. Assuming that
                                             the haircut will be 20% (larger than any existing haircut), the PPIF will be able to
                                             receive a non-recourse loan from FRBNY for an additional $6 billion, enabling the
                                             PPIF to purchase $7.5 billion in legacy RMBS. The private investors would thus
                                             enjoy 50% of the profits from this enhanced buying power, but only be exposed to
                                             less than 7% of the total losses if the fund were wiped out.
                                                 Aside from potential unfairness to the taxpayer, this leverage upon leverage on
                                             legacy RMBS raises other significant issues. First, it only magnifies the dangerous
                                             incentives discussed above (the conflicts of interest and collusion issues), because
                                             the fund manager now has up to five times the buying power than it would if it
                                             participated in the Legacy Securities PPIF alone. Moreover, it severely undermines
                                             the validity of the methodology that the Federal Reserve has used to build the
                                             haircut percentages in TALF thus far. The Federal Reserve has told SIGTARP that
                                             it has determined its haircut percentage based at least in part on the fact that the
                                             haircut represents a TALF borrower’s “skin in the game” — someone’s own capital
                                             at risk — that incentivizes appropriate due diligence on the borrower’s part. If lever-
                                             aged PPIFs are permitted to participate in TALF, that effectively lowers the private
                                             equity’s skin in the game by at least the amount of money borrowed from TARP,
                                             materially diminishing the incentive to do due diligence. Put in simpler terms, an
                                             investor who is funding 100% of the haircut amount with his own money (as is
                                             typical in TALF) can logically be expected to be far more careful than one only put-
                                             ting up 33% (as would occur under this example).

                                             Recommendations
                                             Accordingly, SIGTARP recommends that:

                                             • Treasury should not allow Legacy Securities PPIFs to invest in TALF, unless
                                               significant mitigating measures are included to address these dangers. These
                                               might include prohibiting the use of TARP leverage if the PPIF invests through
                                               TALF, or proportionately increasing haircuts for PPIFs that do so.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   153




   Failure to adopt this recommendation may well protect the Federal Reserve’s
own balance sheet, but it would do so at the expense of putting at risk Treasury
assets, hardly a victory from the taxpayers’ perspective. SIGTARP thus further
recommends:

• All TALF modeling and decisions, whether on haircuts or any other credit or
  fraud loss mechanisms, should account for potential losses to Government
  interests broadly, including TARP funds, and not just potential losses to the
  Federal Reserve.

    Treasury officials, in discussing these recommendations with SIGTARP, recog-
nize the increased risks associated with this area of the program but suggested that
flexibility would be needed to consider alternate ways of mitigating the risks to the
extent possible.
    SIGTARP will continue to monitor the development of the PPIP requirements
and procedures and will make future recommendations concerning standards and
mechanisms that will help protect against fraud, waste, and abuse in the program,
as appropriate.

Design of the Mortgage Modification Program
Shortly after the February announcement of the Administration’s intent to launch a
mortgage modification plan, SIGTARP provided a series of high-level recommenda-
tions to address potential fraud in the program, first by providing OFS officials an
outline of potential fraud issues and then in a series of discussions with OFS and
other Treasury officials.
    SIGTARP’s recommendations were made in the context of the Special
Inspector General’s prior experience as the founder of the Mortgage Fraud Group
in the United States Attorney’s Office for the Southern District of New York and
after consultation with and advice from mortgage fraud experts at the Federal
Bureau of Investigation. The recommendations address some of the patterns of the
rampant mortgage fraud that contributed to the current financial crisis, including
corruption of many of the potential gatekeepers who were supposed to limit such
fraud: attorneys, appraisers, notaries, mortgage brokers, title insurance agents,
and insiders at banks and mortgage originators. Recognizing that many of the
most prevalent frauds had common characteristics, SIGTARP’s recommendations
reflected an attempt to shield the program from such schemes before they could be
adapted to the mortgage modification plan.
    In general, mortgage fraud schemes are viewed by law enforcement in two
categories: (i) fraud for home, where a homeowner lies in order to get a mort-
gage for which he or she would otherwise not qualify; and (ii) fraud for profit,
which involves rings of individuals whose goal is to defraud banks and individual
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             homeowners for the purpose of profit. Recognizing that the greatest economic
                                             damage is done by those who commit mortgage fraud for profit, SIGTARP’s recom-
                                             mendations primarily address this type of fraud.
                                                In this section, SIGTARP’s mortgage modification recommendations, followed
                                             by Treasury’s response, are each discussed in detail.

                                             Verification of Residence Recommendation
                                             One of the most common characteristics of fraud-for-profit schemes is that the
                                             individual holding the mortgage, often a “straw purchaser,” does not actually live in
                                             the home for which he or she is obtaining a mortgage. Recognizing this indicator,
                                             SIGTARP strongly recommended that Treasury include provisions to ensure that
                                             the individual applying for the mortgage modification actually lives in the home,
                                             including (i) a signed certification from the applicant, and (ii) third-party verifica-
                                             tion that the home is the applicant’s primary residence. Indeed, to guard against
                                             servicer failings (such as not doing the verification but then claiming that it had) or
                                             complicity (such as purposefully misrepresenting the residence of the applicant in
                                             furtherance of a fraud-for-profit scheme), SIGTARP recommended that Treasury
                                             require submission of third-party verification to Treasury or its agent prior to its
                                             funding a modification.

                                             Status of Recommendation
                                             Treasury has partially implemented this recommendation. It has taken some
                                             important steps, including requiring a signed certification from the applicant that
                                             he or she lives in the home and requiring the servicer to acquire from the appli-
                                             cant some proof of residence. Treasury has not required, however, that the servicer
                                             obtain third-party verification of the applicant’s residence before submitting and
                                             implementing the mortgage modification. This is critical, as most fraud-for-profit
                                             schemes have ready access to forged documents (e.g., false utility bills, pay stubs,
                                             bank account statements). As a result, the current system will not capture a fraud
                                             scheme that involves doctored documents or one involving the complicity or the
                                             negligence of the servicer, because the servicer is not required to submit proof of
                                             its verification of residence before receiving Government funding. Accordingly,
                                             SIGTARP continues to recommend that:

                                             • Before funding a mortgage modification, Treasury should require the servicer to
                                               submit third-party verified evidence that the applicant is residing in the subject
                                               property.

                                                Treasury, in discussions with SIGTARP about this recommendation, indi-
                                             cated that servicers will be able to obtain (i) the borrowers’ tax return information
                                             from the IRS and (ii) credit reports. If Treasury requires servicers to provide such
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   155




third-party verified information regarding residence to Treasury or its agent be-
fore funding a modification, it would represent a significant improvement in the
program.

Closing Procedures Recommendation
Many fraud-for-profit schemes involved fraudulent closings, at which signatures
were forged or where the homeowners and/or purchasers signed documents they
did not understand and thus could be charged exorbitant fees without their knowl-
edge. As a result, several states have tightened the requirements of the typical mort-
gage closing procedure with measures that increase deterrence and which greatly
assist law enforcement in its investigation of mortgage fraud-for-profit schemes.
Adopting some of the characteristics of these reforms, SIGTARP recommended
that a closing-like procedure be conducted that would include:

• a closing warning sheet that would warn the applicant of the consequences of
  fraud
• the notarized signature and thumbprint of each participant
• mandatory collection, copying, and retention of copies of identification docu-
  ments of all participants in the transaction
• verbal and written warnings regarding hidden fees and payments so that appli-
  cants are made fully aware of:
  • the benefits to which they are entitled under the program (to prevent a cor-
     rupt servicer from collecting payments from the Government and not passing
     the full amount of the subsidies to the homeowners)
  • the fact that no fee should be charged for the modification

Status of Recommendation
Treasury has decided against using a closing procedure, stating that mortgage modi-
fications typically take place over the telephone and through the mail. Treasury has,
however, attempted to address several of the concerns raised in this recommendation
by: (i) including a fraud warning sheet with every mortgage modification solicitation
that includes SIGTARP’s hotline to report fraud; and (ii) beginning outreach efforts,
along with other agencies, to warn homeowners that they should not pay fees as part
of the program, as discussed more fully in the following paragraphs. SIGTARP re-
mains concerned that Treasury has not taken sufficient action related to its previous
recommendation. Accordingly, SIGTARP continues to recommend that:

• Additional anti-fraud protections should be adopted to verify the identity of the
  participants in the transaction and to address the potential for servicers to steal
  from individuals by receiving Government subsidies without applying them for
  the benefit of the homeowner.
156   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Treasury officials, in discussing this recommendation with SIGTARP, noted
                                             that they have a financial agent agreement with Freddie Mac to provide a range of
                                             compliance and anti-fraud efforts for the loan modification program and are con-
                                             sulting with an anti-fraud expert. They also indicated that these efforts would align
                                             with many of the issues and recommendations identified by SIGTARP pertaining to
                                             loan modifications and will include provisions that address potentially corrupt loan
                                             servicers.

                                             Income Verification Recommendation
                                             One of the most common features of traditional mortgage fraud is that applicants
                                             falsely inflate their income and support those lies with fraudulent documentation
                                             and employment verification. In the mortgage modification program, due to the
                                             increased subsidy for homeowners whose income is lower, there exists an incentive
                                             for applicants to understate their income intentionally. To address this potential
                                             fraud, SIGTARP recommended that Treasury require servicers to: (i) compare the
                                             income reported on their initial mortgage application with the income reported on
                                             the modification application, and, if they differ significantly, require an explanation
                                             and verifiable documentation of the change in income; and (ii) require third-party
                                             verification of employment.

                                             Status of Recommendation
                                             Treasury has not adopted this recommendation, but has taken some steps to verify
                                             income, including requiring the homeowner to sign a waiver so that the servicer
                                             can obtain tax return information for the applicant and requiring the applicant
                                             to provide documentation to verify income. Although this is helpful, SIGTARP
                                             believes that further action is still needed as it does not appear that Treasury is re-
                                             quiring the servicer actually to obtain and verify the income tax information before
                                             approving the modification. Tax return information, for example, even if obtained,
                                             may be of limited value given the time lag between the last income tax return and
                                             the date of the application. Further, as noted earlier in the discussion, relying on
                                             documentation provided by the borrower is unreliable given the prevalence and
                                             ease with which false pay stubs, W-2s, and 1099s can be generated. Accordingly,
                                             SIGTARP continues to recommend that:

                                             • Treasury require that verifiable, third-party information be obtained to confirm
                                               an applicant’s income before any modification payments are made.

                                             Timing of Incentive Payments Recommendation
                                             Generally speaking, one of the fraud dangers to the mortgage modification program
                                             is the activity of “modification mills,” corrupt servicers that will churn out unveri-
                                             fied or unlikely-to-perform mortgage modifications in order to collect the $1,000
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   157




up-front incentive payment. Because the servicer is not currently required to pro-
vide verified information prior to commencing a modification (and receiving the
$1,000 up-front payment), there is a fraud incentive for servicers to push through
modifications that do not necessarily meet the criteria and/or make modifications
that they know will never be successful. Indeed, it is unfortunately foreseeable
that a servicer could take a mortgage that is in default, submit fraudulent paper-
work, and collect the $1,000 fee, without any intent on the part of the homeowner
to make any further payments on the mortgage modification. SIGTARP thus
recommended that Treasury delay the up-front payment by 90 days to ensure that
the homeowner has made several payments as part of the mortgage modification
program before awarding the servicer the $1,000 incentive payment.

Status of Recommendation
Treasury has implemented a procedure under which it will not pay the $1,000
incentive payment until after the homeowner has made three payments to the
servicer; however, these payments occur prior to the Government’s modification
of the mortgage and require no independent verification. Although Treasury’s
insistence of a servicer-run trial period is certainly an improvement over a system
of immediate incentive payments, it does not necessarily protect Treasury from
a corrupt servicer who could fraudulently claim that an applicant has success-
fully completed a trial period even if not true. Accordingly, to protect against such
fraud, SIGTARP continues to recommend that:

• Treasury should defer payment of the $1,000 incentive to the servicer until af-
  ter the homeowner has verifiably made a minimum number of payments under
  the mortgage modification program.

   Treasury officials, in discussing this recommendation with SIGTARP, have
indicated that they will work with their agents “to verify that the borrower makes
the required number of payments under the trial modification.”340

Education and Outreach Recommendation
One of the most insidious forms of mortgage fraud are “foreclosure rescue scams,”
in which fraudsters trick struggling homeowners into paying up-front fees by
promising them assistance in navigating the foreclosure process. Sadly, most of
the companies promising these services do nothing for the homeowner other than
give them false hope while taking an exorbitant fee. SIGTARP therefore recom-
mended that Treasury proactively educate homeowners about the nature of the
program, warn them about these predators, and publicize that no fee is necessary
to participate in the program.
158   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Status of Recommendation
                                             Treasury is doing an excellent job in implementing this recommendation. The
                                             Making Home Affordable website prominently features fraud warnings, and, in an
                                             April 6, 2009, press conference, the Treasury Secretary, along with the Attorney
                                             General, the Secretary of the Department of Housing and Urban Development, the
                                             head of the Federal Trade Commission, and the Attorney General for the State of
                                             Illinois, announced a coordinated and detailed outreach effort to educate
                                             homeowners about the dangers of such fraud, as well as efforts to detect and
                                             prosecute such scams. SIGTARP’s Investigations Division will continue to work
                                             with its partners to bring the perpetrators of such fraud to justice.

                                             Mandated Data Collection Recommendation
                                             Mortgage fraud is often perpetrated by repeat offenders, and one of law enforce-
                                             ment’s most powerful tools to detect this abuse is the capability to mine data to
                                             identify those individuals and entities (such as appraisers, mortgage brokers, straw
                                             purchasers, or attorneys) who repeatedly appear in connection with suspicious
                                             foreclosures. SIGTARP recommended that Treasury require its agents to keep track
                                             of the names and identifying information for each participant in each mortgage
                                             modification transaction and to maintain a database of such information. Not only
                                             would such a database assist law enforcement in the detection and apprehension
                                             of fraudsters, but it could also assist in fraud prevention. For example, a centralized
                                             database could identify if a potential homeowner applicant had already applied for
                                             or received a mortgage modification on a different property, a strong indicator of
                                             fraud (because an applicant can only live in one home, an application for an ad-
                                             ditional modification would strongly suggest that the homeowner had lied about his
                                             or her primary residence).

                                             Status of Recommendation
                                             Treasury officials, in discussing this recommendation with SIGTARP, recognized
                                             the importance of data mining to fraud prevention efforts and stated that they are
                                             working with Freddie Mac, their compliance agent, to determine the feasibility of
                                             this recommendation.

                                             Auto Supplier Support Program
                                             SIGTARP was briefed on the Auto Supplier Support Program shortly before it was
                                             announced. At the time of the briefing, SIGTARP raised concerns regarding two
                                             potential fraud vulnerabilities. First, SIGTARP inquired as to what protections
                                             would be in place to prevent “phantom receivables” — auto parts that are subject
                                             to TARP funding but never make it to the automobile manufacturers. Second,
                                             SIGTARP warned of the dangers of commercial bribery, a vulnerability borne from
                                             the structure of the program, which empowered the automobile manufacturers
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009   159




with unfettered discretion to choose which suppliers and at what amounts the sup-
pliers can participate in the program — effectively picking winners and losers with
no clear restrictions.
    In discussions concerning this recommendation, Treasury has indicated that
certain financial aspects of the program would act as a disincentive to these vulner-
abilities. SIGTARP awaits further briefing on the program.
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009           161



ENDNOTES
1.   Since January 30, 2009, another 150 banks have received about $7.9 billion in CPP funding.
2.   Treasury, response to SIGTARP data call, 4/8/2009.
3.   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
4.   Treasury, response to SIGTARP data call, 4/8/2009. This figure represents Treasury’s announced plans for TARP funding. GAO-09-539T reported the
     same figure as the “projected use of funds.”
5.   Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
6.   Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
7.   Treasury, “Fact Sheet: Financial Stability Plan,” 2/10/2009, www.financialstability.gov, accessed 3/18/2009.
8.   Treasury, “Capital Purchase Program,” no date, www.treas.gov, accessed 3/18/2009.
9.   Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
10. CPP, TALF, and PPIP: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
11. Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009, www.treas.gov, accessed 3/26/2009.
12. Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, www.treas.gov, accessed
    3/25/2009.
13. Treasury, GAO, SIGTARP meeting on CAP, 3/12/2009.
14. Treasury, “Guidelines for Systemically Significant Failing Institutions Program,” no date, www.treas.gov, accessed 3/18/2009.
15. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
16. Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
    accessed 3/26/2009.
17. Treasury, “Program Description: Targeted Investment Program,” no date, www.treas.gov, accessed 3/18/2009.
18. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
19. Treasury, Report to Congress Pursuant to Section 102 of the Emergency Economic Stabilization Act, 12/31/2008.
20. Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treas.gov, accessed 3/26/2009.
21. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
22. Treasury Press Release, “Treasury, Federal Reserve and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed
    3/31/2009.
23. Treasury, “Automotive Industry Financing Program,” no date, www.treas.gov, accessed 3/31/2009.
24. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
25. Treasury, response to SIGTARP data call, 2/23/2009.
26. Treasury, “General Motors Corporation 2009 – 2014 Restructuring Plan,” 2/17/2009, www.treas.gov, accessed 2/17/2009.
27. Treasury, SIGTARP briefing on auto industry, 4/14/2009.
28. Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” 3/19/2009, www.treas.gov, accessed 3/19/2009.
29. Treasury, SIGTARP briefing on auto industry, 4/14/2009.
30. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/25/2009.
31. FRBNY Press Release, “Joint Press Release,” 3/3/2009, www.newyorkfed.org, accessed 3/25/2009.
32. Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
33. Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treas.gov, accessed
    3/26/2009.
34. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/26/2009.
35. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
36. Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines, With Detailed Program Requirements,
    Servicers Can Now Begin ‘Making Home Affordable’ Loan Modifications, Extensive Borrower Outreach Efforts Underway,” 3/4/2009, www.treas.gov,
    accessed 3/26/2009.
37. Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/26/2009.
38. Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
39. Treasury, “Program Descriptions: Capital Purchase Program,” 3/24/2009, www.treas.gov, accessed 3/24/2009.
40. Treasury, “Interim Assistant Secretary for Financial Stability Neel Kashkari Review of the Financial Market Crisis and the Troubled Assets Relief
    Program,” 1/13/2009, www.treas.gov, accessed 3/16/2009.
41. Treasury, “Treasury, Regulators Issue Additional Guidance on Capital Purchase Program,” 10/20/2008, www.treas.gov, accessed 3/16/2009.
42. Treasury, “Treasury Releases Capital Purchase Program Term Sheet for Privately Held Financial Institutions,” 11/17/2008, www.treas.gov, accessed
    3/16/2009.
43. Treasury, “Treasury Releases Capital Purchase Program Term,” 1/14/2009, www.treas.gov, accessed 3/16/2009.
44. Treasury, “Process Related FAQs for the Capital Purchase Program, Mutual Holding Company FAQs,” 4/7/2009, www.financialstability.gov, accessed
    4/7/2009.
162             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      45. American Recovery and Reinvestment Act of 2009, P.L. 11-5, 2/13/2009.
      46. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009. Two institutions, Bank of America Corporation and SunTrust
          Banks, Inc., each received investments in two separate installments.
      47. Congressional Oversight Panel, “February Oversight Report,” 2/6/2009, cop.senate.gov, accessed 3/26/2009.
      48. Congressional Budget Office, “A Preliminary Analysis of the President’s Budget and an Update of CBO’s Budget and Economic Outlook,” March 2009,
          www.cbo.gov, accessed 4/10/2009. “Oversight and Analysis Estimate of TARP’s Cost to Taxpayers Increases,” Wall Street Journal, 4/3/2009, www.wsj.
          com, accessed 4/4/2009.
      49. Warrants for private QFIs are generally exercised immediately. Certain Community Development Financial Institutions (CDFIs) are not required to issue
          warrants.
      50. Treasury, response to SIGTARP data call, 3/31/2009.
      51. American Recovery and Reinvestment Act of 2009, P.L. 11-5, 2/13/2009.
      52. Treasury, response to SIGTARP data call, 4/10/2009.
      53. Treasury, response to SIGTARP data call, 4/8/2009.
      54. Treasury, response to SIGTARP data call, 4/8/2009.
      55. Treasury, “Treasury Releases First Monthly Bank Lending Survey,” 2/17/2009, www.treas.gov, accessed 3/19/2009.
      56. Treasury, “Interim Assistant Secretary for Financial Stability, Neel Kashkari Remarks at Brookings Institute,” 1/8/2009, www.treas.gov, accessed
          1/12/2009.
      57. Treasury, response to SIGTARP data call, 3/31/2009.
      58. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 2/17/2009, www.treas.gov, accessed 3/4/2009.
      59. Treasury, letter to Jeffrey B. Weeden, 1/16/2009, received 1/22/2009.
      60. Treasury, SIGTARP response to data call, 3/31/2009.
      61. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 2/17/2009, www.treas.gov, accessed 3/19/2009.
      62. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 2/17/2009, www.treas.gov, accessed 3/19/2009.
      63. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 2/17/2009, www.treas.gov, accessed 3/19/2009.
      64. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
      65. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 3/16/2009, www.treas.gov, accessed 3/19/2009.
      66. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 3/16/2009, www.treas.gov, accessed 3/19/2009.
      67. Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot,” 3/16/2009, www.treas.gov, accessed 3/19/2009.
      68. Treasury, “Secretary Geithner Introduces Financial Stability Plan,” 2/10/2009, www.treas.gov, accessed 3/25/2009.
      69. Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, www.treas.gov, accessed
          3/25/2009.
      70. FDIC, “FAQs — Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed 3/25/2009.
      71. Federal Reserve, response to SIGTARP draft, 4/9/2009.
      72. Bureau of Labor and Statistics, “The Employment Situation: March 2009,” 4/3/2009, www.bls.gov, accessed 4/5/2009.
      73. Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, www.treas.gov, accessed
          3/25/2009.
      74. FDIC Press Release, “Agencies to Begin Forward-Looking Economic Assessments,” 2/25/2009, www.fdic.gov, accessed 3/25/2009.
      75. FDIC, “FAQs — Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed 3/25/2009.
      76. FDIC, “FAQs — Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed 3/25/2009.
      77. Treasury, White Paper, “The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, www.treas.gov, accessed 3/25/2009.
      78. Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.
      79. Treasury, Transactions Report, 4/2/2009, www.financialstability.gov, accessed 4/3/2009.
      80. Treasury, “Fact Sheet, Financial Stability Plan,” 2/10/2009, www.financialstability.gov, accessed 3/25/2009.
      81. Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.
      82. Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.
      83. Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009.
      84. Treasury, “Capital Assistance Program FAQs,” no date, www.treas.gov, accessed 3/25/2009.
      85. Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” 3/25/2009, www.treas.gov, accessed 3/25/2009
      86. Treasury, “Application Guidelines for Capital Assistance Program,” no date, www.treas.gov, accessed 3/25/2009.
      87. Treasury, “Summary of Mandatorily Convertible Preferred Stock Terms,” no date, accessed 3/25/2009.
      88. Treasury, White Paper, “The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, https://ustreas.gov/press/releases/reports/
          tg40_capwhitepaper.pdf, accessed 4/3/2009.
      89. Treasury, “Testimony By Interim Assistant Secretary for Financial Stability Neel Kashkari, before the Senate Appropriations Subcommittee on Financial
          Services and General Government,” 12/4/2008, www.treas.gov, accessed 4/8/2009.
      90. FDIC, “A Brief History of Deposit Insurance in the United States,” no date, http://www.fdic.gov/bank/historical/brief/brhist.pdf, accessed 4/3/2009.
                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009         163


91. OCC, “Supervisory Guidance, Supervisory Review Process Related to the Implementation of the Basel II Advanced Capital Framework,” no
    date, www.occ.gov\ftp\release\2008-81a.pdf, accessed 4/3/2009.
92. Federal Reserve Board, “Basel II Capital Accord, Notice of Proposed Rulemaking,” 3/30/2006, www.federalreserve.gov, accessed 4/9/2009.
93. FDIC, “FAQs—Supervisory Capital Assessment Program,” no date, www.fdic.gov/news/press/2009/pr09025a.pdf, accessed 4/15/2009.
94. SIGTARP, “Initial Report to Congress,” 2/6/2009, www.sigtarp.gov, accessed 3/25/2009.
95. As of March 31, 2009, $122.5 billion has been allocated to institution-specific participants, $85 billion has been expended, while $37.5 billion
    has been announced but not disbursed. This is a total increase of $30 billion since SIGTARP’s Initial Report.
96. AIG, “Securities Purchase Agreement,” 11/25/2008.
97. Treasury, Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
    accessed 3/4/2009.
98. Treasury, Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
    accessed 3/4/2009.
99. Treasury, Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
    accessed 3/4/2009.
100. Treasury, Press Release, response to SIGTARP draft report, 4/9/2009.
101. Treasury, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov, accessed
     3/4/2009.
102. Treasury, Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
     accessed 3/4/2009.
103. Treasury, Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
     accessed 3/4/2009.
104. Federal Reserve, response to SIGTARP draft report, 4/9/2009.
105. AIG, 8-K, 2/14/2009, www.sec.gov, accessed 3/6/2009.
106. Treasury, Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
     accessed 3/4/2009.
107. AIG, Restructuring Term Sheet, “Exchange of Series D Fixed Rate Cumulative Perpetual Preferred Stock for Series E Fixed Rate
     Non-Cumulative Perpetual Preferred Stock,” 3/2/2009.
108. Treasury, response to SIGTARP data call, 4/6/2009.
109. AIG Restructuring Term Sheet, “Exchange of Series D Fixed Rate Cumulative Perpetual Preferred Stock for Series E Fixed Rate
     Non-Cumulative Perpetual Preferred Stock,” 3/2/2009.
110. AIG, Restructuring Term Sheet, “Exchange of Series D Fixed Rate Cumulative Perpetual Preferred Stock for Series E Fixed Rate
     Non-Cumulative Perpetual Preferred Stock,” 3/2/2009.
111. AIG, Restructuring Term Sheet, “Exchange of Series D Fixed Rate Cumulative Perpetual Preferred Stock for Series E Fixed Rate
     Non-Cumulative Perpetual Preferred Stock,” 3/2/2009.
112. AIG, Restructuring Term Sheet, “Issuance of Additional Preferred Stock,” 3/2/2009.
113. New York Stock Exchange, 3/31/2009, www.nyse.com, accessed 3/31/2009.
114. AIG, Restructuring Term Sheet, “Issuance of Additional Preferred Stock,” 3/2/2009.
115. Treasury, “Treasury Department Releases Text of Letter From Secretary Geithner to Hill Leadership on AIG,” 3/17/2009, www.treas.gov,
     accessed 3/19/2009.
116. Treasury, “Treasury Department Releases Text of Letter From Secretary Geithner to Hill Leadership on AIG,” 3/17/2009, www.treas.gov,
     accessed 3/19/2009.
117. Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
     accessed 3/4/2009.
118. Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.gov,
     accessed 3/4/2009.
119. American Recovery and Reinvestment Act of 2009, P.L. 115-5, 2/17/2009.
120. Treasury, “Treasury Department Releases Text of Letter From Secretary Geithner to Hill Leadership on AIG,” 3/17/2009, www.treas.gov,
     accessed 3/19/2009.
121. American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/17/2009.
122. Treasury, Fifth Tranche Report to Congress, 2/6/2009, www.treas.gov, accessed 2/24/2009.
123. Treasury, Transactions Report, 3/31/2009, www.financialstability.gov, accessed 3/31/2009.
124. Citigroup Inc., “Securities Purchase Agreement,” 12/31/2008.
125. Citigroup Inc., “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for
     Fourth Quarter 2008,” 2/6/2009, www.citigroup.com, accessed 2/24/2009.
126. Citigroup Inc., “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S. Economy, TARP Progress Report for
     Fourth Quarter 2008,” 2/6/2009, www.citigroup.com, accessed 2/24/2009.
127. Treasury, Transactions Report, 3/30/2009, www.financialstability.gov, accessed 3/31/2009.
164             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      128. Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
      129. Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009. www.treas.gov, accessed 3/2/2009.
      130. Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009, www.treas.gov, accessed 3/2/2009.
      131. Citigroup Inc., 8-K, “Citi to Exchange Preferred Securities for Common, Increasing Tangible Common Equity to as Much as $81 Billion,” 2/27/2009,
           www.sec.gov, accessed 3/2/2009.
      132. Citigroup Inc., 8-K, “Citi Files Registration Statement for Exchange Offer,” 3/19/2009, www.sec.gov, accessed 3/20/2009.
      133. Treasury, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009, www.treas.gov, accessed 3/2/2009.
      134. Citigroup Inc., 8-K, “Citi to Exchange Preferred Securities for Common, Increasing Tangible Common Equity to as Much as $81 Billion,” 2/27/2009,
           www.sec.gov, accessed 3/2/2009.
      135. Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2009, www.treas.gov, accessed 3/2/2009.
      136. The actual dollar value of these obligations would depend on the losses incurred as well as the deductibles, loss sharing provisions, and other terms of
           the agreements.
      137. Citigroup Inc., Master Agreement, 1/15/2009.
      138. Summary of Agreement between Citigroup, Treasury, FDIC, and the Federal Reserve Board.
      139. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      140. Citigroup Inc., Master Agreement, 1/15/2009.
      141. Citigroup Inc., Master Agreement, 1/15/2009.
      142. Treasury, “Treasury, FDIC, and Federal Reserve Announce Assistance to Citigroup,” 11/23/2008, www.treas.gov, accessed 1/9/2009.
      143. Citigroup Inc., Master Agreement, 1/15/2009.
      144. Citigroup Inc., Master Agreement, 1/15/2009.
      145. Citigroup Inc., Master Agreement, 1/15/2009.
      146. Citigroup Inc., Master Agreement, “Schedule A,” 1/15/2009.
      147. Citigroup Inc., Master Agreement, “Schedule A,” 1/15/2009.
      148. Treasury, SIGTARP interview, 2/10/2009.
      149. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      150. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      151. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      152. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      153. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      154. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      155. Citigroup Inc., Master Agreement, 1/15/2009.
      156. Citigroup Inc., Master Agreement, 1/15/2009.
      157. Citigroup Inc., Master Agreement, “Exhibit B,” 1/15/2009.
      158. Citigroup Inc., Master Agreement, 1/15/2009.
      159. Treasury, response to SIGTARP data call, 4/8/2009.
      160. Treasury, Transactions Report, 3/31/2009, www.financialstability.gov, accessed 3/31/2009.
      161. Treasury Press Release, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed
           1/16/2009.
      162. Treasury, Transactions Report, 3/31/2009, www.financialstability.gov, accessed 3/31/2009.
      163. FDIC, “FDIC Press Release,” 1/16/2009, www.fdic.gov, accessed 1/23/2009.
      164. Treasury Press Release, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed
           1/16/2009.
      165. Treasury Press Release, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed
           1/16/2009.
      166. Bank of America Corp, “10-K,” 2/27/2009, www.sec.gov, accessed 4/17/2009.
      167. Treasury, response to SIGTARP draft report, 4/9/2009.
      168. Treasury, “Program Descriptions Automotive Industry Financing Program,” http://www.treas.gov, accessed 1/12/2009.
      169. White House Press Release, “Geithner, Summers Convene Official Designees to Presidential Task Force on the Auto Industry,” 2/20/2009, www.white-
           house.gov, accessed 3/10/2009.
      170. Treasury, Office of Financial Stability, SIGTARP briefing, 4/14/2009.
      171. Treasury, “Geithner, Summers Convene Official Designees to Presidential Task Force on the Auto Industry,” 2/20/2009, www.treas.gov, accessed
           3/16/2009.
      172. White House Press Release, “President Obama Announces Key Administration Posts,” 2/23/2009, www.whitehouse.gov, accessed 3/16/2009.
      173. White House Press Release, “Obama Administration New Path to Viability for GM & Chrysler,” 3/30/2009, www.whitehouse.gov, accessed 3/30/09.
      174. Treasury, “GM Viability Assessment,” 3/30/2009, www.financialstability.gov, accessed 4/3/2009.
                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009             165


175. Treasury, “Tranche Report to Congress,” 1/7/2009, www.financialstability.gov, accessed 4/14/2009.
176. Treasury, “General Motors Corporation 2009-2014 Restructuring Plan,” p. 20, 2/17/2009, www.treas.gov, accessed 2/17/2009.
177. Treasury, “General Motors Corporation 2009-2014 Restructuring Plan” pp. 35 – 36, 2/17/2009, www.treas.gov, accessed 2/17/2009.
178. Treasury, briefing on AIFP, 3/30/2009.
179. General Motors Corporation, Form 10-K, Exhibit 23.a, 3/5/09, www.sec.gov, accessed 3/5/2009.
180. Treasury Press Release, “Treasury Announces TARP Investment in GMAC,” 12/29/2008, www.treas.gov, accessed 1/16/2009.
181. GMAC, “GMAC Receives $5.0 Billion Investment from the U.S. Treasury,” 12/29/2008, www.gmacfs.com, accessed 1/13/2009.
182. Treasury, Transactions Report, 1/27/2009, www.financialstability.gov, accessed 4/14/2009.
183. SIGTARP Initial Report to Congress, Section 3: “TARP Implementation and Administration, Institution-specific Assistance,” 2/6/2009, www.sigtarp.gov,
     accessed 4/9/2009.
184. Treasury, “Chrysler’s Viability Assessment,” 3/30/2009, www.financialstability.gov, accessed 4/3/2009.
185. White House Press Release, “Obama Administration New Path to Viability for GM & Chrysler,” March 30, 2009, www.whitehouse.gov, accessed
     3/30/2009.
186. Treasury, briefing on AIFP, 3/30/2009.
187. Treasury, Fifth Tranche Report to Congress, 2/6/2009, www.financialstability.gov, accessed 4/14/2009.
188. Treasury, response to SIGTARP data call, 4/9/2009.
189. Treasury, SIGTARP briefing, 4/14/2009.
190. Treasury Press Release, “Treasury Announces Auto Supplier Support Program; Program Will Aid Critical Sector of American Economy,” 3/19/2009,
     www.treas.gov, accessed 3/19/2009.
191. Treasury Press Release, “Treasury Announces Auto Supplier Support Program; Program Will Aid Critical Sector of American Economy,” 3/19/2009,
     www.treas.gov, accessed 3/19/2009.
192. Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, www.treas.gov, accessed 3/19/2009.
193. Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, www.treas.gov, accessed 3/19/2009.
194. Treasury, briefing on ASSP, 3/18/2009.
195. Treasury, response to SIGTARP draft, 4/9/2009.
196. Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, www.treas.gov, accessed 3/19/2009.
197. Treasury, briefing on ASSP, 3/18/2009.
198. Treasury, “The U.S. Treasury Department Summary Response to February 6, 2009 Recommendations of SIGTARP,” 4/7/2009, accessed 4/ 7/2009.
199. Treasury, SIGTARP briefing, 4/14/2009.
200. Treasury, briefing on ASSP, 3/18/2009.
201. Treasury, briefing on ASSP, 3/18/2009.
202. Program Description: Treasury, briefing on ASSP, 3/18/2009; Discount Amounts: Treasury, response to SIGTARP draft, 4/9/2009.
203. Treasury, response to SIGTARP draft, 4/9/2009.
204. Treasury, response to SIGTARP draft, 4/9/2009.
205. Treasury, response to SIGTARP draft, 4/9/2009.
206. Treasury, briefing on ASSP, 3/18/2009.
207. Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.treas.gov, accessed 3/30/2009.
208. Treasury, SIGTARP briefing, 4/14/2009.
209. Treasury, “Obama Administration New Path to Viability for GM & Chrysler, GM and Chrysler Restructuring Fact Sheet,” 3/30/09, www.financialstability.
     gov, accessed 3/30/2009.
210. Treasury, briefing with OFS Compliance, 4/6/2009.
211. Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.treas.gov, accessed 3/30/2009.
212. Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.treas.gov, accessed 3/30/2009.
213. Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.treas.gov, accessed 3/30/2009.
214. HUD, “Glossary,” no date, www.hud.gov, accessed 3/31/2009.
215. Standard & Poor’s, “Guide to Credit Rating Essentials,” no date, www.standardandpoors.com, accessed 3/3/2009.
216. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
217. Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
218. Treasury, White Paper, “The Consumer Business and Lending Initiative,” 3/3/2009, www.treas.gov, accessed 3/10/2009.
219. FRBNY, “Monetary Report to Congress,” 2/24/2009, www.federalreserve.gov, accessed 3/10/2009.
220. Treasury, White Paper, “The Consumer Business and Lending Initiative,” 3/3/2009, www.treas.gov, accessed 3/27/2009.
221. Treasury, White Paper, “Public Private Investment Program,” 3/33/2009, www.treas.gov, accessed 3/27/2009.
222. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
223. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
224. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
166             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      225. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      226. FRBNY, response to SIGTARP draft report, 4/9/2009.
      227. FRBNY, response to SIGTARP draft report, 4/9/2009.
      228. OFS, FRBNY, response to SIGTARP draft report, 4/9/2009
      229. Treasury, “TALF LLC Credit Agreement,” 3/3/2009.
      230. FRBNY, response to SIGTARP draft report, 4/9/2009.
      231. Treasury, “TALF LLC Credit Agreement,” 3/3/2009.
      232. FRBNY, response to SIGTARP draft report, 4/9/2009.
      233. FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      234. FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      235. FRBNY, “Master Loan and Security Agreement,” 3/27/2009, www.newyorkfed.org, accessed 3/27/2009.
      236. FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      237. FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      238. FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      239. FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      240. FRBNY, response to SIGTARP draft report, 4/9/2009.
      241. FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 3/19/2009, www.newyorkfed.org, accessed 3/27/2009.
      242. Treasury, response to SIGTARP letter dated 3/4/2009, received 3/9/2009.
      243. Treasury, White Paper, “Public-Private Investment Program,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      244. FRBNY, Press Release, www.federalreserve.gov, 3/3/2009, accessed 3/27/2009.
      245. FRBNY, Press Release, www.federalreserve.gov, 3/3/2009, accessed 3/27/2009.
      246. Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treas.gov, accessed
           3/23/2009.
      247. Treasury indicated projected funding of $75 billion to $100 billion for the new PPIP. As of March 31, 2009, PPIP funds have not officially been commit-
           ted and thus this report uses a conservative estimate of $75 billion.
      248. Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      249. Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      250. Treasury, “Legacy Loans Program: Summary of Terms,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      251. Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      252. Treasury, response to SIGTARP draft, 4/9/2009.
      253. Treasury, “Legacy Loans Program: Summary of Terms,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      254. Treasury, “Legacy Loans Program: Summary of Terms,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      255. Treasury, “Legacy Loans Program: Summary of Terms,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      256. Treasury, “Legacy Loans Program: Summary of Terms,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      257. Treasury, response to SIGTARP draft, 4/9/2009. Treasury, “Legacy Securities Public-Private Investment Funds: Summary of Terms,” 4/6/2009, www.
           treas.gov, accessed 4/6/2009.
      258. Treasury, “Legacy Securities Public-Private Investment Funds: Summary of Terms,” 4/6/2009, www.treas.gov, accessed 4/6/2009.
      259. Treasury, “Legacy Securities Public-Private Investment Funds: Summary of Terms,” 4/6/2009, www.treas.gov, accessed 4/6/2009.
      260. Treasury, “Legacy Securities Public-Private Investment Funds: Summary of Terms,” 4/6/2009, www.treas.gov, accessed 4/6/2009.
      261. Treasury, “Legacy Securities Public-Private Investment Funds: Summary of Terms,” 4/6/2009, www.treas.gov, accessed 4/6/2009.
      262. Treasury, “Legacy Securities Public-Private Investment Funds: Summary of Terms,” 4/6/2009, www.treas.gov, accessed 4/6/2009.
      263. Treasury, “Public-Private Investment Program: White Paper,” 3/23/2009, www.treas.gov, accessed 3/23/2009.
      264. Treasury Office of General Counsel, response to SIGTARP draft, 4/9/2009.
      265. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
      266. SBA, “Recovery Act: Frequently Asked Questions,” no date, www.treas.gov, accessed 3/18/2009.
      267. SBA, “Recovery Act: Frequently Asked Questions,” no date, www.treas.gov, accessed 3/18/2009.
      268. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
      269. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
      270. GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions Could Improve 7(a) Program Oversight,”
           2/12/2009, www.gao.gov, accessed 3/17/2009.
      271. GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions Could Improve 7(a) Program Oversight,”
           2/12/2009, www.gao.gov, accessed 3/17/2009.
      272. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
      273. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 21, 2009               167


274. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009; Treasury, “Unlocking Credit
     for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
275. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
276. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
277. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
278. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
279. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
280. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
281. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
282. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
283. Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed 3/17/2009.
284. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
285. Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed 3/18/2009.
286. Treasury, response to SIGTARP draft, 4/9/2009.
287. Emergency Economic Stabilization Act of 2008, P.L. 109, 10/3/2008.
288. Emergency Economic Stabilization Act of 2008, P.L. 109, 10/3/2008.
289. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
290. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
291. Treasury, “Making Home Affordable: Summary Guidelines,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
292. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
293. Treasury, “Home Affordable Modification Guidelines: March 4, 2009,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
294. Treasury, “Home Affordable Modification Guidelines: March 4, 2009,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
295. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
296. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
297. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
298. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
299. Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed 3/4/2009.
300. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
301. Office of the Special Inspector General, “Engagement Memo — Audit of the Use of TARP Funds and Audit of Controls Over Executive Compensation,”
     2/5/2009.
302. Office of the Special Inspector General, “Engagement Memo — Review of Federal Oversight of Executive Compensation Requirements Including
     Bonus Payments to AIG and Other TARP Recipients,” 3/20/2009.
303. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
304. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
305. Treasury, “Treasury Regulation 31 CFR Part 30,” 10/14/2008.
306. Treasury, “Notice 2008-PSSFI,” 1/16/2009, www.treas.gov, accessed 1/19/2009.
307. Treasury, “Notice 2008-PSSFI,” 1/16/2009, www.treas.gov, accessed 1/19/2009.
308. Treasury, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/12/2009, www.treas.gov, accessed 3/4/2009.
309. Treasury, “Treasury Announces New Restrictions on Executive Compensation,” 2/4/2009,www.treas.gov, accessed 3/20/2009.
310. Treasury, “Treasury Announces New Restrictions on Executive Compensation,” 2/4/2009,www.treas.gov, accessed 3/20/2009.
311. Treasury, “Treasury Announces New Restrictions on Executive Compensation,” 2/4/2009, www.treas.gov, accessed 3/20/2009.
312. Treasury Office of General Counsel, response to SIGTARP draft report, 4/9/2009.
313. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
314. Treasury Office of General Counsel, response to SIGTARP draft report, 4/9/2009.
315. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
316. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
317. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
318. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
319. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
320. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
321. American Recovery and Reinvestment Act of 2009, P.L 111-5, 2/17/2009.
322. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
323. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
324. Treasury, response to SIGTARP data call, 4/08/2009.
168            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      325. Treasury, response to SIGTARP data call, 4/08/2009.
      326. Treasury, response to SIGTARP data call, 4/08/2009.
      327. GAO-09-504, “Troubled Asset Relief Program: March 2009 Status of Efforts to Address Transparency and Accountability Issues,” 3/31/2009.
      328. Congressional Budget Office, “Congressional Budget Office Press Release,” 09/28/2008, www.cbo.gov, accessed 1/15/2009.
      329. Treasury, response to SIGTARP data call, 4/08/2009.
      330. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      331. Treasury, response to SIGTARP data call, 4/08/2009.
      332. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      333. Treasury, “U.S. Department of Treasury Press Release,” 10/6/2008, www.treasury.gov, accessed 1/15/2009.
      334. TARP Conflicts of Interest, Interim Rule, Billing Code 4810-25-P, 1/21/2009.
      335. GAO-09-161, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,”
           12/2/2008.
      336. GAO-09-161, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,”
           12/2/2008.
      337. Treasury, “Summary Response to Recommendations in December 2008 GAO Report,” 1/22/2009.
      338. Treasury, “SIGTARP’s Recommendations for the Operation of TARP, Comments by the Office of Financial Stability,” 4/13/2009.
      339. Treasury, “SIGTARP’s Recommendations for the Operation of TARP, Comments by the Office of Financial Stability,” 4/13/2009.
      340. Treasury, “SIGTARP’s Recommendations for the Operation of TARP, Comments by the Office of Financial Stability,” 4/13/2009.
           Sources for Figure 2.1. TARP Projected Funding: CPP, TALF, and PPIP: Treasury, Office of Financial Stability, Chief of Compliance and CFO,
           SIGTARP interview, 3/30/2009; AIFP: Treasury, Fifth Tranche Report to Congress, 3/6/2009, p. 2 states that Treasury will fund an additional $4
           billion on 3/17/2009; ASSP: Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, www.treas.
           gov, accessed 3/19/2009; UCSB: Treasury, “Unlocking Credit for Small Businesses: FAQ on Implementation,” 3/17/2009, www.treas.gov, accessed
           3/18/2009; SSFI: Treasury, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/2/2009, www.treas.
           gov, accessed 3/4/2009; TIP: Treasury, Transactions Report, 4/2/2009; AGP: Treasury, “Treasury, Federal Reserve, and FDIC Provide Assistance
           to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009; Treasury, “U.S. Government Finalizes Terms of Citi Guarantee Announced
           in November,” 1/16/2009, www.treas.gov, accessed 3/30/2009; TALF: Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, www.treas.gov,
           accessed 3/17/2009; MHA: Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov, accessed
           3/4/2009; GAO, “Report to Congressional Committees: Troubled Asset Relief Program — March 2009 Status of Efforts to Address Transparency
           and Accountability Issues,” 3/26/2009; PPIP: Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, www.treas.gov, accessed
           3/23/2009; Treasury, SIGTARP briefing, 4/14/2009.
                                                                                                                                   GLOSSARY I APPENDIX A                 169



GLOSSARY
This appendix provides a glossary of terms that are used throughout the context of this report.

504 Community Development Loan Program: SBA loan program                            Bank Holding Company (“BHC”): “A company that owns and/or controls
combining Government-guaranteed loans with private-sector mortgage loans            one or more U.S. banks or one that owns, or has controlling interest in, one
to provide up to $10 million in financing for community development.                or more banks. A bank holding company may also own another bank holding
                                                                                    company, which in turn owns or controls a bank; the company at the top of
7(a) Program: SBA loan program guaranteeing a percentage of loans for               the ownership chain is called the top holder.”
small businesses that cannot otherwise obtain conventional loans at reason-
able terms.                                                                         Baseline Value: In reference to Citigroup Master Agreement, Baseline Value
                                                                                    is the value of each covered asset on November 21, 2008. For mark-to-
Accrual Assets: In the context of the Citigroup Master Agreement, accrual           market assets, it is the fair market value, and accrual assets, it is the unpaid
assets are those that are held on the bank’s books at accrued value (i.e., gains    principal balance.
and accruals are earned but not necessarily received), as opposed to “mark-
to-market” value.                                                                   Basic Exchange: In reference to Citigroup exchange offer, taking one type
                                                                                    of stock (i.e., preferred) and converting it at a specific rate to another type of
Annual Coupon Rate: The annual amount of interest scheduled to be paid              stock (i.e., common).
on a fixed income investment, such as a bond or a mortgage.
                                                                                    Basis Points: One-hundredth of a percentage point. (For example, the differ-
Asset-Backed Security (“ABS”): “A type of financial security that is very           ence between interest rates of 5.5% and 5.0% is 50 basis points.)
similar in structure to a mortgage-backed security (see Mortgage-Backed
Security), but is backed by a pool of consumer loans and generally does not         Bonus Pool: A pool or fund of money accumulated during the year by a busi-
include mortgage loans. Most ABSs are backed by credit card receivables,            ness to be paid out at the end of a specified time period, typically a year, as
auto loans, student loans, or other loan and lease obligations.”                    compensation to employees of the business as a reward for achieving certain
                                                                                    defined levels of company and/or employee performance.
Asset Guarantee Program (“AGP”): “Established under section 102 of
EESA, allows the Department of the Treasury to assume a loss position with          Call Report: Quarterly report of financial condition commercial banks file
specified attachment and detachment points on certain assets held by the            with their Federal and state regulatory agencies.
qualifying financial institution; the set of insured assets would be selected
by the Treasury and its agents in consultation with the financial institution       Capital: “Tangible and intangible resources that can be used or invested to
receiving the guarantee.”                                                           produce a stream of benefits over time.”

Auction: “An asset sales strategy in which assets are sold either individually      Capital Purchase Program (“CPP”): The Capital Purchase Program is a
or in pools to the highest bidder.”                                                 program that is part of the Troubled Asset Relief Program (“TARP”). It is a
                                                                                    program that will invest in Qualifying Financial Institutions by purchasing
Automotive Industry Financing Program (“AIFP”): The Automotive                      preferred stock and equity warrants.
Industry Financing Program was created to provide strategic investments in
U.S. automotive companies to prevent a significant disruption of the U.S.           Clawback: In reference to EESA, “Provision for the recovery of bonuses or
automotive industry or to financial markets.                                        incentive compensation paid to a senior executive based on statements of
                                                                                    earnings, gains, or other criteria that are later proven to be materially inac-
Bad Bank: An entity (the “bad bank”) that is legally separated from the bank        curate.”
that created it (the “good bank”) and into which are placed problem loans
(or other troubled assets). Usually created by banks seeking to clean up their      Closing Date: In reference to the Citigroup Master Agreement, “the time
balance sheets.                                                                     and date on which the closing occurs is the closing date.”

Balance Sheet: “The balance sheet is a snapshot of a company’s financial            Collateral: An asset pledged by a borrower to a lender until a loan is repaid.
standing at an instant in time. The balance sheet shows a company’s financial
position, what it owns (assets) and what it owes (liabilities). The ‘bottom line’   Collateralized: Securing a loan with assets.
of a balance sheet must always balance (i.e., assets = liabilities + net worth).”
                                                                                    Collateralized Debt Obligation (“CDO”): “A collateralized debt obligation
Bank: “Means:                                                                       (CDO) is a security that entitles the purchaser to some portion of the cash
A. a banking institution organized under the laws of the United States, or          flows from a portfolio of assets, which may include bonds, loans, mortgage-
   a Federal savings association, as defined in section 2(5) of the Home            backed securities, or other CDOs. For a given pool, CDOs designated as
   Owners’ Loan Act [12 USCS 1462(5)],                                              senior debt, mezzanine debt, subordinated debt, and equity often are issued.”
B. a member bank of the Federal Reserve System,
C. any other banking institution, whether incorporated or not, doing busi-          Commercial Mortgage-Backed Securities (“CMBS”): “A financial instru-
   ness under the laws of any State or of the United States, a substantial          ment that is backed by a mortgage or a group of mortgages that are packaged
   portion of the business of which consists of receiving deposits or exer-         together. The security is bought and sold in financial markets. An MBS can
   cising fiduciary powers similar to those permitted to national banks under       be backed either by residential real estate loans (“RMBS”) or commercial real
   the authority of the Comptroller of the Currency pursuant to section 92a         estate loans (“CMBS”).”
   of Title 12, and which is supervised and examined by State or Federal
   authority having supervision over banks, and which is not operated for           Commitment: “Any legally binding arrangements that obligate a bank to
   the purpose of evading the provisions of this title, and                         extend credit in the form of loans or lease financing receivables; to purchase
D. a receiver, conservator, or other liquidating agent of any institution or        loans, securities, or other assets; or to participate in loans and leases.
   firm included in clauses (A), (B), or (C) of this paragraph.”                    Commitments also include overdraft facilities, revolving credit, home equity
170             APPENDIX A I GLOSSARY



      and mortgage lines of credit, eligible ABCP liquidity facilities, and similar       Party A may require Party B to make an equity investment in Party A.
      transactions. Normally, commitments involve a written contract or agreement
      and a commitment fee, or some other form of consideration.”                         Equity Interest: See Equity.

      Common Stock: “A security that provides voting rights in a corporation and          Equity Security: “Any stock or similar security, certificate of interest or
      pays a dividend after preferred stock holders have been paid.”                      participation in any profit sharing agreement, preorganization certificate
                                                                                          or subscription, transferable share, voting trust certificate or certificate of
      Convertible Preferred Stock: Traditionally, “convertible preferred stock”           deposit for an equity security, limited partnership interest, interest in a joint
      referred to preferred stock that could be converted into common stock at            venture, or certificate of interest in a business trust; any security future on
      the option of the shareholder. In the context of TARP’s CAP, however, the           any such security; or any security convertible, with or without consider-
      conversion is at the option of the QFI (qualifying financial institution), and      ation into such a security, or carrying any warrant or right to subscribe to
      the shareholder must mandatorily accept common stock upon notice of                 or purchase such a security; or any such warrant or right; or any put, call,
      conversion.                                                                         straddle, or other option or privilege of buying such a security from or selling
                                                                                          such a security to another without being bound to do so.”
      Covered Asset: In reference to the Citigroup Master Agreement, Covered
      Asset is an asset owned by Citigroup or any of its subsidiaries that is included    Exceptional Assistance: In reference to TARP, institutions requiring assis-
      in the ring-fence.                                                                  tance beyond the assistance of the widely available program (i.e., CPP and
                                                                                          CAP) are classified as requiring “Exceptional Assistance.”
      Credit Enhancement: “Techniques whereby a company attempts to reduce
      the credit risk of its obligations. Credit enhancement may be provided by a         Executive Compensation: The terminology for how top executives of
      third party (external credit enhancement) or by the originator (internal credit     business corporations are paid for the services they provide. The forms of
      enhancement), and more than one type of enhancement may be associated               compensation typically include a base salary, bonuses, shares, options, and
      with a given issuance.” For example, an MBS issuer may purchase an insur-           other company benefits.
      ance policy which will pay investors if MBS losses rise above a certain level.
                                                                                          Expenditure: The actual spending of money — an outlay.
      Credit Protection: Security against losses on an investment. For TALF
      purposes, TARP funding is used as credit protection on the Federal Reserve          Expense: “Outflow or other depletion of assets or incurrences of liabilities
      loans (i.e., losses on the loans are absorbed by TARP funds up to the commit-       (or a combination of both) during some period as a result of providing goods,
      ment amount).                                                                       rendering services, or carrying out other activities related to an entity’s
                                                                                          programs and missions, the benefits from which do not extend beyond the
      Credit Rating: An assessment of the willingness and ability to pay of a             present operating period.”
      borrower for a fixed-income security. Ratings are issued primarily by national
      firms such as Moody’s, Standard & Poor’s, and Fitch.                                Facility: In the context of finance, a “facility” is an agreement between two
                                                                                          parties under which one may require the other to provide capital to the
      CUSIP: CUSIP stands for Committee on Uniform Securities Identification              requestor. The provider of the facility provides funds in the form of either
      Procedures. A CUSIP number identifies most securities, including stocks             debt or equity.
      of all registered U.S. and Canadian companies, and U.S. Government and
      municipal bonds.                                                                    Federal Banking Agency (“FBA”): “The term appropriate Federal banking
                                                                                            agency means—
      Custodian: “A bank, trust, or other financial institution that agrees to hold       (1) the Comptroller of the Currency, in the case of any national banking
      and manage assets on behalf of another person or entity.”                               association, or any Federal branch or agency of a foreign bank;
                                                                                          (2) the Board of Governors of the Federal Reserve System, in the case of—
      Default: The failure to live up to the terms of a contract. Generally, default is       (A) any State member insured bank,
      used to indicate the inability of a borrower to pay the interest or principal on        (B) any branch or agency of a foreign bank with respect to any provi-
      a debt when it is due.                                                                  sion of the Federal Reserve Act which is made applicable under the
                                                                                              International Banking Act of 1978,
      Derivative Asset: An asset whose stated value or cash flow is determined by             (C) any foreign bank which does not operate an insured branch,
      reference to the value or cash flow of another asset (the “underlying asset”).          (D) any agency or commercial lending company other than a Federal
                                                                                              agency,
      Derivative Instrument: See Derivative Asset.                                            (E) supervisory or regulatory proceedings arising from the authority given
                                                                                              to the Board of Governors under section 7(c)(1) of the International
      Distributions: Payments of cash or other consideration from a trust fund or             Banking Act of 1978, including such proceedings under the Financial
      corporation to an investor.                                                             Institutions Supervisory Act of 1966, and
                                                                                              (F) any bank holding company and any subsidiary of a bank holding
      Divestiture: Change of ownership and/or control of a business from a                    company (other than a bank);
      majority (non-disadvantaged) to disadvantaged persons.                              (3) the Federal Deposit Insurance Corporation in the case of a State
                                                                                              nonmember insured bank, or a foreign bank having an insured branch;
      Dividend: “Distributions to stockholders of cash or stock declared by the               and
      company’s board of directors.”                                                      (4) the Director of the Office of Thrift Supervision in the case of any savings
                                                                                              association or any savings and loan holding company.
      Emergency Economic Stabilization Act of 2008 (“EESA”): “An act                          Under the rule set forth in this subsection, more than one agency may
      to provide authority for the Federal Government to purchase and insure                  be an appropriate Federal banking agency with respect to any given
      certain types of troubled assets for the purposes of providing stability to and         institution.”
      preventing disruption in the economy and financial system and protecting
      taxpayers, to amend the Internal Revenue Code of 1986 to provide incentives         Federal Funds Rate: “The interest rate that financial institutions charge
      for energy production and conservation, to extend certain expiring provisions,      each other for overnight loans of their monetary reserves.”
      to provide individual income tax relief, and for other purposes.”
                                                                                          Financial Guarantor Counterparty Exposure: The maximum amount that
      Equity: The ownership interest of stockholders in a company.                        may be lost by a financial institution if there is a failure to pay a financial

      Equity Capital Facility: An agreement between two parties under which
                                                                                                                                  GLOSSARY I APPENDIX A                  171


guaranty claim by the financial institution (the “counterparty”) who had            Insolvent: A condition where a financial institution has liabilities that exceed
promised to guarantee against a loss.                                               its assets. By definition, shareholders’ equity in such a situation would be
                                                                                    negative.
Financial Stability Plan: Plan to stabilize and repair the financial system,
and support the flow of credit necessary for recovery.                              Interest: “Interest means any payment to a consumer or to an account for
                                                                                    the use of funds in an account, calculated by application of a periodic rate
Fiscal Year: “A yearly accounting period. The Federal Government’s fiscal           to the balance. The term does not include the payment of a bonus or other
year begins October 1 and ends September 30. Fiscal years are designated            consideration worth $10 or less given during a year, the waiver or reduction
by the calendar years in which they end — for example, fiscal year 2009 will        of a fee, or the absorption of expenses.”
begin on October 1, 2008, and end on September 30, 2009. The budget
year is the fiscal year for which the budget is being considered; in relation       In-the-Money: “A term used to describe an option contract that has a posi-
to a session of Congress, it is the fiscal year that starts on October 1 of the     tive value if exercised. A call with a strike price of $390 on gold trading at
calendar year in which that session of Congress began.”                             $400 is in-the-money by $10.”

Floorplan: In reference to the TALF program, revolving lines of credit              Legacy Assets: Also known as troubled assets, real estate-related loans and
(similar to a credit card) to finance automobile dealer inventories (cars on the    securities that remain on banks’ balance sheets and that have lost value, but
lot). A form of retail goods inventory financing in which each loan advance is      are difficult to price due to the recent market disruption.
made against a specific piece of collateral. As each piece of collateral is sold
by the dealer, the loan advance against the piece of collateral is repaid.          Legacy Loans: Underperforming real estate-related loans held by a bank that
                                                                                    it wishes to sell, but recent market disruptions have made difficult to price.
Generally Available Programs: Programs having the same terms for all
recipients, with limits on the amount each institution may receive and speci-       Legacy Securities: Troubled real estate-related securities [Residential
fied returns for taxpayers (i.e., CPP or CAP).                                      Mortgage-Backed Securities (“RMBS”), Commercial Mortgage-Backed
                                                                                    Securities (“CMBS”), and Asset-Backed Securities (“ABS”)] on institutions’
Going Concern: Term used by auditors to refer to a company that is able to          balance sheets due to an inability to determine value.
operate into the foreseeable future.
                                                                                    Leverage: The ratio of a company’s debt to its equity.
Golden Parachute (as defined in original Section 111 of EESA):
Compensation to (or for the benefit of) a senior executive officer made upon        LIBOR: “The London Interbank Offered Rate. The rate of interest at which
severance from employment that exceeds specified thresholds. Under EESA,            banks borrow funds from other banks, in marketable size, in the London
such compensation is limited to three times the executive’s annual base             interbank market. LIBOR rates are disseminated by the British Bankers
salary.                                                                             Association. Some interest rate futures contracts, including Eurodollar
                                                                                    futures, are cash settled based on LIBOR.”
Golden Parachute (definition under ARRA): Any payment to a senior
executive officer for departure from a company for any reason, except for           Liquidity: A measure of the ease with which assets can be bought and sold
payments for services performed or benefits accrued.                                in the markets, often characterized by “bid” and “asked” prices that are close,
                                                                                    and the presence of a willing pool of buyers and sellers. In the context of
Guarantee: A commitment from a third-party lending institution ensuring             financial institution balance sheets, “liquidity” often refers to the availability
that liabilities of a borrower will be met. If the borrower fails to make           of cash for lending.
payments, the guarantor will step in and make the payment on the borrower’s
behalf.                                                                             Loan Portfolio: The total amount of dollars the bank has lent to customers
                                                                                    and expects to be repaid.
Guaranty: Can be used interchangeably with Guarantee. Historically,
guarantee had been used as a verb and guaranty had been used as a noun.             Loan-to-value ratio: In real estate lending, the amount of the loan divided
Guaranty is now primarily seen in financial and banking contexts.                   by the appraised value of the property underlying the loan.

Haircut: Difference in the value of the collateral and the value of the loan;       Market Capitalization: The value of a corporation determined by multi-
that is, the collateral value of the loan minus the loan amount. For example:       plying the current market price of one share of the corporation by the
A borrower has $100 worth of collateral for a loan. The bank issues the             number of total outstanding shares. This metric is often used to determine
borrower a $90 loan backed by the $100 of collateral. The bank has applied          the aggregate value of a company.
a 10% haircut to that collateral. Generally, the higher the haircut, the riskier
the collateral is perceived to be.                                                  Market Value: The price at which an asset can be sold in an orderly market,
                                                                                    to a willing buyer by a willing seller, in a reasonable amount of time.
Holding Company: A company whose primary business is holding a control-
ling interest in the securities of other companies. Technically, “A) any bank       Mark-to-Market Assets: In the context of the Citigroup Master Agreement,
holding company (as defined in section 2 of the Bank Holding Company Act            the portion of the covered assets that are valued at current market value.
of 1956); B) any company described in section 4(f)(1) of the Bank Holding
Company Act of 1956; and C) any savings and loan holding company (as                Mortgage Holder: Investor/lender who owns the right to the borrower’s
defined in the Home Owners’ Loan Act).”                                             monthly payments.

HOPE for Homeowners Program: “A program under the Department                        Mortgage-Backed Securities (“MBS”): “Debt obligations that represent
of Housing and Urban Development (“HUD”), designed to help mortgage                 claims to the cash flows from pools of mortgage loans, most commonly
borrowers at risk of default and foreclosure to refinance into more affordable,     on residential property. Mortgage loans are purchased from banks, mort-
sustainable loans which are in turn guaranteed by HUD.”                             gage companies, and other originators and then assembled into pools by a
                                                                                    Governmental, quasi-Governmental, or private entity. The entity then issues
Illiquid: Assets that cannot be quickly converted to cash.                          securities that represent claims on the principal and interest payments made
                                                                                    by borrowers on the loans in the pool, a process known as securitization.”
Impaired Capital: “Capital position of a bank where the par value of all of
its capital stock is less than the sum of paid in capital, surplus, and undivided   Mutual Organization: A company that is owned effectively by its customers,
profits.”                                                                           through shares of ownership related to the depositors.
172             APPENDIX A I GLOSSARY



      Net Loss: Net loss occurs when total expenses exceed total revenues.               Private-Label Residential Mortgage-Backed Securities: A mortgage-
                                                                                         backed security that is backed by private-label mortgages.
      Net Present Value: “The present value of the estimated future cash inflows
      minus the present value of the cash outflows.”                                     Procurement: “In the Federal Government, the process of obtaining
                                                                                         services, supplies, and equipment in conformance with applicable laws and
      Non-Agency Residential Mortgage-Backed Securities: Mortgage-backed                 regulations.”
      securities in which the securities, and the loans underlying the securities, are
      serviced or originated by private investors and not by Fannie Mae or Freddie       Professional Forecaster: Economic forecasters conduct analysis to predict
      Mac.                                                                               economic growth, inflation, interest rates, and many other critical indica-
                                                                                         tors of future business activity. Provides an expert opinion on the future
      Non-Cumulative Preferred Shares: Shares where unpaid dividends do not              performance of the economy. The three forecasters used for the purpose of
      accrue when a company misses a dividend payment.                                   the Stress Test were the Consensus Forecasts, the Blue Chip Survey, and the
                                                                                         Survey of Professional Forecasters.
      Non-Recourse Funding/Loan: “A debt for which the debtor’s obligation to
      repay is limited to the collateral securing the debt and for which a deficiency    Profit: The difference between the selling price of a good and the cost of that
      judgment against the debtor is not permitted, and would limit the amount of        good.
      a non-recourse debt to the net equity in the collateral, as defined.”
                                                                                         Prospectus: See Offering Documents.
      Obligation: The legal responsibility to make a payment to another party,
      usually by contract.                                                               Public Applicant: In reference to TARP, a public applicant is a Qualifying
                                                                                         Financial Institution whose securities are traded on a national securities
      Offering Documents: Documents which disclose and describe a securities             exchange and that is required to file, under national securities laws, periodic
      offering to either public or private investors, containing information required    reports with either the Securities and Exchange Commission or its primary
      under Federal and state securities laws as applicable.                             Federal banking regulator.

      Office of Financial Stability (“OFS”): “Office within the Department of the        Purchasing Authority: The authority to purchase goods and services.
      Treasury created by EESA to operate the TARP.”
                                                                                         Qualifying Financial Institution (“QFI”): As it relates to TARP, “Qualifying
      Overcollateralization: The pledge of more collateral than the face amount          Financial Institution (QFI) means (i) any U.S. bank or U.S. savings associa-
      of a loan. See Haircut definition for an example.                                  tion not controlled by a Bank Holding Company (‘BHC’) or Savings and
                                                                                         Loan Company (‘SLHC’); (ii) any top-tier U.S. BHC, (iii) any top-tier U.S.
      Pool: A collection of assets, usually fixed-income assets such as loans or         SLHC which engages solely or predominately in activities that are permitted
      mortgages, placed into a legally separate account for the benefit of certain       for financial holding companies under relevant law; and (iv) any U.S. bank
      investors.                                                                         or U.S. savings association controlled by a U.S. SLHC that does not engage
                                                                                         solely or predominately in activities that are permitted for financial holding
      Pool Assemblers: See Securities Issuer.                                            companies under relevant law. QFI shall not mean any BHC, SLHC, bank or
                                                                                         savings association controlled by a foreign bank or company.”
      Preferred Stock: “A form of ownership in a company that generally entitles
      the owner of the shares (an investor) to collect dividend payments. Preferred      Realized Profit or Loss: The profit or loss realized by an investor on a secu-
      shares are senior to common stock, but junior to debt.”                            rity after it has been finally sold and all costs and benefits of the holding have
                                                                                         been accounted for.
      Premium(s): As referenced in a financial guaranty discussion, the institu-
      tion receiving the guarantee pays the guarantor an agreed-upon amount for          Receivables: Accounts receivable represent claims to cash or other assets
      the protection offered by the guarantee — the same way auto insurance              that arise from the sale of goods or services, duties, certain license fees,
      premiums ensure protection for damage or loss.                                     recoveries, or other provisions of the law.

      President’s Corporate Fraud Task Force: The President’s Corporate Fraud            Redeem: To buy back a prior obligation. In the case of CAP, the QFI can buy
      Task Force was created by Executive Order of President George W. Bush to           back (redeem) its CPP shares with the funds received from the CAP invest-
      “provide direction for the investigation and prosecution of cases of securi-       ment.
      ties fraud, accounting fraud, mail and wire fraud, money laundering, tax
      fraud based on such predicate offenses, and other related financial crimes         Regulatory Capital: The net capital position of a financial institution as
      committed by commercial entities and directors, officers, professional             determined by the rules of the applicable Federal or state banking regulator.
      advisers, and employees thereof.” Created in 2002, it is an inter-agency group
      that coordinates enforcement efforts among several agencies including the          Reorganization: A plan overseen by a bankruptcy court under which a
      Department of Justice, the Commodities Futures Trading Commission, the             debtor firm resolves its obligations to its creditors and recapitalizes for the
      Federal Energy Regulatory Commission, Treasury, Labor, the Securities and          future.
      Exchange Commission, and U.S. Postal Inspection Service.
                                                                                         Restructuring Period: Begins the date the announcement to restructure was
      President’s Designee: One or more officers from the Executive Branch               made and ends the date that restructuring is complete.
      designated by the President.
                                                                                         Restructuring Plan: A plan to achieve and sustain the long-term viability,
      Primary Dealer: “S securities dealer or Government securities dealer that is       international competitiveness, and energy efficiency of the Company and its
      designated as a primary dealer by the Federal Reserve Bank of New York from        subsidiaries.
      time to time.”
                                                                                         Revenue: Money obtained for sale of goods and services during a specific
      Private Applicant: In reference to TARP, a private applicant is any                period.
      Qualifying Financial Institution whose shares are not traded on a national
      securities exchange, excluding S corporations and mutual organizations.            Rights Offering: “Means offers and sales for cash of equity securities where:
                                                                                         1) The issuer grants the existing security holders of a particular class of
      Private-Label Mortgage: Loans that are not issued or guaranteed by Fannie          equity securities (including holders of depositary receipts evidencing those
      Mae, Freddie Mac, Ginnie Mae, or other Federal agency.                             securities) the right to purchase or subscribe for additional securities of that
                                                                                                                                     GLOSSARY I APPENDIX A                173


class; and 2) The number of additional shares an existing security holder may           any interest or instrument commonly known as a ‘security,’ or any certificate
purchase initially is in proportion to the number of securities he or she holds         of interest or participation in, temporary or interim certificate for, receipt
of record on the record date for the rights offering. If an existing security           for, guarantee of, or warrant or right to subscribe to or purchase, any of the
holder holds depositary receipts, the proportion must be calculated as if the           foregoing.”
underlying securities were held directly.”
                                                                                        Securities Issuer: A separate legal entity that buys cash-flow-producing
Ring-Fencing: Segregating assets from the rest of a financial institution,              assets such as loans, pools them together, and sells portions of the pools of
often so that the assets’ problems can be addressed in isolation.                       loans as securities.

Risk-Based Premium: A premium is the price of insurance protection for a                Securitization: “The process by which financial assets are transformed into
specified risk for a specified period of time. A risk-based premium is where            securities.”
the price paid escalates in line with the probability of default and loss upon
default.                                                                                Senior Debt: Debt that is ranked higher than subordinated debt in the event
                                                                                        of a liquidation or bankruptcy restructuring.
Risk-Weighted Assets: “The amount of a bank’s total assets after adjusting
based on the risk factor assigned to each individual asset.”                            Senior Executive Officer (“SEO” as defined in ARRA): An individual who
                                                                                        is one of the top five most highly paid executives of a public company, whose
S Corporation: “Any U.S. bank, U.S. savings association, bank holding                   compensation is required to be disclosed pursuant to the Securities Exchange
company (“BHC”), or savings and loan holding company (“SLHC”) organized                 Act of 1934, and any regulations issued thereunder, and non-public company
such that it is exempt from most Federal income taxes as they are passed                counterparts.
through to the shareholders.”
                                                                                        Senior Executive Officer (“SEO” as defined in EESA): The top five highly
Savings and Loan Association: “A financial institution that accepts deposits            paid executives.
primarily from individuals and channels its funds primarily into residential
mortgage loans.”                                                                        Senior Oversight Committee (“SOC”): In reference to Citigroup Master
                                                                                        Agreement, SOC consists of Citigroup’s Chief Financial Officer, Chief Risk
Savings and Loan Holding Company (“SLHC”): Any company that                             Officer, General Counsel, Controller, Chief Accounting Officer, and the
directly or indirectly controls a savings association or that controls any other        Treasurer.
company that is a savings and loan holding company, excluding bank holding
companies that are registered under, and subject to, the Bank Holding                   Senior Preferred Stock: Shares that give the stockholder priority dividend
Company Act of 1956, or to any company directly or indirectly controlled by             and liquidation claims over junior preferred and common stockholders.
such company (other than a savings association).
                                                                                        Senior Secured Interest: A senior proprietary right in a debtor’s property
Savings Association: “Any Federal savings association or Federal savings                that secures payment for performance of an obligation.
bank; any building and loan association, savings and loan association,
homestead association, or cooperative bank if such association or coopera-              Servicing Advance Receivables: Receivables accrued by a loan servicing
tive bank is a member of the Deposit Insurance Fund; and any savings bank               company when it advances its own funds for customary expenses involved in
or cooperative bank which is deemed by the Director of the Office of Thrift             servicing a portfolio of loans. Examples of such expenses include collection
Supervision to be a savings association under section 10(1) of the Home                 expenses, property maintenance, etc.
Owners’ Loan Act.”
                                                                                        Settlement: The physical act of exchanging cash for securities on the settle-
Say on Pay: In reference to TARP, “say on pay” is a provision where execu-              ment date.
tive compensation must be approved by shareholders.
                                                                                        Settlement Date: The closing date for the sale of an investment, similar to
Schedule A: In reference to the Citigroup Master Agreement, Schedule A lists            the closing date for a home purchase. On the settlement date (three days
covered assets.                                                                         after trade in the case of U.S. equities), funds and securities trade hands and
                                                                                        any necessary legal documents are signed.
Second Lien Debt: Debt that is ranked lower than senior debt in the event
of a liquidation or bankruptcy restructuring.                                           Skin in the Game: Equity stake in an investment; down payment; amount
                                                                                        an investor can lose.
Secondary Market: Created when banks sell a portion of their loans to a
dealer who then pools the loans together and sells portions of the loan pools           Special Inspector General for the Troubled Asset Relief Program Act of
as securities to investors. The secondary market serves as a source of cash for         2009: Would expand the authority of the TARP Special Inspector General
banks, providing them money to make new loans.                                          to conduct, supervise, and coordinate audits and investigations regarding any
                                                                                        action taken pursuant to EESA.
Secure: A process where the borrower offers an asset to which the lender has
access in the event of the borrower failing to make repayment. A mortgage               Special Purpose Company: See Special Purpose Vehicle.
backed by property is an example.
                                                                                        Special Purpose Vehicle (“SPV”): “Any vehicle that places the trans-
Securities: A security is “any note, stock, treasury stock, security future,            ferred assets presumptively beyond the reach of the transferor (e.g., legally
bond, debenture, evidence of indebtedness, certificate of interest or                   isolated).”
participation in any profit-sharing agreement, collateral-trust certificate,
preorganization certificate or subscription, transferable share, investment             Spread: The difference between the interest rate paid and the interest rate
contract, voting-trust certificate, certificate of deposit for a security, fractional   received.
undivided interest in oil, gas, or other mineral rights, any put, call, straddle,
option, or privilege on any security (including a certificate of deposit) or on         Strike Price: “The price, specified in the option contract, at which the
any group or index of securities (including any interest therein or based on            underlying futures contract, security, or commodity will move from seller to
the value thereof), or any put, call, straddle, option, or privilege entered into       buyer.” Also called exercise price.
on a national securities exchange relating to foreign currency, or, in general,
174             APPENDIX A I GLOSSARY



      Subordinated: A claim that is lower in rank than senior in the event of a         through an agreement known as the “Basel II Accord.”
      liquidation or reorganization.
                                                                                        Tier One Capital Ratio (“T1 Ratio”): Is Tier One Capital divided by Risk-
      Subordinated Debt: Funding that has a lesser priority than other debt             Adjusted Assets.
      issued.
                                                                                        Trading Counterparty Exposure: The maximum amount that may be lost by
      Subprime: “Refers to borrowers who do not qualify for prime interest rates        a securities trader if there is a failure to make good on a trade arranged with
      because they exhibit one or more of the following characteristics: weakened       another financial institution (the “counterparty”).
      credit histories typically characterized by payment delinquencies, previous
      charge-offs, judgments, or bankruptcies; low credit scores; high debt-burden      Troubled Assets: The term ‘‘troubled assets’’ means—
      ratios; or high loan-to-value ratios.”                                            (A) residential or commercial mortgages and any securities, obligations, or
                                                                                            other instruments that are based on or related to such mortgages, that
      Subscription Date: Loan request date. For TALF loan requests, includes:               in each case was originated or issued on or before March 14, 2008, the
      ABS collateral expected to pledge, loan amount, and interest rate format              purchase of which the Secretary determines promotes financial market
      (fixed or floating).                                                                  stability; and
                                                                                        (B) any other financial instrument that the Secretary, after consultation with
      Synthetic ABS: A security that derives its value and cash flow from derivative        the Chairman of the Board of Governors of the Federal Reserve System,
      and physical sources other than from a physical set of reference assets.              determines the purchase of which is necessary to promote financial
                                                                                            market stability, but only upon transmittal of such determination, writing,
      Systemically Significant: A financial institution whose failure would impose          to the appropriate committees of Congress.
      significant losses on creditors and counterparties, call into question the
      financial strength of other similarly situated financial institutions, disrupt    Trust Preferred Security: A security that has both equity and debt charac-
      financial markets, raise borrowing costs for households and businesses, and       teristics. Trust Preferred Security is created by creation of a trust and issuing
      reduce household wealth.                                                          debt to the trust. A company would create a trust preferred security to realize
                                                                                        tax benefits, since the trust is tax deductible.
      Systemically Significant Failing Institution (“SSFI”): “Established to
      provide stability and prevent disruptions to financial markets from the failure   Variable Rate of Interest: “Interest rate that changes periodically in relation
      of institutions that are critical to the functioning of the nation’s financial    to an index.”
      system.”
                                                                                        Vest: To become exercisable. Typically used in the context of an employee
      TALF: Term Asset-Backed Securities Loan Facility is a Federal Reserve loan        stock ownership or option program.
      program intended to increase the availability of loans to consumers and small
      businesses. TARP funds will be indirectly invested in this program through a      Volatility: “A statistical measurement of the rate of price change of a futures
      special purpose vehicle.                                                          contract, security, or other instrument underlying an option.”

      Tangible Common Equity (“TCE”): Common equity minus intangibles                   Warrant: “A certificate issued by a company giving the holder the right to
      assets. TCE is a more conservative measure of capital. Only capital that is       purchase securities at a stipulated price within specific time limits or with
      ‘real’ and possessing the last claim on the assets of a company can be counted    no expiration date (perpetual warrant). A warrant is sometimes offered by a
      as TCE. It can be thought of as the amount that would be left over if the         company as an inducement to buy other securities.”
      bank were dissolved and all creditors and higher levels of stock, such as
      preferred stock, were paid off. TCE is the highest “quality” of capital in the    Warranty: Usually written, it is a guarantee of the integrity of a product, and
      sense of providing a buffer against loss by claimants on the bank.                the manufacturer’s responsibility for the repair or replacement of defective
                                                                                        parts.
      Tangible Common Equity Ratio (“TCE Ratio”): Is Tangible Common
      Equity (TCE) divided by Risk-Adjusted Assets. TCE Ratio determines what           Write Down: The act of recognizing the loss on an asset as permanent on a
      percentage of a bank’s total assets is categorized as TCE (the higher the         bank’s balance sheet.
      percentage, the better it is for the bank).

      Targeted Investment Program (“TIP”): TARP program that was created
      “to stabilize the financial system by making investments in institutions that
      are critical to the functioning of the financial system. This program focuses
      on the complex relationships and reliance of institutions within the financial
      system. Investments made through the TIP seek to avoid significant market
      disruptions resulting from the deterioration of one financial institution that
      can threaten other financial institutions and impair broader financial markets
      and pose a threat to the overall economy.”

      TARP Investment Committee: Includes the Troubled Asset Relief Program’s
      (“TARP’s”) Chief Investment Officer and senior officials on financial
      markets, economic policy, financial institutions, and financial stability.

      Tier One Capital (“T1”): Common Equity + Preferred Equity + Retained
      Earnings – Goodwill. Often called “core capital,” it is the measure of bank
      capital traditionally used by regulators in the United States. It can be
      described as a measure of the bank’s ability to sustain future losses and
      still meet depositor’s demands. T1 is a concept coordinated internationally
                                                                                                                                                                       GLOSSARY I APPENDIX A                            175


Sources                                                                                                     Housing and Urban Development, “Hope for Homeowners,” www.hud.gov, accessed 1/28/2009.
American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.                                      Institute for Telecommunication Sciences, “Glossary,” www.its.bldrdoc.gov/fs-1037/dir-028/_4167.htm,
California State Senate, “Senate Bill 668,” http://info.sen.ca.gov/pub/01-02/bill/sen/sb_0651-0700/         accessed 1/28/2009.
sb_668_bill_20010417_amended_sen.pdf, accessed 1/28/2009.                                                   Internal Revenue Service, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/
Citigroup Inc., Master Agreement, 1/15/2009, www.sec.gov, accessed 1/22/2009.                               article/0,,id=106572,00.html, accessed 4/8/2009.

Commodities and Futures Trading Commission, “CFTC Glossary,” no date, www.cftc.gov/educationcenter/         Internal Revenue Service, “S Corporations,” 1/6/2009, www.irs.gov, accessed 4/8/2009.
glossary/glossary_s.html, 4/8/2009.                                                                         National Archives and Records Administration, “Code of Federal Regulations - Title 12: Banks and
Comptroller of the Currency, “Floor Plan Loans: Comptroller’s Handbook,” May 1998, http://www.occ.          Banking,” 12/2005, http://www.access.gpo.gov/cgi-bin/cfrassemble.cgi?title=199812, accessed
treas.gov/handbook/floorplan1.pdf, accessed 4/13/2009.                                                      1/28/2009.

Congressional Budget Office, “The Budget and Economic Outlook,” www.cbo.gov/budget/glossary.                National Information Center, “Institution Types Defined,” www.ffiec.gov/nicpubweb/Content/HELP/
shtml#C, accessed 4/8/2009.                                                                                 Institution%20Type%20Description.htm, accessed 1/28/2009.

Department of Justice, Executive Order 13271—Establishment of the Corporate Fraud Task Force,               Seattle Government, “Glossary for Professionals and Advocates,” no date, www.seattle.gov/housing/
7/9/2002, www.usdoj.gov, accessed 1/28/2009.                                                                predatorylending/paglossary.htm, accessed 4/8/2009.

Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, http://www.treasury.gov/             Securities and Exchange Commission, “Final Rule: Amendment to Definition of Equity Security,” 6/7/2002,
initiatives/eesa/, accessed 1/28/09.                                                                        www.sec.gov, accessed 4/8/2009.

FDIC, “Accounting for Loss Contingencies,” no date, www.fdic.gov/deposit/insurance/initiative/              Securities and Exchange Commission, “Market Capitalization,” http://www.sec.gov/answers/
Reserving_Board.pdf, accessed 4/8/2009.                                                                     marketcapitalization.htm, accessed 03/31/2009.

FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_card_      Securities and Exchange Commission, “Final Rule: Cross-Border Tender and Exchange Offers, Business
securitization/glossary.html, accessed 4/8/2009.                                                            Combinations and Rights Offerings,” www.sec.gov/rules/final/33-7759.htm#P274_55926, accessed
                                                                                                            1/28/2009.
FDIC, “FAQS-Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed
3/25/2009.                                                                                                  Securities and Exchange Commission, “Memorandum of Understanding between the U.S. and the Board
                                                                                                            of Governors of the Federal System,” 7/8/2008, www.sec.gov, accessed 1/28/2009.
FDIC, “6500 – Consumer Protection, FDIC Laws, Regulations, Related Acts,” www.fdic.gov, accessed
1/28/2009.                                                                                                  Securities and Exchange Commission, Securities Exchange Act of 1934, 15 U.S.C. § 78a, www.sec.gov,
                                                                                                            accessed 1/28/2009.
FDIC, “Right to Financial Privacy Act, 6500 – Consumer Protection, FDIC Laws, Regulations, Related Acts,”
www.fdic.gov/regulations/laws/rules/6500-2550.html#7091, accessed 1/28/2009.                                Securities and Exchange Commission, “CUSIP,” http://www.sec.gov/answers/cusip.htm, accessed
                                                                                                            4/6/2009.
FDIC, 2000 – FDIC Rules and Regulations, Appendix D to Part 325 — Capital Adequacy Guidelines for
Banks: Internal- Ratings-Based and Advanced Measurement Approaches, www.fdic.gov/regulations/laws/          Small Business Administration (SBA), Financial Statements, www.sba.gov, accessed 1/28/2009.
rules/2000-4850.html#2262.30, accessed 1/28/2009.                                                           Small Business Administration, “Glossary,” no date, web.sba.gov/glossary/dsp_alphabet.cfm?Letter=D,
FDIC, Federal Deposit Insurance Act, 2/29/2008, p. 1065, www.fdic.gov/regulations/laws/                     accessed 4/9/2009.
rules/1000-400.html, accessed 1/28/2009.                                                                    The Library of Congress, “House Report 104-863 Making Omnibus Consolidated Appropriations for Fiscal
FDIC, “List of Abbreviations and Terms,” www.fdic.gov, accessed 1/28/2009.                                  Year 1997,” no date, www.thomas.gov, accessed 4/6/2009.

Federal Housing Finance Agency, “Mortgage Markets and the Enterprises 2007,” http://www.fhfa.gov,           Treasury, “A Citizen’s Guide to the 2008 Financial Report of the United States Government,” 2008, www.
July 2008, accessed 4/9/2009.                                                                               fms.treas.gov, accessed 3/30/2009.

Federal Register, 69 Fed. Reg. 44,923, 7/28/2004, http://fifiles.ots.gslsolutions.com/73227.pdf,            Treasury, “Decoder,” no date, http://www.financialstability.gov/roadtostability/decoder.htm, accessed
accessed 1/28/2009.                                                                                         4/9/2009.

Federal Reserve Board, “Subprime mortgages,” Sandra F. Braunstein, Director, Division of Consumer and       Treasury, “Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008, http://www.treas.
Community Affairs, 3/27/2007, www.Federalreserve.gov/newsevents/testimony/braunstein20070327a.              gov/press/releases/reports/gm%20final%20term%20&%20appendix.pdf, accessed on 4/8/2009.
htm#fn1, accessed 4/9/2009.                                                                                 Treasury, “Term Sheet - Capital Assistance Program,” no date, www.treas.gov/press/releases/reports/
Federal Reserve Board, “Basel II Capital Accord,” Notice of Proposed Rulemaking, March 30, 2006,            tg40_captermsheet.pdf, accessed 4/8/2009.
http://www.Federalreserve.gov/generalinfo/Basel2/DraftNPR/NPR/section_4.htm. Citigroup and Bank of          Treasury, “Capital Assistance Program FAQs,” no date, www.treas.gov, accessed 3/25/2009.
America 8Ks, accessed 4/15/2009.
                                                                                                            Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov,
Federal Reserve Board, comments on SIGTARP draft report, 1/29/2009.                                         accessed 3/4/2009.
Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.org,     Treasury, “Secretary Geithner Introduces Financial Stability Plan,” Remarks by Treasury Secretary Timothy
accessed 1/28/2009.                                                                                         Geithner, 2/10/2009, www.treasury.gov/press/releases/tg18.htm, accessed 4/10/2009.
Financial Industry Regulatory Authority, “Glossary,” www.finra.org, accessed 1/28/2009.                     Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations)
FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyork-          Preferred Securities, Summary of Preferred Terms,” 11/17/2008, www.treas.gov, accessed 3/16/2009.
fed.org, accessed 3/27/2009.                                                                                Treasury, “TARP Capital Purchase Program, Senior Preferred Stock and Warrants, Summary of Preferred
GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions          Terms,” 10/14/2008, www.treas.gov, accessed 1/25/2009.
Could Improve 7(a) Program Oversight,” 2/12/2009, www.gao.gov, accessed 3/17/2009.                          Treasury, “Treasury Announces New Restrictions on Executive Compensation,” 2/4/2009, www.treas.gov,
GAO-05-734SP, “A Glossary of Terms Used in the Federal Budget Process, September 2005,” http://             accessed 3/20/2009.
www.gao.gov/new.items/d05734sp.pdf, accessed 1/28/2009.                                                     Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed
GOP.gov, “Legislative Digest,” no date, www.gop.gov/bill/111/1/s383, accessed 4/10/2009.                    3/17/2009.

GPO, “H. R. 1424,” 1/3/2008, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=110_                 U.S. Dept. of Housing and Urban Development, “Glossary,” no date, http://www.hud.gov/offices/hsg/
cong_bills&docid=f:h1424enr.txt.pdf, accessed 4/13/2009.                                                    sfh/buying/glossary.cfm, accessed 4/8/2009.

House of Representatives, “Governor Kevin Warsh, Hedge funds, Before the Committee on Financial             USDA, “Glossary,” no date, www.rurdev.usda.gov/regs/handbook/hb-1-3565/w6gloss.pdf, 4/8/2009.
Services,” July 11, 2007, www.Federalreserve.gov, accessed 1/28/2009.
House of Representatives, Investment Company Act of 1940, 15 U.S.C. § 80-1, http://uscode.house.
gov/download/pls/15C2D.txt, accessed 1/28/2009.
176            APPENDIX B I ACRONYMS




      ACRONYMS
      ABS            Asset-Backed Securities                           LSA            Loan and Security Agreement
      AGP            Asset Guarantee Program                           LIBOR          London Interbank Offered Rate
      AIFP           Automotive Industry Financing Program             LLC            Limited Liability Company
      AIG            American International Group, Inc.                MBS            Mortgage-Backed Securities
      AIGI           Assistant Inspector General for Investigations    MHA            Making Home Affordable
      ARRA           American Recovery and Reinvestment Act of 2009    NRSRO          Nationally Recognized Statistical Rating Organization
      ASSP           Auto Supplier Support Program                     NPV            Net Present Value
      BHC            Bank Holding Company                              NY HIFCA       New York High Intensity Financial Crime Area
      BNYM           Bank of New York Mellon                           OCC            Office of the Comptroller of the Currency
      bps            Basis Points                                      OFS            Office of Financial Stability
      CAP            Capital Assistance Program                        OGC            Office of General Counsel
      CBO            Congressional Budget Office                       P.L.           Public Law
      CDFI           Community Development Financial Institution       PEO            Principal Executive Officer
      CDO            Collateralized Debt Obligation                    PFO            Principal Finance Officer
      CEO            Chief Executive Officer                           PITIA          Principal, Interest, Taxes, Insurance, and Association
      CIO            Chief Information Officer                                        Fees
      CMBS           Commercial Mortgage-Backed Securities             PPIF           Public-Private Investment Fund
      COI            Conflicts of Interest                             PPIP           Public-Private Investment Program
      COP            Congressional Oversight Panel                     QFI            Qualifying Financial Institution
      CPP            Capital Purchase Program                          RMBS           Residential Mortgage-Backed Securities
      DOJ            Department of Justice                             SBA            Small Business Administration
      DTI            Debt to Income                                    SEC            Securities and Exchange Commission
      EESA           Emergency Economic Stabilization Act of 2008      SEO            Senior Executive Officer
      FBA            Federal Banking Agency                            SIGTARP        Special Inspector General for the Troubled Asset Relief
                                                                                      Program
      FBI            Federal Bureau of Investigation
                                                                       SIGTARP Act Special Inspector General for the Troubled Asset Relief
      FDIC           Federal Deposit Insurance Corporation                         Program Act of 2009
      FHA            Federal Housing Administration                    SLHC           Savings and Loan Holding Company
      FHFA           Federal Housing Finance Agency                    SOC            Senior Oversight Committee
      FinCEN         Financial Crimes Enforcement Network              SPV            Special Purpose Vehicle
      FRBNY          Federal Reserve Bank of New York                  SSFI           Systemically Significant Failing Institution
      FSOB           Financial Stability Oversight Board               T1             Tier One Capital
      FSP            Financial Stability Plan                          TALF           Term Asset-Backed Securities Loan Facility
      GAO            Government Accountability Office                  TARP           Troubled Asset Relief Program
      GM             General Motors Corporation                        TARP-IGC       TARP Inspector General Council
      GMAC           GMAC LLC                                          TCE            Tangible Common Equity
      HAMP           Home Affordable Modification Program              TIP            Targeted Investment Program
      HARP           Home Affordable Refinancing Program               UAW            United Auto Workers
      HERA           Housing and Economic Recovery Act                 UCSB           Unlocking Credit for Small Businesses
      HUD            Department of Housing and Urban Development       USDOT          U.S. Department of Transportation
      ICE            U.S. Immigration and Customs Enforcement          USPIS          U.S. Postal Inspection Service
      IG             Inspector General                                 VEBA           Voluntary Employees Beneficiary Association
      IRS-CI         Internal Revenue Service Criminal Investigation
                                                                                           REPORTING REQUIREMENTS I APPENDIX C   177




REPORTING REQUIREMENTS
This appendix provides a compilation of the data necessary to meet the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121. Italics style indicates
narrative taken as verbatim from source documents.

A. a description of the categories of troubled assets purchased or otherwise procured by the Secretary.
B. a listing of the troubled assets purchased in each such category described under [the first bullet].
C. an explanation of the reasons the Secretary deemed it necessary to purchase each such troubled asset.
D. a listing of each financial institution that such troubled assets were purchased from.
E. a listing of and detailed biographical information on each person or entity hired to manage such troubled assets.
F. a current estimate of the total amount of troubled assets purchased pursuant to any program established under
   section 101, the amount of troubled assets on the books of the Treasury, the amount of troubled assets sold, and the
   profit and loss incurred on each sale or disposition of each such troubled asset.
G. a listing of the insurance contracts issued under section 102.
H. a detailed statement of all purchases, obligations, expenditures, and revenues associated with any program
   established by the Secretary of the Treasury under sections 101 and 102.
178            APPENDIX C I REPORTING REQUIREMENTS




      A—Description of Categories1                                              available immediately through the CAP to eligible banking institu-
      In response to SIGTARP’s data call, Treasury stated:                      tions to provide this buffer.
           Treasury posts several documents on its public website                    Eligible U.S. banking institutions with assets in excess of $100
      that are responsive to this question, available at http://www.            billion on a consolidated basis are required to participate in the
      financialstability.gov/latest/reportsanddocs.html. The tranche            coordinated supervisory assessments, and may access the CAP im-
      reports and reports under section 105(a) describe, at a high level,       mediately as a means to establish any necessary additional buffer.
      Treasury’s programs and troubled asset purchases. The transaction         Eligible U.S. banking institutions with consolidated assets below
      reports describe these purchases in detail, including the type of         $100 billion may also obtain capital from the CAP.
      asset purchased, the identity of the institution selling the asset, and
      the price Treasury paid for the asset.2
                                                                                A.3 Systemically Significant Failing Institution Program5
           Set forth below are descriptions of the TARP programs
                                                                                This program was established to provide stability and prevent
      provided by Treasury on its website. Sections 2 and 3 of this
                                                                                disruptions to financial markets from the failure of institutions that
      Report provide more detailed descriptions of each type of asset
                                                                                are critical to the functioning of the nation’s financial system. 
      and each TARP program as of March 31, 2009.
                                                                                A.4 Targeted Investment Program6
      A.1 Capital Purchase Program3
                                                                                Treasury created the Targeted Investment Program (TIP) to stabi-
      Treasury created the Capital Purchase Program (CPP) in October
                                                                                lize the financial system by making investments in institutions that
      2008 to stabilize the financial system by providing capital to viable
                                                                                are critical to the functioning of the financial system. This program
      financial institutions of all sizes throughout the nation. With a
                                                                                focuses on the complex relationships and reliance of institutions
      strengthened capital base, financial institutions have an increased
                                                                                within the financial system. Investments made through the TIP
      capacity to lend to U.S. businesses and consumers and to support
                                                                                seek to avoid significant market disruptions resulting from the
      the U.S. economy.
                                                                                deterioration of one financial institution that can threaten other
          Through the CPP, Treasury will invest up to $250 billion in           financial institutions and impair broader financial markets and
      U.S. banks that are healthy, but desire an extra layer of capital for     pose a threat to the overall economy. Through the TIP, Treasury is
      stability or lending. Since its inception in October 2008, the CPP        working to stabilize the financial system by reducing the chance
      has strengthened regional, small and large financial institutions as      that one firm’s distress will threaten otherwise financially-sound
      well as Community Development Financial Institutions in over 48           businesses, institutions, and municipalities, which could cause an
      states and Puerto Rico and the District of Columbia. Treasury and         adverse spillover effect on employment, output, and incomes.
      the nation’s Federal banking agencies (FBA), which include the                 Treasury will determine the form, terms, and conditions of
      FDIC, the Federal Reserve, The Office of the Comptroller of the           any investment made pursuant to this program on a case-by-case
      Currency (OCC), and the Office of Thrift Supervision (OTS), are           basis in accordance with the considerations mandated in The
      currently in the process of analyzing and evaluating the applica-         Emergency Economic Stabilization Act of 2008 (EESA). Treasury
      tions that have been received for CPP.                                    may invest in any financial instrument, including debt, equity,
                                                                                or warrants, that the Secretary of the Treasury determines to be a
       A.2 Capital Assistance Program4                                          troubled asset, after consultation with the Chairman of the Board
      On February 25, 2009 the U.S. Department of the Treasury an-              of Governors of the Federal Reserve System and notice to Congress.
      nounced the terms and conditions for the Capital Assistance Pro-          Treasury will require any institution participating in this program
      gram (CAP). The CAP is a core element of the Administration’s             to provide Treasury with warrants or alternative consideration,
      Financial Stability Plan.
                                                                                as necessary, to minimize the long-term costs and maximize the
          The purpose of the CAP is to restore confidence throughout the
                                                                                benefits to the taxpayers in accordance with EESA.
      financial system that the nation’s largest banking institutions have
      a sufficient capital cushion against larger than expected future
                                                                                A.5 Asset Guarantee Program7
      losses, should they occur due to a more severe economic environ-
                                                                                Under the Asset Guarantee Program (AGP), Treasury will guar-
      ment, and to support lending to creditworthy borrowers.
                                                                                antee certain assets held by the qualifying financial institution.
          Under CAP, Federal banking supervisors will conduct forward-
                                                                                The set of insured assets is selected by the Treasury and its agents in
      looking assessments to evaluate the capital needs of the major U.S.
                                                                                consultation with the financial institution receiving the guarantee.
      banking institutions under a more challenging economic environ-
                                                                                In accordance with section 102(a), assets to be guaranteed must
      ment. Should that assessment indicate that an additional capital
                                                                                have been originated before March 14, 2008. Treasury determines
      buffer is warranted, banks will have an opportunity to turn first
                                                                                the eligibility of participants and the allocation of resources on a
      to private sources of capital. In light of the current challenging
                                                                                case-by-case basis. The program is meant for systemically signifi-
      market environment, the Treasury is making Government capital
                                                                                cant institutions, and could be used in coordination with other
                                                                                                 REPORTING REQUIREMENTS I APPENDIX C            179


programs. Treasury may, on a case-by-case basis, use this program       have a one-year term and will be secured by eligible collateral.
in coordination with a broader guarantee involving other agencies       Haircuts (a percentage reduction used for collateral valuation) will
of the United States Government.                                        be determined based on the price volatility of the class of eligible
    In implementing the AGP, Treasury collects a premium, de-           collateral and will provide additional protection to the taxpayers by
liverable in a form deemed appropriate by the Treasury Secretary.       protecting the Government from loss. Treasury will purchase up to
As required by the statute, an actuarial analysis would be used         $20 billion of subordinated debt backed by the collateral received,
to ensure that the expected value of the premium is no less than        which will be priced at the loan value plus accrued interest. The
the expected value of the losses to TARP from the guarantee. The        TARP CPP guidelines on executive compensation will be applied
United States Government would also provide a set of portfolio          to the originators of the credit exposures underlying the ABS.11
management guidelines to which the institution must adhere for              On February 10, 2009, the Administration announced the
the guaranteed portfolio.                                               expansion of TALF to up to $1 trillion as part of the Consumer
                                                                        and Business Lending Initiatives under the Financial Stability
A.6 Automotive Industry Financing Program8                              Plan.12 According to Treasury, the expected expansion of TALF
The objective of the Automotive Industry Financing Program              will increase TARP credit protection from $20 billion to up to
(AIFP) is to prevent a significant disruption of the American           $80 billion.13
automotive industry, which would pose a systemic risk to financial
market stability and have a negative effect on the economy of the       A.10 Public-Private Investment Program14
United States. The program requires participating institutions to       To address the challenge of legacy assets, Treasury – in conjunction
implement plans that will achieve long-term viability.                  with the Federal Deposit Insurance Corporation and the Federal
   Participating institutions must also adhere to rigorous executive    Reserve – has announced the Public-Private Investment Program
compensation standards and other measures to protect the tax-           as part of its efforts to repair balance sheets throughout our finan-
payer’s interests, including limits on the institution’s expenditures   cial system and ensure that credit is available to the households and
and other corporate governance requirements.                            businesses, large and small, that will help drive us toward recovery.
                                                                            Using $75 to $100 billion in TARP capital and capital from
A.7 Automotive Supplier Support Program                                 private investors, the Public-Private Investment Program will
On March 19, 2009, Treasury announced a new program                     generate $500 billion in purchasing power to buy legacy assets –
aimed at supporting the suppliers to the U.S. auto manufactur-          with the potential to expand to $1 trillion over time. The Public-
ing industry. The Auto Supplier Support Program (“ASSP”) is a           Private Investment Program will be designed around three basic
renewable one-year program that will provide up to $5 billion in        principles: maximizing the impact of each taxpayer dollar, shared
financing that is intended to benefit both the suppliers and the        risk and profits with private sector participants, and private sector
auto manufacturers. The program provides Government-backed              price discovery.
protection to the suppliers against any failure by the manufac-
turers to make payments on goods that they receive from their           A.11 Unlocking Credit for Small Businesses15
suppliers, even if the manufacturers file for bankruptcy.9              As another part of the Consumer and Business Lending Initiative,
                                                                        the Treasury Department will begin making direct purchases of
A.8 Auto Warranty Commitment Program                                    securities backed by SBA loans to get the credit market moving
As another complementary program to AIFP, the Auto Warranty             again, and it will stand ready to purchase new securities to ensure
Commitment Program was devised by the Administration to                 that community banks and credit unions feel confident in extend-
bolster consumer confidence in automobile warranties on do-             ing new loans to local businesses. These purchases, combined with
mestically produced vehicles. Currently, only GM and Chrysler           higher loan guarantees and reduced fees, will help provide lenders
have agreed to participate in this program. In order to reassure        with the confidence that they need to extend credit, knowing they
consumers that their auto warranties will be honored during             both have a backstop against their risk and a source of liquidity.
this period of restructuring, the Administration will provide           These measures will complement other steps the Administration is
Government-back financing.10                                            taking to help small businesses recover and grow, including several
                                                                        tax cuts under the Recovery Act.
A.9 Term Asset-Backed Securities Loan Facility
Under the initial terms and conditions announced for the TALF,          A.12 Making Home Affordable Program16
the Federal Reserve will lend on a non-recourse basis to holders        The Administration’s Making Home Affordable program will offer
of certain AAA-rated ABS fully secured by newly and recently            assistance to as many as 7 to 9 million homeowners making a good-
originated consumer and small business loans. TALF loans will           faith effort to make their mortgage payments, while attempting to
180            APPENDIX C I REPORTING REQUIREMENTS



      prevent the destructive impact of the housing crisis on families and    B—Listing of Troubled Assets Purchased, by
      communities. It will not provide money to speculators, and it will      Category and Financial Institution
      target support to the working homeowners who have made every            In response to SIGTARP’s data call question regarding this
      possible effort to stay current on their mortgage payments. Just as     reporting requirement, Treasury stated:
      the American Recovery and Reinvestment Act works to save or cre-             Treasury posts transaction reports for all the troubled asset
      ate several million new jobs and the Financial Stability Plan works     purchases on its public website within two business days after each
      to get credit flowing, the Making Home Affordable program will          transaction. Information on all transactions is available at http://
      support a recovery in the housing market and ensure that these          www.financialstability.gov/impact/transactions.htm. Since the pub-
      workers can continue paying off their mortgages.                        lication of the SIGTARP Report in February, Treasury continues
          By supporting low mortgage rates by strengthening confidence        to invest funds in financial institutions across the United States
      in Fannie Mae and Freddie Mac, providing up to 4 to 5 million           through the Capital Purchase Program (CPP), and has committed
      homeowners with new access to refinancing and creating a com-           to lend $20 billion to support the Term Asset-Backed Securities
      prehensive stability initiative to offer reduced monthly payments for   Loan Facility. Guidelines for all TARP programs, which explain
      up to 3 to 4 million at-risk homeowners, this plan brings together      the programs’ scope and purpose, are also posted on Treasury’s web-
      the Government, lenders, loan servicers, investors and borrowers        site at http://www.financialstability.gov/roadtostability/programs.
      to share responsibility towards ensuring working Americans can          htm. Additional responsive information about these programs and
      afford to stay in their homes.                                          the purchases made under them is in [TARP] tranche reports and
                                                                              the section 105(a) reports, which are also posted on Treasury’s
                                                                              website.
                                                                                   Table C.1 provides details on TARP transactions, as of
                                                                              March 31, 2009.
TABLE C.1
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009

                                      Seller                                                             Purchase Details                                                                   Capital Repayment Details


                                                                                                                                                                               Market
                     Purchase         Name of                                                                                                            Pricing     Capitalization as          Capital     Capital Repayment
Program     Note     Date             Institution                               City             State   Investment Description       Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP                  10/28/2008       Bank of America Corporation               Charlotte        NC      Preferred Stock w/Warrants   $15,000,000,000    Par         $43,657,466,160
CPP                  10/28/2008       Bank of New York Mellon Corporation       New York         NY      Preferred Stock w/Warrants    $3,000,000,000    Par         $32,470,578,250
CPP                  10/28/2008       Citigroup Inc.                            New York         NY      Preferred Stock w/Warrants   $25,000,000,000    Par         $13,947,814,100
CPP                  10/28/2008       The Goldman Sachs Group, Inc.             New York         NY      Preferred Stock w/Warrants   $10,000,000,000    Par         $48,996,918,130
CPP                  10/28/2008       JPMorgan Chase & Co.                      New York         NY      Preferred Stock w/Warrants   $25,000,000,000    Par         $99,885,593,340
CPP                  10/28/2008       Morgan Stanley                            New York         NY      Preferred Stock w/Warrants   $10,000,000,000    Par         $24,641,694,000
CPP                  10/28/2008       State Street Corporation                  Boston           MA      Preferred Stock w/Warrants    $2,000,000,000    Par         $13,347,223,740
CPP                  10/28/2008       Wells Fargo & Company                     San Francisco    CA      Preferred Stock w/Warrants   $25,000,000,000    Par         $60,432,395,520
CPP                  11/14/2008       Bank of Commerce Holdings                 Redding          CA      Preferred Stock w/Warrants       $17,000,000    Par             $43,903,440
CPP                  11/14/2008       1st FS Corporation                        Hendersonville   NC      Preferred Stock w/Warrants       $16,369,000    Par             $23,735,750
CPP                  11/14/2008       UCBH Holdings, Inc.                       San Francisco    CA      Preferred Stock w/Warrants      $298,737,000    Par            $181,858,360
CPP                  11/14/2008       Northern Trust Corporation                Chicago          IL      Preferred Stock w/Warrants    $1,576,000,000    Par         $13,367,556,660
CPP                  11/14/2008       SunTrust Banks, Inc.                      Atlanta          GA      Preferred Stock w/Warrants    $3,500,000,000    Par          $4,202,497,360
CPP                  11/14/2008       Broadway Financial Corporation            Los Angeles      CA      Preferred Stock w/Warrants        $9,000,000    Par              $9,133,320
CPP                  11/14/2008       Washington Federal Inc.                   Seattle          WA      Preferred Stock w/Warrants      $200,000,000    Par          $1,170,144,630
CPP                  11/14/2008       BB&T Corp.                                Winston-Salem    NC      Preferred Stock w/Warrants    $3,133,640,000    Par          $9,482,120,280
CPP                  11/14/2008       Provident Bancshares Corp.                Baltimore        MD      Preferred Stock w/Warrants      $151,500,000    Par            $236,259,600
CPP                  11/14/2008       Umpqua Holdings Corp.                     Portland         OR      Preferred Stock w/Warrants      $214,181,000    Par            $545,230,800
CPP                  11/14/2008       Comerica Inc.                             Dallas           TX      Preferred Stock w/Warrants    $2,250,000,000    Par          $2,767,794,530
CPP                  11/14/2008       Regions Financial Corp.                   Birmingham       AL      Preferred Stock w/Warrants    $3,500,000,000    Par          $2,959,132,320
CPP                  11/14/2008       Capital One Financial Corporation         McLean           VA      Preferred Stock w/Warrants    $3,555,199,000    Par          $4,798,190,160
CPP                  11/14/2008       First Horizon National Corporation        Memphis          TN      Preferred Stock w/Warrants      $866,540,000    Par          $2,207,553,300
CPP                  11/14/2008       Huntington Bancshares                     Columbus         OH      Preferred Stock w/Warrants    $1,398,071,000    Par            $607,815,640
CPP                  11/14/2008       KeyCorp                                   Cleveland        OH      Preferred Stock w/Warrants    $2,500,000,000    Par          $3,893,328,350
CPP                  11/14/2008       Valley National Bancorp                   Wayne            NJ      Preferred Stock w/Warrants      $300,000,000    Par          $1,670,246,880
CPP                  11/14/2008       Zions Bancorporation                      Salt Lake City   UT      Preferred Stock w/Warrants    $1,400,000,000    Par          $1,133,752,880
CPP                  11/14/2008       Marshall & Ilsley Corporation             Milwaukee        WI      Preferred Stock w/Warrants    $1,715,000,000    Par          $1,493,779,750
CPP                  11/14/2008       U.S. Bancorp                              Minneapolis      MN      Preferred Stock w/Warrants    $6,599,000,000    Par         $25,690,779,180
CPP                  11/14/2008       TCF Financial Corporation                 Wayzata          MN      Preferred Stock w/Warrants      $361,172,000    Par          $1,502,245,920
CPP                  11/21/2008       First Niagara Financial Group             Lockport         NY      Preferred Stock w/Warrants      $184,011,000    Par          $1,291,630,230
CPP                  11/21/2008       HF Financial Corp.                        Sioux Falls      SD      Preferred Stock w/Warrants       $25,000,000    Par             $51,267,750
CPP                  11/21/2008       Centerstate Banks of Florida Inc.         Davenport        FL      Preferred Stock w/Warrants       $27,875,000    Par            $137,338,740
CPP                  11/21/2008       City National Corporation                 Beverly Hills    CA      Preferred Stock w/Warrants      $400,000,000    Par          $1,638,858,100
CPP                  11/21/2008       First Community Bankshares Inc.           Bluefield        VA      Preferred Stock w/Warrants       $41,500,000    Par            $134,986,890
CPP                  11/21/2008       Western Alliance Bancorporation           Las Vegas        NV      Preferred Stock w/Warrants      $140,000,000    Par            $177,429,600
CPP                  11/21/2008       Webster Financial Corporation             Waterbury        CT      Preferred Stock w/Warrants      $400,000,000    Par            $224,595,500
CPP                  11/21/2008       Pacific Capital Bancorp                   Santa Barbara    CA      Preferred Stock w/Warrants      $180,634,000    Par            $319,388,290
CPP                  11/21/2008       Heritage Commerce Corp.                   San Jose         CA      Preferred Stock w/Warrants       $40,000,000    Par             $62,060,250
CPP                  11/21/2008       Ameris Bancorp                            Moultrie         GA      Preferred Stock w/Warrants       $52,000,000    Par             $63,928,830
CPP                  11/21/2008       Porter Bancorp Inc.                       Louisville       KY      Preferred Stock w/Warrants       $35,000,000    Par             $93,902,280
CPP                  11/21/2008       Banner Corporation                        Walla Walla      WA      Preferred Stock w/Warrants      $124,000,000    Par             $50,846,430
CPP                  11/21/2008       Cascade Financial Corporation             Everett          WA      Preferred Stock w/Warrants       $38,970,000    Par             $30,275,000
CPP                  11/21/2008       Columbia Banking System, Inc.             Tacoma           WA      Preferred Stock w/Warrants       $76,898,000    Par            $116,825,600
CPP                  11/21/2008       Heritage Financial Corporation            Olympia          WA      Preferred Stock w/Warrants       $24,000,000    Par             $70,422,550
CPP                  11/21/2008       First PacTrust Bancorp, Inc.              Chula Vista      CA      Preferred Stock w/Warrants       $19,300,000    Par             $28,701,000
CPP                  11/21/2008       Severn Bancorp, Inc.                      Annapolis        MD      Preferred Stock w/Warrants       $23,393,000    Par             $31,711,050
CPP                  11/21/2008       Boston Private Financial Holdings, Inc.   Boston           MA      Preferred Stock w/Warrants      $154,000,000    Par            $224,945,370
CPP                  11/21/2008       Associated Banc-Corp                      Green Bay        WI      Preferred Stock w/Warrants      $525,000,000    Par          $1,975,437,000
CPP                  11/21/2008       Trustmark Corporation                     Jackson          MS      Preferred Stock w/Warrants      $215,000,000    Par          $1,053,633,500
CPP                  11/21/2008       First Community Corporation               Lexington        SC      Preferred Stock w/Warrants       $11,350,000    Par             $21,357,600
CPP                  11/21/2008       Taylor Capital Group                      Rosemont         IL      Preferred Stock w/Warrants      $104,823,000    Par             $49,417,250
CPP                  11/21/2008       Nara Bancorp, Inc.                        Los Angeles      CA      Preferred Stock w/Warrants       $67,000,000    Par             $77,166,180
CPP                  12/5/2008        Midwest Banc Holdings, Inc.               Melrose Park     IL      Preferred Stock w/Warrants       $84,784,000    Par             $28,937,510
                                                                                                                                                                                                                                   REPORTING REQUIREMENTS I APPENDIX C




CPP                  12/5/2008        MB Financial Inc.                         Chicago          IL      Preferred Stock w/Warrants      $196,000,000    Par            $475,102,400
CPP                  12/5/2008        First Midwest Bancorp, Inc.               Itasca           IL      Preferred Stock w/Warrants      $193,000,000    Par            $417,740,290
CPP                  12/5/2008        United Community Banks, Inc.              Blairsville      GA      Preferred Stock w/Warrants      $180,000,000    Par            $200,066,880
CPP                  12/5/2008        Wesbanco Bank Inc.                        Wheeling         WV      Preferred Stock w/Warrants       $75,000,000    Par            $606,387,630
                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                   181
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009
                                                                                                                                                                                                                                     182
                                      Seller                                                              Purchase Details                                                                   Capital Repayment Details


                                                                                                                                                                                Market
                     Purchase         Name of                                                                                                             Pricing     Capitalization as          Capital      Capital Repayment
Program    Note      Date             Institution                              City               State   Investment Description       Investment Price   Mechanism     of 3/31/2009      Repayment Date               Amount (f)
CPP                  12/5/2008        Encore Bancshares Inc.                   Houston            TX      Preferred Stock w/Warrants       $34,000,000    Par             $90,474,000
CPP                  12/5/2008        Manhattan Bancorp                        El Segundo         CA      Preferred Stock w/Warrants        $1,700,000    Par             $18,943,000
CPP                  12/5/2008        Iberiabank Corporation                   Lafayette          LA      Preferred Stock w/Warrants       $90,000,000    Par            $735,085,940       3/31/2009 (e)            $90,000,000
CPP                  12/5/2008        Eagle Bancorp, Inc.                      Bethesda           MD      Preferred Stock w/Warrants       $38,235,000    Par             $79,656,250
CPP                  12/5/2008        Sandy Spring Bancorp, Inc.               Olney              MD      Preferred Stock w/Warrants       $83,094,000    Par            $183,068,640
CPP                  12/5/2008        Coastal Banking Company, Inc.            Fernandina Beach   FL      Preferred Stock w/Warrants        $9,950,000    Par             $15,414,000
CPP                  12/5/2008        East West Bancorp                        Pasadena           CA      Preferred Stock w/Warrants      $306,546,000    Par            $291,314,650
CPP                  12/5/2008        South Financial Group, Inc.              Greenville         SC      Preferred Stock w/Warrants      $347,000,000    Par             $93,256,900
CPP                  12/5/2008        Great Southern Bancorp                   Springfield        MO      Preferred Stock w/Warrants       $58,000,000    Par            $187,467,810
CPP                  12/5/2008        Cathay General Bancorp                   Los Angeles        CA      Preferred Stock w/Warrants      $258,000,000    Par            $516,650,050
CPP                  12/5/2008        Southern Community Financial Corp.       Winston-Salem      NC      Preferred Stock w/Warrants       $42,750,000    Par             $59,701,200
CPP                  12/5/2008        CVB Financial Corp                       Ontario            CA      Preferred Stock w/Warrants      $130,000,000    Par            $552,192,810
CPP                  12/5/2008        First Defiance Financial Corp.           Defiance           OH      Preferred Stock w/Warrants       $37,000,000    Par             $49,351,360
                                                                                                                                                                                                                                     APPENDIX C I REPORTING REQUIREMENTS




CPP                  12/5/2008        First Financial Holdings Inc.            Charleston         SC      Preferred Stock w/Warrants       $65,000,000    Par             $89,482,050
CPP                  12/5/2008        Superior Bancorp Inc.                    Birmingham         AL      Preferred Stock w/Warrants       $69,000,000    Par             $40,198,000
CPP                  12/5/2008        Southwest Bancorp, Inc.                  Stillwater         OK      Preferred Stock w/Warrants       $70,000,000    Par            $137,023,040
CPP                  12/5/2008        Popular, Inc.                            San Juan           PR      Preferred Stock w/Warrants      $935,000,000    Par            $609,195,600
CPP                  12/5/2008        Blue Valley Ban Corp                     Overland Park      KS      Preferred Stock w/Warrants       $21,750,000    Par             $33,120,000
CPP                  12/5/2008        Central Federal Corporation              Fairlawn           OH      Preferred Stock w/Warrants        $7,225,000    Par             $11,895,800
CPP                  12/5/2008        Bank of Marin Bancorp                    Novato             CA      Preferred Stock w/Warrants       $28,000,000    Par            $110,862,540       3/31/2009 (d)            $28,000,000
CPP                  12/5/2008        Bank of North Carolina                   Thomasville        NC      Preferred Stock w/Warrants       $31,260,000    Par             $44,497,750
CPP                  12/5/2008        Central Bancorp, Inc.                    Somerville         MA      Preferred Stock w/Warrants       $10,000,000    Par              $7,773,440
CPP                  12/5/2008        Southern Missouri Bancorp, Inc.          Poplar Bluff       MO      Preferred Stock w/Warrants        $9,550,000    Par             $22,550,400
CPP                  12/5/2008        State Bancorp, Inc.                      Jericho            NY      Preferred Stock w/Warrants       $36,842,000    Par            $111,873,300
CPP                  12/5/2008        TIB Financial Corp                       Naples             FL      Preferred Stock w/Warrants       $37,000,000    Par             $42,055,890
CPP                  12/5/2008        Unity Bancorp, Inc.                      Clinton            NJ      Preferred Stock w/Warrants       $20,649,000    Par             $22,695,370
CPP                  12/5/2008        Old Line Bancshares, Inc.                Bowie              MD      Preferred Stock w/Warrants        $7,000,000    Par             $22,785,800
CPP                  12/5/2008        FPB Bancorp, Inc.                        Port St. Lucie     FL      Preferred Stock w/Warrants        $5,800,000    Par              $5,145,000
CPP                  12/5/2008        Sterling Financial Corporation           Spokane            WA      Preferred Stock w/Warrants      $303,000,000    Par            $108,457,650
CPP                  12/5/2008        Oak Valley Bancorp                       Oakdale            CA      Preferred Stock w/Warrants       $13,500,000    Par             $28,732,500
CPP                  12/12/2008       Old National Bancorp                     Evansville         IN      Preferred Stock w/Warrants      $100,000,000    Par            $740,113,030       3/31/2009 (d)          $100,000,000
CPP                  12/12/2008       Capital Bank Corporation                 Raliegh            NC      Preferred Stock w/Warrants       $41,279,000    Par             $51,528,000
CPP                  12/12/2008       Pacific International Bancorp            Seattle            WA      Preferred Stock w/Warrants        $6,500,000    Par                      N/A
CPP                  12/12/2008       SVB Financial Group                      Santa Clara        CA      Preferred Stock w/Warrants      $235,000,000    Par            $658,989,330
CPP                  12/12/2008       LNB Bancorp Inc.                         Lorain             OH      Preferred Stock w/Warrants       $25,223,000    Par             $36,480,000
CPP                  12/12/2008       Wilmington Trust Corporation             Wilmington         DE      Preferred Stock w/Warrants      $330,000,000    Par            $669,704,970
CPP                  12/12/2008       Susquehanna Bancshares, Inc              Lititz             PA      Preferred Stock w/Warrants      $300,000,000    Par            $804,115,380
CPP                  12/12/2008       Signature Bank                           New York           NY      Preferred Stock w/Warrants      $120,000,000    Par            $993,131,400       3/31/2009 (d)          $120,000,000
CPP                  12/12/2008       HopFed Bancorp                           Hopkinsville       KY      Preferred Stock w/Warrants       $18,400,000    Par             $34,963,500
CPP                  12/12/2008       Citizens Republic Bancorp, Inc.          Flint              MI      Preferred Stock w/Warrants      $300,000,000    Par            $195,777,400
CPP                  12/12/2008       Indiana Community Bancorp                Columbus           IN      Preferred Stock w/Warrants       $21,500,000    Par             $43,654,000
CPP                  12/12/2008       Bank of the Ozarks, Inc.                 Little Rock        AR      Preferred Stock w/Warrants       $75,000,000    Par            $389,244,200
CPP                  12/12/2008       Center Financial Corporation             Los Angeles        CA      Preferred Stock w/Warrants       $55,000,000    Par             $47,342,160
CPP                  12/12/2008       NewBridge Bancorp                        Greensboro         NC      Preferred Stock w/Warrants       $52,372,000    Par             $33,034,160
CPP                  12/12/2008       Sterling Bancshares, Inc.                Houston            TX      Preferred Stock w/Warrants      $125,198,000    Par            $479,709,000
CPP                  12/12/2008       The Bancorp, Inc.                        Wilmington         DE      Preferred Stock w/Warrants       $45,220,000    Par             $61,751,360
CPP                  12/12/2008       TowneBank                                Portsmouth         VA      Preferred Stock w/Warrants       $76,458,000    Par            $383,395,740
CPP                  12/12/2008       Wilshire Bancorp, Inc.                   Los Angeles        CA      Preferred Stock w/Warrants       $62,158,000    Par            $151,776,240
CPP                  12/12/2008       Valley Financial Corporation             Roanoke            VA      Preferred Stock w/Warrants       $16,019,000    Par             $22,276,800
CPP                  12/12/2008       Independent Bank Corporation             Ionia              MI      Preferred Stock w/Warrants       $72,000,000    Par             $56,230,200
CPP                  12/12/2008       Pinnacle Financial Partners, Inc.        Nashville          TN      Preferred Stock w/Warrants       $95,000,000    Par            $569,040,000
CPP                  12/12/2008       First Litchfield Financial Corporation   Litchfield         CT      Preferred Stock w/Warrants       $10,000,000    Par             $16,499,000
CPP                  12/12/2008       National Penn Bancshares, Inc.           Boyertown          PA      Preferred Stock w/Warrants      $150,000,000    Par            $681,513,000
CPP                  12/12/2008       Northeast Bancorp                        Lewiston           ME      Preferred Stock w/Warrants        $4,227,000    Par             $17,430,710
CPP                  12/12/2008       Citizens South Banking Corporation       Gastonia           NC      Preferred Stock w/Warrants       $20,500,000    Par             $38,181,280
CPP                  12/12/2008       Virginia Commerce Bancorp                Arlington          VA      Preferred Stock w/Warrants       $71,000,000    Par            $101,147,520
CPP                  12/12/2008       Fidelity Bancorp, Inc.                   Pittsburgh         PA      Preferred Stock w/Warrants        $7,000,000    Par             $30,612,800
                                                                                                                                                                                                            Continued on next page
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009

                                      Seller                                                               Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                            Market
                     Purchase         Name of                                                                                                                         Pricing     Capitalization as          Capital     Capital Repayment
Program    Note      Date             Institution                               City               State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP                  12/12/2008       LSB Corporation                           North Andover      MA      Preferred Stock w/Warrants                  $15,000,000    Par             $39,970,740
CPP                  12/19/2008       Intermountain Community Bancorp           Sandpoint          ID      Preferred Stock w/Warrants                  $27,000,000    Par             $38,446,800
CPP                  12/19/2008       Community West Bancshares                 Goleta             CA      Preferred Stock w/Warrants                  $15,600,000    Par             $15,615,600
CPP                  12/19/2008       Synovus Financial Corp.                   Columbus           GA      Preferred Stock w/Warrants                 $967,870,000    Par          $1,073,699,250
CPP                  12/19/2008       Tennessee Commerce Bancorp, Inc.          Franklin           TN      Preferred Stock w/Warrants                  $30,000,000    Par             $36,341,760
CPP                  12/19/2008       Community Bankers Trust Corporation       Glen Allen         VA      Preferred Stock w/Warrants                  $17,680,000    Par             $72,991,200
CPP                  12/19/2008       BancTrust Financial Group, Inc.           Mobile             AL      Preferred Stock w/Warrants                  $50,000,000    Par            $111,838,440
CPP                  12/19/2008       Enterprise Financial Services Corp.       St. Louis          MO      Preferred Stock w/Warrants                  $35,000,000    Par            $125,230,560
CPP                  12/19/2008       Mid Penn Bancorp, Inc.                    Millersburg        PA      Preferred Stock w/Warrants                  $10,000,000    Par             $66,120,000
CPP                  12/19/2008       Summit State Bank                         Santa Rosa         CA      Preferred Stock w/Warrants                   $8,500,000    Par             $21,827,000
CPP                  12/19/2008       VIST Financial Corp.                      Wyomissing         PA      Preferred Stock w/Warrants                  $25,000,000    Par             $40,096,000
CPP                  12/19/2008       Wainwright Bank & Trust Company           Boston             MA      Preferred Stock w/Warrants                  $22,000,000    Par             $47,232,720
CPP                  12/19/2008       Whitney Holding Corporation               New Orleans        LA      Preferred Stock w/Warrants                 $300,000,000    Par            $771,523,900
CPP                  12/19/2008       The Connecticut Bank and Trust Company    Hartford           CT      Preferred Stock w/Warrants                   $5,448,000    Par             $11,592,750
CPP                  12/19/2008       CoBiz Financial Inc.                      Denver             CO      Preferred Stock w/Warrants                  $64,450,000    Par            $122,871,000
CPP                  12/19/2008       Santa Lucia Bancorp                       Atascadero         CA      Preferred Stock w/Warrants                   $4,000,000    Par             $22,114,500
CPP                  12/19/2008       Seacoast Banking Corporation of Florida   Stuart             FL      Preferred Stock w/Warrants                  $50,000,000    Par             $58,090,490
CPP                  12/19/2008       Horizon Bancorp                           Michigan City      IN      Preferred Stock w/Warrants                  $25,000,000    Par             $36,119,400
CPP                  12/19/2008       Fidelity Southern Corporation             Atlanta            GA      Preferred Stock w/Warrants                  $48,200,000    Par             $23,352,000
CPP                  12/19/2008       Community Financial Corporation           Staunton           VA      Preferred Stock w/Warrants                  $12,643,000    Par             $17,448,000
CPP                  12/19/2008       Berkshire Hills Bancorp, Inc.             Pittsfield         MA      Preferred Stock w/Warrants                  $40,000,000    Par            $280,999,200
CPP                  12/19/2008       First California Financial Group, Inc     Westlake Village   CA      Preferred Stock w/Warrants                  $25,000,000    Par             $48,741,000
CPP                  12/19/2008       AmeriServ Financial, Inc.                 Johnstown          PA      Preferred Stock w/Warrants                  $21,000,000    Par             $35,295,450
CPP                  12/19/2008       Security Federal Corporation              Aiken              SC      Preferred Stock w/Warrants                  $18,000,000    Par             $38,099,000
CPP                  12/19/2008       Wintrust Financial Corporation            Lake Forest        IL      Preferred Stock w/Warrants                 $250,000,000    Par            $293,687,100
CPP                  12/19/2008       Flushing Financial Corporation            Lake Success       NY      Preferred Stock w/Warrants                  $70,000,000    Par            $130,730,320
CPP                  12/19/2008       Monarch Financial Holdings, Inc.          Chesapeake         VA      Preferred Stock w/Warrants                  $14,700,000    Par             $29,299,500
CPP                  12/19/2008       StellarOne Corporation                    Charlottesville    VA      Preferred Stock w/Warrants                  $30,000,000    Par            $270,142,620
CPP                  12/19/2008       Union Bankshares Corporation              Bowling Green      VA      Preferred Stock w/Warrants                  $59,000,000    Par            $188,276,900
CPP                  12/19/2008       Tidelands Bancshares, Inc                 Mt. Pleasant       SC      Preferred Stock w/Warrants                  $14,448,000    Par             $13,044,850
CPP                  12/19/2008       Bancorp Rhode Island, Inc.                Providence         RI      Preferred Stock w/Warrants                  $30,000,000    Par             $82,995,510
CPP                  12/19/2008       Hawthorn Bancshares, Inc.                 Lee’s Summit       MO      Preferred Stock w/Warrants                  $30,255,000    Par             $48,597,590
CPP                  12/19/2008       The Elmira Savings Bank, FSB              Elmira             NY      Preferred Stock w/Warrants                   $9,090,000    Par             $20,528,200
CPP                  12/19/2008       Alliance Financial Corporation            Syracuse           NY      Preferred Stock w/Warrants                  $26,918,000    Par             $82,147,260
CPP                  12/19/2008       Heartland Financial USA, Inc.             Dubuque            IA      Preferred Stock w/Warrants                  $81,698,000    Par            $220,349,960
CPP                  12/19/2008       Citizens First Corporation                Bowling Green      KY      Preferred Stock w/Warrants                   $8,779,000    Par              $7,876,000
CPP        (b)       12/19/2008       FFW Corporation                           Wabash             IN      Preferred Stock w/ Exercised Warrants        $7,289,000    Par                      N/A
CPP        (b)       12/19/2008       Plains Capital Corporation                Dallas             TX      Preferred Stock w/ Exercised Warrants       $87,631,000    Par                      N/A
CPP        (b)       12/19/2008       Tri-County Financial Corporation          Waldorf            MD      Preferred Stock w/ Exercised Warrants       $15,540,000    Par                      N/A
CPP        (c)       12/19/2008       OneUnited Bank                            Boston             MA      Preferred Stock                             $12,063,000    Par                      N/A
CPP        (b)       12/19/2008       Patriot Bancshares, Inc.                  Houston            TX      Preferred Stock w/ Exercised Warrants       $26,038,000    Par                      N/A
CPP        (b)       12/19/2008       Pacific City Finacial Corporation         Los Angeles        CA      Preferred Stock w/ Exercised Warrants       $16,200,000    Par                      N/A
CPP        (b)       12/19/2008       Marquette National Corporation            Chicago            IL      Preferred Stock w/ Exercised Warrants       $35,500,000    Par                      N/A
CPP        (b)       12/19/2008       Exchange Bank                             Santa Rosa         CA      Preferred Stock w/ Exercised Warrants       $43,000,000    Par                      N/A
CPP        (b)       12/19/2008       Monadnock Bancorp, Inc.                   Peterborough       NH      Preferred Stock w/ Exercised Warrants        $1,834,000    Par                      N/A
CPP        (b)       12/19/2008       Bridgeview Bancorp, Inc.                  Bridgeview         IL      Preferred Stock w/ Exercised Warrants       $38,000,000    Par                      N/A
CPP        (b)       12/19/2008       Fidelity Financial Corporation            Wichita            KS      Preferred Stock w/ Exercised Warrants       $36,282,000    Par                      N/A
CPP        (b)       12/19/2008       Patapsco Bancorp, Inc.                    Dundalk            MD      Preferred Stock w/ Exercised Warrants        $6,000,000    Par                      N/A
CPP        (b)       12/19/2008       NCAL Bancorp                              Los Angeles        CA      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       12/19/2008       FCB Bancorp, Inc.                         Louisville         KY      Preferred Stock w/ Exercised Warrants        $9,294,000    Par                      N/A
CPP                  12/23/2008       First Financial Bancorp                   Cincinnati         OH      Preferred Stock w/ Warrants                 $80,000,000    Par            $357,193,930
CPP                  12/23/2008       Bridge Capital Holdings                   San Jose           CA      Preferred Stock w/ Warrants                 $23,864,000    Par             $30,996,000
CPP                  12/23/2008       International Bancshares Corporation      Laredo             TX      Preferred Stock w/ Warrants                $216,000,000    Par            $535,103,400
                                                                                                                                                                                                                                                REPORTING REQUIREMENTS I APPENDIX C




CPP                  12/23/2008       First Sound Bank                          Seattle            WA      Preferred Stock w/ Warrants                  $7,400,000    Par                      N/A
CPP                  12/23/2008       M&T Bank Corporation                      Buffalo            NY      Preferred Stock w/ Warrants                $600,000,000    Par          $5,024,309,160
CPP                  12/23/2008       Emclaire Financial Corp.                  Emlenton           PA      Preferred Stock w/ Warrants                  $7,500,000    Par             $30,766,500
                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                183
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009                                                                                                                                                                                                    184
                                      Seller                                                                  Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                               Market
                     Purchase         Name of                                                                                                                            Pricing     Capitalization as          Capital     Capital Repayment
Program    Note      Date             Institution                                   City              State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP                  12/23/2008       Park National Corporation                     Newark            OH      Preferred Stock w/ Warrants                $100,000,000    Par            $778,939,000
CPP                  12/23/2008       Green Bankshares, Inc.                        Greeneville       TN      Preferred Stock w/ Warrants                 $72,278,000    Par            $115,957,600
CPP                  12/23/2008       Cecil Bancorp, Inc.                           Elkton            MD      Preferred Stock w/ Warrants                 $11,560,000    Par             $18,813,900
CPP                  12/23/2008       Financial Institutions, Inc.                  Warsaw            NY      Preferred Stock w/ Warrants                 $37,515,000    Par             $82,334,100
CPP                  12/23/2008       Fulton Financial Corporation                  Lancaster         PA      Preferred Stock w/ Warrants                $376,500,000    Par          $1,163,114,160
CPP                  12/23/2008       United Bancorporation of Alabama, Inc.        Atmore            AL      Preferred Stock w/ Warrants                 $10,300,000    Par                      N/A
CPP                  12/23/2008       MutualFirst Financial, Inc.                   Muncie            IN      Preferred Stock w/ Warrants                 $32,382,000    Par             $33,528,000
CPP                  12/23/2008       BCSB Bancorp, Inc.                            Baltimore         MD      Preferred Stock w/ Warrants                 $10,800,000    Par             $27,308,750
CPP                  12/23/2008       HMN Financial, Inc.                           Rochester         MN      Preferred Stock w/ Warrants                 $26,000,000    Par             $12,905,300
CPP                  12/23/2008       First Community Bank Corporation of America   Pinellas Park     FL      Preferred Stock w/ Warrants                 $10,685,000    Par             $17,019,100
CPP                  12/23/2008       Sterling Bancorp                              New York          NY      Preferred Stock w/ Warrants                 $42,000,000    Par            $179,249,400
CPP                  12/23/2008       Intervest Bancshares Corporation              New York          NY      Preferred Stock w/ Warrants                 $25,000,000    Par             $17,782,250
CPP                  12/23/2008       Peoples Bancorp of North Carolina, Inc.       Newton            NC      Preferred Stock w/ Warrants                 $25,054,000    Par             $31,849,250
                                                                                                                                                                                                                                                   APPENDIX C I REPORTING REQUIREMENTS




CPP                  12/23/2008       Parkvale Financial Corporation                Monroeville       PA      Preferred Stock w/ Warrants                 $31,762,000    Par             $59,599,440
CPP                  12/23/2008       Timberland Bancorp, Inc.                      Hoquiam           WA      Preferred Stock w/ Warrants                 $16,641,000    Par             $36,352,200
CPP                  12/23/2008       1st Constitution Bancorp                      Cranbury          NJ      Preferred Stock w/ Warrants                 $12,000,000    Par             $26,350,000
CPP                  12/23/2008       Central Jersey Bancorp                        Oakhurst          NJ      Preferred Stock w/ Warrants                 $11,300,000    Par             $58,623,500
CPP        (b)       12/23/2008       Western Illinois Bancshares Inc.              Monmouth          IL      Preferred Stock w/ Exercised Warrants        $6,855,000    Par                      N/A
CPP        (b)       12/23/2008       Saigon National Bank                          Westminster       CA      Preferred Stock w/ Exercised Warrants        $1,549,000    Par                      N/A
CPP        (b)       12/23/2008       Capital Pacific Bancorp                       Portland          OR      Preferred Stock w/ Exercised Warrants        $4,000,000    Par                      N/A
CPP        (b)       12/23/2008       Uwharrie Capital Corp                         Albemarle         NC      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (c)       12/23/2008       Mission Valley Bancorp                        Sun Valley        CA      Preferred Stock                              $5,500,000    Par             $14,202,750
CPP        (b)       12/23/2008       The Little Bank, Incorporated                 Kinston           NC      Preferred Stock w/ Exercised Warrants        $7,500,000    Par                      N/A
CPP        (b)       12/23/2008       Pacific Commerce Bank                         Los Angeles       CA      Preferred Stock w/ Exercised Warrants        $4,060,000    Par                      N/A
CPP        (b)       12/23/2008       Citizens Community Bank                       South Hill        VA      Preferred Stock w/ Exercised Warrants        $3,000,000    Par                      N/A
CPP        (b)       12/23/2008       Seacoast Commerce Bank                        Chula Vista       CA      Preferred Stock w/ Exercised Warrants        $1,800,000    Par                      N/A
CPP        (b)       12/23/2008       TCNB Financial Corp.                          Dayton            OH      Preferred Stock w/ Exercised Warrants        $2,000,000    Par                      N/A
CPP        (b)       12/23/2008       Leader Bancorp, Inc.                          Arlington         MA      Preferred Stock w/ Exercised Warrants        $5,830,000    Par                      N/A
CPP        (b)       12/23/2008       Nicolet Bankshares, Inc.                      Green Bay         WI      Preferred Stock w/ Exercised Warrants       $14,964,000    Par                      N/A
CPP        (b)       12/23/2008       Magna Bank                                    Memphis           TN      Preferred Stock w/ Exercised Warrants       $13,795,000    Par                      N/A
CPP        (b)       12/23/2008       Western Community Bancshares, Inc.            Palm Desert       CA      Preferred Stock w/ Exercised Warrants        $7,290,000    Par                      N/A
CPP        (b)       12/23/2008       Community Investors Bancorp, Inc.             Bucyrus           OH      Preferred Stock w/ Exercised Warrants        $2,600,000    Par                      N/A
CPP        (b)       12/23/2008       Capital Bancorp, Inc.                         Rockville         MD      Preferred Stock w/ Exercised Warrants        $4,700,000    Par                      N/A
CPP        (b)       12/23/2008       Cache Valley Banking Company                  Logan             UT      Preferred Stock w/ Exercised Warrants        $4,767,000    Par                      N/A
CPP        (b)       12/23/2008       Citizens Bancorp                              Nevada City       CA      Preferred Stock w/ Exercised Warrants       $10,400,000    Par                      N/A
CPP        (b)       12/23/2008       Tennessee Valley Financial Holdings, Inc.     Oak Ridge         TN      Preferred Stock w/ Exercised Warrants        $3,000,000    Par                      N/A
CPP        (b)       12/23/2008       Pacific Coast Bankers’ Bancshares             San Francisco     CA      Preferred Stock w/ Exercised Warrants       $11,600,000    Par                      N/A
CPP                  12/31/2008       SunTrust Banks, Inc.                          Atlanta           GA      Preferred Stock w/ Warrants              $1,350,000,000    Par          $4,202,497,360
CPP                  12/31/2008       The PNC Financial Services Group Inc.         Pittsburgh        PA      Preferred Stock w/ Warrants              $7,579,200,000    Par         $13,021,631,040
CPP                  12/31/2008       Fifth Third Bancorp                           Cincinnati        OH      Preferred Stock w/ Warrants              $3,408,000,000    Par          $1,688,165,880
CPP                  12/31/2008       Hampton Roads Bankshares, Inc.                Norfolk           VA      Preferred Stock w/ Warrants                 $80,347,000    Par            $169,790,840
CPP                  12/31/2008       CIT Group Inc.                                New York          NY      Preferred Stock w/ Warrants              $2,330,000,000    Par          $1,108,591,330
CPP                  12/31/2008       West Bancorporation, Inc.                     West Des Moines   IA      Preferred Stock w/ Warrants                 $36,000,000    Par            $129,659,800
CPP        (b)       12/31/2008       First Banks, Inc.                             Clayton           MO      Preferred Stock w/ Exercised Warrants      $295,400,000    Par                      N/A
CPP        (a)       1/9/2009         Bank of America Corporation                   Charlotte         NC      Preferred Stock w/ Warrants             $10,000,000,000    Par         $43,657,466,160
CPP                  1/9/2009         FirstMerit Corporation                        Akron             OH      Preferred Stock w/ Warrants                $125,000,000    Par          $1,482,499,200
CPP                  1/9/2009         Farmers Capital Bank Corporation              Frankfort         KY      Preferred Stock w/ Warrants                 $30,000,000    Par            $115,284,190
CPP                  1/9/2009         Peapack-Gladstone Financial Corporation       Gladstone         NJ      Preferred Stock w/ Warrants                 $28,685,000    Par            $149,630,970
CPP                  1/9/2009         Commerce National Bank                        Newport Beach     CA      Preferred Stock w/ Warrants                  $5,000,000    Par             $15,982,000
CPP                  1/9/2009         The First Bancorp, Inc.                       Damariscotta      ME      Preferred Stock w/ Warrants                 $25,000,000    Par            $154,000,600
CPP                  1/9/2009         Sun Bancorp, Inc.                             Vineland          NJ      Preferred Stock w/ Warrants                 $89,310,000    Par            $113,951,640
CPP                  1/9/2009         Crescent Financial Corporation                Cary              NC      Preferred Stock w/ Warrants                 $24,900,000    Par             $34,657,200
CPP                  1/9/2009         American Express Company                      New York          NY      Preferred Stock w/ Warrants              $3,388,890,000    Par         $15,805,838,680
CPP                  1/9/2009         Central Pacific Financial Corp.               Honolulu          HI      Preferred Stock w/ Warrants                $135,000,000    Par            $160,944,000
CPP                  1/9/2009         Centrue Financial Corporation                 St. Louis         MO      Preferred Stock w/ Warrants                 $32,668,000    Par                      N/A
CPP                  1/9/2009         Eastern Virginia Bankshares, Inc.             Tappahannock      VA      Preferred Stock w/ Warrants                 $24,000,000    Par             $49,593,290
                                                                                                                                                                                                                          Continued on next page
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009

                                      Seller                                                                    Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                                 Market
                     Purchase         Name of                                                                                                                              Pricing     Capitalization as          Capital      Capital Repayment
Program    Note      Date             Institution                                     City              State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date               Amount (f)
CPP                  1/9/2009         Colony Bankcorp, Inc.                           Fitzgerald        GA      Preferred Stock w/ Warrants                 $28,000,000    Par             $46,206,090
CPP                  1/9/2009         Independent Bank Corp.                          Rockland          MA      Preferred Stock w/ Warrants                 $78,158,000    Par            $240,203,750
CPP                  1/9/2009         Cadence Financial Corporation                   Starkville        MS      Preferred Stock w/ Warrants                 $44,000,000    Par             $52,664,300
CPP                  1/9/2009         LCNB Corp.                                      Lebanon           OH      Preferred Stock w/ Warrants                 $13,400,000    Par             $63,526,500
CPP                  1/9/2009         Center Bancorp, Inc.                            Union             NJ      Preferred Stock w/ Warrants                 $10,000,000    Par             $93,795,020
CPP                  1/9/2009         F.N.B. Corporation                              Hermitage         PA      Preferred Stock w/ Warrants                $100,000,000    Par            $687,968,320
CPP                  1/9/2009         C&F Financial Corporation                       West Point        VA      Preferred Stock w/ Warrants                 $20,000,000    Par             $43,928,000
CPP                  1/9/2009         North Central Bancshares, Inc.                  Fort Dodge        IA      Preferred Stock w/ Warrants                 $10,200,000    Par             $16,451,750
CPP                  1/9/2009         Carolina Bank Holdings, Inc.                    Greensboro        NC      Preferred Stock w/ Warrants                 $16,000,000    Par             $14,225,400
CPP                  1/9/2009         First Bancorp                                   Troy              NC      Preferred Stock w/ Warrants                 $65,000,000    Par            $198,917,460
CPP                  1/9/2009         First Financial Service Corporation             Elizabethtown     KY      Preferred Stock w/ Warrants                 $20,000,000    Par             $51,936,900
CPP                  1/9/2009         Codorus Valley Bancorp, Inc.                    York              PA      Preferred Stock w/ Warrants                 $16,500,000    Par             $32,466,080
CPP                  1/9/2009         MidSouth Bancorp, Inc.                          Lafayette         LA      Preferred Stock w/ Warrants                 $20,000,000    Par             $67,768,320
CPP                  1/9/2009         First Security Group, Inc.                      Chattanooga       TN      Preferred Stock w/ Warrants                 $33,000,000    Par             $55,335,400
CPP                  1/9/2009         Shore Bancshares, Inc.                          Easton            MD      Preferred Stock w/ Warrants                 $25,000,000    Par            $140,783,750
CPP        (b)       1/9/2009         The Queensborough Company                       Louisville        GA      Preferred Stock w/ Exercised Warrants       $12,000,000    Par                      N/A
CPP        (b)       1/9/2009         American State Bancshares, Inc.                 Great Bend        KS      Preferred Stock w/ Exercised Warrants        $6,000,000    Par                      N/A
CPP        (b)       1/9/2009         Security California Bancorp                     Riverside         CA      Preferred Stock w/ Exercised Warrants        $6,815,000    Par                      N/A
CPP        (b)       1/9/2009         Security Business Bancorp                       San Diego         CA      Preferred Stock w/ Exercised Warrants        $5,803,000    Par                      N/A
CPP        (b)       1/9/2009         Sound Banking Company                           Morehead City     NC      Preferred Stock w/ Exercised Warrants        $3,070,000    Par                      N/A
CPP        (c)       1/9/2009         Mission Community Bancorp                       San Luis Obispo   CA      Preferred Stock                              $5,116,000    Par                      N/A
CPP        (b)       1/9/2009         Redwood Financial Inc.                          Redwood Falls     MN      Preferred Stock w/ Exercised Warrants        $2,995,000    Par                      N/A
CPP        (b)       1/9/2009         Surrey Bancorp                                  Mount Airy        NC      Preferred Stock w/ Exercised Warrants        $2,000,000    Par                      N/A
CPP        (b)       1/9/2009         Independence Bank                               East Greenwich    RI      Preferred Stock w/ Exercised Warrants        $1,065,000    Par                      N/A
CPP        (b)       1/9/2009         Valley Community Bank                           Pleasanton        CA      Preferred Stock w/ Exercised Warrants        $5,500,000    Par                      N/A
CPP        (b)       1/9/2009         Rising Sun Bancorp                              Rising Sun        MD      Preferred Stock w/ Exercised Warrants        $5,983,000    Par                      N/A
CPP        (b)       1/9/2009         Community Trust Financial Corporation           Ruston            LA      Preferred Stock w/ Exercised Warrants       $24,000,000    Par                      N/A
CPP        (b)       1/9/2009         GrandSouth Bancorporation                       Greenville        SC      Preferred Stock w/ Exercised Warrants        $9,000,000    Par                      N/A
CPP        (b)       1/9/2009         Texas National Bancorporation                   Jacksonville      TX      Preferred Stock w/ Exercised Warrants        $3,981,000    Par                      N/A
CPP        (b)       1/9/2009         Congaree Bancshares, Inc.                       Cayce             SC      Preferred Stock w/ Exercised Warrants        $3,285,000    Par                      N/A
CPP        (b)       1/9/2009         New York Private Bank & Trust Corporation       New York          NY      Preferred Stock w/ Exercised Warrants      $267,274,000    Par                      N/A
CPP                  1/16/2009        Home Bancshares, Inc.                           Conway            AR      Preferred Stock w/ Warrants                 $50,000,000    Par            $396,704,050
CPP                  1/16/2009        Washington Banking Company/ Whidbey Island      Oak Harbor        WA      Preferred Stock w/ Warrants                 $26,380,000    Par             $64,797,200
                                      Bank
CPP                  1/16/2009        New Hampshire Thrift Bancshares, Inc.           Newport           NH      Preferred Stock w/ Warrants                 $10,000,000    Par             $41,673,000
CPP                  1/16/2009        Bar Harbor Bankshares/Bar Harbor Bank & Trust Bar Harbor          ME      Preferred Stock w/ Warrants                 $18,751,000    Par             $66,871,000
CPP                  1/16/2009        Somerset Hills Bancorp                          Bernardsville     NJ      Preferred Stock w/ Warrants                  $7,414,000    Par             $31,909,320
CPP                  1/16/2009        SCBT Financial Corporation                      Columbia          SC      Preferred Stock w/ Warrants                 $64,779,000    Par            $236,629,800
CPP                  1/16/2009        S&T Bancorp                                     Indiana           PA      Preferred Stock w/ Warrants                $108,676,000    Par            $586,180,770
CPP                  1/16/2009        ECB Bancorp, Inc./East Carolina Bank            Engelhard         NC      Preferred Stock w/ Warrants                 $17,949,000    Par             $43,513,200
CPP                  1/16/2009        First BanCorp                                   San Juan          PR      Preferred Stock w/ Warrants                $400,000,000    Par            $394,250,220
CPP                  1/16/2009        Texas Capital Bancshares, Inc.                  Dallas            TX      Preferred Stock w/ Warrants                 $75,000,000    Par            $348,852,840
CPP                  1/16/2009        Yadkin Valley Financial Corporation             Elkin             NC      Preferred Stock w/ Warrants                 $36,000,000    Par             $85,920,850
CPP        (c)       1/16/2009        Carver Bancorp, Inc                             New York          NY      Preferred Stock                             $18,980,000    Par              $8,422,700
CPP                  1/16/2009        Citizens & Northern Corporation                 Wellsboro         PA      Preferred Stock w/ Warrants                 $26,440,000    Par            $165,688,890
CPP                  1/16/2009        MainSource Financial Group, Inc.                Greensburg        IN      Preferred Stock w/ Warrants                 $57,000,000    Par            $161,901,480
CPP                  1/16/2009        MetroCorp Bancshares, Inc.                      Houston           TX      Preferred Stock w/ Warrants                 $45,000,000    Par             $30,405,420
CPP                  1/16/2009        United Bancorp, Inc.                            Tecumseh          MI      Preferred Stock w/ Warrants                 $20,600,000    Par             $47,495,700
CPP                  1/16/2009        Old Second Bancorp, Inc.                        Aurora            IL      Preferred Stock w/ Warrants                 $73,000,000    Par             $87,801,450
CPP                  1/16/2009        Pulaski Financial Corp                          Creve Coeur       MO      Preferred Stock w/ Warrants                 $32,538,000    Par             $51,210,000
CPP                  1/16/2009        OceanFirst Financial Corp.                      Toms River        NJ      Preferred Stock w/ Warrants                 $38,263,000    Par            $126,370,300
CPP        (b)       1/16/2009        Community 1st Bank                              Roseville         CA      Preferred Stock w/ Exercised Warrants        $2,550,000    Par                      N/A
CPP        (b)       1/16/2009        TCB Holding Company, Texas Community Bank       The Woodlands     TX      Preferred Stock w/ Exercised Warrants       $11,730,000    Par                      N/A
CPP        (b)       1/16/2009        Centra Financial Holdings, Inc./Centra Bank, Inc. Morgantown      WV      Preferred Stock w/ Exercised Warrants       $15,000,000    Par                      N/A      3/31/2009 (d)            $15,000,000
                                                                                                                                                                                                                                                      REPORTING REQUIREMENTS I APPENDIX C




CPP        (b)       1/16/2009        First Bankers Trustshares, Inc.                 Quincy            IL      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       1/16/2009        Pacific Coast National Bancorp                  San Clemente      CA      Preferred Stock w/ Exercised Warrants        $4,120,000    Par                      N/A
CPP        (c)       1/16/2009        Community Bank of the Bay                       Oakland           CA      Preferred Stock                              $1,747,000    Par                      N/A
CPP        (b)       1/16/2009        Redwood Capital Bancorp                         Eureka            CA      Preferred Stock w/ Exercised Warrants        $3,800,000    Par                      N/A
                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                      185
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009
                                                                                                                                                                                                                                                    186
                                      Seller                                                                   Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                                Market
                     Purchase         Name of                                                                                                                             Pricing     Capitalization as          Capital     Capital Repayment
Program    Note      Date             Institution                                City                  State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP        (b)       1/16/2009        Syringa Bancorp                            Boise                 ID      Preferred Stock w/ Exercised Warrants        $8,000,000    Par                      N/A
CPP        (b)       1/16/2009        Idaho Bancorp                              Boise                 ID      Preferred Stock w/ Exercised Warrants        $6,900,000    Par                      N/A
CPP        (b)       1/16/2009        Puget Sound Bank                           Bellevue              WA      Preferred Stock w/ Exercised Warrants        $4,500,000    Par                      N/A
CPP        (b)       1/16/2009        United Financial Banking Companies, Inc.   Vienna                VA      Preferred Stock w/ Exercised Warrants        $5,658,000    Par                      N/A
CPP        (b)       1/16/2009        Dickinson Financial Corporation II         Kansas City           MO      Preferred Stock w/ Exercised Warrants      $146,053,000    Par                      N/A
CPP        (b)       1/16/2009        The Baraboo Bancorporation                 Baraboo               WI      Preferred Stock w/ Exercised Warrants       $20,749,000    Par                      N/A
CPP        (b)       1/16/2009        Bank of Commerce                           Charlotte             NC      Preferred Stock w/ Exercised Warrants        $3,000,000    Par                      N/A
CPP        (b)       1/16/2009        State Bankshares, Inc.                     Fargo                 ND      Preferred Stock w/ Exercised Warrants       $50,000,000    Par                      N/A
CPP        (b)       1/16/2009        BNCCORP, Inc.                              Bismarck              ND      Preferred Stock w/ Exercised Warrants       $20,093,000    Par                      N/A
CPP        (b)       1/16/2009        First Manitowoc Bancorp, Inc.              Manitowoc             WI      Preferred Stock w/ Exercised Warrants       $12,000,000    Par                      N/A
CPP        (c)       1/16/2009        Southern Bancorp, Inc.                     Arkadelphia           AR      Preferred Stock                             $11,000,000    Par                      N/A
CPP        (b)       1/16/2009        Morrill Bancshares, Inc.                   Merriam               KS      Preferred Stock w/ Exercised Warrants       $13,000,000    Par                      N/A
CPP        (b)       1/16/2009        Treaty Oak Bancorp, Inc.                   Austin                TX      Preferred Stock w/ Exercised Warrants        $3,268,000    Par                      N/A
                                                                                                                                                                                                                                                    APPENDIX C I REPORTING REQUIREMENTS




CPP                  1/23/2009        1st Source Corporation                     South Bend            IN      Preferred Stock w/ Warrants                $111,000,000    Par            $450,275,300
CPP                  1/23/2009        Princeton National Bancorp, Inc.           Princeton             IL      Preferred Stock w/ Warrants                 $25,083,000    Par             $46,172,000
CPP                  1/23/2009        AB&T Financial Corporation                 Gastonia              NC      Preferred Stock w/ Warrants                  $3,500,000    Par             $16,008,000
CPP                  1/23/2009        First Citizens Banc Corp                   Sandusky              OH      Preferred Stock w/ Warrants                 $23,184,000    Par             $57,892,480
CPP                  1/23/2009        WSFS Financial Corporation                 Wilmington            DE      Preferred Stock w/ Warrants                 $52,625,000    Par            $137,849,400
CPP        (b)       1/23/2009        Commonwealth Business Bank                 Los Angeles           CA      Preferred Stock w/ Exercised Warrants        $7,701,000    Par                      N/A
CPP        (b)       1/23/2009        Seaside National Bank & Trust              Orlando               FL      Preferred Stock w/ Exercised Warrants        $5,677,000    Par                      N/A
CPP        (b)       1/23/2009        CalWest Bancorp                            Rancho Santa Margarita CA     Preferred Stock w/ Exercised Warrants        $4,656,000    Par                      N/A
CPP        (b)       1/23/2009        Fresno First Bank                          Fresno                CA      Preferred Stock w/ Exercised Warrants        $1,968,000    Par                      N/A
CPP        (b)       1/23/2009        First ULB Corp.                            Oakland               CA      Preferred Stock w/ Exercised Warrants        $4,900,000    Par                      N/A
CPP        (b)       1/23/2009        Alarion Financial Services, Inc.           Ocala                 FL      Preferred Stock w/ Exercised Warrants        $6,514,000    Par                      N/A
CPP        (b)       1/23/2009        Midland States Bancorp, Inc.               Effingham             IL      Preferred Stock w/ Exercised Warrants       $10,189,000    Par                      N/A
CPP        (b)       1/23/2009        Moscow Bancshares, Inc.                    Moscow                TN      Preferred Stock w/ Exercised Warrants        $6,216,000    Par                      N/A
CPP        (b)       1/23/2009        Farmers Bank                               Windsor               VA      Preferred Stock w/ Exercised Warrants        $8,752,000    Par                      N/A
CPP        (b)       1/23/2009        California Oaks State Bank                 Thousand Oaks         CA      Preferred Stock w/ Exercised Warrants        $3,300,000    Par                      N/A
CPP        (b)       1/23/2009        Pierce County Bancorp                      Tacoma                WA      Preferred Stock w/ Exercised Warrants        $6,800,000    Par                      N/A
CPP        (b)       1/23/2009        Calvert Financial Corporation              Ashland               MO      Preferred Stock w/ Exercised Warrants        $1,037,000    Par                      N/A
CPP        (b)       1/23/2009        Liberty Bancshares, Inc.                   Jonesboro             AR      Preferred Stock w/ Exercised Warrants       $57,500,000    Par                      N/A
CPP        (b)       1/23/2009        Crosstown Holding Company                  Blaine                MN      Preferred Stock w/ Exercised Warrants       $10,650,000    Par                      N/A
CPP        (b)       1/23/2009        BankFirst Capital Corporation              Macon                 MS      Preferred Stock w/ Exercised Warrants       $15,500,000    Par                      N/A
CPP        (b)       1/23/2009        Southern Illinois Bancorp, Inc.            Carmi                 IL      Preferred Stock w/ Exercised Warrants        $5,000,000    Par                      N/A
CPP        (b)       1/23/2009        FPB Financial Corp.                        Hammond               LA      Preferred Stock w/ Exercised Warrants        $3,240,000    Par                      N/A
CPP        (b)       1/23/2009        Stonebridge Financial Corp.                West Chester          PA      Preferred Stock w/ Exercised Warrants       $10,973,000    Par                      N/A
CPP                  1/30/2009        Peoples Bancorp Inc.                       Marietta              OH      Preferred Stock w/Warrants                  $39,000,000    Par            $135,498,220
CPP                  1/30/2009        Anchor BanCorp Wisconsin Inc.              Madison               WI      Preferred Stock w/Warrants                 $110,000,000    Par             $29,101,950
CPP                  1/30/2009        Parke Bancorp, Inc.                        Sewell                NJ      Preferred Stock w/Warrants                  $16,288,000    Par             $28,231,000
CPP                  1/30/2009        Central Virginia Bankshares, Inc.          Powhatan              VA      Preferred Stock w/Warrants                  $11,385,000    Par             $10,254,200
CPP                  1/30/2009        Flagstar Bancorp, Inc.                     Troy                  MI      Preferred Stock w/Warrants                 $266,657,000    Par             $67,784,250
CPP                  1/30/2009        Middleburg Financial Corporation           Middleburg            VA      Preferred Stock w/Warrants                  $22,000,000    Par             $52,004,980
CPP                  1/30/2009        Peninsula Bank Holding Co.                 Palo Alto             CA      Preferred Stock w/Warrants                   $6,000,000    Par             $18,530,000
CPP                  1/30/2009        PrivateBancorp, Inc.                       Chicago               IL      Preferred Stock w/Warrants                 $243,815,000    Par            $485,928,300
CPP                  1/30/2009        Central Valley Community Bancorp           Fresno                CA      Preferred Stock w/Warrants                   $7,000,000    Par             $35,688,140
CPP                  1/30/2009        Plumas Bancorp                             Quincy                CA      Preferred Stock w/Warrants                  $11,949,000    Par             $28,608,240
CPP                  1/30/2009        Stewardship Financial Corporation          Midland Park          NJ      Preferred Stock w/Warrants                  $10,000,000    Par             $45,461,900
CPP                  1/30/2009        Oak Ridge Financial Services, Inc.         Oak Ridge             NC      Preferred Stock w/Warrants                   $7,700,000    Par              $6,984,900
CPP                  1/30/2009        First United Corporation                   Oakland               MD      Preferred Stock w/Warrants                  $30,000,000    Par             $51,302,360
CPP                  1/30/2009        Community Partners Bancorp                 Middletown            NJ      Preferred Stock w/Warrants                   $9,000,000    Par             $23,316,000
CPP                  1/30/2009        Guaranty Federal Bancshares, Inc.          Springfield           MO      Preferred Stock w/Warrants                  $17,000,000    Par             $13,848,900
CPP                  1/30/2009        Annapolis Bancorp, Inc.                    Annapolis             MD      Preferred Stock w/Warrants                   $8,152,000    Par             $10,474,720
CPP                  1/30/2009        DNB Financial Corporation                  Downingtown           PA      Preferred Stock w/Warrants                  $11,750,000    Par             $19,574,560
CPP                  1/30/2009        Firstbank Corporation                      Alma                  MI      Preferred Stock w/Warrants                  $33,000,000    Par             $38,076,000
CPP        (b)       1/30/2009        Valley Commerce Bancorp                    Visalia               CA      Preferred Stock w/ Exercised Warrants        $7,700,000    Par                      N/A
CPP        (b)       1/30/2009        Greer Bancshares Incorporated              Greer                 SC      Preferred Stock w/ Exercised Warrants        $9,993,000    Par                      N/A
                                                                                                                                                                                                                           Continued on next page
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009

                                      Seller                                                                 Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                              Market
                     Purchase         Name of                                                                                                                           Pricing     Capitalization as          Capital     Capital Repayment
Program    Note      Date             Institution                                  City              State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP        (b)       1/30/2009        Ojai Community Bank                          Ojai              CA      Preferred Stock w/ Exercised Warrants        $2,080,000    Par                      N/A
CPP        (b)       1/30/2009        Adbanc, Inc                                  Ogallala          NE      Preferred Stock w/ Exercised Warrants       $12,720,000    Par                      N/A
CPP        (b)       1/30/2009        Beach Business Bank                          Manhattan Beach   CA      Preferred Stock w/ Exercised Warrants        $6,000,000    Par                      N/A
CPP        (c)       1/30/2009        Legacy Bancorp, Inc.                         Milwaukee         WI      Preferred Stock                              $5,498,000    Par                      N/A
CPP        (b)       1/30/2009        First Southern Bancorp, Inc.                 Boca Raton        FL      Preferred Stock w/ Exercised Warrants       $10,900,000    Par                      N/A
CPP        (b)       1/30/2009        Country Bank Shares, Inc.                    Milford           NE      Preferred Stock w/ Exercised Warrants        $7,525,000    Par                      N/A
CPP        (b)       1/30/2009        Katahdin Bankshares Corp.                    Houlton           ME      Preferred Stock w/ Exercised Warrants       $10,449,000    Par                      N/A
CPP        (b)       1/30/2009        Rogers Bancshares, Inc.                      Little Rock       AR      Preferred Stock w/ Exercised Warrants       $25,000,000    Par                      N/A
CPP        (b)       1/30/2009        UBT Bancshares, Inc.                         Marysville        KS      Preferred Stock w/ Exercised Warrants        $8,950,000    Par                      N/A
CPP        (b)       1/30/2009        Bankers’ Bank of the West Bancorp, Inc.      Denver            CO      Preferred Stock w/ Exercised Warrants       $12,639,000    Par                      N/A
CPP        (b)       1/30/2009        W.T.B. Financial Corporation                 Spokane           WA      Preferred Stock w/ Exercised Warrants      $110,000,000    Par                      N/A
CPP        (b)       1/30/2009        AMB Financial Corp.                          Munster           IN      Preferred Stock w/ Exercised Warrants        $3,674,000    Par                      N/A
CPP        (b)       1/30/2009        Goldwater Bank, N.A.                         Scottsdale        AZ      Preferred Stock w/ Exercised Warrants        $2,568,000    Par                      N/A
CPP        (b)       1/30/2009        Equity Bancshares, Inc.                      Wichita           KS      Preferred Stock w/ Exercised Warrants        $8,750,000    Par                      N/A
CPP        (b)       1/30/2009        WashingtonFirst Bank                         Reston            VA      Preferred Stock w/ Exercised Warrants        $6,633,000    Par                      N/A
CPP        (b)       1/30/2009        Central Bancshares, Inc.                     Houston           TX      Preferred Stock w/ Exercised Warrants        $5,800,000    Par                      N/A
CPP        (b)       1/30/2009        Hilltop Community Bancorp, Inc.              Summit            NJ      Preferred Stock w/ Exercised Warrants        $4,000,000    Par                      N/A
CPP        (b)       1/30/2009        Northway Financial, Inc.                     Berlin            NH      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       1/30/2009        Monument Bank                                Bethesda          MD      Preferred Stock w/ Exercised Warrants        $4,734,000    Par                      N/A
CPP        (b)       1/30/2009        Metro City Bank                              Doraville         GA      Preferred Stock w/ Exercised Warrants        $7,700,000    Par                      N/A
CPP        (b)       1/30/2009        F & M Bancshares, Inc.                       Trezevant         TN      Preferred Stock w/ Exercised Warrants        $4,609,000    Par                      N/A
CPP        (b)       1/30/2009        First Resource Bank                          Exton             PA      Preferred Stock w/ Exercised Warrants        $2,600,000    Par                      N/A
CPP                  2/6/2009         MidWest One Financial Group, Inc.            Iowa City         IA      Preferred Stock w/Warrants                  $16,000,000    Par             $80,438,050
CPP                  2/6/2009         Lakeland Bancorp, Inc.                       Oak Ridge         NJ      Preferred Stock w/Warrants                  $59,000,000    Par            $189,508,000
CPP                  2/6/2009         Monarch Community Bancorp, Inc.              Coldwater         MI      Preferred Stock w/Warrants                   $6,785,000    Par              $7,075,890
CPP                  2/6/2009         The First Bancshares, Inc.                   Hattiesburg       MS      Preferred Stock w/Warrants                   $5,000,000    Par             $29,361,800
CPP                  2/6/2009         Carolina Trust Bank                          Lincolnton        NC      Preferred Stock w/Warrants                   $4,000,000    Par              $7,516,800
CPP                  2/6/2009         Alaska Pacific Bancshares, Inc.              Juneau            AK      Preferred Stock w/Warrants                   $4,781,000    Par              $2,354,400
CPP        (c)       2/6/2009         PGB Holdings, Inc.                           Chicago           IL      Preferred Stock                              $3,000,000    Par                      N/A
CPP        (b)       2/6/2009         The Freeport State Bank                      Harper            KS      Preferred Stock w/ Exercised Warrants          $301,000    Par                      N/A
CPP        (b)       2/6/2009         Stockmens Financial Corporation              Rapid City        SD      Preferred Stock w/ Exercised Warrants       $15,568,000    Par                      N/A
CPP        (b)       2/6/2009         US Metro Bank                                Garden Grove      CA      Preferred Stock w/ Exercised Warrants        $2,861,000    Par                      N/A
CPP        (b)       2/6/2009         First Express of Nebraska, Inc.              Gering            NE      Preferred Stock w/ Exercised Warrants        $5,000,000    Par                      N/A
CPP        (b)       2/6/2009         Mercantile Capital Corp.                     Boston            MA      Preferred Stock w/ Exercised Warrants        $3,500,000    Par                      N/A
CPP        (b)       2/6/2009         Citizens Commerce Bancshares, Inc.           Versailles        KY      Preferred Stock w/ Exercised Warrants        $6,300,000    Par                      N/A
CPP        (c)       2/6/2009         Liberty Financial Services, Inc.             New Orleans       LA      Preferred Stock                              $5,645,000    Par                      N/A
CPP        (b)       2/6/2009         Lone Star Bank                               Houston           TX      Preferred Stock w/ Exercised Warrants        $3,072,000    Par                      N/A
CPP        (b)       2/6/2009         First Market Bank, FSB                       Richmond          VA      Preferred Stock w/ Exercised Warrants       $33,900,000    Par                      N/A
CPP        (b)       2/6/2009         Banner County Ban Corporation                Harrisburg        NE      Preferred Stock w/ Exercised Warrants          $795,000    Par                      N/A
CPP        (b)       2/6/2009         Centrix Bank & Trust                         Bedford           NH      Preferred Stock w/ Exercised Warrants        $7,500,000    Par                      N/A
CPP        (b)       2/6/2009         Todd Bancshares, Inc.                        Hopkinsville      KY      Preferred Stock w/ Exercised Warrants        $4,000,000    Par                      N/A
CPP        (b)       2/6/2009         Georgia Commerce Bancshares, Inc.            Atlanta           GA      Preferred Stock w/ Exercised Warrants        $8,700,000    Par                      N/A
CPP        (b)       2/6/2009         First Bank of Charleston, Inc.               Charleston        WV      Preferred Stock w/ Exercised Warrants        $3,345,000    Par                      N/A
CPP        (b)       2/6/2009         F & M Financial Corporation                  Salisbury         NC      Preferred Stock w/ Exercised Warrants       $17,000,000    Par                      N/A
CPP        (b)       2/6/2009         The Bank of Currituck                        Moyock            NC      Preferred Stock w/ Exercised Warrants        $4,021,000    Par                      N/A
CPP        (b)       2/6/2009         CedarStone Bank                              Lebanon           TN      Preferred Stock w/ Exercised Warrants        $3,564,000    Par                      N/A
CPP        (b)       2/6/2009         Community Holding Company of Florida, Inc.   Miramar Beach     FL      Preferred Stock w/ Exercised Warrants        $1,050,000    Par                      N/A
CPP        (b)       2/6/2009         Hyperion Bank                                Philadelphia      PA      Preferred Stock w/ Exercised Warrants        $1,552,000    Par                      N/A
CPP        (b)       2/6/2009         Pascack Community Bank                       Westwood          NJ      Preferred Stock w/ Exercised Warrants        $3,756,000    Par                      N/A
CPP        (b)       2/6/2009         First Western Financial, Inc.                Denver            CO      Preferred Stock w/ Exercised Warrants        $8,559,000    Par                      N/A
CPP                  2/13/2009        QCR Holdings, Inc.                           Moline            IL      Preferred Stock w/Warrants                  $38,237,000    Par             $36,429,240
CPP                  2/13/2009        Westamerica Bancorporation                   San Rafael        CA      Preferred Stock w/Warrants                  $83,726,000    Par          $1,315,545,000
CPP                  2/13/2009        The Bank of Kentucky Financial Corporation   Crestview Hills   KY      Preferred Stock w/Warrants                  $34,000,000    Par            $106,647,000
                                                                                                                                                                                                                                                  REPORTING REQUIREMENTS I APPENDIX C




CPP                  2/13/2009        PremierWest Bancorp                          Medford           OR      Preferred Stock w/Warrants                  $41,400,000    Par             $99,564,950
CPP                  2/13/2009        Carrollton Bancorp                           Baltimore         MD      Preferred Stock w/Warrants                   $9,201,000    Par             $13,127,670
CPP                  2/13/2009        FNB United Corp.                             Asheboro          NC      Preferred Stock w/Warrants                  $51,500,000    Par             $29,712,800
                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                  187
                                                                                                                                                                                                                                                188
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009

                                      Seller                                                               Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                            Market
                     Purchase         Name of                                                                                                                         Pricing     Capitalization as          Capital     Capital Repayment
Program    Note      Date             Institution                                   City           State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP        (b)       2/13/2009        First Menasha Bancshares, Inc.                Neenah         WI      Preferred Stock w/ Exercised Warrants        $4,797,000    Par                      N/A
CPP        (b)       2/13/2009        1st Enterprise Bank                           Los Angeles    CA      Preferred Stock w/ Exercised Warrants        $4,400,000    Par                      N/A
CPP        (b)       2/13/2009        DeSoto County Bank                            Horn Lake      MS      Preferred Stock w/ Exercised Warrants        $1,173,000    Par                      N/A
CPP        (b)       2/13/2009        Security Bancshares of Pulaski County, Inc.   Waynesville    MO      Preferred Stock w/ Exercised Warrants        $2,152,000    Par                      N/A
CPP        (b)       2/13/2009        State Capital Corporation                     Greenwood      MS      Preferred Stock w/ Exercised Warrants       $15,000,000    Par                      N/A
CPP        (b)       2/13/2009        BankGreenville                                Greenville     SC      Preferred Stock w/ Exercised Warrants        $1,000,000    Par                      N/A
CPP        (b)       2/13/2009        Corning Savings and Loan Association          Corning        AR      Preferred Stock w/ Exercised Warrants          $638,000    Par                      N/A
CPP        (b)       2/13/2009        Financial Security Corporation                Basin          WY      Preferred Stock w/ Exercised Warrants        $5,000,000    Par                      N/A
CPP        (b)       2/13/2009        ColoEast Bankshares, Inc.                     Lamar          CO      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       2/13/2009        Santa Clara Valley Bank, N.A.                 Santa Paula    CA      Preferred Stock w/ Exercised Warrants        $2,900,000    Par                      N/A
CPP        (b)       2/13/2009        Reliance Bancshares, Inc.                     Frontenac      MO      Preferred Stock w/ Exercised Warrants       $40,000,000    Par                      N/A
CPP        (b)       2/13/2009        Regional Bankshares, Inc.                     Hartsville     SC      Preferred Stock w/ Exercised Warrants        $1,500,000    Par                      N/A
CPP        (b)       2/13/2009        Peoples Bancorp                               Lynden         WA      Preferred Stock w/ Exercised Warrants       $18,000,000    Par                      N/A
CPP        (b)       2/13/2009        First Choice Bank                             Cerritos       CA      Preferred Stock w/ Exercised Warrants        $2,200,000    Par                      N/A
                                                                                                                                                                                                                                                APPENDIX C I REPORTING REQUIREMENTS




CPP        (b)       2/13/2009        Gregg Bancshares, Inc.                        Ozark          MO      Preferred Stock w/ Exercised Warrants          $825,000    Par                      N/A
CPP        (b)       2/13/2009        Hometown Bancshares, Inc.                     Corbin         KY      Preferred Stock w/ Exercised Warrants        $1,900,000    Par                      N/A
CPP        (b)       2/13/2009        Midwest Regional Bancorp, Inc.                Festus         MO      Preferred Stock w/ Exercised Warrants          $700,000    Par                      N/A
CPP        (b)       2/13/2009        Bern Bancshares, Inc.                         Bern           KS      Preferred Stock w/ Exercised Warrants          $985,000    Par                      N/A
CPP        (b)       2/13/2009        Northwest Bancorporation, Inc.                Spokane        WA      Preferred Stock w/ Exercised Warrants       $10,500,000    Par                      N/A
CPP        (b)       2/13/2009        Liberty Bancshares, Inc.                      Springfield    MO      Preferred Stock w/ Exercised Warrants       $21,900,000    Par                      N/A
CPP        (b)       2/13/2009        F&M Financial Corporation                     Clarksville    TN      Preferred Stock w/ Exercised Warrants       $17,243,000    Par                      N/A
CPP        (b)       2/13/2009        Meridian Bank                                 Devon          PA      Preferred Stock w/ Exercised Warrants        $6,200,000    Par                      N/A
CPP        (b)       2/13/2009        Northwest Commercial Bank                     Lakewood       WA      Preferred Stock w/ Exercised Warrants        $1,992,000    Par                      N/A
CPP                  2/20/2009        Royal Bancshares of Pennsylvania, Inc.        Narberth       PA      Preferred Stock w/Warrants                  $30,407,000    Par             $27,839,010
CPP                  2/20/2009        First Merchants Corporation                   Muncie         IN      Preferred Stock w/Warrants                 $116,000,000    Par            $228,510,620
CPP                  2/20/2009        Northern States Financial Corporation         Waukegan       IL      Preferred Stock w/Warrants                  $17,211,000    Par             $30,336,400
CPP        (b)       2/20/2009        Sonoma Valley Bancorp                         Sonoma         CA      Preferred Stock w/ Exercised Warrants        $8,653,000    Par                      N/A
CPP        (b)       2/20/2009        Guaranty Bancorp, Inc.                        Woodsville     NH      Preferred Stock w/ Exercised Warrants        $6,920,000    Par                      N/A
CPP        (b)       2/20/2009        The Private Bank of California                Los Angeles    CA      Preferred Stock w/ Exercised Warrants        $5,450,000    Par                      N/A
CPP        (b)       2/20/2009        Lafayette Bancorp, Inc.                       Oxford         MS      Preferred Stock w/ Exercised Warrants        $1,998,000    Par                      N/A
CPP        (b)       2/20/2009        Liberty Shares, Inc.                          Hinesville     GA      Preferred Stock w/ Exercised Warrants       $17,280,000    Par                      N/A
CPP        (b)       2/20/2009        White River Bancshares Company                Fayetteville   AR      Preferred Stock w/ Exercised Warrants       $16,800,000    Par                      N/A
CPP        (b)       2/20/2009        United American Bank                          San Mateo      CA      Preferred Stock w/ Exercised Warrants        $8,700,000    Par                      N/A
CPP        (b)       2/20/2009        Crazy Woman Creek Bancorp, Inc.               Buffalo        WY      Preferred Stock w/ Exercised Warrants        $3,100,000    Par                      N/A
CPP        (b)       2/20/2009        First Priority Financial Corp.                Malvern        PA      Preferred Stock w/ Exercised Warrants        $4,579,000    Par                      N/A
CPP        (b)       2/20/2009        Mid-Wisconsin Financial Services, Inc.        Medford        WI      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       2/20/2009        Market Bancorporation, Inc.                   New Market     MN      Preferred Stock w/ Exercised Warrants        $2,060,000    Par                      N/A
CPP        (b)       2/20/2009        Hometown Bancorp of Alabama, Inc.             Oneonta        AL      Preferred Stock w/ Exercised Warrants        $3,250,000    Par                      N/A
CPP        (b)       2/20/2009        Security State Bancshares, Inc.               Charleston     MO      Preferred Stock w/ Exercised Warrants       $12,500,000    Par                      N/A
CPP        (b)       2/20/2009        CBB Bancorp                                   Cartersville   GA      Preferred Stock w/ Exercised Warrants        $2,644,000    Par                      N/A
CPP        (b)       2/20/2009        BancPlus Corporation                          Ridgeland      MS      Preferred Stock w/ Exercised Warrants       $48,000,000    Par                      N/A
CPP        (b)       2/20/2009        Central Community Corporation                 Temple         TX      Preferred Stock w/ Exercised Warrants       $22,000,000    Par                      N/A
CPP        (b)       2/20/2009        First BancTrust Corporation                   Paris          IL      Preferred Stock w/ Exercised Warrants        $7,350,000    Par                      N/A
CPP        (b)       2/20/2009        Premier Service Bank                          Riverside      CA      Preferred Stock w/ Exercised Warrants        $4,000,000    Par                      N/A
CPP        (b)       2/20/2009        Florida Business BancGroup, Inc.              Tampa          FL      Preferred Stock w/ Exercised Warrants        $9,495,000    Par                      N/A
CPP        (b)       2/20/2009        Hamilton State Bancshares                     Hoschton       GA      Preferred Stock w/ Exercised Warrants        $7,000,000    Par                      N/A
CPP                  2/27/2009        Lakeland Financial Corporation                Warsaw         IN      Preferred Stock w/Warrants                  $56,044,000    Par            $238,224,660
CPP                  2/27/2009        First M&F Corporation                         Kosciusko      MS      Preferred Stock w/Warrants                  $30,000,000    Par             $56,120,400
CPP                  2/27/2009        Southern First Bancshares, Inc.               Greenville     SC      Preferred Stock w/Warrants                  $17,299,000    Par             $17,082,450
CPP                  2/27/2009        Integra Bank Corporation                      Evansville     IN      Preferred Stock w/Warrants                  $83,586,000    Par             $39,208,050
CPP        (b)       2/27/2009        Community First Inc.                          Columbia       TN      Preferred Stock w/ Exercised Warrants       $17,806,000    Par                      N/A
CPP        (b)       2/27/2009        BNC Financial Group, Inc.                     New Canaan     CT      Preferred Stock w/ Exercised Warrants        $4,797,000    Par                      N/A
CPP        (b)       2/27/2009        California Bank of Commerce                   Lafayette      CA      Preferred Stock w/ Exercised Warrants        $4,000,000    Par                      N/A
CPP        (b)       2/27/2009        Columbine Capital Corp.                       Buena Vista    CO      Preferred Stock w/ Exercised Warrants        $2,260,000    Par                      N/A
CPP        (b)       2/27/2009        National Bancshares, Inc.                     Bettendorf     IA      Preferred Stock w/ Exercised Warrants       $24,664,000    Par                      N/A
CPP        (b)       2/27/2009        First State Bank of Mobeetie                  Mobeetie       TX      Preferred Stock w/ Exercised Warrants          $731,000    Par                      N/A
CPP        (b)       2/27/2009        Ridgestone Financial Services, Inc.           Brookfield     WI      Preferred Stock w/ Exercised Warrants       $10,900,000    Par                      N/A
                                                                                                                                                                                                                       Continued on next page
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009

                                      Seller                                                                     Purchase Details                                                                              Capital Repayment Details


                                                                                                                                                                                                  Market
                     Purchase         Name of                                                                                                                               Pricing     Capitalization as          Capital     Capital Repayment
Program    Note      Date             Institution                                  City                  State   Investment Description                  Investment Price   Mechanism     of 3/31/2009      Repayment Date              Amount (f)
CPP        (b)       2/27/2009        Community Business Bank                      West Sacramento       CA      Preferred Stock w/ Exercised Warrants        $3,976,000    Par                      N/A
CPP        (b)       2/27/2009        D.L. Evans Bancorp                           Burley                ID      Preferred Stock w/ Exercised Warrants       $19,891,000    Par                      N/A
CPP        (b)       2/27/2009        TriState Capital Holdings, Inc.              Pittsburgh            PA      Preferred Stock w/ Exercised Warrants       $23,000,000    Par                      N/A
CPP        (b)       2/27/2009        Green City Bancshares, Inc.                  Green City            MO      Preferred Stock w/ Exercised Warrants          $651,000    Par                      N/A
CPP        (b)       2/27/2009        First Gothenburg Bancshares, Inc.            Gothenburg            NE      Preferred Stock w/ Exercised Warrants        $7,570,000    Par                      N/A
CPP        (b)       2/27/2009        Green Circle Investments, Inc.               Clive                 IA      Preferred Stock w/ Exercised Warrants        $2,400,000    Par                      N/A
CPP        (b)       2/27/2009        Private Bancorporation, Inc.                 Minneapolis           MN      Preferred Stock w/ Exercised Warrants        $4,960,000    Par                      N/A
CPP        (b)       2/27/2009        Regent Capital Corporation                   Nowata                OK      Preferred Stock w/ Exercised Warrants        $2,655,000    Par                      N/A
CPP        (b)       2/27/2009        Central Bancorp, Inc.                        Garland               TX      Preferred Stock w/ Exercised Warrants       $22,500,000    Par                      N/A
CPP        (b)       2/27/2009        Medallion Bank                               Salt Lake City        UT      Preferred Stock w/ Exercised Warrants       $11,800,000    Par                      N/A
CPP        (b)       2/27/2009        PSB Financial Corporation                    Many                  LA      Preferred Stock w/ Exercised Warrants        $9,270,000    Par                      N/A
CPP        (b)       2/27/2009        Avenue Financial Holdings, Inc.              Nashville             TN      Preferred Stock w/ Exercised Warrants        $7,400,000    Par                      N/A
CPP        (b)       2/27/2009        Howard Bancorp, Inc.                         Ellicott City         MD      Preferred Stock w/ Exercised Warrants        $5,983,000    Par                      N/A
CPP        (b)       2/27/2009        FNB Bancorp                                  South San Francisco   CA      Preferred Stock w/ Exercised Warrants       $12,000,000    Par                      N/A
CPP        (b)       2/27/2009        The Victory Bank                             Limerick              PA      Preferred Stock w/ Exercised Warrants          $541,000    Par                      N/A
CPP        (b)       2/27/2009        Catskill Hudson Bancorp, Inc                 Rock Hill             NY      Preferred Stock w/ Exercised Warrants        $3,000,000    Par                      N/A
CPP        (b)       2/27/2009        Midtown Bank & Trust Company                 Atlanta               GA      Preferred Stock w/ Exercised Warrants        $5,222,000    Par                      N/A
CPP                  3/6/2009         HCSB Financial Corporation                   Loris                 SC      Preferred Stock w/Warrants                  $12,895,000    Par             $41,694,870
CPP                  3/6/2009         First Busey Corporation                      Urbana                IL      Preferred Stock w/Warrants                 $100,000,000    Par            $277,931,320
CPP                  3/6/2009         First Federal Bancshares of Arkansas, Inc.   Harrison              AR      Preferred Stock w/Warrants                  $16,500,000    Par             $22,780,900
CPP        (c)       3/6/2009         Citizens Bancshares Corporation              Atlanta               GA      Preferred Stock                              $7,462,000    Par              $6,521,820
CPP        (b)       3/6/2009         ICB Financial                                Ontario               CA      Preferred Stock w/ Exercised Warrants        $6,000,000    Par                      N/A
CPP        (b)       3/6/2009         First Texas BHC, Inc.                        Fort Worth            TX      Preferred Stock w/ Exercised Warrants       $13,533,000    Par                      N/A
CPP        (b)       3/6/2009         Farmers & Merchants Bancshares, Inc.         Houston               TX      Preferred Stock w/ Exercised Warrants       $11,000,000    Par                      N/A
CPP        (b)       3/6/2009         Blue Ridge Bancshares, Inc.                  Independence          MO      Preferred Stock w/ Exercised Warrants       $12,000,000    Par                      N/A
CPP        (b)       3/6/2009         First Reliance Bancshares, Inc.              Florence              SC      Preferred Stock w/ Exercised Warrants       $15,349,000    Par                      N/A
CPP        (b)       3/6/2009         Merchants and Planters Bancshares, Inc.      Toone                 TN      Preferred Stock w/ Exercised Warrants        $1,881,000    Par                      N/A
CPP        (b)       3/6/2009         First Southwest Bancorporation, Inc.         Alamosa               CO      Preferred Stock w/ Exercised Warrants        $5,500,000    Par                      N/A
CPP        (b)       3/6/2009         Germantown Capital Corporation, Inc.         Germantown            TN      Preferred Stock w/ Exercised Warrants        $4,967,000    Par                      N/A
CPP        (b)       3/6/2009         BOH Holdings, Inc.                           Houston               TX      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       3/6/2009         AmeriBank Holding Company                    Collinsville          OK      Preferred Stock w/ Exercised Warrants        $2,492,000    Par                      N/A
CPP        (b)       3/6/2009         Highlands Independent Bancshares, Inc.       Sebring               FL      Preferred Stock w/ Exercised Warrants        $6,700,000    Par                      N/A
CPP        (b)       3/6/2009         Pinnacle Bank Holding Company, Inc.          Orange City           FL      Preferred Stock w/ Exercised Warrants        $4,389,000    Par                      N/A
CPP        (b)       3/6/2009         Blue River Bancshares, Inc.                  Shelbyville           IN      Preferred Stock w/ Exercised Warrants        $5,000,000    Par                      N/A
CPP        (b)       3/6/2009         Marine Bank & Trust Company                  Vero Beach            FL      Preferred Stock w/ Exercised Warrants        $3,000,000    Par                      N/A
CPP        (b)       3/6/2009         Community Bancshares of Kansas, Inc.         Goff                  KS      Preferred Stock w/ Exercised Warrants          $500,000    Par                      N/A
CPP        (b)       3/6/2009         Regent Bancorp, Inc.                         Davie                 FL      Preferred Stock w/ Exercised Warrants        $9,982,000    Par                      N/A
CPP        (b)       3/6/2009         Park Bancorporation, Inc.                    Madison               WI      Preferred Stock w/ Exercised Warrants       $23,200,000    Par                      N/A
CPP        (b)       3/6/2009         PeoplesSouth Bancshares, Inc.                Colquitt              GA      Preferred Stock w/ Exercised Warrants       $12,325,000    Par                      N/A
CPP                  3/13/2009        First Place Financial Corp.                  Warren                OH      Preferred Stock w/Warrants                  $72,927,000    Par             $57,029,280
CPP                  3/13/2009        Salisbury Bancorp, Inc.                      Lakeville             CT      Preferred Stock w/Warrants                   $8,816,000    Par             $41,391,300
CPP                  3/13/2009        First Northern Community Bancorp             Dixon                 CA      Preferred Stock w/Warrants                  $17,390,000    Par             $43,183,460
CPP                  3/13/2009        Discover Financial Services                  Riverwoods            IL      Preferred Stock w/Warrants               $1,224,558,000    Par          $3,038,006,290
CPP                  3/13/2009        Provident Community Bancshares, Inc.         Rock Hill             SC      Preferred Stock w/Warrants                   $9,266,000    Par              $4,738,200
CPP        (c)       3/13/2009        First American International Corp.           Brooklyn              NY      Preferred Stock                             $17,000,000    Par                      N/A
CPP        (b)       3/13/2009        BancIndependent, Inc.                        Sheffield             AL      Preferred Stock w/ Exercised Warrants       $21,100,000    Par                      N/A
CPP        (b)       3/13/2009        Haviland Bancshares, Inc.                    Haviland              KS      Preferred Stock w/ Exercised Warrants          $425,000    Par                      N/A
CPP        (b)       3/13/2009        1st United Bancorp, Inc.                     Boca Raton            FL      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       3/13/2009        Madison Financial Corporation                Richmond              KY      Preferred Stock w/ Exercised Warrants        $3,370,000    Par                      N/A
CPP        (b)       3/13/2009        First National Corporation                   Strasburg             VA      Preferred Stock w/ Exercised Warrants       $13,900,000    Par                      N/A
CPP        (b)       3/13/2009        St. Johns Bancshares, Inc.                   St. Louis             MO      Preferred Stock w/ Exercised Warrants        $3,000,000    Par                      N/A
CPP        (b)       3/13/2009        Blackhawk Bancorp, Inc.                      Beloit                WI      Preferred Stock w/ Exercised Warrants       $10,000,000    Par                      N/A
CPP        (b)       3/13/2009        IBW Financial Corporation                    Washington            DC      Preferred Stock w/ Exercised Warrants        $6,000,000    Par                      N/A
                                                                                                                                                                                                                                                      REPORTING REQUIREMENTS I APPENDIX C




CPP        (b)       3/13/2009        Butler Point, Inc.                           Catlin                IL      Preferred Stock w/ Exercised Warrants          $607,000    Par                      N/A
CPP        (b)       3/13/2009        Bank of George                               Las Vegas             NV      Preferred Stock w/ Exercised Warrants        $2,672,000    Par                      N/A
CPP        (b)       3/13/2009        Moneytree Corporation                        Lenoir City           TN      Preferred Stock w/ Exercised Warrants        $9,516,000    Par                      N/A
                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                      189
TARP TRANSACTION DETAIL, THROUGH MARCH 31, 2009
                                                                                                                                                                                                                                                                                                                                190
                                                    Seller                                                                                    Purchase Details                                                                                                                         Capital Repayment Details


                                                                                                                                                                                                                                                                Market
                             Purchase               Name of                                                                                                                                                               Pricing                     Capitalization as                   Capital         Capital Repayment
Program        Note          Date                   Institution                                      City                      State          Investment Description                                Investment Price      Mechanism                     of 3/31/2009               Repayment Date                  Amount (f)
CPP            (b)           3/13/2009              Sovereign Bancshares, Inc.                       Dallas                    TX             Preferred Stock w/ Exercised Warrants                      $18,215,000      Par                                       N/A
CPP            (b)           3/13/2009              First Intercontinental Bank                      Doraville                 GA             Preferred Stock w/ Exercised Warrants                       $6,398,000      Par                                       N/A
CPP                          3/20/2009              Heritage Oaks Bancorp                            Paso Robles               CA             Preferred Stock w/Warrants                                 $21,000,000      Par                             $32,174,950
CPP            (b)           3/20/2009              Community First Bancshares Inc.                  Union City                TN             Preferred Stock w/ Exercised Warrants                      $20,000,000      Par                                       N/A
CPP            (b)           3/20/2009              First NBC Bank Holding Company                   New Orleans               LA             Preferred Stock w/ Exercised Warrants                      $17,836,000      Par                                       N/A
CPP            (b)           3/20/2009              First Colebrook Bancorp, Inc.                    Colebrook                 NH             Preferred Stock w/ Exercised Warrants                       $4,500,000      Par                                       N/A
CPP            (b)           3/20/2009              Kirksville Bancorp, Inc.                         Kirksville                MO             Preferred Stock w/ Exercised Warrants                         $470,000      Par                                       N/A
CPP            (b)           3/20/2009              Peoples Bancshares of TN, Inc                    Madisonville              TN             Preferred Stock w/ Exercised Warrants                       $3,900,000      Par                                       N/A
CPP            (b)           3/20/2009              Premier Bank Holding Company                     Tallahassee               FL             Preferred Stock w/ Exercised Warrants                       $9,500,000      Par                                       N/A
CPP            (b)           3/20/2009              Citizens Bank & Trust Company                    Covington                 LA             Preferred Stock w/ Exercised Warrants                       $2,400,000      Par                                       N/A
CPP            (b)           3/20/2009              Farmers & Merchants Financial Corporation        Argonia                   KS             Preferred Stock w/ Exercised Warrants                         $442,000      Par                                       N/A
CPP            (b)           3/20/2009              Farmers State Bankshares, Inc.                   Holton                    KS             Preferred Stock w/ Exercised Warrants                         $700,000      Par                                       N/A
CPP            (b)           3/27/2009              SBT Bancorp, Inc.                                Simsbury                  CT             Preferred Stock w/ Exercised Warrants                       $4,000,000      Par                                       N/A
                                                                                                                                                                                                                                                                                                                                APPENDIX C I REPORTING REQUIREMENTS




CPP            (b)           3/27/2009              CSRA Bank Corp.                                  Wrens                     GA             Preferred Stock w/ Exercised Warrants                       $2,400,000      Par                                       N/A
CPP            (b)           3/27/2009              Trinity Capital Corporation                      Los Alamos                NM             Preferred Stock w/ Exercised Warrants                      $35,539,000      Par                                       N/A
CPP            (b)           3/27/2009              Clover Community Bankshares, Inc.                Clover                    SC             Preferred Stock w/ Exercised Warrants                       $3,000,000      Par                                       N/A
CPP            (b)           3/27/2009              Pathway Bancorp                                  Cairo                     NE             Preferred Stock w/ Exercised Warrants                       $3,727,000      Par                                       N/A
CPP            (b)           3/27/2009              Colonial American Bank                           West Conshohocken         PA             Preferred Stock w/ Exercised Warrants                         $574,000      Par                                       N/A
CPP            (b)           3/27/2009              MS Financial, Inc.                               Kingwood                  TX             Preferred Stock w/ Exercised Warrants                       $7,723,000      Par                                       N/A
CPP            (b)           3/27/2009              Triad Bancorp, Inc.                              Frontenac                 MO             Preferred Stock w/ Exercised Warrants                       $3,700,000      Par                                       N/A
CPP            (b)           3/27/2009              Alpine Banks of Colorado                         Glenwood Springs          CO             Preferred Stock w/ Exercised Warrants                      $70,000,000      Par                                       N/A
CPP            (b)           3/27/2009              Naples Bancorp, Inc.                             Naples                    FL             Preferred Stock w/ Exercised Warrants                       $4,000,000      Par                                       N/A
CPP            (b)           3/27/2009              CBS Banc-Corp.                                   Russellville              AL             Preferred Stock w/ Exercised Warrants                      $24,300,000      Par                                       N/A
CPP            (b)           3/27/2009              IBT Bancorp, Inc.                                Irving                    TX             Preferred Stock w/ Exercised Warrants                       $2,295,000      Par                                       N/A
CPP            (b)           3/27/2009              Spirit BankCorp, Inc.                            Bristow                   OK             Preferred Stock w/ Exercised Warrants                      $30,000,000      Par                                       N/A
CPP            (b)           3/27/2009              Maryland Financial Bank                          Towson                    MD             Preferred Stock w/ Exercised Warrants                       $1,700,000      Par                                       N/A
SSFI                         11/25/2008             AIG                                              New York                  NY             Preferred Stock w/ Warrants                           $40,000,000,000       Par                          $2,690,747,000
AIFP                         12/29/2008             GMAC LLC                                         Detroit                   MI             Preferred Stock w/ Exercised Warrants                  $5,000,000,000       Liquidation Prefer-                       N/A
                                                                                                                                                                                                                          ence
AIFP           (g)           12/29/2008             General Motors Corporation                       Detroit                   MI             Debt Obligation                                          $884,024,131       N/A                          $1,184,373,880
AIFP                         12/31/2008             General Motors Corporation                       Detroit                   MI             Debt Obligation w/ Warrants and                       $13,400,000,000       N/A                          $1,184,373,880
                                                                                                                                              Additional Note
AIFP                         1/2/2009               Chrysler Holding LLC                             Auburn Hills              MI             Debt Obligation w/ Additional Note                     $4,000,000,000       N/A                                        NA
AIFP           (h)           1/16/2009              Chrysler Financial Services Americas LLC         Farmington Hills          MI             Debt Obligation w/ Additional Note                     $1,500,000,000       N/A                                        NA
TIP                          12/31/2008             Citigroup Inc.                                   New York                  NY             Preferred Stock w/ Warrants                           $20,000,000,000       Par                         $13,947,814,100
TIP                          1/16/2009              Bank of America Corporation                      Charlotte                 NC             Preferred Stock w/ Warrants                           $20,000,000,000       Par                         $43,657,466,160
AGP            (j)           1/16/2009              Citigroup Inc.                                   New York                  NY             Preferred Stock and Warrants                           $5,000,000,000       N/A                         $13,947,814,100
CBLI           (i)           3/3/2009               TALF LLC                                         Wilmington                DE             Debt Obligation w/Additional Note                     $20,000,000,000       N/A                                       N/A
TOTAL                                                                                                                                                                                  $328,553,711,131                                                                                               $353,000,000

Notes:
(a) This transaction was included in previous Transactions Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and
this transaction under the CPP was funded on 1/9/2009.
(b) Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock, which it exercised immediately.
(c) To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
(d) Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
(e) Redemption pursuant to a qualified equity offering.
(f) This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
(g) Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate level of funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
(h) The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler Financial. The Amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded.
(i) The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
(j) Transaction type is a guarantee instead of a purchase.

Source: Transactions: Treasury, Transactions Report, 3/31/2009, www.financialstability.gov, accessed 4/9/2009; Market Capitalization: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/2/2009 at 2:00 pm EST.

Key:

CPP    Capital Purchase Program
SSFI   Systemically Significant Failing Institution Program
AIFP   Automotive Industry Financing Program
TIP    Targeted Investment Program
AGP    Asset Guarantee Program
CBLI   Consumer and Business Lending Initiative Investment Program
                                                                                                   REPORTING REQUIREMENTS I APPENDIX C              191



C—Explanation of the Secretary                                               As of March 31, 2009, no troubled assets have been sold,
In its data call response, Treasury provided SIGTARP with                except for preferred stock repurchased by certain recipients of
determinations signed by the Treasury Secretary since                    investments under the CPP. Treasury has received $353 million in
SIGTARP’s Initial Report. These determinations relate to the             principal and $2.3 million in accrued and unpaid dividends from
following programs:17                                                    the repurchase of senior preferred shares by five financial institu-
                                                                         tions that participated in the CPP. Participants that are interested
• TALF                                                                   in repurchasing their senior preferred shares are required to repur-
• Auto Supplier Support Program                                          chase these assets at par (i.e., the purchase price paid by Treasury).
• Home Affordable Modification Program (“HAMP”)                          Therefore, Treasury has not taken a loss on the repurchase of senior
                                                                         preferred shares.
    Please refer to part A of this appendix for details provided on          As of March 31, 2009, Treasury continues to hold the war-
Treasury’s website regarding the purpose of each program and             rants received from the four publicly traded financial institutions
part B for a listing of troubled asset purchases.                        that repurchased preferred shares. Treasury also continues to hold
                                                                         the warrant preferred shares received upon exercise of the war-
D—Financial Institutions                                                 rant from the one private financial institution that completed a
See part B of this appendix.                                             repurchase transaction. Treasury is waiting to hear from the issuers
                                                                         whether they will invoke their right to purchase the warrants
                                                                         before they are offered for sale to a third-party. If the issuers choose
E—Listing and Detailed Biographical Information
                                                                         not to exercise this right within 15 calendar days, Treasury will
of Asset Manager18
                                                                         liquidate the warrants. The private institution has notified Treasury
In response to SIGTARP’s data call question regarding this
                                                                         that it will repurchase its warrant preferred shares at their ag-
reporting requirement, Treasury stated:
                                                                         gregate liquidation preference. Treasury will receive a profit from
    The Office of Financial Stability recently hired an asset
                                                                         the sale of these assets, regardless of the final purchaser, since the
manager [EARNEST Partners] for the Small Business Initiative
                                                                         Treasury did not incur any additional cost to acquire them.
[Unlocking Credit for Small Businesses] on March 16, 2009. As
                                                                             SIGTARP will provide more information on this in its next
of March 31, 2009, OFS has not yet hired asset managers for any
                                                                         quarterly report.
other TARP programs.
    EARNEST Partners is an employee-owned firm that has been
managing institutional portfolios for almost 20 years. EARNEST
Partners manage a broad range of equity, fixed income, and alter-
native asset portfolios for over 350 institutional clients. The firm’s
investment professionals possess considerable expertise and experi-
ence in analyzing not only the broad fixed income market but
also several niche areas, including a long-standing and significant
portfolio involvement with issues guaranteed by the Small Business
Administration (SBA).

F—Summary of TARP Transactions by Program19
In response to SIGTARP’s data call question regarding this
reporting requirement, Treasury stated:
    This information is contained in our transaction reports, which
are posted on Treasury’s website at http://www.financialstability.gov/
latest/reportsanddocs.html. The Transactions Report that provides
this information as of March 31, 2009 was posted on April 2,
2009.
192                   APPENDIX C I REPORTING REQUIREMENTS



          Table C.2 provides a summary of the total amount of                                                                        H—Detailed Statement of Expenditures and
      troubled assets purchased and held on Treasury’s books as of                                                                   Revenues
      March 31, 2009.                                                                                                                See part B of this appendix for Purchases and see part F of this
                                                                                                                                     appendix for TARP Transactions.
                                                                                                                                     In response to SIGTARP’s data call question regarding this
      G—Insurance Contracts20
                                                                                                                                     reporting requirement, Treasury stated:
      In response to SIGTARP’s data call question regarding this
                                                                                                                                         Treasury provides information about TARP purchases, obliga-
      reporting requirement, Treasury stated:
                                                                                                                                     tions, expenditures, and revenues on Treasury’s public website.
          On January 16, 2009, TARP closed on the guarantee trans-
                                                                                                                                     Treasury posts a transaction report for each purchase of troubled
      action with Citigroup, as announced in a joint statement by the
                                                                                                                                     assets two business days after the transaction. Treasury also posts
      Treasury, Federal Reserve and FDIC on November 23, 2008. No
                                                                                                                                     a detailed financial statement as part of its report under section
      other insurance contracts have been issued as of March 31, 2009.
                                                                                                                                     105(a) of EESA.
          Details of the terms and conditions of the Citigroup transac-
                                                                                                                                         Treasury stated that it has incurred $13.3 million in TARP-
      tion are included in the Institution-Specific Assistance part of
                                                                                                                                     related administrative expenditures through March 31, 2009.
      Section 2: “TARP Implementation.”
                                                                                                                                     Table C.3 summarizes actual administrative TARP expenditures
                                                                                                                                     as of March 31, 2009.


      TABLE C.2

       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF
       MARCH 31, 2009 ($ BILLIONS)
                                                                                                                Obligationsa                 Expendedb                        On Treasury’s Booksc
      Capital Purchase Program (“CPP”)                                                                               $198.8                     $198.8                                      $198.8
      Systemically Significant Failing Institutions (“SSFI”)                                                            40.0                      40.0                                        40.0
      Targeted Investment Program (“TIP”)                                                                               40.0                      40.0                                        40.0
      Automotive Industry Financing Program (“AIFP”)d                                                                   24.8                      24.5                                        24.5
      Asset Guarantee Program (“AGP”)                                                                                    5.0                          -                                           -
      Term Asset-Backed Securities Loan Facility (“TALF”)e                                                              20.0                       0.1                                         0.1
      TOTAL                                                                                                         $328.6                      $303.4                                     $303.4

      Note:
      Numbers affected by rounding.
      a From a budgetary perspective, what Treasury has committed to spend (e.g. signed agreements with TARP recipients).
      b Represents TARP cash that has left the Treasury.
      c All assets are currently carried at par value.
      d Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. This $1.5 billion has not been fully expended because the loan will be funded incrementally at $100 million
      per week. As of 3/31/2009, $1,175 million out of the $1.5 billion has been funded.
      e TALF falls under the Consumer and Business Lending Initiative. Treasury’s $20 billion obligation to TALF represents the maximum obligated amount. This $20 billion has not been fully expended
      because the loan will be funded as needed by TALF. As of 3/31/2009, $100 million out of the $20 billion has been funded.

      Sources: Treasury, Transactions Report, 4/02/2009, www.financialstability.gov, accessed 4/2/2009; Treasury, response to SIGTARP data call, 4/9/2009.




      TABLE C.3

      TARP ADMINISTRATIVE EXPENDITURES AND OBLIGATIONS
                                                                            Obligations for Period Ending                            Expenditures for
      Budget Object Class Title                                                               3/31/2009                     Period Ending 3/31/2009
      PERSONNEL SERVICES
          Personnel Compensation & Benefits                                                         $3,830,093                                  $2,902,514
          TOTAL PERSONNEL SERVICES                                                                 $3,830,093                                  $2,902,514
      NON-PERSONNEL SERVICES

         Travel & Transportation of Persons                                                             $28,714                                     $19,831
         Transportation of Things                                                                             –                                           –
         Rents, Communications,
         Utilities & Misc. Charges                                                                     598,902                                      534,152
         Printing & Reproduction                                                                           395                                        $395
         Other Services                                                                             25,186,838                                    9,567,209
         Supplies & Materials                                                                          209,446                                       87,790
         Equipment                                                                                      89,887                                       89,887
         Land & Structures                                                                             103,878                                       97,522
         TOTAL NON-PERSONNEL
         SERVICES                                                                                $26,218,059                                 $10,396,785
      TOTAL                                                                                      $30,048,152                                 $13,299,298

      Note: Numbers affected by rounding.

      Source: Treasury, response to SIGTARP data call, 4/8/2009.
                                                                                                                                       REPORTING REQUIREMENTS I APPENDIX C   193


    In addition to administrative expenditures, Treasury has re-
leased the details of programmatic expenditures. These expendi-
tures include costs to hire financial agents and legal firms associ-
ated with TARP operations. Table C.4 indicates the allocation of
these programmatic costs as of March 31, 2009.
    As of March 31, 2009, revenue to date has been received
from various programs; the breakdown of such revenue is pro-
vided in Table C.5.




TABLE C.4                                                                                    TABLE C.5

TARP PROGRAMMATIC EXPENDITURES ($ MILLIONS)                                                  DIVIDEND AND INTEREST PAYMENTS,
                                                                                             BY PROGRAM ($ MILLIONS)
                                                                        Expenditures as of
Vendor Name                                                                   3/31/2009      Program                                                       Amount

The Bank of New York Mellon Corporation                                              $5.7    CPP                                                          $2,517.9

Cadwalader Wickersham & Taft, LLP                                                     0.4    SSFI                                                                –

Ennis Knupp & Associates, Inc.                                                        1.2    TIP                                                             328.9

Hughes Hubbard & Reed, LLP                                                            1.9    AGP                                                              26.9

Locke Lord Bissell & Liddell, LLP                                                     0.4    AIFP                                                            250.6

Pension Benefit Guaranty Corporation                                                  2.0    TOTAL                                                        $3,124.3

Simpson Thacher & Bartlett MNP, LLP                                                   1.4
                                                                                             Note: Numbers affected by rounding. Data as of 3/31/2009.
Sonnenschein Nath & Rosenthal, LLP                                                    2.7
                                                                                             Source: Treasury, response to SIGTARP data call, 4/8/2009.
Squire Sanders & Dempsey, LLP                                                         1.8

Sonnenschein Nath & Rosenthal, LLP (formerly Thacher Proffitt & Wood)                 0.1

The Boston Consulting Group                                                           0.9

Venable, LLP                                                                          0.7

Freddie Mac                                                                             –

Fannie Mae                                                                              –

EARNEST Partners                                                                        –

Haynes and Boone, LLP                                                                   –

McKee Nelson, LLP                                                                       –

TOTAL                                                                               $19.1


Note: Numbers affected by rounding. Data as of 3/31/2009.

Source: Treasury, response to SIGTARP data call, 4/8/2009.
194             APPENDIX C I REPORTING REQUIREMENTS



      Endnotes
      1    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      2    Treasury, response to SIGTARP data call, 4/8/2009.
      3    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      4    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      5    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      6    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      7    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      8    Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      9    Treasury, “Treasury Announces Auto Supplier Support Program; Program Will Aid Critical Sector of American Economy,” 3/19/2009, www.treas.gov, accessed
           3/19/2009.
      10 Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, www.treas.gov, accessed 3/30/2009.
      11 Treasury, Section 105(a) Report, www.financialstabiliy.gov, 12/5/2009, accessed 4/10/2009.
      12 Treasury, “Fact Sheet: Financial Stability Plan,” 2/10/2009, www.financialstability.gov, accessed 4/10/2009.
      13 Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
      14 Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      15 Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      16 Treasury, Programs webpage, 3/30/2009, www.financialstability.gov, accessed 4/9/2009.
      17 Treasury, response to SIGTARP data call, 4/8/2009.
      18 Treasury, response to SIGTARP data call, 3/31/2009. According to Treasury, information on EARNEST Partners is based on representations by the company received
           by OFS and from the company website.
      19 Treasury, response to SIGTARP data call, 4/8/2009.
      20 Treasury, response to SIGTARP data call, 4/8/2009.
                                                                          PRINCIPAL/INCOME TRANSACTION REPORT I APPENDIX D   195




PRINCIPAL/INCOME TRANSACTION REPORT
This appendix provides a copy of the TARP Principal/Income Transaction Report, as of March 31, 2009. Treasury provided
this document in its April 8, 2009, response to the SIGTARP data call.
196           APPENDIX D I PRINCIPAL/INCOME TRANSACTION REPORT




      Troubled Asset Relief Program
      Principal / Income Transaction Report


      As of : 01-Apr-2009 12:01 PM
      Start Date : 27-Oct-2008 End Date : 01-Apr-2009



       Payment Date     CUSIP            QFI Name                                   Program ID   Payment Type             Amount

      AGP
       17-Feb-2009      17296C985        CITIGROUP INC                              24           DIVIDEND PAYMENT     26,893,333.33
                                                                                                                      26,893,333.33
      AIFP
       17-Feb-2009      361859960        GMAC LLC                                   AIF0002      DIVIDEND PAYMENT      2,875,000.00
       17-Feb-2009      361859986        GMAC LLC                                   AIF0002      DIVIDEND PAYMENT     51,111,111.11
       17-Mar-2009      1712J19A6        CHRYSLER FINANCIAL SERVICES AMERICAS LLC   AIF0004      INTEREST PAYMENT        898,751.74
       17-Mar-2009      1712J19A6        CHRYSLER FINANCIAL SERVICES AMERICAS LLC   AIF0004      PRINCIPAL PAYMENT     3,499,054.95
       17-Mar-2009      1712J19B4        CHRYSLER FINANCIAL SERVICES AMERICAS LLC   AIF0004      INTEREST PAYMENT         33,218.75
       31-Mar-2009      1712J89A1        CHRYSLER HOLDINGS LLC                      AIF0003      INTEREST PAYMENT     48,888,888.89
       31-Mar-2009      1712J89B9        CHRYSLER HOLDINGS LLC                      AIF0003      INTEREST PAYMENT      3,263,333.33
       31-Mar-2009      3704269M2        GENERAL MOTORS CORPORATION                 AIF0001      INTEREST PAYMENT      9,085,803.57
       31-Mar-2009      3704429B3        GENERAL MOTORS CORPORATION                 AIF0001      INTEREST PAYMENT    125,083,333.93
       31-Mar-2009      3704429E7        GENERAL MOTORS CORPORATION                 AIF0001      INTEREST PAYMENT      9,356,970.50
                                                                                                                     254,095,466.77
      CPP
       01-Dec-2008      46625H894        JPMORGAN CHASE AND CO                      29           DIVIDEND PAYMENT    114,583,333.33
       15-Dec-2008      857477897        STATE STREET CORPORATION                   20           DIVIDEND PAYMENT     13,055,555.56
       15-Dec-2008      867914608        SUNTRUST BANKS, INC.                       5            DIVIDEND PAYMENT     15,069,444.44
       22-Dec-2008      06426P982        BANK OF NEW YORK MELLON                    15           DIVIDEND PAYMENT     21,666,666.67
       15-Jan-2009      617446943        MORGAN STANLEY                             18           DIVIDEND PAYMENT    106,944,444.00
       12-Feb-2009      096065982        BLUE VALLEY BAN CORP                       118          DIVIDEND PAYMENT        211,458.33
       12-Feb-2009      702898966        PATAPSCO BANCORP, INC.                     289          DIVIDEND PAYMENT          4,200.00
       12-Feb-2009      702898982        PATAPSCO BANCORP, INC.                     289          DIVIDEND PAYMENT         46,666.67
       12-Feb-2009      882559966        TEXAS NATIONAL BANCORPORATION INC.         376          DIVIDEND PAYMENT          1,791.00
       12-Feb-2009      882559982        TEXAS NATIONAL BANCORPORATION INC.         376          DIVIDEND PAYMENT         19,905.00
       13-Feb-2009      029851961        AMERICAN STATE BANCSHARES, INC.            74           DIVIDEND PAYMENT          2,700.00
       13-Feb-2009      029851987        AMERICAN STATE BANCSHARES, INC.            74           DIVIDEND PAYMENT         30,000.00
       13-Feb-2009      03074A987        AMERISERV FINANCIAL, INC.                  207          DIVIDEND PAYMENT        163,333.33
       13-Feb-2009      063425201        BANK OF MARIN BANCORP                      127          DIVIDEND PAYMENT        272,222.22
       13-Feb-2009      101119972        BOSTON PRIVATE FINANCIAL                   72           DIVIDEND PAYMENT      1,796,666.67
       13-Feb-2009      108030982        BRIDGE CAPITAL HOLDINGS                    115          DIVIDEND PAYMENT        172,351.11
       13-Feb-2009      126600980        CVB FINANCIAL CORP.                        106          DIVIDEND PAYMENT      1,263,888.89
       13-Feb-2009      15201P984        CENTERSTATE BANKS OF FLORIDA INC.          23           DIVIDEND PAYMENT        325,208.33
       13-Feb-2009      152418984        CENTRAL BANCORP, INC                       133          DIVIDEND PAYMENT         97,222.22
       13-Feb-2009      15346Q988        CENTRAL FEDERAL CORPORATION                123          DIVIDEND PAYMENT         70,243.06
       13-Feb-2009      15643B981        CENTRUE FINANCIAL CORPORATION              248          DIVIDEND PAYMENT        163,340.00
       13-Feb-2009      268253986        ECB BANCORP, INC.                          349          DIVIDEND PAYMENT         72,294.58
       13-Feb-2009      277196200        EASTERN VIRGINIA BANKSHARES, INC.          250          DIVIDEND PAYMENT        120,000.00
       13-Feb-2009      289660987        THE ELMIRA SAVINGS BANK, FSB               293          DIVIDEND PAYMENT         70,700.00
       13-Feb-2009      290828201        EMCLAIRE FINANCIAL CORP.                   173          DIVIDEND PAYMENT         54,166.67
       13-Feb-2009      302549969        FPB FINANCIAL CORP.                        506          DIVIDEND PAYMENT            891.00
       13-Feb-2009      302549985        FPB FINANCIAL CORP.                        506          DIVIDEND PAYMENT          9,900.00
       13-Feb-2009      309562981        FARMERS CAPITAL BANK CORPORATION           85           DIVIDEND PAYMENT        150,000.00
       13-Feb-2009      32022D983        FIRST FINANCIAL SERVICE CORPORATION        342          DIVIDEND PAYMENT        100,000.00
       13-Feb-2009      320724982        FIRST LITCHFIELD FINANCIAL CORPORATION     185          DIVIDEND PAYMENT         87,500.00
       13-Feb-2009      404172983        HF FINANCIAL CORP.                         10           DIVIDEND PAYMENT        291,666.67
       13-Feb-2009      426927984        HERITAGE COMMERCE CORP                     55           DIVIDEND PAYMENT        466,666.67
       13-Feb-2009      453397960        INDEPENDENCE BANK                          203          DIVIDEND PAYMENT            477.00
       13-Feb-2009      453397986        INDEPENDENCE BANK                          203          DIVIDEND PAYMENT          5,325.00
       13-Feb-2009      591650981        METROCORP BANCSHARES, INC.                 440          DIVIDEND PAYMENT        181,250.00
       13-Feb-2009      60520E989        MISSION VALLEY BANCORP                     139          DIVIDEND PAYMENT         39,722.22
       13-Feb-2009      60907Q985        MONARCH FINANCIAL HOLDINGS, INC.           233          DIVIDEND PAYMENT        114,333.33
       13-Feb-2009      63080P980        NARA BANCORP, INC.                         88           DIVIDEND PAYMENT        781,666.67
       13-Feb-2009      65080T987        NEWBRIDGE BANCORP                          141          DIVIDEND PAYMENT        458,255.00
       13-Feb-2009      671807980        OAK VALLEY BANCORP                         205          DIVIDEND PAYMENT        131,250.00
       13-Feb-2009      67984M985        OLD LINE BANCSHARES, INC.                  159          DIVIDEND PAYMENT         68,055.56
       13-Feb-2009      69444Q986        PACIFIC INTERNATIONAL BANCORP              67           DIVIDEND PAYMENT         56,875.00
       13-Feb-2009      72650P965        PLAINS CAPITAL CORPORATION                 41           DIVIDEND PAYMENT         61,348.00
       13-Feb-2009      72650P981        PLAINS CAPITAL CORPORATION                 41           DIVIDEND PAYMENT        681,574.44
       13-Feb-2009      742282981        PRINCETON NATIONAL BANCORP, INC.           372          DIVIDEND PAYMENT         76,642.50
       13-Feb-2009      75777X969        REDWOOD CAPITAL BANCORP                    389          DIVIDEND PAYMENT          1,377.50
       13-Feb-2009      75777X985        REDWOOD CAPITAL BANCORP                    389          DIVIDEND PAYMENT         15,305.56
       13-Feb-2009      811707405        SEACOAST BANKING CORPORATION OF FLORIDA    175          DIVIDEND PAYMENT        388,888.89
       13-Feb-2009      834728982        SOMERSET HILLS BANCORP                     269          DIVIDEND PAYMENT         29,861.94
       13-Feb-2009      84223P984        SOUTHERN BANCORP, INC.                     490          DIVIDEND PAYMENT         44,305.56
       13-Feb-2009      85856G209        STELLARONE CORPORATION                     237          DIVIDEND PAYMENT        233,333.33
       13-Feb-2009      887098986        TIMBERLAND BANCORP, INC.                   365          DIVIDEND PAYMENT        120,185.00
       13-Feb-2009      904214988        UMPQUA HOLDINGS CORP                       14           DIVIDEND PAYMENT      2,707,009.86
       13-Feb-2009      937303980        WASHINGTON BANKING COMPANY                 157          DIVIDEND PAYMENT        106,252.78
       13-Feb-2009      958372963        WESTERN ILLINOIS BANCSHARES, INC.          6            DIVIDEND PAYMENT          4,459.00
       13-Feb-2009      958372989        WESTERN ILLINOIS BANCSHARES, INC.          6            DIVIDEND PAYMENT         49,508.33
       13-Feb-2009      97186T983        WILSHIRE BANCORP, INC.                     158          DIVIDEND PAYMENT        543,882.50
       17-Feb-2009      00037W981        AB&T FINANCIAL CORPORATION                 379          DIVIDEND PAYMENT         10,694.44
       17-Feb-2009      011634961        ALARION FINANCIAL SERVICES, INC.           378          DIVIDEND PAYMENT          1,793.00
                                                                         PRINCIPAL/INCOME TRANSACTION REPORT I APPENDIX D         197




Payment Date   CUSIP       QFI Name                                Program ID   Payment Type                          Amount
17-Feb-2009    011634987   ALARION FINANCIAL SERVICES, INC.        378          DIVIDEND PAYMENT                      19,903.89
17-Feb-2009    019205988   ALLIANCE FINANCIAL CORPORATION          311          DIVIDEND PAYMENT                     209,362.22
17-Feb-2009    025816950   AMERICAN EXPRESS COMPANY                232          DIVIDEND PAYMENT                  16,944,450.00
17-Feb-2009    03076K983   AMERIS BANCORP                          58           DIVIDEND PAYMENT                     606,666.67
17-Feb-2009    045487980   ASSOCIATED BANC-CORP                    76           DIVIDEND PAYMENT                   6,125,000.00
17-Feb-2009    054937958   BB AND T CORP                           12           DIVIDEND PAYMENT                  39,605,727.78
17-Feb-2009    055367981   BCSB BANCORP, INC.                      294          DIVIDEND PAYMENT                      78,000.00
17-Feb-2009    05566T986   BNC BANCORP                             128          DIVIDEND PAYMENT                     303,916.67
17-Feb-2009    055936967   BNCCORP, INC.                           483          DIVIDEND PAYMENT                       7,286.25
17-Feb-2009    055936983   BNCCORP, INC.                           483          DIVIDEND PAYMENT                      80,930.14
17-Feb-2009    059690982   BANCORP RHODE ISLAND, INC.              255          DIVIDEND PAYMENT                     233,333.33
17-Feb-2009    05969A980   THE BANCORP, INC.                       149          DIVIDEND PAYMENT                     395,675.00
17-Feb-2009    05978R974   BANCTRUST FINANCIAL GROUP, INC.         131          DIVIDEND PAYMENT                     388,888.89
17-Feb-2009    060505450   BANK OF AMERICA CORPORATION             38           DIVIDEND PAYMENT                  50,000,000.00
17-Feb-2009    060505963   BANK OF AMERICA                         21           DIVIDEND PAYMENT                 222,916,666.67
17-Feb-2009    061590964   BANK OF COMMERCE                        458          DIVIDEND PAYMENT                       1,087.50
17-Feb-2009    061590980   BANK OF COMMERCE                        458          DIVIDEND PAYMENT                      12,083.33
17-Feb-2009    063904981   BANK OF THE OZARKS, INC.                130          DIVIDEND PAYMENT                     656,250.00
17-Feb-2009    06424J988   BANK OF COMMERCE HOLDINGS               1            DIVIDEND PAYMENT                     214,861.11
17-Feb-2009    066440967   BANKFIRST CAPITAL CORPORATION           461          DIVIDEND PAYMENT                       4,262.50
17-Feb-2009    066440983   BANKFIRST CAPITAL CORPORATION           461          DIVIDEND PAYMENT                      47,361.11
17-Feb-2009    06652V984   BANNER CORPORATION/BANNER BANK          63           DIVIDEND PAYMENT                   1,446,666.67
17-Feb-2009    066849985   BAR HARBOR BANKSHARES                   256          DIVIDEND PAYMENT                      75,524.86
17-Feb-2009    067021964   THE BARABOO BANCORPORATION, INC.        443          DIVIDEND PAYMENT                       7,518.25
17-Feb-2009    067021980   THE BARABOO BANCORPORATION, INC.        443          DIVIDEND PAYMENT                      83,572.36
17-Feb-2009    10855P968   BRIDGEVIEW BANCORP, INC.                253          DIVIDEND PAYMENT                      26,600.00
17-Feb-2009    10855P984   BRIDGEVIEW BANCORP, INC.                253          DIVIDEND PAYMENT                     295,555.56
17-Feb-2009    11144L982   BROADWAY FEDERAL BANK                   7            DIVIDEND PAYMENT                     113,750.00
17-Feb-2009    12466Q989   C&F FINANCIAL CORPORATION               324          DIVIDEND PAYMENT                     100,000.00
17-Feb-2009    125581983   CIT GROUP INC.                          247          DIVIDEND PAYMENT                  14,562,500.00
17-Feb-2009    127171965   CACHE VALLEY BANKING COMPANY            314          DIVIDEND PAYMENT                       3,094.00
17-Feb-2009    127171981   CACHE VALLEY BANKING COMPANY            314          DIVIDEND PAYMENT                      34,428.33
17-Feb-2009    12738A986   CADENCE FINANCIAL CORPORATION           300          DIVIDEND PAYMENT                     220,000.00
17-Feb-2009    130496961   CALIFORNIA OAKS STATE BANK              418          DIVIDEND PAYMENT                         907.50
17-Feb-2009    130496987   CALIFORNIA OAKS STATE BANK              418          DIVIDEND PAYMENT                      10,083.33
17-Feb-2009    131601965   CALVERT FINANCIAL CORPORATION           432          DIVIDEND PAYMENT                         286.00
17-Feb-2009    131601981   CALVERT FINANCIAL CORPORATION           432          DIVIDEND PAYMENT                       3,168.61
17-Feb-2009    13169Q961   CALWEST BANCORP                         219          DIVIDEND PAYMENT                       1,281.50
17-Feb-2009    13169Q987   CALWEST BANCORP                         219          DIVIDEND PAYMENT                      14,226.67
17-Feb-2009    139741961   CAPITAL BANCORP, INC.                   307          DIVIDEND PAYMENT                       3,055.00
17-Feb-2009    139741987   CAPITAL BANCORP, INC.                   307          DIVIDEND PAYMENT                      33,944.44
17-Feb-2009    139793988   CAPITAL BANK CORPORATION                61           DIVIDEND PAYMENT                     361,191.25
17-Feb-2009    14040N979   CAPITAL ONE FINANCIAL CORP              22           DIVIDEND PAYMENT                  44,933,765.14
17-Feb-2009    14042V961   CAPITAL PACIFIC BANCORP                 64           DIVIDEND PAYMENT                       2,600.00
17-Feb-2009    14042V987   CAPITAL PACIFIC BANCORP                 64           DIVIDEND PAYMENT                      28,888.89
17-Feb-2009    143785988   CAROLINA BANK HOLDINGS, INC.            338          DIVIDEND PAYMENT                      80,000.00
17-Feb-2009    146875208   CARVER BANCORP, INC.                    413          DIVIDEND PAYMENT                      76,447.22
17-Feb-2009    147272983   CASCADE FINANCIAL CORPORATION           65           DIVIDEND PAYMENT                     454,650.00
17-Feb-2009    149150989   CATHAY GENERAL BANCORP                  103          DIVIDEND PAYMENT                   2,508,333.33
17-Feb-2009    149841983   CECIL BANCORP, INC.                     192          DIVIDEND PAYMENT                      83,488.89
17-Feb-2009    151408978   CENTER BANCORP, INC.                    304          DIVIDEND PAYMENT                      50,000.00
17-Feb-2009    15146R988   CENTER FINANCIAL CORPORATION            132          DIVIDEND PAYMENT                     481,250.00
17-Feb-2009    15234K960   CENTRA FINANCIAL HOLDINGS, INC.         257          DIVIDEND PAYMENT                       5,437.50
17-Feb-2009    15234K986   CENTRA FINANCIAL HOLDINGS, INC.         257          DIVIDEND PAYMENT                      60,416.67
17-Feb-2009    153770987   CENTRAL JERSEY BANCORP                  371          DIVIDEND PAYMENT                      81,611.11
17-Feb-2009    154760987   CENTRAL PACIFIC FINANCIAL CORP.         241          DIVIDEND PAYMENT                     675,000.00
17-Feb-2009    172922981   CITIZENS & NORTHERN CORPORATION         419          DIVIDEND PAYMENT                     106,494.44
17-Feb-2009    172967499   CITIGROUP INC                           24           DIVIDEND PAYMENT                 371,527,777.78
17-Feb-2009    17315R963   CITIZENS BANCORP                        325          DIVIDEND PAYMENT                       6,760.00
17-Feb-2009    17315R989   CITIZENS BANCORP                        325          DIVIDEND PAYMENT                      75,111.11
17-Feb-2009    174420984   CITIZENS REPUBLIC BANCORP, INC.         116          DIVIDEND PAYMENT                   2,625,000.00
17-Feb-2009    174532960   CITIZENS COMMUNITY BANK                 164          DIVIDEND PAYMENT                       1,950.00
17-Feb-2009    174532986   CITIZENS COMMUNITY BANK                 164          DIVIDEND PAYMENT                      21,666.67
17-Feb-2009    17462Q982   CITIZENS FIRST CORPORATION              339          DIVIDEND PAYMENT                      68,281.11
17-Feb-2009    176682979   CITIZENS SOUTH BANKING CORPORATION      195          DIVIDEND PAYMENT                     179,375.00
17-Feb-2009    178566972   CITY NATIONAL CORPORATION               25           DIVIDEND PAYMENT                   4,666,666.67
17-Feb-2009    19041N985   COASTAL BANKING COMPANY, INC.           90           DIVIDEND PAYMENT                      96,736.11
17-Feb-2009    190897967   COBIZ FINANCIAL INC.                    166          DIVIDEND PAYMENT                     501,277.78
17-Feb-2009    192025989   CODORUS VALLEY BANCORP, INC.            358          DIVIDEND PAYMENT                      82,500.00
17-Feb-2009    19623P986   COLONY BANKCORP, INC.                   259          DIVIDEND PAYMENT                     140,000.00
17-Feb-2009    197236979   COLUMBIA BANKING SYSTEM, INC.           66           DIVIDEND PAYMENT                     897,143.33
17-Feb-2009    200340206   COMERICA INC.                           16           DIVIDEND PAYMENT                  28,437,500.00
17-Feb-2009    202750964   COMMONWEALTH BUSINESS BANK              57           DIVIDEND PAYMENT                       2,117.50
17-Feb-2009    202750980   COMMONWEALTH BUSINESS BANK              57           DIVIDEND PAYMENT                      23,530.83
17-Feb-2009    203612981   COMMUNITY BANKERS TRUST CORPORATION     113          DIVIDEND PAYMENT                     137,511.11
17-Feb-2009    20365L985   COMMUNITY FINANCIAL CORPORATION         194          DIVIDEND PAYMENT                      98,334.44
17-Feb-2009    203719968   COMMUNITY INVESTORS BANCORP, INC.       284          DIVIDEND PAYMENT                       1,690.00
17-Feb-2009    203719984   COMMUNITY INVESTORS BANCORP, INC.       284          DIVIDEND PAYMENT                      18,777.78
17-Feb-2009    204154967   COMMUNITY TRUST FINANCIAL CORPORATION   322          DIVIDEND PAYMENT                      10,800.00
17-Feb-2009    204154983   COMMUNITY TRUST FINANCIAL CORPORATION   322          DIVIDEND PAYMENT                     120,000.00
17-Feb-2009    204157986   COMMUNITY WEST BANCSHARES               82           DIVIDEND PAYMENT                     121,333.33
17-Feb-2009    20716N961   CONGAREE BANCSHARES, INC.               384          DIVIDEND PAYMENT                       1,476.00
17-Feb-2009    20716N987   CONGAREE BANCSHARES, INC.               384          DIVIDEND PAYMENT                      16,425.00
17-Feb-2009    225744978   CRESCENT FINANCIAL CORPORATION          201          DIVIDEND PAYMENT                     124,500.00
198      APPENDIX D I PRINCIPAL/INCOME TRANSACTION REPORT




      Payment Date   CUSIP       QFI Name                                              Program ID   Payment Type              Amount
      17-Feb-2009    227647963   CROSSTOWN HOLDING COMPANY                             456          DIVIDEND   PAYMENT         2,931.50
      17-Feb-2009    227647989   CROSSTOWN HOLDING COMPANY                             456          DIVIDEND   PAYMENT        32,541.67
      17-Feb-2009    253238968   DICKINSON FINANCIAL CORP. II                          441          DIVIDEND   PAYMENT        52,946.75
      17-Feb-2009    253238984   DICKINSON FINANCIAL CORP. II                          441          DIVIDEND   PAYMENT       588,269.03
      17-Feb-2009    268948981   EAGLE BANCORP, INC.                                   84           DIVIDEND   PAYMENT       371,729.17
      17-Feb-2009    27579R401   EAST WEST BANCORP, INC.                               93           DIVIDEND   PAYMENT     2,980,308.33
      17-Feb-2009    29255V987   ENCORE BANCSHARES INC.                                79           DIVIDEND   PAYMENT       330,555.56
      17-Feb-2009    293712972   ENTERPRISE FINACIAL SERVICES CORP./ ENTERPRISE BANK   135          DIVIDEND   PAYMENT       272,222.22
      17-Feb-2009    301227963   EXCHANGE BANK                                         177          DIVIDEND   PAYMENT        30,100.00
      17-Feb-2009    301227989   EXCHANGE BANK                                         177          DIVIDEND   PAYMENT       334,444.44
      17-Feb-2009    30242L967   FFW Corporation                                       8            DIVIDEND   PAYMENT         5,096.00
      17-Feb-2009    30242L983   FFW Corporation                                       8            DIVIDEND   PAYMENT        56,692.22
      17-Feb-2009    30245D962   FCB BANCORP, INC.                                     363          DIVIDEND   PAYMENT         6,510.00
      17-Feb-2009    30245D988   FCB BANCORP, INC.                                     363          DIVIDEND   PAYMENT        72,286.67
      17-Feb-2009    302520978   F.N.B. CORPORATION                                    306          DIVIDEND   PAYMENT       500,000.00
      17-Feb-2009    30254M978   FPB BANCORP, INC.                                     179          DIVIDEND   PAYMENT        56,388.89
      17-Feb-2009    30886Z967   FARMERS BANK, WINDSOR, VIRGINIA                       406          DIVIDEND   PAYMENT         2,409.00
      17-Feb-2009    30886Z983   FARMERS BANK, WINDSOR, VIRGINIA                       406          DIVIDEND   PAYMENT        26,742.22
      17-Feb-2009    315831982   FIDELITY BANCORP, INC.                                261          DIVIDEND   PAYMENT        61,250.00
      17-Feb-2009    316144963   FIDELITY FINANCIAL CORPORATION                        275          DIVIDEND   PAYMENT        25,396.00
      17-Feb-2009    316144997   FIDELITY FINANCIAL CORPORATION                        275          DIVIDEND   PAYMENT       282,193.33
      17-Feb-2009    316394980   FIDELITY SOUTHERN CORPORATION                         178          DIVIDEND   PAYMENT       374,888.89
      17-Feb-2009    317585982   FINANCIAL INSTITUTIONS, INC.                          234          DIVIDEND   PAYMENT       270,941.67
      17-Feb-2009    31866P987   THE FIRST BANCORP, INC.                               186          DIVIDEND   PAYMENT       125,000.00
      17-Feb-2009    318672979   FIRST BANCORP                                         368          DIVIDEND   PAYMENT     1,611,111.11
      17-Feb-2009    318910981   FIRST BANCORP                                         368          DIVIDEND   PAYMENT       325,000.00
      17-Feb-2009    319287967   FIRST BANKS, INC.                                     446          DIVIDEND   PAYMENT       166,162.50
      17-Feb-2009    319287983   FIRST BANKS, INC.                                     446          DIVIDEND   PAYMENT     1,846,250.00
      17-Feb-2009    31929F968   FIRST BANKERS TRUSTSHARES, INC.                       309          DIVIDEND   PAYMENT         3,625.00
      17-Feb-2009    31929F984   FIRST BANKERS TRUSTSHARES, INC.                       309          DIVIDEND   PAYMENT        40,277.78
      17-Feb-2009    319395984   FIRST CALIFORNIA FINANCIAL GROUP, INC.                204          DIVIDEND   PAYMENT       194,444.44
      17-Feb-2009    319459988   FIRST CITIZENS BANC CORP                              427          DIVIDEND   PAYMENT        70,840.00
      17-Feb-2009    319835989   FIRST COMMUNITY CORPORATION                           78           DIVIDEND   PAYMENT       132,416.67
      17-Feb-2009    31983A970   FIRST COMMUNITY BANCSHARES INC.                       26           DIVIDEND   PAYMENT       484,166.67
      17-Feb-2009    31985E988   FIRST COMMUNITY BANK CORPORATION OF AMERICA           296          DIVIDEND   PAYMENT        77,169.44
      17-Feb-2009    31986N987   1ST CONSTITUTION BANCORP                              369          DIVIDEND   PAYMENT        86,666.67
      17-Feb-2009    32006W981   FIRST DEFIANCE FINANCIAL CORP.                        108          DIVIDEND   PAYMENT       359,722.22
      17-Feb-2009    320209984   FIRST FINANCIAL BANCORP                               46           DIVIDEND   PAYMENT       577,777.78
      17-Feb-2009    32022X989   1ST FINANCIAL SERVICES CORPORATION                    2            DIVIDEND   PAYMENT       206,885.97
      17-Feb-2009    320239965   FIRST FINANCIAL HOLDINGS INC.                         110          DIVIDEND   PAYMENT       631,944.44
      17-Feb-2009    320517980   FIRST HORIZON NATIONAL CORPORATION                    27           DIVIDEND   PAYMENT    10,952,102.78
      17-Feb-2009    32076T967   FIRST MANITOWOC BANCORP, INC.                         486          DIVIDEND   PAYMENT         4,350.00
      17-Feb-2009    32076T983   FIRST MANITOWOC BANCORP, INC.                         486          DIVIDEND   PAYMENT        48,333.33
      17-Feb-2009    320867971   FIRST MIDWEST BANCORP, INC.                           54           DIVIDEND   PAYMENT     1,876,388.89
      17-Feb-2009    33582V983   FIRST NIAGRA FINANCIAL GROUP                          9            DIVIDEND   PAYMENT     2,146,795.00
      17-Feb-2009    33589V986   FIRST PACTRUST BANCORP, INC.                          70           DIVIDEND   PAYMENT       225,166.67
      17-Feb-2009    336312962   FIRST SECURITY GROUP, INC.                            374          DIVIDEND   PAYMENT       165,000.00
      17-Feb-2009    33647C970   FIRST SOUND BANK                                      137          DIVIDEND   PAYMENT        53,444.44
      17-Feb-2009    336901988   1ST SOURCE CORPORATION                                292          DIVIDEND   PAYMENT       339,166.67
      17-Feb-2009    33735L965   FIRST ULB CORP.                                       276          DIVIDEND   PAYMENT         1,347.50
      17-Feb-2009    33735L999   FIRST ULB CORP.                                       276          DIVIDEND   PAYMENT        14,972.22
      17-Feb-2009    337915987   FIRSTMERIT CORPORATION                                51           DIVIDEND   PAYMENT       625,000.00
      17-Feb-2009    343873204   FLUSHING FINANCIAL CORPORATION                        226          DIVIDEND   PAYMENT       544,444.44
      17-Feb-2009    360271977   FULTON FINANCIAL CORPORATION                          263          DIVIDEND   PAYMENT     2,719,166.67
      17-Feb-2009    38141G997   GOLDMAN SACHS GROUP INC                               17           DIVIDEND   PAYMENT   148,611,111.00
      17-Feb-2009    386627962   GRANDSOUTH CORPORATION                                327          DIVIDEND   PAYMENT         4,050.00
      17-Feb-2009    386627988   GRANDSOUTH CORPORATION                                327          DIVIDEND   PAYMENT        45,000.00
      17-Feb-2009    390905982   GREAT SOUTHERN BANCORP                                102          DIVIDEND   PAYMENT       563,888.89
      17-Feb-2009    394361984   GREEN BANKSHARES, INC.                                180          DIVIDEND   PAYMENT       522,007.78
      17-Feb-2009    40424G983   HMN FINANCIAL, INC.                                   295          DIVIDEND   PAYMENT       187,777.78
      17-Feb-2009    409321981   HAMPTON ROADS BANKSHARES, INC.                        236          DIVIDEND   PAYMENT       502,168.75
      17-Feb-2009    420476970   HAWTHORNE BANCSHARES, INC.                            264          DIVIDEND   PAYMENT       235,316.67
      17-Feb-2009    42234Q987   HEARTLAND FINANCIAL USA, INC.                         326          DIVIDEND   PAYMENT       635,428.89
      17-Feb-2009    42722X981   HERITAGE FINANCIAL CORPORATION                        69           DIVIDEND   PAYMENT       280,000.00
      17-Feb-2009    436893986   HOME BANCSHARES, INC.                                 86           DIVIDEND   PAYMENT       201,388.89
      17-Feb-2009    439734989   HOPFED BANCORP                                        109          DIVIDEND   PAYMENT       161,000.00
      17-Feb-2009    440407989   HORIZON BANCORP                                       176          DIVIDEND   PAYMENT       194,444.44
      17-Feb-2009    446150955   HUNTINGTON BANCSHARES                                 28           DIVIDEND   PAYMENT    17,670,064.03
      17-Feb-2009    450828975   IBERIABANK CORPORATION                                81           DIVIDEND   PAYMENT       875,000.00
      17-Feb-2009    451126965   IDAHO BANCORP                                         396          DIVIDEND   PAYMENT         2,501.25
      17-Feb-2009    451126981   IDAHO BANCORP                                         396          DIVIDEND   PAYMENT        27,791.67
      17-Feb-2009    453836983   INDEPENDENT BANK CORP.                                268          DIVIDEND   PAYMENT       390,790.00
      17-Feb-2009    453838948   INDEPENDENT BANK CORPORATION                          182          DIVIDEND   PAYMENT       630,000.00
      17-Feb-2009    454674987   INDIANA COMMUNITY BANCORP                             119          DIVIDEND   PAYMENT       188,125.00
      17-Feb-2009    45881M985   INTERMOUNTAIN COMMUNITY BANCORP                       62           DIVIDEND   PAYMENT       210,000.00
      17-Feb-2009    459044988   INTERNATIONAL BANCSHARES CORPORATION                  136          DIVIDEND   PAYMENT     1,560,000.00
      17-Feb-2009    460927981   INTERVEST BANCSHARES CORPORATION                      316          DIVIDEND   PAYMENT       180,555.56
      17-Feb-2009    49326A978   KEYCORP KEYBANK NATIONAL ASSOCIATION                  30           DIVIDEND   PAYMENT    31,597,222.22
      17-Feb-2009    50181P985   LCNB CORP.                                            302          DIVIDEND   PAYMENT        67,000.00
      17-Feb-2009    502100209   LNB BANCORP, INC.                                     91           DIVIDEND   PAYMENT       220,701.25
      17-Feb-2009    50215P985   LSB CORPORATION                                       267          DIVIDEND   PAYMENT       131,250.00
      17-Feb-2009    52168W967   LEADER BANCORP, INC.                                  215          DIVIDEND   PAYMENT         3,796.00
      17-Feb-2009    52168W983   LEADER BANCORP, INC.                                  215          DIVIDEND   PAYMENT        42,105.56
      17-Feb-2009    530176940   LIBERTY BANCSHARES, INC.                              454          DIVIDEND   PAYMENT        15,812.50
                                                                              PRINCIPAL/INCOME TRANSACTION REPORT I APPENDIX D       199




Payment Date   CUSIP       QFI Name                                    Program ID   Payment Type                         Amount
17-Feb-2009    530176965   LIBERTY BANCSHARES, INC.                    454          DIVIDEND   PAYMENT                  175,694.44
17-Feb-2009    53700P965   THE LITTLE BANK, INCORPORATED               150          DIVIDEND   PAYMENT                    4,875.00
17-Feb-2009    53700P981   THE LITTLE BANK, INCORPORATED               150          DIVIDEND   PAYMENT                   54,166.67
17-Feb-2009    55261F989   M&T BANK CORPORATION                        160          DIVIDEND   PAYMENT                4,333,333.33
17-Feb-2009    55264U975   MB FINANCIAL INC.                           49           DIVIDEND   PAYMENT                1,905,555.56
17-Feb-2009    55920M961   MAGNA BANK                                  278          DIVIDEND   PAYMENT                    8,970.00
17-Feb-2009    55920M987   MAGNA BANK                                  278          DIVIDEND   PAYMENT                   99,630.56
17-Feb-2009    56062Y987   MAINSOURCE FINANCIAL GROUP, INC.            423          DIVIDEND   PAYMENT                  229,583.33
17-Feb-2009    562754986   MANHATTAN BANCORP                           80           DIVIDEND   PAYMENT                   16,527.78
17-Feb-2009    571599968   MARQUETTE NATIONAL FINANCIAL CORPORATION    167          DIVIDEND   PAYMENT                   24,850.00
17-Feb-2009    571599984   MARQUETTE NATIONAL FINANCIAL CORPORATION    167          DIVIDEND   PAYMENT                  276,111.11
17-Feb-2009    571837988   MARSHALL AND ILSLEY CORPORATION             39           DIVIDEND   PAYMENT               21,675,694.44
17-Feb-2009    59540G982   MID PENN BANCORP, INC./MID PENN BANK        138          DIVIDEND   PAYMENT                   77,777.78
17-Feb-2009    597746965   MIDLAND STATES BANCORP, INC.                398          DIVIDEND   PAYMENT                    2,799.50
17-Feb-2009    597746981   MIDLAND STATES BANCORP, INC.                398          DIVIDEND   PAYMENT                   31,133.06
17-Feb-2009    598039980   MIDSOUTH BANCORP, INC.                      370          DIVIDEND   PAYMENT                  100,000.00
17-Feb-2009    598251973   MIDWEST BANC HOLDINGS, INC.                 45           DIVIDEND   PAYMENT                  824,288.89
17-Feb-2009    605038983   MISSION COMMUNITY BANCORP                   170          DIVIDEND   PAYMENT                   25,850.00
17-Feb-2009    608875969   MONADNOCK BANCORP, INC.                     227          DIVIDEND   PAYMENT                    1,288.00
17-Feb-2009    608875985   MONADNOCK BANCORP, INC.                     227          DIVIDEND   PAYMENT                   14,264.44
17-Feb-2009    617774963   MORRILL BANCSHARES, INC                     532          DIVIDEND   PAYMENT                    4,712.50
17-Feb-2009    617774989   MORRILL BANCSHARES, INC                     532          DIVIDEND   PAYMENT                   52,361.11
17-Feb-2009    619462963   MOSCOW BANCSHARES, INC.                     401          DIVIDEND   PAYMENT                    1,710.50
17-Feb-2009    619462989   MOSCOW BANCSHARES, INC.                     401          DIVIDEND   PAYMENT                   18,993.33
17-Feb-2009    62845B971   MUTUALFIRST FINANCIAL, INC.                 290          DIVIDEND   PAYMENT                  233,870.00
17-Feb-2009    628794968   NCAL BANCORP                                301          DIVIDEND   PAYMENT                    7,000.00
17-Feb-2009    628794984   NCAL BANCORP                                301          DIVIDEND   PAYMENT                   77,777.78
17-Feb-2009    637138975   NATIONAL PENN BANCHSHARES, INC.             189          DIVIDEND   PAYMENT                1,312,500.00
17-Feb-2009    644722985   NEW HAMPSHIRE THRIFT BANCSHARES, INC.       228          DIVIDEND   PAYMENT                   40,277.78
17-Feb-2009    64975C969   NEW YORK PRIVATE BANK & TRUST CORPORATION   524          DIVIDEND   PAYMENT                  120,276.00
17-Feb-2009    64975C985   NEW YORK PRIVATE BANK & TRUST CORPORATION   524          DIVIDEND   PAYMENT                1,336,370.00
17-Feb-2009    65406E961   NICOLET BANKSHARES, INC.                    216          DIVIDEND   PAYMENT                    9,724.00
17-Feb-2009    65406E987   NICOLET BANKSHARES, INC.                    216          DIVIDEND   PAYMENT                  108,073.33
17-Feb-2009    658418983   NORTH CENTRAL BANCSHARES, INC.              336          DIVIDEND   PAYMENT                   51,000.00
17-Feb-2009    663904985   NORTHEAST BANCORP                           191          DIVIDEND   PAYMENT                   36,986.25
17-Feb-2009    665859880   NORTHERN TRUST CORPORATION                  4            DIVIDEND   PAYMENT               19,918,888.91
17-Feb-2009    675234983   OCEANFIRST FINANCIAL CORP.                  565          DIVIDEND   PAYMENT                  154,114.86
17-Feb-2009    680033966   OLD NATIONAL BANCORP                        31           DIVIDEND   PAYMENT                  875,000.00
17-Feb-2009    680277985   OLD SECOND BANCORP, INC.                    489          DIVIDEND   PAYMENT                  294,027.78
17-Feb-2009    68275Z990   ONE UNITED BANK                             97           DIVIDEND   PAYMENT                   93,823.33
17-Feb-2009    693475964   THE PNC FINANCIAL SERVICES GROUP, INC.      32           DIVIDEND   PAYMENT               47,370,000.00
17-Feb-2009    69404P986   PACIFIC CAPITAL BANCORP                     53           DIVIDEND   PAYMENT                2,107,396.67
17-Feb-2009    69406T960   PACIFIC CITY FINANCIAL CORPORATION          142          DIVIDEND   PAYMENT                   11,340.00
17-Feb-2009    69406T986   PACIFIC CITY FINANCIAL CORPORATION          142          DIVIDEND   PAYMENT                  126,000.00
17-Feb-2009    694076969   PACIFIC COAST BANKERS' BANCSHARES           428          DIVIDEND   PAYMENT                    7,540.00
17-Feb-2009    694076985   PACIFIC COAST BANKERS' BANCSHARES           428          DIVIDEND   PAYMENT                   83,777.78
17-Feb-2009    694100967   PACIFIC COAST NATIONAL BANCORP              315          DIVIDEND   PAYMENT                    1,493.50
17-Feb-2009    694100983   PACIFIC COAST NATIONAL BANCORP              315          DIVIDEND   PAYMENT                   16,594.44
17-Feb-2009    700658982   PARK NATIONAL CORPORATION                   174          DIVIDEND   PAYMENT                  722,222.22
17-Feb-2009    701492985   PARKVALE FINANCIAL CORPORATION              346          DIVIDEND   PAYMENT                  229,392.22
17-Feb-2009    70335A965   PATRIOT BANCSHARES, INC.                    98           DIVIDEND   PAYMENT                   18,228.00
17-Feb-2009    70335A999   PATRIOT BANCSHARES, INC.                    98           DIVIDEND   PAYMENT                  202,517.78
17-Feb-2009    704699974   PEAPACK-GLADSTONE FINANCIAL CORPORATION     125          DIVIDEND   PAYMENT                  143,425.00
17-Feb-2009    710577982   PEOPLES BANCORP OF NORTH CAROLINA, INC.     329          DIVIDEND   PAYMENT                  180,945.56
17-Feb-2009    720304963   PIERCE COUNTY BANCORP                       430          DIVIDEND   PAYMENT                    1,870.00
17-Feb-2009    720304989   PIERCE COUNTY BANCORP                       430          DIVIDEND   PAYMENT                   20,777.78
17-Feb-2009    72346Q971   PINNACLE FINANCIAL PARTNERS, INC.           184          DIVIDEND   PAYMENT                  831,250.00
17-Feb-2009    733174973   POPULAR, INC.                               117          DIVIDEND   PAYMENT                9,090,277.78
17-Feb-2009    736233982   PORTER BANCORP INC                          60           DIVIDEND   PAYMENT                  408,333.33
17-Feb-2009    743859308   PROVIDENT BANKSHARES CORP                   13           DIVIDEND   PAYMENT                1,914,791.67
17-Feb-2009    74531Y967   PUGET SOUND BANK                            424          DIVIDEND   PAYMENT                    1,631.25
17-Feb-2009    74531Y983   PUGET SOUND BANK                            424          DIVIDEND   PAYMENT                   18,125.00
17-Feb-2009    745548982   PULASKI FINANCIAL CORP.                     507          DIVIDEND   PAYMENT                  131,055.83
17-Feb-2009    74824R968   THE QUEENSBOROUGH COMPANY                   47           DIVIDEND   PAYMENT                    5,400.00
17-Feb-2009    74824R984   THE QUEENSBOROUGH COMPANY                   47           DIVIDEND   PAYMENT                   60,000.00
17-Feb-2009    757903968   REDWOOD FINANCIAL, INC.                     199          DIVIDEND   PAYMENT                    1,350.00
17-Feb-2009    757903984   REDWOOD FINANCIAL, INC.                     199          DIVIDEND   PAYMENT                   14,975.00
17-Feb-2009    7591EP969   REGIONS BANK                                19           DIVIDEND   PAYMENT               44,236,111.11
17-Feb-2009    767644966   RISING SUN BANCORP                          313          DIVIDEND   PAYMENT                    2,691.00
17-Feb-2009    767644982   RISING SUN BANCORP                          313          DIVIDEND   PAYMENT                   29,915.00
17-Feb-2009    783859960   S&T BANCORP, INC.                           347          DIVIDEND   PAYMENT                  437,722.78
17-Feb-2009    78401V979   SCBT FINANCIAL CORPORATION                  305          DIVIDEND   PAYMENT                  260,915.42
17-Feb-2009    78486Q986   SVB FINANCIAL GROUP                         87           DIVIDEND   PAYMENT                2,056,250.00
17-Feb-2009    800363988   SANDY SPRING BANCORP, INC.                  89           DIVIDEND   PAYMENT                  807,858.33
17-Feb-2009    802235986   SANTA LUCIA BANCORP                         168          DIVIDEND   PAYMENT                   31,111.11
17-Feb-2009    812502961   SEASIDE NATIONAL BANK & TRUST               212          DIVIDEND   PAYMENT                    1,562.00
17-Feb-2009    812502987   SEASIDE NATIONAL BANK & TRUST               212          DIVIDEND   PAYMENT                   17,346.39
17-Feb-2009    813903986   SECURITIY FEDERAL CORPORATION               208          DIVIDEND   PAYMENT                  140,000.00
17-Feb-2009    814124962   SECURITY BUSINESS BANCORP                   143          DIVIDEND   PAYMENT                    2,610.00
17-Feb-2009    814124988   SECURITY BUSINESS BANCORP                   143          DIVIDEND   PAYMENT                   29,015.00
17-Feb-2009    81412M962   SECURITY CALIFORNIA BANCORP                 107          DIVIDEND   PAYMENT                    3,069.00
17-Feb-2009    81412M988   SECURITY CALIFORNIA BANCORP                 107          DIVIDEND   PAYMENT                   34,075.00
17-Feb-2009    81811M985   SEVERN BANCORP, INC.                        71           DIVIDEND   PAYMENT                  272,918.33
17-Feb-2009    825107980   SHORE BANCSHARES, INC.                      394          DIVIDEND   PAYMENT                  125,000.00
200           APPENDIX D I PRINCIPAL/INCOME TRANSACTION REPORT




      Payment Date   CUSIP       QFI Name                                    Program ID   Payment Type                          Amount
      17-Feb-2009    82669G989   SIGNATURE BANK                              104          DIVIDEND PAYMENT                   1,050,000.00
      17-Feb-2009    836068965   SOUND BANKING COMPANY                       144          DIVIDEND PAYMENT                       1,386.00
      17-Feb-2009    836068981   SOUND BANKING COMPANY                       144          DIVIDEND PAYMENT                      15,350.00
      17-Feb-2009    837841956   THE SOUTH FINANCIAL GROU INC.               99           DIVIDEND PAYMENT                   3,373,611.11
      17-Feb-2009    842632986   SOUTHERN COMMUNITY FINANCIAL CORP.          105          DIVIDEND PAYMENT                     415,625.00
      17-Feb-2009    843120965   SOUTHERN ILLINOIS BANCORP, INC.             491          DIVIDEND PAYMENT                       1,375.00
      17-Feb-2009    843120981   SOUTHERN ILLINOIS BANCORP, INC.             491          DIVIDEND PAYMENT                      15,277.78
      17-Feb-2009    843380981   SOUTHERN MISSOURI BANCORP, INC.             145          DIVIDEND PAYMENT                      92,847.22
      17-Feb-2009    844767970   SOUTHWEST BANCORP INC.                      114          DIVIDEND PAYMENT                     680,555.56
      17-Feb-2009    846851988   TAYLOR CAPITAL GROUP                        83           DIVIDEND PAYMENT                   1,222,935.00
      17-Feb-2009    855716205   STATE BANCORP, INC.                         146          DIVIDEND PAYMENT                     358,186.11
      17-Feb-2009    856577960   STATE BANKSHARES, INC.                      477          DIVIDEND PAYMENT                      18,125.00
      17-Feb-2009    856577986   STATE BANKSHARES, INC.                      477          DIVIDEND PAYMENT                     201,388.89
      17-Feb-2009    858907967   STERLING BANCSHARES, INC.                   147          DIVIDEND PAYMENT                   1,095,482.50
      17-Feb-2009    859158966   STERLING BANCORP                            299          DIVIDEND PAYMENT                     303,333.33
      17-Feb-2009    859319956   STERLING FINANCIAL CORPORATION              183          DIVIDEND PAYMENT                   2,945,833.33
      17-Feb-2009    861756963   STONEBRIDGE FINANCIAL CORP.                 559          DIVIDEND PAYMENT                       3,019.50
      17-Feb-2009    861756989   STONEBRIDGE FINANCIAL CORP.                 559          DIVIDEND PAYMENT                      33,528.61
      17-Feb-2009    866264989   SUMMIT STATE BANK                           148          DIVIDEND PAYMENT                      66,111.11
      17-Feb-2009    86663B987   SUN BANCORP, INC.                           188          DIVIDEND PAYMENT                     446,550.00
      17-Feb-2009    86806M304   SUPERIOR BANCORP                            112          DIVIDEND PAYMENT                     670,833.33
      17-Feb-2009    86888W964   SURREY BANCORP                              202          DIVIDEND PAYMENT                         900.00
      17-Feb-2009    86888W980   SURREY BANCORP                              202          DIVIDEND PAYMENT                      10,000.00
      17-Feb-2009    869099986   SUSQUEHANNA BANCSHARES, INC.                95           DIVIDEND PAYMENT                   2,625,000.00
      17-Feb-2009    87161C972   SYNOVUS FINANCIAL CORP.                     100          DIVIDEND PAYMENT                   7,527,877.78
      17-Feb-2009    87182V967   SYRINGA BANCORP                             395          DIVIDEND PAYMENT                       2,900.00
      17-Feb-2009    87182V983   SYRINGA BANCORP                             395          DIVIDEND PAYMENT                      32,222.22
      17-Feb-2009    872242961   TCB HOLDING COMPANY                         218          DIVIDEND PAYMENT                       4,255.75
      17-Feb-2009    872242987   TCB HOLDING COMPANY                         218          DIVIDEND PAYMENT                      47,245.83
      17-Feb-2009    872275987   TCF FINANCIAL CORPORATION                   52           DIVIDEND PAYMENT                   4,564,812.78
      17-Feb-2009    87230P962   TCNB FINANCIAL CORP                         213          DIVIDEND PAYMENT                       1,300.00
      17-Feb-2009    87230P988   TCNB FINANCIAL CORP                         213          DIVIDEND PAYMENT                      14,444.44
      17-Feb-2009    872449988   TIB FINANCIAL CORP                          152          DIVIDEND PAYMENT                     359,722.22
      17-Feb-2009    88043P983   TENNESSEE COMMERCE BANCORP, INC.            101          DIVIDEND PAYMENT                     233,333.33
      17-Feb-2009    88059U967   TENNESSEE VALLEY FINANCIAL HOLDINGS, INC.   350          DIVIDEND PAYMENT                       1,950.00
      17-Feb-2009    88059U983   TENNESSEE VALLEY FINANCIAL HOLDINGS, INC.   350          DIVIDEND PAYMENT                      21,666.67
      17-Feb-2009    88224Q974   TEXAS CAPITAL BANCSHARES, INC.              373          DIVIDEND PAYMENT                     302,083.33
      17-Feb-2009    886374982   TIDELANDS BANCSHARES, INC.                  246          DIVIDEND PAYMENT                     112,373.33
      17-Feb-2009    89214T309   TOWNEBANK                                   153          DIVIDEND PAYMENT                     669,007.50
      17-Feb-2009    89464P965   TREATY OAK BANCORP, INC                     555          DIVIDEND PAYMENT                       1,181.75
      17-Feb-2009    89464P981   TREATY OAK BANCORP, INC                     555          DIVIDEND PAYMENT                      13,162.78
      17-Feb-2009    89546L966   TRI-COUNTY FINANCIAL CORPORATION            75           DIVIDEND PAYMENT                      10,878.00
      17-Feb-2009    89546L982   TRI-COUNTY FINANCIAL CORPORATION            75           DIVIDEND PAYMENT                     120,866.67
      17-Feb-2009    898402987   TRUSTMARK CORPORATION                       77           DIVIDEND PAYMENT                   2,508,333.33
      17-Feb-2009    90262T506   UCBH HOLDINGS INC.                          3            DIVIDEND PAYMENT                   3,775,707.07
      17-Feb-2009    902973981   US BANCORP                                  48           DIVIDEND PAYMENT                  83,404,027.78
      17-Feb-2009    905399986   UNION BANKSHARES CORPORATION                238          DIVIDEND PAYMENT                     458,888.89
      17-Feb-2009    90944L988   UNITED BANCORP, INC.                        448          DIVIDEND PAYMENT                      82,972.22
      17-Feb-2009    90944R985   UNITED BANCORPORATION OF ALABAMA, INC.      272          DIVIDEND PAYMENT                      74,388.89
      17-Feb-2009    90984P980   UNITED COMMUNITY BANKS, INC.                59           DIVIDEND PAYMENT                   1,750,000.00
      17-Feb-2009    910305960   UNITED FINANCIAL BANKING COMPANIES, INC.    426          DIVIDEND PAYMENT                       2,051.75
      17-Feb-2009    910305986   UNITED FINANCIAL BANKING COMPANIES, INC.    426          DIVIDEND PAYMENT                      22,789.17
      17-Feb-2009    913290987   UNITY BANCORP, INC.                         154          DIVIDEND PAYMENT                     200,754.17
      17-Feb-2009    918183963   UWHARRIE CAPITAL CORP                       129          DIVIDEND PAYMENT                       6,500.00
      17-Feb-2009    918183989   UWHARRIE CAPITAL CORP                       129          DIVIDEND PAYMENT                      72,222.22
      17-Feb-2009    918255985   VIST FINANCIAL CORP.                        155          DIVIDEND PAYMENT                     194,444.44
      17-Feb-2009    919513945   VALLEY COMMUNITY BANK                       254          DIVIDEND PAYMENT                       2,475.00
      17-Feb-2009    919513960   VALLEY COMMUNITY BANK                       254          DIVIDEND PAYMENT                      27,500.00
      17-Feb-2009    919629980   VALLEY FINANCIAL CORPORATION                169          DIVIDEND PAYMENT                     140,166.25
      17-Feb-2009    919794966   VALLEY NATIONAL BANCORP                     34           DIVIDEND PAYMENT                   3,791,666.67
      17-Feb-2009    92778Q976   VIRGINIA COMMERCE BANCORP                   221          DIVIDEND PAYMENT                     621,250.00
      17-Feb-2009    929328987   WSFS FINANCIAL CORPORATION                  514          DIVIDEND PAYMENT                     160,798.61
      17-Feb-2009    930705975   WAINWRIGHT BANK & TRUST COMPANY             156          DIVIDEND PAYMENT                     171,111.11
      17-Feb-2009    938824208   WASHINGTON FEDERAL S AND L ASSOCIATION      11           DIVIDEND PAYMENT                   2,527,777.78
      17-Feb-2009    947890976   WEBSTER FINANCIAL CORPORATION               50           DIVIDEND PAYMENT                   4,666,666.67
      17-Feb-2009    949746978   WELLS FARGO AND COMPANY                     36           DIVIDEND PAYMENT                 371,527,777.78
      17-Feb-2009    950810986   WESBANCO, INC.                              68           DIVIDEND PAYMENT                     729,166.67
      17-Feb-2009    95123P981   WEST BANCORPORATION, INC.                   270          DIVIDEND PAYMENT                     225,000.00
      17-Feb-2009    957638976   WESTERN ALLIANCE BANCORPORATION             44           DIVIDEND PAYMENT                   1,633,333.33
      17-Feb-2009    95801P964   WESTERN COMMUNITY BANCSHARES, INC.          280          DIVIDEND PAYMENT                       4,745.00
      17-Feb-2009    95801P980   WESTERN COMMUNITY BANCSHARES, INC.          280          DIVIDEND PAYMENT                      52,650.00
      17-Feb-2009    966612202   WHITNEY HOLDING CORPORATION                 161          DIVIDEND PAYMENT                   2,333,333.33
      17-Feb-2009    971807201   WILMINGTON TRUST CORPORATION                94           DIVIDEND PAYMENT                   2,887,500.00
      17-Feb-2009    97650W975   WINTRUST FINANCIAL CORPORATION              222          DIVIDEND PAYMENT                   1,944,444.44
      17-Feb-2009    984314989   YADKIN VALLEY FINANCIAL CORPORATION         391          DIVIDEND PAYMENT                     145,000.00
      17-Feb-2009    989701966   ZIONS BANCORPORATION                        37           DIVIDEND PAYMENT                  17,694,444.44
      18-Feb-2009    084680982   BERKSHIRE HILLS BANCORP, INC.               200          DIVIDEND PAYMENT                     311,111.11
      02-Mar-2009    46625H894   JPMORGAN CHASE AND CO                       29           DIVIDEND PAYMENT                 312,500,000.00
      16-Mar-2009    857477897   STATE STREET CORPORATION                    20           DIVIDEND PAYMENT                  25,000,000.00
      16-Mar-2009    867914608   SUNTRUST BANKS, INC.                        5            DIVIDEND PAYMENT                  43,750,000.00
      16-Mar-2009    867914707   SUNTRUST BANKS, INC.                        5            DIVIDEND PAYMENT                  14,062,500.00
      18-Mar-2009    605038983   MISSION COMMUNITY BANCORP                   170          RETURN OF DIVIDEND OVERPAYMENT          -270.00
      20-Mar-2009    06426P982   BANK OF NEW YORK MELLON                     15           DIVIDEND PAYMENT                  37,500,000.00
      31-Mar-2009    063425201   BANK OF MARIN BANCORP                       127          FULL REDEMPTION                   28,000,000.00
                                                                                 PRINCIPAL/INCOME TRANSACTION REPORT I APPENDIX D          201




 Payment Date        CUSIP               QFI Name                          Program ID   Payment Type                           Amount
 31-Mar-2009         063425201           BANK OF MARIN BANCORP             127          DIVIDEND PAYMENT                      178,888.89
 31-Mar-2009         15234K986           CENTRA FINANCIAL HOLDINGS, INC.   257          DIVIDEND PAYMENT                       95,833.33
 31-Mar-2009         15234K986           CENTRA FINANCIAL HOLDINGS, INC.   257          FULL REDEMPTION                    15,000,000.00
 31-Mar-2009         316773407           FIFTH THIRD BANCORP               40           DIVIDEND PAYMENT                   42,600,000.00
 31-Mar-2009         450828975           IBERIABANK CORPORATION            81           FULL REDEMPTION                    90,000,000.00
 31-Mar-2009         450828975           IBERIABANK CORPORATION            81           DIVIDEND PAYMENT                      575,000.00
 31-Mar-2009         680033966           OLD NATIONAL BANCORP              31           DIVIDEND PAYMENT                      638,888.89
 31-Mar-2009         680033966           OLD NATIONAL BANCORP              31           FULL REDEMPTION                   100,000,000.00
 31-Mar-2009         82669G989           SIGNATURE BANK                    104          FULL REDEMPTION                   120,000,000.00
 31-Mar-2009         82669G989           SIGNATURE BANK                    104          DIVIDEND PAYMENT                      766,666.67
                                                                                                                        2,870,873,839.24
TIP
 17-Feb-2009         060505435           BANK OF AMERICA CORPORATION       38           DIVIDEND PAYMENT                  128,888,888.89
 17-Feb-2009         172967929           CITIGROUP INC                     24           DIVIDEND PAYMENT                  200,000,000.00
                                                                                                                          328,888,888.89

                                                                                                                        3,480,751,528.23

 Source: Treasury, response to SIGTARP data call, 4/8/2009.
202           APPENDIX E I CROSS REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL
      ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.



  Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
  Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
  5(a)(1)    deficiencies... ”                                       from SIGTARP audits and investigations.      Section 4: “Looking Forward”
             “Description of recommendations for corrective ac-
  Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
             tion…with respect to significant problems, abuses,
  5(a)(2)                                                            audits and investigations.                   Section 4: “Looking Forward”
             or deficiencies... ”
             “Identification of each significant recommendation      List all instances of incomplete correc-
  Section
             described in previous semiannual reports on which       tive action from previous semiannual         Section 4: “Looking Forward”
  5(a)(3)
             corrective action has not been completed...”            reports.
             “A summary of matters referred to prosecutive                                                        At press time, SIGTARP had not issued report-
  Section                                                            List status of SIGTARP investigations
             authorities and the prosecutions and convictions                                                     able investigations or audits. This field will be
  5(a)(4)                                                            referred to prosecutive authorities.
             which have resulted... ”                                                                             populated in later reports as appropriate.
             “A summary of each report made to the [Treasury
                                                                     List TARP oversight reports by Treasury,     At press time, SIGTARP had not issued report-
  Section    Secretary] under section 6(b)(2)... ” (instances
                                                                     FSOB, SEC, GAO, COP, OMB, CBO,               able investigations or audits. This field will be
  5(a)(5)    where information requested was refused or not
                                                                     Federal Reserve, FDIC, and SIGTARP.          populated in later reports as appropriate.
             provided)
             “A listing, subdivided according to subject matter,
                                                                                                                  At press time, SIGTARP had not issued report-
  Section    of each audit report issued...” showing dollar value
                                                                     List SIGTARP audits.                         able investigations or audits. This field will be
  5(a)(6)    of questioned costs and recommendations that
                                                                                                                  populated in later reports as appropriate.
             funds be put to better use.
                                                                                                                  At press time, SIGTARP had not issued report-
  Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                  able investigations or audits. This field will be
  5(a)(7)    report... ”                                             SIGTARP audits.
                                                                                                                  populated in later reports as appropriate.
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar    At press time, SIGTARP had not issued report-
  Section
             reports and the total dollar value of questioned        value of questioned cost from SIGTARP        able investigations or audits. This field will be
  5(a)(8)
             costs... ”                                              audits.                                      populated in later reports as appropriate.
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar    At press time, SIGTARP had not issued report-
  Section
             reports and the dollar value of recommendations         value of funds put to better use by          able investigations or audits. This field will be
  5(a)(9)
             that funds be put to better use by management...”       management from SIGTARP audits.              populated in later reports as appropriate.
             “A summary of each audit report issued before
             the commencement of the reporting period for
             which no management decision has been made by           Provide a synopsis of significant            At press time, SIGTARP had not issued report-
  Section
             the end of reporting period, an explanation of the      SIGTARP audit reports in which recom-        able investigations or audits. This field will be
  5(a)(10)
             reasons such management decision has not been           mendations by SIGTARP are still open.        populated in later reports as appropriate.
             made, and a statement concerning the desired
             timetable for achieving a management decision...”
                                                                     Explain audit reports in which significant   At press time, SIGTARP had not issued report-
  Section    “A description and explanation of the reasons for
                                                                     revisions have been made to manage-          able investigations or audits. This field will be
  5(a)(11)   any significant revised management decision...”
                                                                     ment decisions.                              populated in later reports as appropriate.
             “Information concerning any significant manage-                                                      At press time, SIGTARP had not issued report-
  Section                                                            Provide information where management
             ment decision with which the Inspector General is in                                                 able investigations or audits. This field will be
  5(a)(12)                                                           disagreed with a SIGTARP audit finding.
             disagreement...”                                                                                     populated in later reports as appropriate.
                                                                                  PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX F       203




PUBLIC ANNOUNCEMENTS OF                                           C – GAO3
AUDITS                                                            Leveraging and Deleveraging Financial Institutions
This appendix provides announcements of public audits by          The purpose of this mandate is to determine the extent to
the following agencies:                                           which leverage and sudden deleveraging of financial institu-
A. U.S. Department of Treasury Inspector General                  tions was a factor behind the current financial crisis. This
   (“Treasury OIG”)                                               study will:
B. Federal Reserve Board Office of Inspector General              1. examine to what extent large financial institutions have de-
   (“Federal Reserve OIG”)                                           leveraged since the financial crisis started, and how such
C. Government Accountability Office (“GAO”)                          actions, if at all, have contributed to the crisis
D. Federal Deposit Insurance Corporation Office of the            2. analyze how Federal regulators were overseeing the use of
   Inspector General (“FDIC OIG”)                                    leverage by such institutions and what actions, if any, they
                                                                     have taken to limit the use of leverage
A – Treasury OIG1                                                 3. review the recommendations that have been made by
As reported in the Initial Report, Treasury OIG is currently         regulators, market participants, and others to address
performing one case study audit of Treasury’s selection of           concerns about leverage and deleverage
City National Bank, Beverly Hills, California, to receive $400    4. review the regulations under which the Federal
million under the Capital Purchase Program. Treasury OIG             Reserve regulates the extension of credit by banks and
issued the engagement letter on this audit on December 4,            broker-dealers
2008, and held entrance conferences with Treasury officials
on December 11, 2008, and Office of the Comptroller of the        Implications of Actions Taken in Response to
Currency officials on January 6, 2009. The work on this audit     Economic Slowdown/Financial Distress for Debt and
is ongoing.                                                       Debt Management
    Treasury OIG initiated an inquiry into the role, if any,      GAO is seeking to answer the following questions:
and actions by the Treasury Department in the decision by         1. What are Treasury’s borrowing plans to finance asset
American International Group (“AIG”) to pay bonuses of               and capital purchases through the Troubled Asset Relief
more than $160 million to AIG employees. Treasury OIG                Program (“TARP”) and obtain the funds needed to in-
plans to inquire into the activities of Treasury’s Office of         crease Federal spending during a recession?
General Counsel (“OGC”) and other Treasury officials in           2. What are the scale and timing of borrowing decisions?
reviewing the bonus contracts entered into by AIG and its         3. What cost-cutting borrowing options exist to fund TARP’s
employees, with a view to determining the particulars of the         capital purchases?
obligations incurred and the conclusions reached by OGC.          4. What Treasury securities would be most attractive to
The work on this inquiry is ongoing.                                 domestic and foreign buyers in the short run and medium
                                                                     run?
B – Federal Reserve OIG2                                          5. What debt management policies would reduce the pos-
The Federal Reserve OIG is conducting an audit of the Board          sibility of stress in financial markets in the medium and
of Governors of the Federal Reserve System’s (“Board”)               long term?
processing of Capital Purchase Program applications from
Board-supervised financial institutions (fieldwork is ongoing).
204           APPENDIX F I PUBLIC ANNOUNCEMENTS OF AUDITS




      Federal Assistance Under Automotive Industry                     annually prepare and issue audited financial statements
      Financing Program                                                prepared in accordance with U.S. Generally Accepted
      In December 2008, Treasury announced that it would pro-          Accounting Principles, and GAO to annually audit such state-
      vide about $18 billion to Chrysler and General Motors, and       ments. GAO’s objectives are to determine:
      required that they submit restructuring plans by February 17,    1. if TARP’s financial statements are fairly presented in
      2009. By the end of March 2009, the companies must report           all material respects as of and for the period ended
      on their progress in implementing the plans.                        September 30, 2009
      GAO is seeking to answer the following questions:                2. if TARP’s internal controls related to the financial state-
      1. What is the nature and purpose of the Federal assistance         ments are effective as of September 30, 2009
         provided to the automakers under the Troubled Asset           3. if there is any reportable noncompliance with selected pro-
         Relief Program?                                                  visions of laws and regulations
      2. What mechanisms did Treasury establish to protect the
         taxpayers’ interests in providing Federal assistance to the   CPP
         automakers?                                                   GAO is seeking to:
      3. What steps have the automakers taken, or do they plan to      1. evaluate Treasury’s application review and approval
         take, to restructure their companies?                            process
                                                                       2. evaluate how regulators and Treasury are applying criteria
      Troubled Asset Relief Program’s (“TARP’s”) Fiscal                   for institutions returning funds
      Year 2009 Financial Statement Audit
      The Emergency Economic Stabilization Act of 2008 (P.L.           Mortgage Mitigation
      110-343) established the Office of Financial Stability within    GAO is seeking to:
      the Department of Treasury and authorized the Troubled           1. evaluate Treasury’s internal control framework for the
      Asset Relief Program (“TARP”). The act requires TARP to             Home Affordable Modification Program (“HAMP”)
                                                                       2. assess Treasury’s analytical and empirical basis for HAMP

                                                                       D – FDIC OIG4
                                                                       No ongoing audits have been announced.




                                                                       Endnotes
                                                                       1
                                                                           Treasury OIG, response to SIGTARP data call, 4/1/2009.
                                                                       2
                                                                           Federal Reserve OIG, response to SIGTARP data call, 4/9/2009.
                                                                       3
                                                                           GAO, response to SIGTARP data call, 4/8/2009.
                                                                       4
                                                                           FDIC OIG, response to SIGTARP data call, 3/30/2009.
                                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX G                 205




KEY OVERSIGHT REPORTS AND TESTIMONIES
U.S. DEPARTMENT OF THE TREASURY (“TREASURY”)
Roles and Mission
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury advises
the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
Oversight Reports
     Treasury, Section 105(a) Report, 12/5/2008, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/2/2009.
     Treasury, Section 102 Report, 12/31/2008, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/2/2009.
     Treasury, Section 105(a) Report, 1/6/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/2/2009.
     Treasury, Section 105(a) Report, 2/3/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/2/2009.
     Treasury, Transactions Report, www.financialstability.gov/latest/reportsanddocs.html, 2/6/2009, accessed 4/2/2009 (released weekly).
     Treasury, Section 105(a) Report, 3/6/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/2/2009.
     Treasury, Tranche Report, www.financialstability.gov/latest/reportsanddocs.html, 3/30/2009, accessed 4/2/2009 (for every $50 billion committed).
Recorded Testimony
     Treasury, “HP-1234 Neel Kashkari Testimony before the Senate Committee on Banking, Housing, and Urban Affairs,” 10/23/2008, www.
     financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1273 Testimony of Interim Assistant Secretary for Financial Stability Neel Kashkari before the House Committee on Oversight and
     Government Reform, Subcommittee for Domestic Policy,” 11/14/2008, www.financialstability.gov/latest/speeches-testimony.html, accessed
     4/2/2009.
     Treasury, “HP-1279 Testimony by Treasury Secretary Henry M. Paulson Jr. before the House Committee on Financial Services,” 11/18/2008,
     www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “Joint Statement by Treasury, Federal Reserve and the FDIC on Citigroup,” Press Release, 11/23/2008, www.financialstability.gov/latest/
     speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1301 Secretary Paulson Remarks on the US Economy and Financial System,” 12/1/2008, www.financialstability.gov/latest/speeches-
     testimony.html, accessed 4/2/2009.
     Treasury, “HP-1312 Neel Kashkari Testimony before the Senate Appropriations Subcommittee on Financial Services and General Government,”
     12/4/2008, www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1314 Interim Assistant Secretary for Financial Stability Neel Kashkari Remarks on Financial Markets and TARP Update,” 12/5/2008,
     www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1321 Interim Assistant Secretary for Financial Stability Neel Kashkari Update on the TARP Program,” 12/8/2008, www.financialstability.
     gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP 1322 Neel Kashkari Testimony before the U.S. House of Representatives Financial Services Committee,” 12/10/2008, www.
     financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1332 Secretary Paulson Statement on Stabilizing the Automotive Industry,” 12/19/2008, www.financialstability.gov/latest/speeches-
     testimony.html, accessed 4/2/2009.
     Treasury, “HP-1347 Interim Assistant Secretary for Financial Stability Neel Kashkari Remarks at Brookings Institution,” 1/8/2009, www.
     financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1349 Interim Assistant Secretary for Financial Stability Neel Kashkari Review of the Financial Market Crisis and the Troubled Asset Relief
     Program,” 1/13/2009, www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “HP-1349 Neel Kashkari Review of the Financial Market Crisis & TARP,” 1/13/2009, www.financialstability.gov/latest/speeches-testimony.
     html, accessed 4/2/2009.
     Treasury, “Secretary Tim Geithner Opening Statement—Delivery Senate Banking Committee Hearing,” Press Release, 2/10/2009, www.
     financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “Secretary Tim Geithner Opening Statement—Senate Budget Committee Hearing Policies to Address the Crises in Financial and Housing
     Markets,” Press Release, 2/11/2009, www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “U.S. Treasury Secretary Tim Geithner Written Testimony House Ways and Means Committee Hearing—As Prepared for Delivery,” Press
     Release, 3/3/2009, hwww.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
     Treasury, “Treasury Secretary Tim Geithner House Budget Committee Hearing Opening Statement—As Prepared for Delivery,” Press Release,
     3/5/2009, www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
206             APPENDIX G I KEY OVERSIGHT REPORTS AND TESTIMONIES




      U.S. DEPARTMENT OF THE TREASURY (“TREASURY”)
           Treasury, “Interim Assistant Secretary for Financial Stability Neel Kashkari Testimony before the House Committee on Oversight and Government
           Reform, Subcommittee on Domestic Policy—As Prepared for Delivery,” Press Release, 3/11/2009, www.financialstability.gov/latest/speeches-
           testimony.html, accessed 4/2/2009.
           Treasury, “Treasury Secretary Tim Geithner Senate Budget Committee Hearing Opening Statement,” Press Release, 3/12/2009, www.financialstability.
           gov/latest/speeches-testimony.html, accessed 4/2/2009.
           Treasury, “Treasury Secretary Tim Geithner Written Testimony House Financial Services Committee Hearing,” Press Release, 3/24/2009,
           www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
           Treasury, “Treasury Secretary Tim Geithner Remarks before the Council on Foreign Relations As Prepared for Delivery,” Press Release, 3/25/2009,
           www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.
           Treasury, “Treasury Secretary Tim Geithner Written Testimony House Financial Services Committee Hearing,” Press Release, 3/26/2009,
           www.financialstability.gov/latest/speeches-testimony.html, accessed 4/2/2009.


      FINANCIAL STABILITY OVERSIGHT BOARD (“FSOB”)
      Roles and Mission
      FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
          • policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
            classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
          • the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers
            In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
            suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
      Oversight Reports
           FSOB, Amended and Restated Bylaws, http://www.treasury.gov/initiatives/eesa/ docs/Amended_Bylaws.pdf.
           FSOB, Statement and Procedures Regarding Public Access to Records of the Financial Stability Board, http://www.treasury.gov/ initiatives/eesa/
           docs/records-procedures. pdf.
           FSOB, Minutes of the Financial Stability Oversight Board Meeting, October 7, 2008, http:// www.treasury.gov/initiatives/eesa/docs/ FINSOB-Minutes-
           October-7-2008.pdf.
           FSOB, Minutes of the Financial Stability Oversight Board Meeting, October 13, 2008, http:// www.treasury.gov/initiatives/eesa/docs/
            -Minutes-October-13-2008.pdf.”
           FSOB, Minutes of the Financial Stability Oversight Board Meeting, October 22, 2008, http:// www.treasury.gov/initiatives/eesa/docs/ FINSOB-Minutes-
           October-22-2008.pdf.
           FSOB, Minutes of the Financial Stability Oversight Board Meeting, November 9, 2008, http:// www.treasury.gov/initiatives/eesa/docs/ FINSOB-
           Minutes-November-9-2008.pdf.
           FSOB, Minutes of the Financial Stability Oversight Board Meeting, December 10, 2008, http://www.treasury.gov/initiatives/ eesa/docs/FINSOB-%20
           Minutes- December-10-2008.pdf.
           FSOB, Minutes of Financial Stability Oversight Board Meeting, December 19, 2008, http://www.treas.gov/initiatives/eesa/docs/FINSOBMinutes-
           December-19-2008.pdf.
           FOSB, First Quarterly Report to Congress pursuant to section 104(g) of the EESA, for quarter ending December 31, 2008, http://www.treas.gov/
           initiatives/eesa/docs/ FINSOB-Qrtly-Rpt-123108.pdf.
           FSOB, Minutes of Financial Stability Oversight Board Meeting, January 8, 2009, http://www. treas.gov/initiatives/eesa/docs/FINSOBMinutes-
           January-8-2009.pdf.
           FSOB, Minutes of Financial Stability Oversight Board Meeting, January 15, 2009, http://www. treas.gov/initiatives/eesa/docs/FINSOBMinutes-
           011509.pdf.
      Recorded Testimony
           None


      SECURITIES AND EXCHANGE COMMISSION (“SEC”)
      Roles and Mission
      SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
      While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive actions
      to address the extraordinary caused by the current credit crisis:
           • aggressively combating fraud and market manipulation through enforcement actions
           • taking swift action to stabilize financial markets
           • enhancing transparency in financial disclosure
                                                                                            KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX G         207



SECURITIES AND EXCHANGE COMMISSION (“SEC”)
Oversight Reports
     SEC, “Report and Recommendations Pursuant to Section 133 of the Emergency Economic Stabilization Act of 2008: Study on Mark-to-
     Market Accounting,” Office of the Chief Accountant, Division of Corporation Finance, 12/30/2008, http://www.sec.gov/ news/studies/2008/
     marktomarket123008. pdf, accessed 1/22/2009.
Recorded Testimony
     SEC, “Testimony Concerning Turmoil in U.S. Credit Markets: Recent Actions Regarding Government Sponsored Entities, Investment Banks and Other
     Financial Institutions,” Chairman Christopher Cox, SEC, before the Committee on Banking, Housing, and Urban Affairs, U.S. Senate, 9/23/2008,
     http://www.sec.gov/news/testimony/2008/ts092308cc. htm, accessed 1/22/2009.
     SEC, “Testimony Concerning the Role of Federal Regulators: Lessons from the Credit Crisis for the Future of Regulation,” Chairman Christopher
     Cox, SEC, before the Committee on Oversight and Government Reform, U.S. House of Representatives, 10/23/2008, http://www.sec.gov/news/
     testimony/2008/ts102308cc.htm, accessed 1/22/2009.
     SEC, “Testimony Concerning Securities Law Enforcement in the Current Financial Crisis,” Commissioner Elisse B. Walter, SEC, before the United
     States House of Representatives Committee on Financial Services, 3/20/2009, http://www.sec.gov/news/testimony/2009/ts032009ebw.htm,
     accessed 3/23/2009.


GOVERNMENT ACCOUNTABILITY OFFICE (“GAO”)
Roles and Mission
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
     • evaluating the characteristics of asset purchases and the disposition of assets acquired
     • assessing TARP’s efficiency in using the funds
     • evaluating compliance with applicable laws and regulations
     • assessing the efficiency of contracting procedures
     • auditing TARP’s annual financial statements and internal controls
     • submitting reports to Congress at least every 60 days
Oversight Reports
     GAO, “TARP: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency” (GAO-09-161), 12/2/2008,
     http://www.gao.gov/new.items/d09161.pdf, accessed 4/8/2009.
     GAO, “TARP: Status of Efforts to Address Defaults and Foreclosures in Mortgages” (GAO-09-231), 12/4/2008, http://www.gao.gov/new.items/
     d09231t.pdf, accessed 4/8/2009.
     GAO, “Troubled Asset Relief Program: Status of Efforts to Address Defaults and Foreclosures on Home Mortgages” (GAO-09-231T), 12/4/2008,
     http://www.gao. gov/new.items/d09231t.pdf, accessed on 1/22/2009.
     GAO, “Auto Industry: A Framework for Considering Federal Financial Assistance” (GAO-09-247T ), 12/5/2008,
     http://www.gao.gov/new.items/d09247t.pdf, accessed 1/22/2009.
     GAO, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency” (GAO-09-266T),
     12/10/2008, http://www. gao.gov/new.items/d09266t.pdf, accessed 1/22/2009.
     GAO, “High-Risk Series: An Update” (GAO-09-271), 1/2009, http://www.gao.gov/new.items/d09271.pdf, accessed 4/8/2009.
     GAO, “Troubled Asset Relief Program: Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-296), 1/2009, http://www.gao.
     gov/new.items/d09296.pdf, accessed 4/8/2009.
     GAO, “Financial Regulation: A Framework for Craft and Assessing Proposals to Modernize the Outdated U.S. Financial Regulatory System” (GAO-09-
     216), 1/8/2009, http://www.gao.gov/new.items/d09216. pdf, accessed 1/22/2009.
     GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions Could Improve 7(a) Program Oversight”
     (GAO-09-228), 2/2009, http://www.gao.gov/new.items/d09228.pdf, accessed 3/23/2009.
     GAO, “TARP: Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-359), 2/5/2009, http://www.gao.gov/new.items/
     d09359t.pdf, accessed 4/8/2009.
     GAO, “TARP: Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-417), 2/24/2009,
     http://www.gao.gov/new.items/d09417t.pdf, accessed 4/8/2009.
     GAO, “Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-474), 2/24/2009, http://www.gao.gov/new.items/d09474t.pdf,
     accessed 3/23/2009.
     GAO, “Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-474), 3/11/2009, http://www.gao.gov/new.items/d09474t.pdf,
     accessed 3/23/2009.
     GAO, “Preliminary Observations on Assistance Provided to AIG” (GAO-09-490), 3/18/2009, http://www.gao.gov/new.items/d09490t.pdf, accessed
     3/23/2009.
     GAO, “Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-484), 3/19/2009, http://www.gao.gov/new.items/d09484t.pdf,
     accessed 3/23/2009.
208             APPENDIX G I KEY OVERSIGHT REPORTS AND TESTIMONIES




      GOVERNMENT ACCOUNTABILITY OFFICE (“GAO”)
           GAO, “Troubled Asset Relief Program: Capital Purchase Program Transactions for the Period October 28, 2008 through March 20, 2009 and
           Information on Financial Agency Agreements, Contracts, and Blanket Purchase Agreements Awarded as of March 13, 2009” (GAO-09-522SP, an
           E-supplement to GAO-09-504), 3/31/2009, www.gao.gov, accessed 3/31/2009.
           GAO, “TARP: March 2009 Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-522), 3/31/2009,
           http://www.gao.gov/special.pubs/gao-09-522sp/index.html, accessed 4/8/2009.
           GAO, “TARP: Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-539), 3/31/2009, http://www.gao.gov/new.items/
           d09539t.pdf accessed 4/8/2009.
      Recorded Testimony
           GAO, “FEDERAL FINANCIAL ASSISTANCE, Preliminary Observations on Assistance Provided to AIG,” Orice M. Williams, Director
           Financial Markets and Community Investment, 3/18/2009, http://www.gao.gov/new.items/d09490t.pdf, accessed 3/23/2009.”
           GAO, “Relief Program: Status of Efforts to Address Transparency and Accountability Issues,” Gene L. Dodaro, acting comptroller general of the United
           States, before the Senate Committee on Finance, 3/31/2009, www.gao.gov, accessed 3/31/2009.


      CONGRESSIONAL OVERSIGHT PANEL (“COP”)
      Roles and Mission
      COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP is
      required to produce the following reports to Congress:
         • regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
            markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximization
            of benefits for taxpayers
         • a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its
            effectiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for
            improvement regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to
            the regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
      Oversight Reports
           COP, “Questions about the $700 Billion Emergency Economic Stabilization Funds,” The First Report of the Congressional Oversight Panel for
           Economic Stabilization, 12/10/2008, http://cop.senate.gov/documents/cop-121008-report.pdf, accessed on 1/22/2009.
           COP, Regulatory Reform Hearing on December 16, 2008, http://cop.senate.gov/hearings/library/hearing-121608-firsthearing.cfm.
           COP, “Special Report on Regulatory Reform,” 1/2009, http://cop.senate.gov/documents/cop-012909-report-regulatoryreform.pdf.
           COP, “Accountability for the Troubled Asset Relief Program,” The Second Report of the Congressional Oversight Panel, 1/9/2009, http://cop.senate.
           gov/documents/cop-010909-report.pdf, accessed on 1/22/2009.
           COP, Regulatory Reform Hearing on January 14, 2009, http://cop.senate.gov/hearings/ library/hearing-011409-regulatoryreform.cfm.
           COP, “Report to the Congressional Oversight Panel for Economic Stabilization Legal Analysis of the Investments by the U.S. Department of the
           Treasury in Financial Institutions under the Troubled Asset Relief Program,” by Timothy G. Massad, Esq., 1/27/2009, http://cop.senate.gov/
           documents/cop-020609-report-dpvaluation-legal.pdf, accessed on 3/23/2009.
           COP, “February Oversight Report, Valuing Treasury’s Acquisitions,” 2/6/2009, http://cop.senate.gov/documents/cop-020609-report.pdf, accessed
           on 3/23/2009.
      Recorded Testimony
           COP, “Learning from the Past—Lessons from the Banking Crises of the 20th Century,” 3/19/2009, http://cop.senate.gov/hearings/library/hearing-
           031909-lessons.cfm, accessed on 3/23/2009.


      OFFICE OF MANAGEMENT AND BUDGET (“OMB”)
      Roles and Mission
      OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in Executive
      Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
      assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
      legislation are consistent with the President’s Budget and with Administration policies.

      In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
      areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
      any unnecessary burdens on the public.
      Oversight Reports
          OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 2/5/2008, www.whitehouse.gov/omb/ legislative/eesa_120508.
          pdf, accessed 1/19/09.
      Recorded Testimony
           None
                                                                                                 KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX G                 209



CONGRESSIONAL BUDGET OFFICE (“CBO”)
Roles and Mission
CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array of
programs covered by the federal budget, and the information and estimates required for the Congressional budget process.

CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
Oversight Reports
     CBO, “The Troubled Asset Relief Program: Report on Transactions Through December 31, 2008,” 1/2009, http://www.cbo. gov/ftpdocs/99xx/
     doc9961/01-16-TARP.pdf, accessed 1/22/2009.
     CBO, “Estimated Costs of Additional Debt Service That Would Result from Enacting H.R.1, the American Recovery and Reinvestment Act of 2009,”
     1/27/2009, http://www.cbo.gov/ftpdocs/99xx/doc9970/1-27-RyanLetter-09stimulus.pdf, accessed 3/23/2009.
     CBO, “Estimated Macroeconomic Impacts of H.R.1 as Passed by the Senate and the House,” 2/11/2009, http://www.cbo.gov/ftpdocs/99xx/
     doc9987/Gregg_Year-by-Year_Stimulus.pdf, accessed 3/23/2009.
Recorded Testimony
     None


FEDERAL RESERVE BOARD (“FEDERAL RESERVE”)
Roles and Mission
Federal Reserve’s duties fall into four general areas:
   • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
     prices, and moderate long-term interest rates
   • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
     credit rights of consumers
   • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
   • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
     the nation’s payments system
Oversight Reports
     No report issued to date
Recorded Testimony
     Federal Reserve, “Economic Outlook and Financial Markets,” Chairman Ben S. Bernanke, Testimony before the Committee on the Budget, U.S. House
     of Representatives, 10/20/2008, http://www.federalreserve.gov/newsevents/testimony/ bernanke20081020a.htm, accessed 1/22/2009.
     Federal Reserve, “Foreclosure Prevention Efforts and Market Stability,” Governor Elizabeth A. Duke, Testimony before the Committee on Banking,
     Housing, and Urban Affairs, U.S. Senate, 10/23/2008, http://www.federalreserve.gov/ newsevents/testimony/duke20081023a.htm, accessed
     1/22/2009.
     Federal Reserve, “TARP and the Federal Reserve’s Liquidity Facilities,” Chairman Ben S. Bernanke, Testimony before the Committee on Financial
     Services, U.S. House of Representatives, 11/18/2008, http://www.federalreserve. gov/newsevents/testimony/bernanke20081118a.htm, accessed
     1/22/2009.
     Federal Reserve, “Effects of the Financial Crisis on Small Business,” Governor Randall S. Kroszner, Testimony before the Committee on Small
     Business, U.S. House of Representatives, 11/20/2008, http://www.federalreserve. gov/newsevents/testimony/kroszner20081120a.htm, accessed
     1/22/2009.
     Federal Reserve, “The Crisis and the Policy Response,” Chairman Ben S. Bernanke, Stamp Lecture, London School of Economics, 1/13/2009,
     http://www.federalreserve.gov/ newsevents/speech/bernanke20090113a.htm, accessed 1/22/2009.
     Federal Reserve, “Troubled Asset Relief Program,” Vice Chairman Donald L. Kohn, Testimony before the Committee on Financial Services, 1/13/2009,
     http://www. federalreserve.gov/newsevents/testimony/kohn20090113a. htm, accessed 1/22/2009.
     Federal Reserve, “Federal Reserve programs to strengthen credit markets and the economy,” Chairman Ben S. Bernanke , Testimony before the
     Financial Services, U.S. House of Representatives, 2/10/2009, http://www.federalreserve.gov/newsevents/testimony/bernanke20090210a.htm,
     accessed 3/23/009.
     Federal Reserve, “Federal Reserve programs to strengthen credit markets and the economy,” Chairman Ben S. Bernanke, Testimony before the
     Committee on Financial Services, U.S. House of Representatives, 2/10/2009, http://www.federalreserve.gov/newsevents/testimony/2009testimony.
     htm, accessed 4/2/2009.
     Federal Reserve, “American International Group,” Vice Chairman Donald L. Kohn, Testimony before the Committee on Banking, Housing, and Urban
     Affairs, 3/5/2009, http://www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed 4/2/2009.
     Federal Reserve, “American International Group,” Vice Chairman Donald L. Kohn, Testimony before the Committee on Banking, Housing, and Urban
     Affairs, U.S. Senate, 3/5/2009, http://www.federalreserve.gov/newsevents/testimony/kohn20090305a.htm, accessed 3/23/2009.
210           APPENDIX G I KEY OVERSIGHT REPORTS AND TESTIMONIES




      FEDERAL RESERVE BOARD (“FEDERAL RESERVE”)
         Federal Reserve, “American International Group,” Chairman Ben S. Bernanke, Testimony before the Committee on Financial Services, U.S. House of
         Representatives, 3/24/2009, http://www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed 4/2/2009.
         Federal Reserve, “Credit availability and prudent lending standards,” Governor Elizabeth A. Duke, Testimony before the Committee on Financial
         Services, U.S. House of Representatives, 3/25/2009, http://www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed
         4/2/2009.


      FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
        Roles and Mission
           FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring
           deposits, examining and supervising financial institutions, and managing receiverships.
        Oversight Reports
           None
        Recorded Testimony
           FDIC, U.S. Senate, “Statement of Sheila C. Bair, Chairman, FDIC, on Turmoil in the U.S. Credit Markets: Examining Recent Regulatory Responses,”
           Committee on Banking, Housing and Urban Affairs, 10/23/2008, http://banking.senate. gov/public/_files/BAIRCreditMarkettestimony102308.pdf,
           accessed 1/22/2009.

           FDIC, U.S. House of Representatives, “Statement of Sheila C. Bair, Chairman, FDIC, on Oversight of Implementation of the Emergency Economic
           Stabilization Act of 2008 and of Government Lending and Insurance Facilities,” Committee on Financial Services, 11/18/2008, http://www.house.
           gov/apps/list/hearing/financialsvcs_dem/bair111808.pdf, accessed 1/22/2009.
           FDIC, U.S. Senate, “Statement of Michael H. Krimminger, Special Advisor for Policy, Office of the Chairman; FDIC on Oversight of Implementation of
           the EESA of 2008 and Efforts to Mitigate Foreclosures,” Subcommittee on Financial Services and General Government Committee on Appropriations,
           12/4/2008, http://www.fdic.gov/news/news/speeches/archives/2008/ chairman/spdec0408.html, accessed 1/22/2009.

           FDIC, U.S. House of Representatives, “Statement of John F. Bovenzi, Deputy to the Chairman and COO, FDIC, on Priorities for the Next
           Administration: Use of TARP Funds Under the EESA of 2008,” Committee on Financial Services, 1/13/2009, http://www.fdic.gov/news/news/
           speeches/ chairman/spjan1309.html, accessed 1/22/2009.


      FEDERAL DEPOSIT INSURANCE CORPORATION OFFICE OF THE INSPECTOR GENERAL (FDIC OIG)
        Roles and Mission
           The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud,
           waste, and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
        Oversight Reports

           FDIC OIG, “Controls Over the FDIC’s Processing of Capital Purchase Program Applications from FDIC-Supervised Institutions,” 3/20/2008, www.
           fdicoig.gov, accessed 3/30/2009.


        Recorded Testimony
           None
                                                                                                                    KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX G                      211



SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (“SIGTARP”)
Roles and Mission
SIGTARP is responsible for conducting, supervising, and coordinating audits and investigations of the purchase, management, and sale of by the Secretary
of the Treasury under any program established by the Secretary under EESA. SIGTARP shall also establish, maintain, and oversee such systems,
procedures, and controls as the Special Inspector General considers appropriate.

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal, or abuse TARP
funds.
Oversight Reports
     SIGTARP, “Use of Funds Letter,” 2/5/2009, http://www.sigtarp.gov/reports/audit/2009/Use_of_Funds_Request_Letter.pdf, accessed 3/23/09.
     SIGTARP, “Initial Report to Congress,” 2/6/2009, http://www.sigtarp.gov/reports/audit/2009/Questions_and_Answers_Regarding_Use_of_Funds_
     Request_Letter.pdf, accessed 3/23/09.
     SIGTARP, “Questions and Answers Regarding the February 6, 2009 SIG TARP Letter,” 2/6/2009, http://www.sigtarp.gov/reports/congress/2009/
     SIGTARP_Initial_Report_to_the_Congress.pdf, accessed 3/23/09.
Recorded Testimony
     SIGTARP, Letter to Chairmen and Ranking Members of Congressional Committees Reported to by SIGTARP, 1/7/2009. (See SIGTARP Initial Report to
     Congress, Appendix G)
     SIGTARP, Letter to Chairmen and Ranking Members of Congressional Committees Reported to by SIGTARP, 1/22/2009. (See SIGTARP Initial Report to
     Congress, Appendix G)
     SIGTARP, Testimony Before the Senate Committee on Banking, Housing, and Urban Affairs, Special Inspector General Neil Barofsky, 2/5/2009,
     http://www.sigtarp.gov/reports/testimony/2009/Hearing_Transcript_Senate_Committee_on_Banking_Housing_and_Urban_Affairs.pdf, accessed on
     3/23/2009.
     SIGTARP, Testimony Before the Senate Committee on the Judiciary, Special Inspector General Neil Barofsky, 2/11/2009, http://www.sigtarp.gov/
     reports/testimony/2009/Testimony_Before_the_Senate_Committee_on_The_Judiciary.pdf, accessed on 3/23/2009.
     SIGTARP, Testimony Before the House Committee on Financial Services Subcommittee on Oversight and Investigations, Special Inspector General
     Neil Barofsky, 2/24/2009,http://www.sigtarp.gov/reports/testimony/2009/Testimony_Before_the_House_Committee_on_Financial_Services_
     Subcommittee_on_Oversight_and_Investigations.pdf, accessed on 3/23/2009.
     SIGTARP, Testimony Before the House Committee on Oversight and Government Reform Subcommittee on Domestic Policy, Special Inspector
     General Neil Barofsky, 3/11/2009, http://www.sigtarp.gov/reports/testimony/2009/Testimony_Before_the_House_Committee_on_Oversight_and_
     Government_Reform_Subcommittee_on_Domestic_Policy.pdf, accessed on 3/23/2009.
     SIGTARP, Testimony Before the House Committee on Ways and Means Subcommittee on Oversight, 3/19/2009, Special Inspector General Neil
     Barofsky, http://www.sigtarp.gov/reports/testimony/2009/Testimony_Before_the_House_Committee_on_Ways_and_Means_Subcommittee_on_
     Oversight.pdf, accessed on 3/23/2009.
     SIGTARP, Testimony Before the United States Senate Finance Committee, Special Inspector General Neil Barofsky, 3/31/2009, http://www.sigtarp.
     gov/reports/testimony/2009/Testimony_Before_the_Senate_Finance_Committee.pdf, accessed on 4/2/2009.

Note: Italics style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treas.gov, accessed 4/2/2009; Treasury Inspector General, www.treas.gov, accessed 4/2/2009; Financial Stability Oversight Board, www.treas.gov, accessed 4/2/2009;
SEC, www.sec.gov, accessed 4/2/2009; GAO, www.gao.gov, accessed 4/2/2009; COP, www.cop.senate.gov, accessed 4/2/2009; OMB, www.whitehouse.gov, accessed 4/2/2009; CBO,
www.cbo.gov, accessed 4/2/2009; Federal Reserve Board, www.federalreserve.gov, accessed 4/2/2009; FDIC, www.fdic.gov, accessed 4/2/2009; FDIC OIG, www.fdicoig.gov, accessed
4/10/2009.
212              APPENDIX H I WARRANTS




      WARRANTS
      When a warrant’s exercise price is lower than the current                    Bancorp, Old National Bancorp, Signature Bank, and Centra
      market price of the stock, the warrants are “in the                          Financial Holdings, Inc./Centra Bank, Inc. repurchased their
      money.” When the strike price (exercise price) is above the                  preferred shares. Upon repurchase of their preferred shares,
      stock’s market price, it is “out of the money.” It is important              institutions have a right to purchase their Government-held
      to note that even warrants that are “out of the money” have                  warrants before they are offered for sale to a third party. Only
      value; this value is based on the possibility that the share                 the private financial institution, Centra Financial Holdings,
      price will eventually rise above the strike price. It is not                 Inc./Centra Bank, Inc., had notified Treasury of its intention
      unusual that warrants are “out of the money” when they are                   to repurchase its warrant preferred shares at their aggregate
      issued. The following table contains the current status of the               liquidation preference. If the four publicly traded finan-
      warrants that Treasury obtained under CPP, SSFI, TIP, AIFP,                  cial institutions choose not to exercise this right within 15
      and AGP (for publicly traded companies).                                     calendar days of repurchase, Treasury has stated that it will
                                                                                   liquidate the warrants. Treasury has stated that it will receive
      As of March 31, 2009, Treasury continued to hold the war-                    a profit from the sale of these assets, regardless of the final
      rants received from the four publicly traded financial institu-              purchaser, since Treasury did not incur any additional cost to
      tions and the single private financial institution that repur-               acquire them. Details of these share repurchases and their
      chased preferred shares from the Government. On March 31,                    corresponding impact on Treasury’s warrant portfolio will be
      2009, Iberiabank Corporation, Bank of Marin                                  provided in SIGTARP’s next quarterly report.



       STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                        Amount “In
                                                                                                                    Strike                             the Money”
                                                          Stock Price                                             Price as                     In or     or “Out of
                                                          as of                                   Number of         Stated          Stock        Out   the Money”
                                   Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
       Participant                 Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
       1st Constitution Bancorp    12/23/2008    FCCY     $8.81         NASDAQ     CPP - Public     200,222          $8.99          $6.25       OUT            (2.74)
       1st FS Corporation          11/14/2008    FFIS     $7.50         OTC BB     CPP - Public     276,815          $8.87          $4.75       OUT            (4.12)
       1st Source Corporation      1/23/2009     SRCE     $17.43        NASDAQ     CPP - Public     837,947         $19.87        $18.05        OUT            (1.82)
       AB&T Financial
                                   1/23/2009     ABTO     $6.90         OTC BB     CPP - Public      80,153          $6.55          $6.00       OUT            (0.55)
       Corporation
       AIG                         11/25/2008    AIG      $1.77         NYSE       SSFI           53,798,766         $2.50          $1.00       OUT            (1.50)
       Alaska Pacific
                                   2/6/2009      AKPB     $4.15         OTC BB     CPP - Public     175,772          $4.08          $3.60       OUT            (0.48)
       Bancshares, Inc.
       Alliance Financial
                                   12/19/2008    ALNC     $23.00        NASDAQ     CPP - Public     173,069         $23.33        $17.94        OUT            (5.39)
       Corporation
       American Express
                                   1/9/2009      AXP      $19.23        NYSE       CPP - Public   24,264,129        $20.95        $13.63        OUT            (7.32)
       Company
       Ameris Bancorp              11/21/2008    ABCB     $9.21         NASDAQ     CPP - Public     679,443         $11.48          $4.71       OUT            (6.77)
       AmeriServ Financial, Inc.   12/19/2008    ASRV     $1.85         NASDAQ     CPP - Public    1,312,500         $2.40          $1.67       OUT            (0.73)
       Anchor BanCorp
                                   1/30/2009     ABCW     $2.02         NASDAQ     CPP - Public    7,399,103         $2.23          $1.35       OUT            (0.88)
       Wisconsin, Inc.
       Annapolis Bancorp, Inc.     1/30/2009     ANNB     $2.10         NASDAQ     CPP - Public     299,706          $4.08          $2.72       OUT            (1.36)
                                                                                                                                                Continued on next page
                                                                                                                            WARRANTS I APPENDIX H                   213




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                   Amount “In
                                                                                                               Strike                             the Money”
                                                    Stock Price                                              Price as                     In or     or “Out of
                                                    as of                                    Number of         Stated          Stock        Out   the Money”
                             Transaction   Ticker   Transaction                               Warrants          in the    Price as of    of the          as of
Participant                  Date          Symbol   Date          Exchange   Program          Received    Agreements     3/31/2009      Money?    3/31/2009
Associated Banc-Corp         11/21/2008    ASBC     $17.10        NASDAQ     CPP - Public     3,983,308        $19.77        $15.45        OUT            (4.32)
Bancorp Rhode Island,
                             12/19/2008    BARI     $19.55        NASDAQ     CPP - Public      192,967         $23.32        $18.07        OUT            (5.25)
Inc.
BancTrust Financial
                             12/19/2008    BTFG     $11.01        NASDAQ     CPP - Public      730,994         $10.26          $6.33       OUT            (3.93)
Group, Inc.
Bank of America
                             1/16/2009     BAC      $7.18         NYSE       TIP            150,375,940        $13.30          $6.82       OUT            (6.48)
Corporation
Bank of America
                             10/28/2008    BAC      $23.02        NYSE       CPP - Public    73,075,674        $30.79          $6.82       OUT          (23.97)
Corporation
Bank of America
                             1/9/2009      BAC      $12.99        NYSE       CPP - Public    48,717,116        $30.79          $6.82       OUT          (23.97)
Corporation
Bank of Commerce
                             11/14/2008    BOCH     $5.25         NASDAQ     CPP - Public      405,405          $6.29          $5.04       OUT            (1.25)
Holdings
                         1
Bank of Marin Bancorp        12/5/2008     BMRC     $23.15        NASDAQ     CPP - Public      154,242         $27.23        $21.51        OUT            (5.72)
Bank of New York Mellon
                             10/28/2008    BK       $31.80        NYSE       CPP - Public    14,516,129        $31.00        $28.25        OUT            (2.75)
Corporation
Bank of North Carolina       12/5/2008     BNCN     $7.97         NASDAQ     CPP - Public      543,337          $8.63          $6.05       OUT            (2.58)
Bank of the Ozarks, Inc.     12/12/2008    OZRK     $27.02        NASDAQ     CPP - Public      379,811         $29.62        $23.08        OUT            (6.54)
Banner Corporation           11/21/2008    BANR     $9.17         NASDAQ     CPP - Public     1,707,989        $10.89          $2.91       OUT            (7.98)
Bar Harbor Bankshares/
                             1/16/2009     BHB      $23.70        AMEX       CPP - Public      104,910         $26.81        $23.30        OUT            (3.51)
Bar Harbor Bank & Trust
BB&T Corp.                   11/14/2008    BBT      $28.05        NYSE       CPP - Public    13,902,573        $33.81        $16.92        OUT          (16.89)
BCSB Bancorp, Inc.           12/23/2008    BCSB     $7.75         NASDAQ     CPP - Public      183,465          $8.83          $8.75       OUT            (0.08)
Berkshire Hills Bancorp,
                             12/19/2008    BHLB     $28.53        NASDAQ     CPP - Public      226,330         $26.51        $22.92        OUT            (3.59)
Inc.
Blue Valley Ban Corp.        12/5/2008     BVBC     $15.25        OTC BB     CPP - Public      111,083         $29.37        $12.00        OUT          (17.37)
Boston Private Financial
                             11/21/2008    BPFH     $5.65         NASDAQ     CPP - Public     2,887,500         $8.00          $3.51       OUT            (4.49)
Holdings, Inc.
Bridge Capital Holdings      12/23/2008    BBNK     $4.40         NASDAQ     CPP - Public      396,412          $9.03          $4.50       OUT            (4.53)
Broadway Financial
                             11/14/2008    BYFC     $5.85         NASDAQ     CPP - Public      183,175          $7.37          $5.24       OUT            (2.13)
Corporation
C&F Financial Corporation    1/9/2009      CFFI     $18.93        NASDAQ     CPP - Public      167,504         $17.91        $14.45        OUT            (3.46)
Cadence Financial
                             1/9/2009      CADE     $5.15         NASDAQ     CPP - Public     1,145,833         $5.76          $4.42       OUT            (1.34)
Corporation
Capital Bank Corporation     12/12/2008    CBKN     $7.05         NASDAQ     CPP - Public      749,619          $8.26          $4.56       OUT            (3.70)
Capital One Financial
                             11/14/2008    COF      $31.19        NYSE       CPP - Public    12,657,960        $42.13        $12.24        OUT          (29.89)
Corporation
Carolina Bank Holdings,
                             1/9/2009      CLBH     $6.30         NASDAQ     CPP - Public      357,675          $6.71          $4.20       OUT            (2.51)
Inc.
Carolina Trust Bank          2/6/2009      CART     $6.00         NASDAQ     CPP - Public       86,957          $6.90          $4.80       OUT            (2.10)
Carrollton Bancorp           2/13/2009     CRRB     $6.10         NASDAQ     CPP - Public      205,379          $6.72          $5.12       OUT            (1.60)
                                                                                                                                           Continued on next page
214               APPENDIX H I WARRANTS




      STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                         Amount “In
                                                                                                                     Strike                             the Money”
                                                          Stock Price                                              Price as                     In or     or “Out of
                                                          as of                                    Number of         Stated          Stock        Out   the Money”
                                   Transaction   Ticker   Transaction                               Warrants          in the    Price as of    of the          as of
      Participant                  Date          Symbol   Date          Exchange   Program          Received    Agreements     3/31/2009      Money?    3/31/2009
      Cascade Financial
                                   11/21/2008    CASB     $4.89         NASDAQ     CPP - Public      863,442          $6.77          $2.50       OUT            (4.27)
      Corporation
      Cathay General Bancorp       12/5/2008     CATY     $20.48        NASDAQ     CPP - Public     1,846,374        $20.96        $10.43        OUT          (10.53)
      Cecil Bancorp, Inc.          12/23/2008    CECB     $6.25         OTC BB     CPP - Public      261,538          $6.63          $5.10       OUT            (1.53)
      Center Bancorp, Inc.         1/9/2009      CNBC     $8.00         NASDAQ     CPP - Public      173,410          $8.65          $7.22       OUT            (1.43)
      Center Financial
                                   12/12/2008    CLFC     $7.08         NASDAQ     CPP - Public      864,780          $9.54          $2.82       OUT            (6.72)
      Corporation
      Centerstate Banks of
                                   11/21/2008    CSFL     $15.02        NASDAQ     CPP - Public      250,825         $16.67        $11.01        OUT            (5.66)
      Florida, Inc.
      Central Bancorp, Inc.        12/5/2008     CEBK     $5.88         NASDAQ     CPP - Public      234,742          $6.39          $4.74       OUT            (1.65)
      Central Federal
                                   12/5/2008     CFBK     $3.10         NASDAQ     CPP - Public      336,568          $3.22          $2.90       OUT            (0.32)
      Corporation
      Central Jersey Bancorp       12/23/2008    CJBK     $6.00         NASDAQ     CPP - Public      268,621          $6.31          $6.50         IN            0.19
      Central Pacific Financial
                                   1/9/2009      CPF      $7.92         NYSE       CPP - Public     1,585,748        $12.77          $5.60       OUT            (7.17)
      Corp.
      Central Valley Community
                                   1/30/2009     CVCY     $5.07         NASDAQ     CPP - Public      158,133          $6.64          $4.67       OUT            (1.97)
      Bancorp
      Central Virginia
                                   1/30/2009     CVBK     $5.34         NASDAQ     CPP - Public      263,542          $6.48          $3.95       OUT            (2.53)
      Bankshares, Inc.
      Centrue Financial
                                   1/9/2009      1        $6.50         NASDAQ     CPP - Public      508,320          $9.64          $5.38       OUT            (4.26)
      Corporation
      CIT Group, Inc.              12/31/2008    CIT      $4.54         NYSE       CPP - Public    88,705,584         $3.94          $2.85       OUT            (1.09)

      Citigroup, Inc.              12/31/2008    C        $6.71         NYSE       AGP                               $10.61          $2.53       OUT            (8.08)
                                                                                                  254,476,909
      Citigroup, Inc.              1/16/2009     C        $3.50         NYSE       TIP            188,500,000         10.61          $2.53       OUT            (8.08)
      Citigroup, Inc.              10/28/2008    C        $13.41        NYSE       CPP - Public   210,084,034        $17.85          $2.53       OUT          (15.32)
      Citizens & Northern
                                   1/16/2009     CZNC     $18.78        NASDAQ     CPP - Public      194,794         $20.36        $18.49        OUT            (1.87)
      Corporation
      Citizens First Corporation   12/19/2008    CZFC     $4.00         NASDAQ     CPP - Public      254,218          $5.18          $4.00       OUT            (1.18)
      Citizens Republic
                                   12/12/2008    CRBC     $2.33         NASDAQ     CPP - Public    17,578,125         $2.56          $1.55       OUT            (1.01)
      Bancorp, Inc.
      Citizens South Banking
                                   12/12/2008    CSBC     $6.52         NASDAQ     CPP - Public      428,870          $7.17          $5.08       OUT            (2.09)
      Corporation
      City National Corporation    11/21/2008    CYN      $35.64        NYSE       CPP - Public     1,128,668        $53.16        $33.77        OUT          (19.39)
      Coastal Banking
                                   12/5/2008     CBCO     $5.75         OTC BB     CPP - Public      205,579          $7.26          $6.00       OUT            (1.26)
      Company, Inc.
      CoBiz Financial, Inc.        12/19/2008    COBZ     $9.59         NASDAQ     CPP - Public      895,968         $10.79          $5.25       OUT            (5.54)
      Codorus Valley Bancorp,
                                   1/9/2009      CVLY     $9.00         NASDAQ     CPP - Public      263,859          $9.38          $8.06       OUT            (1.32)
      Inc.
      Colony Bankcorp, Inc.        1/9/2009      CBAN     $8.50         NASDAQ     CPP - Public      500,000          $8.40          $6.39       OUT            (2.01)
      Columbia Banking
                                   11/21/2008    COLB     $8.85         NASDAQ     CPP - Public      796,046         $14.49          $6.40       OUT            (8.09)
      System, Inc.
                                                                                                                                                 Continued on next page
                                                                                                                             WARRANTS I APPENDIX H                   215




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                    Amount “In
                                                                                                                Strike                             the Money”
                                                      Stock Price                                             Price as                     In or     or “Out of
                                                      as of                                   Number of         Stated          Stock        Out   the Money”
                               Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
Participant                    Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
Comerica, Inc.                 11/14/2008    CMA      $21.95        NYSE       CPP - Public   11,479,592        $29.40        $18.31        OUT          (11.09)
Commerce National Bank         1/9/2009      CNBF     $6.00         OTC BB     CPP - Public      87,209          $8.60          $6.10       OUT            (2.50)
Community Bankers Trust
                               12/19/2008    BTC      $3.00         AMEX       CPP - Public     780,000          $3.40          $3.40       OUT             0.00
Corporation
Community Financial
                               12/19/2008    CFFC     $4.00         NASDAQ     CPP - Public     351,194          $5.40          $4.00       OUT            (1.40)
Corporation
Community Partners
                               1/30/2009     CPBC     $3.98         NASDAQ     CPP - Public     288,462          $4.68          $3.35       OUT            (1.33)
Bancorp
Community West
                               12/19/2008    CWBC     $3.81         NASDAQ     CPP - Public     521,158          $4.49          $2.64       OUT            (1.85)
Bancshares
Crescent Financial
                               1/9/2009      CRFN     $4.50         NASDAQ     CPP - Public     833,705          $4.48          $3.60       OUT            (0.88)
Corporation
CVB Financial Corp.            12/5/2008     CVBF     $11.04        NASDAQ     CPP - Public    1,669,521        $11.68          $6.63       OUT            (5.05)
Discover Financial
                               3/13/2009     DFS      $6.23         NYSE       CPP - Public   20,500,915         $8.96          $6.31       OUT            (2.65)
Services
DNB Financial
                               1/30/2009     DNBF     $5.99         NASDAQ     CPP - Public     186,311          $9.46          $7.52       OUT            (1.94)
Corporation
Eagle Bancorp, Inc.            12/5/2008     EGBN     $6.15         NASDAQ     CPP - Public     770,867          $7.44          $6.25       OUT            (1.19)
East West Bancorp              12/5/2008     EWBC     $15.64        NASDAQ     CPP - Public    3,035,109        $15.15          $4.57       OUT          (10.58)
Eastern Virginia
                               1/9/2009      EVBS     $9.81         NASDAQ     CPP - Public     373,832          $9.63          $8.39       OUT            (1.24)
Bankshares, Inc.
ECB Bancorp, Inc./East
                               1/16/2009     ECBE     $15.93        NASDAQ     CPP - Public     144,984         $18.57        $15.30        OUT            (3.27)
Carolina Bank
Emclaire Financial Corp.       12/23/2008    EMCF     $23.50        OTC BB     CPP - Public      50,111         $22.45        $21.50        OUT            (0.95)
Encore Bancshares, Inc.        12/5/2008     EBTX     $13.23        NASDAQ     CPP - Public     364,026         $14.01          $8.87       OUT            (5.14)
Enterprise Financial
                               12/19/2008    EFSC     $14.46        NASDAQ     CPP - Public     324,074         $16.20          $9.76       OUT            (6.44)
Services Corp.
F.N.B. Corporation             1/9/2009      FNB      $12.08        NYSE       CPP - Public    1,302,083        $11.52          $7.67       OUT            (3.85)
Farmers Capital Bank
                               1/9/2009      FFKT     $24.41        NASDAQ     CPP - Public     223,992         $20.09        $15.67        OUT            (4.42)
Corporation
Fidelity Bancorp, Inc.         12/12/2008    FSBI     $6.75         NASDAQ     CPP - Public     121,387          $8.65        $10.07          IN            1.42
Fidelity Southern
                               12/19/2008    LION     $3.18         NASDAQ     CPP - Public    2,266,458         $3.19          $2.40       OUT            (0.79)
Corporation
Fifth Third Bancorp            12/31/2008    FITB     $8.26         NASDAQ     CPP - Public   43,617,747        $11.72          $2.92       OUT            (8.80)
Financial Institutions, Inc.   12/23/2008    FISI     $13.34        NASDAQ     CPP - Public     378,175         $14.88          $7.62       OUT            (7.26)
First Bancorp                  1/9/2009      FBNC     $15.74        NASDAQ     CPP - Public     616,308         $15.82        $11.97        OUT            (3.85)
First BanCorp                  1/16/2009     FBP      $8.59         NYSE       CPP - Public    5,842,259        $10.27          $4.26       OUT            (6.01)
First Busey Corporation        3/6/2009      BUSE     $6.15         NASDAQ     CPP - Public    1,147,666        $13.07          $7.76       OUT            (5.31)
First California Financial
                               12/19/2008    FCAL     $5.55         NASDAQ     CPP - Public     599,042          $6.26          $4.20       OUT            (2.06)
Group, Inc.
First Citizens Banc Corp.      1/23/2009     FCZA     $6.56         NASDAQ     CPP - Public     469,312          $7.41          $7.51         IN            0.10
                                                                                                                                            Continued on next page
216                APPENDIX H I WARRANTS




      STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                         Amount “In
                                                                                                                     Strike                             the Money”
                                                           Stock Price                                             Price as                     In or     or “Out of
                                                           as of                                   Number of         Stated          Stock        Out   the Money”
                                    Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
      Participant                   Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
      First Community Bank
                                    12/23/2008    FCFL     $5.13         NASDAQ     CPP - Public     228,312          $7.02          $4.10       OUT            (2.92)
      Corporation of America
      First Community
                                    11/21/2008    FCBC     $24.88        NASDAQ     CPP - Public     176,546         $35.26        $11.67        OUT          (23.59)
      Bankshares Inc.
      First Community
                                    11/21/2008    FCCO     $8.50         NASDAQ     CPP - Public     195,915          $8.69          $6.60       OUT            (2.09)
      Corporation
      First Defiance Financial
                                    12/5/2008     FDEF     $7.67         NASDAQ     CPP - Public     550,595         $10.08          $6.08       OUT            (4.00)
      Corp.
      First Federal Bancshares
                                    3/6/2009      FFBH     $3.86         NASDAQ     CPP - Public     321,847          $7.69          $4.70       OUT            (2.99)
      of Arkansas, Inc.
      First Financial Bancorp       12/23/2008    FFBC     $12.26        NASDAQ     CPP - Public     930,233         $12.90          $9.53       OUT            (3.37)
      First Financial Holdings,
                                    12/5/2008     FFCH     $20.65        NASDAQ     CPP - Public     483,391         $20.17          $7.65       OUT          (12.52)
      Inc.
      First Financial Service
                                    1/9/2009      FFKY     $12.58        NASDAQ     CPP - Public     215,983         $13.89        $11.10        OUT            (2.79)
      Corporation
      First Horizon National
                                    11/14/2008    FHN      $9.35         NYSE       CPP - Public   12,743,235        $10.20        $10.74          IN            0.54
      Corporation
      First Litchfield Financial
                                    12/12/2008    FLFL     $7.10         OTC BB     CPP - Public     199,203          $7.53          $7.00       OUT            (0.53)
      Corporation
      First M&F Corporation         2/27/2009     FMFC     $6.23         NASDAQ     CPP - Public     513,113          $8.77          $6.12       OUT            (2.65)
      First Merchants
                                    2/20/2009     FRME     $11.12        NASDAQ     CPP - Public     991,453         $17.55        $10.79        OUT            (6.76)
      Corporation
      First Midwest Bancorp,
                                    12/5/2008     FMBI     $18.48        NASDAQ     CPP - Public    1,305,230        $22.18          $8.59       OUT          (13.59)
      Inc.
      First Niagara Financial
                                    11/21/2008    FNFG     $14.37        NASDAQ     CPP - Public    1,906,191        $14.48        $10.89        OUT            (3.59)
      Group
      First Northern Community
                                    3/13/2009     FNRN     $4.05         OTC BB     CPP - Public     352,977          $7.39          $4.99       OUT            (2.40)
      Bancorp
      First PacTrust Bancorp,
                                    11/21/2008    FPTB     $8.80         NASDAQ     CPP - Public     280,795         $10.31          $6.75       OUT            (3.56)
      Inc.
      First Place Financial Corp.   3/13/2009     FPFC     $2.38         NASDAQ     CPP - Public    3,670,822         $2.98          $3.36         IN            0.38
      First Security Group, Inc.    1/9/2009      FSGI     $5.00         NASDAQ     CPP - Public     823,627          $6.01          $3.37       OUT            (2.64)
      First Sound Bank              12/23/2008    FSWA     $6.01         OTC BB     CPP - Public     114,080          $9.73          $3.00       OUT            (6.73)
      First United Corporation      1/30/2009     FUNC     $12.15        NASDAQ     CPP - Public     326,323         $13.79          $8.38       OUT            (5.41)
      Firstbank Corporation         1/30/2009     FBMI     $6.50         NASDAQ     CPP - Public     578,947          $8.55          $5.01       OUT            (3.54)
      FirstMerit Corporation        1/9/2009      FMER     $18.51        NASDAQ     CPP - Public     952,260         $19.69        $18.20        OUT            (1.49)
      Flagstar Bancorp, Inc.        1/30/2009     FBC      $0.60         NYSE       CPP - Public   64,513,790         $0.62          $0.75         IN            0.13
      Flushing Financial
                                    12/19/2008    FFIC     $12.01        NASDAQ     CPP - Public     751,611         $13.97          $6.02       OUT            (7.95)
      Corporation
      FNB United Corp.              2/13/2009     FNBN     $3.00         NASDAQ     CPP - Public    2,207,143         $3.50          $2.60       OUT            (0.90)
      FPB Bancorp, Inc.             12/5/2008     FPBI     $4.10         NASDAQ     CPP - Public     183,158          $4.75          $2.50       OUT            (2.25)
                                                                                                                                                 Continued on next page
                                                                                                                          WARRANTS I APPENDIX H                217




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                  Amount “In
                                                                                                              Strike                             the Money”
                                                    Stock Price                                             Price as                     In or     or “Out of
                                                    as of                                   Number of         Stated          Stock        Out   the Money”
                             Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
Participant                  Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
Fulton Financial
                             12/23/2008    FULT     $8.76         NASDAQ     CPP - Public    5,509,756        $10.25          $6.63       OUT            (3.62)
Corporation
General Motors
                             12/29/2008    GM       $3.60         NYSE       AIFP            1,733,068         $5.02          $1.94       OUT            (3.08)
Corporation
GMAC LLC                     12/29/2008    GJM      $9.00         NYSE       AIFP             250,002          $0.01          $7.46         IN            7.45
Great Southern Bancorp       12/5/2008     GSBC     $8.15         NASDAQ     CPP - Public     909,091          $9.57        $14.01          IN            4.44
Green Bankshares, Inc.       12/23/2008    GRNB     $14.00        NASDAQ     CPP - Public     635,504         $17.06          $8.80       OUT            (8.26)
Guaranty Federal
                             1/30/2009     GFED     $5.50         NASDAQ     CPP - Public     459,459          $5.55          $5.30       OUT            (0.25)
Bancshares, Inc.
Hampton Roads
                             12/31/2008    HMPR     $8.73         NASDAQ     CPP - Public    1,325,858         $9.09          $7.79       OUT            (1.30)
Bankshares, Inc.
Hawthorn Bancshares,
                             12/19/2008    HWBK     $16.13        NASDAQ     CPP - Public     245,443         $18.49        $11.75        OUT            (6.74)
Inc.
HCSB Financial
                             3/6/2009      HCFB     $11.01        OTC BB     CPP - Public      91,714         $21.09        $11.01        OUT          (10.08)
Corporation
Heartland Financial USA,
                             12/19/2008    HTLF     $21.33        NASDAQ     CPP - Public     609,687         $20.10        $13.54        OUT            (6.56)
Inc.
Heritage Commerce
                             11/21/2008    HTBK     $11.00        NASDAQ     CPP - Public     462,963         $12.96          $5.25       OUT            (7.71)
Corp.
Heritage Financial
                             11/21/2008    HFWA     $12.06        NASDAQ     CPP - Public     276,074         $13.04        $10.45        OUT            (2.59)
Corporation
Heritage Oaks Bancorp        3/20/2009     HEOP     $4.25         NASDAQ     CPP - Public     611,650          $5.15          $4.15       OUT            (1.00)
HF Financial Corp.           11/21/2008    HFFC     $12.00        NASDAQ     CPP - Public     302,419         $12.40        $12.75          IN            0.35
HMN Financial, Inc.          12/23/2008    HMNF     $3.99         NASDAQ     CPP - Public     833,333          $4.68          $3.10       OUT            (1.58)
Home Bancshares, Inc.        1/16/2009     HOMB     $21.76        NASDAQ     CPP - Public     288,129         $26.03        $19.97        OUT            (6.06)
HopFed Bancorp               12/12/2008    HFBC     $11.25        NASDAQ     CPP - Public     243,816         $11.32          $9.75       OUT            (1.57)
Horizon Bancorp              12/19/2008    HBNC     $13.00        NASDAQ     CPP - Public     212,104         $17.68        $11.10        OUT            (6.58)
Huntington Bancshares        11/14/2008    HBAN     $7.79         NASDAQ     CPP - Public   23,562,994         $8.90          $1.66       OUT            (7.24)
                         1
Iberiabank Corporation       12/5/2008     IBKC     $50.82        NASDAQ     CPP - Public     276,980         $48.74        $45.94        OUT            (2.80)
Independent Bank Corp.       1/9/2009      INDB     $25.29        NASDAQ     CPP - Public     481,664         $24.34        $14.75        OUT            (9.59)
Independent Bank
                             12/12/2008    IBCP     $2.01         NASDAQ     CPP - Public    3,461,538         $3.12          $2.34       OUT            (0.78)
Corporation
Indiana Community
                             12/12/2008    INCB     $12.81        NASDAQ     CPP - Public     188,707         $17.09        $13.00        OUT            (4.09)
Bancorp
Integra Bank Corporation     2/27/2009     IBNK     $1.00         NASDAQ     CPP - Public    7,418,876         $1.69          $1.89         IN            0.20
Intermountain Community
                             12/19/2008    IMCB     $5.30         OTC BB     CPP - Public     653,226          $6.20          $4.60       OUT            (1.60)
Bancorp
International Bancshares
                             12/23/2008    IBOC     $20.65        NASDAQ     CPP - Public    1,326,238        $24.43          $7.80       OUT          (16.63)
Corporation
Intervest Bancshares
                             12/23/2008    IBCA     $3.76         NASDAQ     CPP - Public     691,882          $5.42          $2.15       OUT            (3.27)
Corporation
JPMorgan Chase & Co.         10/28/2008    JPM      $37.60        NYSE       CPP - Public   88,401,697        $42.42        $26.58        OUT          (15.84)
                                                                                                                                          Continued on next page
218               APPENDIX H I WARRANTS




      STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                         Amount “In
                                                                                                                     Strike                             the Money”
                                                           Stock Price                                             Price as                     In or     or “Out of
                                                           as of                                   Number of         Stated          Stock        Out   the Money”
                                    Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
      Participant                   Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
      KeyCorp                       11/14/2008    KEY      $9.60         NYSE       CPP - Public   35,244,361        $10.64          $7.87       OUT            (2.77)
      Lakeland Bancorp, Inc.        2/6/2009      LBAI     $7.82         NASDAQ     CPP - Public     949,571          $9.32          $8.03       OUT            (1.29)
      Lakeland Financial
                                    2/27/2009     LKFN     $17.45        NASDAQ     CPP - Public     396,538         $21.20        $19.19        OUT            (2.01)
      Corporation
      LCNB Corp.                    1/9/2009      LCNB     $9.20         OTC BB     CPP - Public     217,063          $9.26          $9.50         IN            0.24
      LNB Bancorp, Inc.             12/12/2008    LNBB     $5.60         NASDAQ     CPP - Public     561,343          $6.74          $5.00       OUT            (1.74)
      LSB Corporation               12/12/2008    LSBX     $13.92        NASDAQ     CPP - Public     209,497         $10.74          $8.94       OUT            (1.80)
      M&T Bank Corporation          12/23/2008    MTB      $53.90        NYSE       CPP - Public    1,218,522        $73.86        $45.24        OUT          (28.62)
      MainSource Financial
                                    1/16/2009     MSFG     $11.70        NASDAQ     CPP - Public     571,906         $14.95          $8.04       OUT            (6.91)
      Group, Inc.
      Manhattan Bancorp             12/5/2008     MNHN     $8.00         OTC BB     CPP - Public      29,480          $8.65          $4.75       OUT            (3.90)
      Marshall & Ilsley
                                    11/14/2008    MI       $14.70        NYSE       CPP - Public   13,815,789        $18.62          $5.63       OUT          (12.99)
      Corporation
      MB Financial, Inc.            12/5/2008     MBFI     $26.00        NASDAQ     CPP - Public    1,012,048        $29.05        $13.60        OUT          (15.45)
      MetroCorp Bancshares,
                                    1/16/2009     MCBI     $6.13         NASDAQ     CPP - Public     771,429          $8.75          $2.79       OUT            (5.96)
      Inc.
      Mid Penn Bancorp, Inc.        12/19/2008    MPB      $22.00        NASDAQ     CPP - Public      73,099         $20.52        $19.00        OUT            (1.52)
      Middleburg Financial
                                    1/30/2009     MBRG     $11.00        NASDAQ     CPP - Public     208,202         $15.85        $11.47        OUT            (4.38)
      Corporation
      MidSouth Bancorp, Inc.        1/9/2009      MSL      $11.90        AMEX       CPP - Public     208,768         $14.37        $10.24        OUT            (4.13)
      Midwest Banc Holdings,
                                    12/5/2008     MBHI     $2.26         NASDAQ     CPP - Public    4,282,020         $2.97          $1.01       OUT            (1.96)
      Inc.
      Monarch Community
                                    2/6/2009      MCBF     $3.00         NASDAQ     CPP - Public     260,962          $3.90          $3.46       OUT            (0.44)
      Bancorp, Inc.
      Monarch Financial
                                    12/19/2008    MNRK     $6.86         NASDAQ     CPP - Public     264,706          $8.33          $5.10       OUT            (3.23)
      Holdings, Inc.
      Morgan Stanley                10/28/2008    MS       $15.20        NYSE       CPP - Public   65,245,759        $22.99        $22.77        OUT            (0.22)
      MutualFirst Financial, Inc.   12/23/2008    MFSF     $6.75         NASDAQ     CPP - Public     625,135          $7.77          $4.80       OUT            (2.97)
      Nara Bancorp, Inc.            11/21/2008    NARA     $7.52         NASDAQ     CPP - Public    1,042,531         $9.64          $2.94       OUT            (6.70)
      National Penn
                                    12/12/2008    NPBC     $14.23        NASDAQ     CPP - Public    1,470,588        $15.30          $8.30       OUT            (7.00)
      Bancshares, Inc.
      New Hampshire Thrift
                                    1/16/2009     NHTB     $7.00         NASDAQ     CPP - Public     184,275          $8.14          $7.25       OUT            (0.89)
      Bancshares, Inc.
      NewBridge Bancorp             12/12/2008    NBBC     $2.60         NASDAQ     CPP - Public    2,567,255         $3.06          $2.11       OUT            (0.95)
      North Central
                                    1/9/2009      FFFD     $10.50        NASDAQ     CPP - Public      99,157         $15.43        $12.25        OUT            (3.18)
      Bancshares, Inc.
      Northeast Bancorp             12/12/2008    NBN      $7.24         NASDAQ     CPP - Public      67,958          $9.33          $7.51       OUT            (1.82)
      Northern States Financial
                                    2/20/2009     NSFC     $3.14         NASDAQ     CPP - Public     584,084          $4.42          $7.45         IN            3.03
      Corporation
      Northern Trust
                                    11/14/2008    NTRS     $44.92        NASDAQ     CPP - Public    3,824,624        $61.81        $59.82        OUT            (1.99)
      Corporation
                                                                                                                                                 Continued on next page
                                                                                                                         WARRANTS I APPENDIX H                    219




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                 Amount “In
                                                                                                             Strike                             the Money”
                                                   Stock Price                                             Price as                     In or     or “Out of
                                                   as of                                   Number of         Stated          Stock        Out   the Money”
                            Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
Participant                 Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
Oak Ridge Financial
                            1/30/2009     BKOR     $6.41         NASDAQ     CPP - Public     163,830          $7.05          $3.90       OUT            (3.15)
Services, Inc.
Oak Valley Bancorp          12/5/2008     OVLY     $5.68         NASDAQ     CPP - Public     350,346          $5.78          $3.75       OUT            (2.03)
OceanFirst Financial
                            1/16/2009     OCFC     $14.83        NASDAQ     CPP - Public     380,853         $15.07        $10.22        OUT            (4.85)
Corp.
Old Line Bancshares, Inc.   12/5/2008     OLBK     $7.50         NASDAQ     CPP - Public     141,892          $7.40          $5.90       OUT            (1.50)
Old National Bancorp1       12/12/2008    ONB      $15.48        NYSE       CPP - Public     813,008         $18.45        $11.17        OUT            (7.28)
Old Second Bancorp, Inc.    1/16/2009     OSBC     $9.01         NASDAQ     CPP - Public     815,339         $13.43          $6.35       OUT            (7.08)
Pacific Capital Bancorp     11/21/2008    PCBC     $13.31        NASDAQ     CPP - Public    1,512,003        $17.92          $6.77       OUT          (11.15)
Pacific International
                            12/12/2008    PIBW     $5.01         OTC BB     CPP - Public     127,785          $7.63          $3.50       OUT            (4.13)
Bancorp
Park National Corporation   12/23/2008    PRK      $63.95        AMEX       CPP - Public     227,376         $65.97        $55.75        OUT          (10.22)
Parke Bancorp, Inc.         1/30/2009     PKBK     $6.50         NASDAQ     CPP - Public     299,779          $8.15          $7.00       OUT            (1.15)
Parkvale Financial
                            12/23/2008    PVSA     $12.48        NASDAQ     CPP - Public     376,327         $12.66        $10.98        OUT            (1.68)
Corporation
Peapack-Gladstone
                            1/9/2009      PGC      $22.89        NASDAQ     CPP - Public     143,139         $30.06        $18.03        OUT          (12.03)
Financial Corporation
Peninsula Bank Holding
                            1/30/2009     PBKH     $9.75         OTC BB     CPP - Public      81,670         $11.02        $10.00        OUT            (1.02)
Co.
Peoples Bancorp of North
                            12/23/2008    PEBK     $9.31         NASDAQ     CPP - Public     357,234         $10.52          $5.75       OUT            (4.77)
Carolina, Inc.
Pinnacle Financial
                            12/12/2008    PNFP     $26.37        NASDAQ     CPP - Public     534,910         $26.64        $23.71        OUT            (2.93)
Partners, Inc.
Plumas Bancorp              1/30/2009     PLBC     $6.97         NASDAQ     CPP - Public     237,712          $7.54          $5.99       OUT            (1.55)
Popular, Inc.               12/5/2008     BPOP     $5.85         NASDAQ     CPP - Public   20,932,836         $6.70          $2.16       OUT            (4.54)
Porter Bancorp, Inc.        11/21/2008    PBIB     $15.51        NASDAQ     CPP - Public     299,829         $17.51        $11.33        OUT            (6.18)
PremierWest Bancorp         2/13/2009     PRWT     $3.91         NASDAQ     CPP - Public    1,038,462         $5.98          $4.02       OUT            (1.96)
Princeton National
                            1/23/2009     PNBC     $19.17        NASDAQ     CPP - Public     155,025         $24.27        $14.00        OUT          (10.27)
Bancorp, Inc.
PrivateBancorp, Inc.        1/30/2009     PVTB     $14.58        NASDAQ     CPP - Public    1,290,026        $28.35        $14.46        OUT          (13.89)
Provident Bancshares
                            11/14/2008    PBKS     $8.99         NASDAQ     CPP - Public    2,374,608         $9.57          $7.05       OUT            (2.52)
Corp.
Provident Community
                            3/13/2009     PCBS     $2.49         NASDAQ     CPP - Public     178,880          $7.77          $2.65       OUT            (5.12)
Bancshares, Inc.
Pulaski Financial Corp.     1/16/2009     PULB     $7.52         NASDAQ     CPP - Public     778,421          $6.27          $5.00       OUT            (1.27)
QCR Holdings, Inc.          2/13/2009     QCRH     $10.00        NASDAQ     CPP - Public     521,888         $10.99          $8.04       OUT            (2.95)
Regions Financial Corp.     11/14/2008    RF       $9.67         NYSE       CPP - Public   48,253,677        $10.88          $4.26       OUT            (6.62)
Royal Bancshares of
                            2/20/2009     RBPA.A   $3.00         NASDAQ     CPP - Public    1,104,370         $4.13          $2.10       OUT            (2.03)
Pennsylvania
S&T Bancorp                 1/16/2009     STBA     $29.14        NASDAQ     CPP - Public     517,012         $31.53        $21.21        OUT          (10.32)
Salisbury Bancorp, Inc.     3/13/2009     SAL      $22.65        AMEX       CPP - Public      57,671         $22.93        $24.55          IN            1.62
                                                                                                                                         Continued on next page
220               APPENDIX H I WARRANTS




      STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                       Amount “In
                                                                                                                   Strike                             the Money”
                                                         Stock Price                                             Price as                     In or     or “Out of
                                                         as of                                   Number of         Stated          Stock        Out   the Money”
                                  Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
      Participant                 Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
      Sandy Spring Bancorp,
                                  12/5/2008     SASR     $19.36        NASDAQ     CPP - Public     651,547         $19.13        $11.16        OUT            (7.97)
      Inc.
      Santa Lucia Bancorp         12/19/2008    SLBA     $15.50        OTC BB     CPP - Public      37,360         $16.06        $11.50        OUT            (4.56)
      SCBT Financial
                                  1/16/2009     SCBT     $29.49        NASDAQ     CPP - Public     303,083         $32.06        $20.90        OUT          (11.16)
      Corporation
      Seacoast Banking
                                  12/19/2008    SBCF     $7.41         NASDAQ     CPP - Public    1,179,245         $6.36          $3.03       OUT            (3.33)
      Corporation of Florida
      Security Federal
                                  12/19/2008    SFDL     $16.00        OTC BB     CPP - Public     137,966         $19.57        $15.50        OUT            (4.07)
      Corporation
      Severn Bancorp, Inc.        11/21/2008    SVBI     $4.95         NASDAQ     CPP - Public     556,976          $6.30          $3.15       OUT            (3.15)
      Shore Bancshares, Inc.      1/9/2009      SHBI     $20.75        NASDAQ     CPP - Public     172,970         $21.68        $16.75        OUT            (4.93)
                       1
      Signature Bank              12/12/2008    SBNY     $25.60        NASDAQ     CPP - Public     595,829         $30.21        $28.23        OUT            (1.98)
      Somerset Hills Bancorp      1/16/2009     SOMH     $6.62         NASDAQ     CPP - Public     163,065          $6.82          $6.16       OUT            (0.66)
      South Financial Group,
                                  12/5/2008     TSFG     $4.02         NASDAQ     CPP - Public   10,106,796         $5.15          $1.10       OUT            (4.05)
      Inc.
      Southern Community
                                  12/5/2008     SCMF     $3.50         NASDAQ     CPP - Public    1,623,418         $3.95          $3.56       OUT            (0.39)
      Financial Corp.
      Southern First
                                  2/27/2009     SFST     $5.82         NASDAQ     CPP - Public     330,554          $7.85          $5.61       OUT            (2.24)
      Bancshares, Inc.
      Southern Missouri
                                  12/5/2008     SMBC     $11.00        NASDAQ     CPP - Public     114,326         $12.53        $10.80        OUT            (1.73)
      Bancorp, Inc.
      Southwest Bancorp, Inc.     12/5/2008     OKSB     $12.57        NASDAQ     CPP - Public     703,753         $14.92          $9.38       OUT            (5.54)
      State Bancorp, Inc.         12/5/2008     STBC     $10.00        NASDAQ     CPP - Public     465,569         $11.87          $7.70       OUT            (4.17)
      State Street Corporation    10/28/2008    STT      $41.81        NYSE       CPP - Public    5,576,208        $53.80        $30.78        OUT          (23.02)
      StellarOne Corporation      12/19/2008    STEL     $17.04        NASDAQ     CPP - Public     302,623         $14.87        $11.91        OUT            (2.96)
      Sterling Bancorp            12/23/2008    STL      $12.27        NYSE       CPP - Public     516,817         $12.19          $9.90       OUT            (2.29)
      Sterling Bancshares, Inc.   12/12/2008    SBIB     $5.68         NASDAQ     CPP - Public    2,615,557         $7.18          $6.54       OUT            (0.64)
      Sterling Financial
                                  12/5/2008     STSA     $5.75         NASDAQ     CPP - Public    6,437,677         $7.06          $2.07       OUT            (4.99)
      Corporation
      Stewardship Financial
                                  1/30/2009     SSFN     $11.00        NASDAQ     CPP - Public     127,119         $11.80          $8.14       OUT            (3.66)
      Corporation
      Summit State Bank           12/19/2008    SSBI     $5.00         NASDAQ     CPP - Public     239,212          $5.33          $4.60       OUT            (0.73)
      Sun Bancorp, Inc.           1/9/2009      SNBC     $7.19         NASDAQ     CPP - Public    1,543,376         $8.68          $5.19       OUT            (3.49)
      SunTrust Banks, Inc.        11/14/2008    STI      $33.52        NYSE       CPP - Public   11,891,280        $44.15        $11.74        OUT          (32.41)
      SunTrust Banks, Inc.        12/31/2008    STI      $29.54        NYSE       CPP - Public    6,008,902        $33.70        $11.74        OUT          (21.96)
      Superior Bancorp Inc.       12/5/2008     SUPR     $4.30         NASDAQ     CPP - Public    1,923,792         $5.38          $3.98       OUT            (1.40)
      Susquehanna
                                  12/12/2008    SUSQ     $14.30        NASDAQ     CPP - Public    3,028,264        $14.86          $9.33       OUT            (5.53)
      Bancshares, Inc.
      SVB Financial Group         12/12/2008    SIVB     $32.82        NASDAQ     CPP - Public     708,116         $49.78        $20.01        OUT          (29.77)
      Synovus Financial Corp.     12/19/2008    SNV      $7.95         NYSE       CPP - Public   15,510,737         $9.36          $3.25       OUT            (6.11)
      Taylor Capital Group        11/21/2008    TAYC     $8.92         NASDAQ     CPP - Public    1,462,647        $10.75          $4.45       OUT            (6.30)
                                                                                                                                               Continued on next page
                                                                                                                          WARRANTS I APPENDIX H                    221




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                  Amount “In
                                                                                                              Strike                             the Money”
                                                    Stock Price                                             Price as                     In or     or “Out of
                                                    as of                                   Number of         Stated          Stock        Out   the Money”
                             Transaction   Ticker   Transaction                              Warrants          in the    Price as of    of the          as of
Participant                  Date          Symbol   Date          Exchange   Program         Received    Agreements     3/31/2009      Money?    3/31/2009
TCF Financial Corporation    11/14/2008    TCB      $14.48        NYSE       CPP - Public    3,199,988        $16.93        $11.76        OUT            (5.17)
Tennessee Commerce
                             12/19/2008    TNCC     $6.89         NASDAQ     CPP - Public     461,538          $9.75          $7.68       OUT            (2.07)
Bancorp, Inc.
Texas Capital
                             1/16/2009     TCBI     $11.11        NASDAQ     CPP - Public     758,086         $14.84        $11.26        OUT            (3.58)
Bancshares, Inc.
The Bancorp, Inc.            12/12/2008    TBBK     $4.06         NASDAQ     CPP - Public    1,960,405         $3.46          $4.24         IN            0.78
The Bank of Kentucky
                             2/13/2009     BKYF     $18.99        NASDAQ     CPP - Public     274,784         $18.56        $19.00          IN            0.44
Financial Corporation
The Connecticut Bank
                             12/19/2008    CTBC     $4.60         NASDAQ     CPP - Public     175,742          $4.65          $3.25       OUT            (1.40)
and Trust Company
The Elmira Savings Bank,
                             12/19/2008    ESBK     $9.80         NASDAQ     CPP - Public     116,538         $11.70        $10.75        OUT            (0.95)
FSB
The First Bancorp, Inc.      1/9/2009      FNLC     $18.09        NASDAQ     CPP - Public     225,904         $16.60        $15.86        OUT            (0.74)
The First Bancshares, Inc.   2/6/2009      FBMS     $7.60         NASDAQ     CPP - Public      54,705         $13.71          $9.82       OUT            (3.89)
The Goldman Sachs
                             10/28/2008    GS       $93.57        NYSE       CPP - Public   12,205,045      $122.90        $106.02        OUT          (16.88)
Group, Inc.
The PNC Financial
                             12/31/2008    PNC      $49.00        NYSE       CPP - Public   16,885,192        $67.33        $29.29        OUT          (38.04)
Services Group Inc.
TIB Financial Corp.          12/5/2008     TIBB     $4.88         NASDAQ     CPP - Public    1,063,218         $5.22          $2.88       OUT            (2.34)
Tidelands Bancshares, Inc    12/19/2008    TDBK     $2.88         NASDAQ     CPP - Public     571,821          $3.79          $3.05       OUT            (0.74)
Timberland Bancorp, Inc.     12/23/2008    TSBK     $7.45         NASDAQ     CPP - Public     370,899          $6.73          $5.16       OUT            (1.57)
TowneBank                    12/12/2008    TOWN     $21.69        NASDAQ     CPP - Public     538,184         $21.31        $16.33        OUT            (4.98)
Trustmark Corporation        11/21/2008    TRMK     $17.90        NASDAQ     CPP - Public    1,647,931        $19.57        $18.38        OUT            (1.19)
U.S. Bancorp                 11/14/2008    USB      $26.30        NYSE       CPP - Public   32,679,102        $30.29        $14.61        OUT          (15.68)
UCBH Holdings, Inc.          11/14/2008    UCBH     $3.99         NASDAQ     CPP - Public    7,847,732         $5.71          $1.51       OUT            (4.20)
Umpqua Holdings Corp.        11/14/2008    UMPQ     $14.35        NASDAQ     CPP - Public    2,221,795        $14.46          $9.06       OUT            (5.40)
Union Bankshares
                             12/19/2008    UBSH     $23.34        NASDAQ     CPP - Public     422,636         $20.94        $13.85        OUT            (7.09)
Corporation
United Bancorp, Inc.         1/16/2009     UBCP     $9.08         NASDAQ     CPP - Public     311,492          $9.92          $9.45       OUT            (0.47)
United Bancorporation of
                             12/23/2008    UBAB     $15.50        OTC BB     CPP - Public     104,040         $14.85        $15.50          IN            0.65
Alabama, Inc.
United Community Banks,
                             12/5/2008     UCBI     $12.33        NASDAQ     CPP - Public    2,132,701        $12.66          $4.16       OUT            (8.50)
Inc.
Unity Bancorp, Inc.          12/5/2008     UNTY     $4.50         NASDAQ     CPP - Public     764,778          $4.05          $3.19       OUT            (0.86)
Valley Financial
                             12/12/2008    VYFC     $6.20         NASDAQ     CPP - Public     344,742          $6.97          $4.76       OUT            (2.21)
Corporation
Valley National Bancorp      11/14/2008    VLY      $17.55        NYSE       CPP - Public    2,297,090        $19.59        $12.37        OUT            (7.22)
Virginia Commerce
                             12/12/2008    VCBI     $5.45         NASDAQ     CPP - Public    2,696,203         $3.95          $3.79       OUT            (0.16)
Bancorp
VIST Financial Corp.         12/19/2008    VIST     $9.31         NASDAQ     CPP - Public     364,078         $10.30          $7.00       OUT            (3.30)
                                                                                                                                          Continued on next page
222            APPENDIX H I WARRANTS




      STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                                                                    Amount “In
                                                                                                                                                       Strike                                      the Money”
                                                                        Stock Price                                                                  Price as                              In or     or “Out of
                                                                        as of                                                    Number of             Stated              Stock             Out   the Money”
                                       Transaction         Ticker       Transaction                                               Warrants              in the        Price as of         of the          as of
      Participant                      Date                Symbol       Date               Exchange         Program               Received        Agreements         3/31/2009           Money?    3/31/2009
      Wainwright Bank & Trust
                                       12/19/2008          WAIN          $7.33             NASDAQ           CPP - Public            390,071               $8.46              $6.48          OUT           (1.98)
      Company
      Washington Banking
      Company/ Whidbey Island          1/16/2009           WBCO          $7.84             NASDAQ           CPP - Public            492,164               $8.04              $6.80          OUT           (1.24)
      Bank
      Washington Federal, Inc.         11/14/2008          WFSL          $15.22            NASDAQ           CPP - Public          1,707,456              $17.57            $13.29           OUT           (4.28)
      Webster Financial
                                       11/21/2008          WBS           $11.70            NYSE             CPP - Public          3,282,276              $18.28              $4.25          OUT         (14.03)
      Corporation
      Wells Fargo & Company            10/28/2008          WFC           $34.46            NYSE             CPP - Public      110,261,688                $34.01            $14.24           OUT         (19.77)
      Wesbanco Bank, Inc.              12/5/2008           WSBC          $25.07            NASDAQ           CPP - Public            439,282              $25.61            $22.83           OUT           (2.78)
      West Bancorporation, Inc.        12/31/2008          WTBA          $12.25            NASDAQ           CPP - Public            474,100              $11.39              $7.45          OUT           (3.94)
      Westamerica
                                       2/13/2009           WABC          $45.52            NASDAQ           CPP - Public            246,640              $50.92            $45.56           OUT           (5.36)
      Bancorporation
      Western Alliance
                                       11/21/2008          WAL           $10.17            NYSE             CPP - Public          1,574,213              $13.34              $4.56          OUT           (8.78)
      Bancorporation
      Whitney Holding
                                       12/19/2008          WTNY          $15.11            NASDAQ           CPP - Public          2,631,579              $17.10            $11.45           OUT           (5.65)
      Corporation
      Wilmington Trust
                                       12/12/2008          WL            $21.69            NYSE             CPP - Public          1,856,714              $26.66              $9.69          OUT         (16.97)
      Corporation
      Wilshire Bancorp, Inc.           12/12/2008          WIBC          $8.36             NASDAQ           CPP - Public            949,460               $9.82              $5.16          OUT           (4.66)
      Wintrust Financial
                                       12/19/2008          WTFC          $20.06            NASDAQ           CPP - Public          1,643,295              $22.82            $12.30           OUT         (10.52)
      Corporation
      WSFS Financial
                                       1/23/2009           WSFS          $28.54            NASDAQ           CPP - Public            175,105              $45.08            $22.36           OUT         (22.72)
      Corporation
      Yadkin Valley Financial
                                       1/16/2009           YAVY          $11.77            NASDAQ           CPP - Public            385,990              $13.99              $7.45          OUT           (6.54)
      Corporation
      Zions Bancorporation             11/14/2008          ZION          $32.69            NASDAQ           CPP - Public          5,789,909              $36.27              $9.83          OUT         (26.44)

      Note:
      1 Participant repurchased shares on 3/31/2009. As of 3/31/2009, Treasury was still waiting to see if the four participants would invoke their rights to repurchase the warrants.

      Sources: Participants and Transaction Date: Treasury, Transactions Report, 3/30/2009, Stock Price: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 3/12/2009 at 11:00 am
      EST and 4/2/2009 at 2:00 pm EST (except 3/31/2009 market price data for United Bancorporation of Alabama, Inc., HCSB Financial Corporation, and DNB Financial Corporation, and 12/12/2008 and
      3/31/2009 market price data for Pacific International Bancorp., which were collected from Yahoo Finance website, http://finance.yahoo.com, accessed 4/2/2009, 4/8/2009 and 4/17/2009); Number of
      Warrants Received and Strike Price: Treasury, response to SIGTARP data call, 4/1/2009; Repurchases: Treasury, response to SIGTARP data call, 4/8/2009.
                                                                    CORRESPONDENCE WITH TREASURY REGARDING TALF I APPENDIX I   223




CORRESPONDENCE WITH TREASURY REGARDING TALF
This appendix provides a copy of the March 4, 2009, letter from SIGTARP to Neel Kashkari, Interim Assistant Secretary for
Financial Stability, regarding information about the Term Asset-Backed Securities Loan Facility (“TALF”), as well as the
March 9, 2009, response letter. It also contains a Treasury memo on the same subject, dated April 14, 2009.
224   APPENDIX I I CORRESPONDENCE WITH TREASURY REGARDING TALF
CORRESPONDENCE WITH TREASURY REGARDING TALF I APPENDIX I   225
226   APPENDIX I I CORRESPONDENCE WITH TREASURY REGARDING TALF
CORRESPONDENCE WITH TREASURY REGARDING TALF I APPENDIX I   227
228              APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS




      RESPONSES TO SIGTARP RECOMMENDATIONS
      This appendix provides copies of letters to SIGTARP in response to SIGTARP recommendations:



      RESPONSES TO SIGTARP RECOMMENDATIONS
      Date             Respondent                         Regarding
      4/7/2009         Treasury                           Recommendations in SIGTARPS’s 2/6/2009 Initial Report to Congress
      4/10/2009        Federal Reserve Bank of New York   Recommendations in SIGTARPS’s Draft 4/21/2009 Quarterly Report to Congress
      4/14/2009        Treasury                           Recommendations in SIGTARPS’s Draft 4/21/2009 Quarterly Report to Congress
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   229
230   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   231
232   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   233
234   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   235
236   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   237
238   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   239
240   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   241
242   APPENDIX J I RESPONSES TO SIGTARP RECOMMENDATIONS
RESPONSES TO SIGTARP RECOMMENDATIONS I APPENDIX J   243
244       APPENDIX K I ORGANIZATIONAL CHART




      ORGANIZATIONAL CHART
                                                                                 USE OF FUNDS REQUEST LETTER I APPENDIX L   245




USE OF FUNDS REQUEST LETTER
This appendix contains a copy of the February 5, 2009, letter from SIGTARP sent to TARP recipients requesting information
on their usage of TARP funds.
246   APPENDIX L I USE OF FUNDS REQUEST LETTER




                           OFFICE OF THE SPECIAL INSPECTOR GENERAL
                               TROUBLED ASSET RELIEF PROGRAM
                                        1500 Pennsylvania Ave., N.W., Suite 1064
                                               Washington, D.C. 20220



                                                   February 5, 2009



      (Addressee)

      The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
      Asset Relief Program (TARP) also created the Office of the Special Inspector General Troubled
      Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and conducting
      audits and investigations of any program established by the Secretary of the Treasury under the
      act. As part of an audit into TARP recipients’ use of funds and their compliance with EESA’s
      executive compensation requirements,

      I am requesting that you provide my office, within 30 days of this request, the following
      information:

                        (1) A narrative response specifically outlining (a) your anticipated use of TARP
                            funds; (b) whether the TARP funds were segregated from other institutional
                            funds; (c) your actual use of TARP funds to date; and (d) your expected use of
                            unspent TARP funds. In your response, please take into consideration your
                            anticipated use of TARP funds at the time that you applied for such funds, or
                            any actions that you have taken that you would not have been able to take
                            absent the infusion of TARP funds.

                        (2) Your specific plans, and the status of implementation of those plans, for
                            addressing executive compensation requirements associated with the funding.
                            Information provided regarding executive compensation should also include
                            any assessments made of loan risks and their relationship to executive
                            compensation; how limitations on executive compensation will be
                            implemented in line with Department of Treasury guidelines; and whether any
                            such limitations may be offset by other changes to other, longer-term or
                            deferred forms of executive compensation.
                                                                                     USE OF FUNDS REQUEST LETTER I APPENDIX L   247




February 5, 2009
Page 2


In connection with this request:

                  (1) We anticipate that responses might well be quantitative as well as qualitative
                      in nature regarding the impact of having the funds, and we encourage you to
                      make reference to such sources as statements to the media, shareholders, or
                      others concerning your intended or actual use of TARP funds, as well as any
                      internal email, budgets, or memoranda describing your anticipated use of
                      funds. We ask that you segregate and preserve all documents referencing
                      your use or anticipated use of TARP funds such as any internal email,
                      budgets, or memoranda regarding your anticipated or actual use of TARP
                      funds.

                  (2) Your response should include copies of pertinent supporting documentation
                      (financial or otherwise) to support your response.

                  (3) Further, I request that, your response be signed by a duly authorized senior
                      executive officer of your company, including a statement certifying the
                      accuracy of all statements, representations, and supporting information
                      provided, subject to the requirements and penalties set forth in Title 18,
                      United States Code, Section 1001.

                  (4) Responses should be provided electronically within 30 days to SIGTARP at
                      SIGTARP.response@do.treas.gov with an original signed certification and
                      any other supporting documentation mailed to: Special Inspector General –
                      TARP; 1500 Pennsylvania Avenue, NW; Suite 1064; Washington, D.C.
                      20220.

We think this initiative is vital to providing transparency of the TARP program, and to the ability
of SIGTARP and others to assess the effectiveness of TARP programs over time. If you have
any questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my
Deputy Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
